<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                         TUESDAY, MAY 17, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:28 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Bond, and Inouye.

                       NONDEPARTMENTAL WITNESSES

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good afternoon. This is the afternoon for 
public witnesses for consideration for the fiscal year 2006 
defense budget. We have 25 witnesses who have indicated they 
want to testify or submit statements for the record. To keep us 
on schedule, we are going to have to ask that you limit your 
testimony to 4 minutes each. I have to warn you there is going 
to be votes throughout the afternoon and Senator Inouye and I 
are going to be leapfrogging back and forth, and we have 
scheduled this this afternoon because we believe that there is 
going to be all sorts of problems on the floor tomorrow.
    We do appreciate your interest and want you to know, as we 
have every year, we are going to review carefully the items you 
present to us. Your prepared statements will be included in the 
record in full, and when my good friend comes, Senator Inouye, 
our co-chairman, we will, as I indicated, share listening to 
your presentations.
    Our first witness is Susan Lukas, the Legislative Director 
of the Reserve Officers Association of the United States. Ms. 
Lukas.

STATEMENT OF SUSAN E. LUKAS, LEGISLATIVE DIRECTOR, 
            RESERVE OFFICERS ASSOCIATION OF THE UNITED 
            STATES
    Ms. Lukas. Mr. Chairman, on behalf of over 75,000 members 
of the Reserve Officers Association (ROA), I would like to 
thank you for this opportunity to speak today.
    The Reserve components have always relied on Congress to 
provide appropriations for their equipment requirements. While 
active duty considers Guard and Reserve needs, as you know, 
they do not always rate high enough to be funded in the 
President's budget. In particular, your subcommittee's support 
has been invaluable.
    Our testimony this year mainly focuses on equipment needed 
for force protection and mission support. While one would not 
necessarily think of Army trucks as offering personal 
protection, this war has shown us how vulnerable our people are 
when driving vehicles.
    At a recent ROA convention, an Army non-commissioned 
officer (NCO) said he worked hard to train his soldiers how to 
drive in convoy, but nothing could prepare them for the 
conditions they had to operate under. He said one of the first 
things he learned was to drive as fast as if your life depended 
on it, because it did.
    You can well imagine, between those conditions, the 
environment and demands, the fleet is aging quickly. For 
example, there are about 1,800 long haul tractor-trucks being 
used in Iraq. Forty percent of the fleet is at a 20-year life 
expectancy level. The new trucks will reduce fuel and can 
accept 2,900 pounds of up-armoring. This is but one example of 
the trucks that need replacement in the Army.
    The Naval Reserve needs to meet mission requirements by 
replacing their C-9 fleet as it is not compliant with either 
future global navigation requirements or European flight 
restrictions.
    Congress has supported appropriations for the littoral 
surveillance system and continuing support would allow the 
Naval Reserve to meet their homeland security mission and 
deploy this equipment with the fleet.
    The Air Force Reserve equipment requirements focus on 
countermeasure protections such as the large aircraft infrared 
countermeasures system (LAIRCM), LITENING Pods, color radar for 
C-130s, and C-5 Airlift Defense Systems. I will not go into 
detail on the equipment as it is covered in our written 
testimony.
    Several years ago ROA suspected stop-loss and mobilization 
would reduce recruiting and retention. Unfortunately, this has 
happened. The Reserve chiefs recently testified before your 
subcommittee that increased bonus authority has made a 
difference. While bonuses are an effective tool, ROA asks for 
consideration to fully fund advertising and marketing, tuition 
assistance, family support, special training, and school tours.
    In closing, the bond between the United States (U.S.) 
military and our civilian communities is strengthened by the 
mobilization of neighbors and fellow workers, our reservists 
and National Guardsmen. The move toward using the Guard and 
Reserve to meet operational requirements is a natural evolution 
of this very capable force. However, force transformation needs 
to retain surge capability in order to meet emerging threats or 
demands. The Guard and Reserve can be configured to meet both 
operational and surge requirements.
    I look forward to answering any questions you may have and 
again thank you for allowing me to speak to the subcommittee.
    [The statement follows:]

                  Prepared Statement of Susan E. Lukas

                              INTRODUCTION

    ROA's legislative goals for this year have focused on mobilization 
and recruiting and retention. These goals come from our members as they 
identify problems or suggest improvements to the situations they 
encounter. Since we are not in the Department of Defense's chain of 
command we provide a source for candid discourse without fear of 
retaliation. ROA will continue to support the troops in the field in 
any way we can.
    A key factor in supporting the Reserve Components is funding their 
training needs. Cost avoidance cuts for the past 2 years have forced 
the services to take reductions in mobilization training, 
demobilization training, recruiting training, annual training, special 
training, and bonus authorities' accounts. ROA urges Congress to fully 
fund these accounts and reverse the cost avoidance reductions.

                  NATIONAL GUARD AND RESERVE EQUIPMENT

Army Reserve
    Equipping both existing units and new units will be a considerable 
task. Units that deployed and took their equipment to combat have left 
the equipment in the theater. It may have even been damaged or 
destroyed. Many units were already short critical equipment. As the 
Army Reserve creates its ``force packages'' it is understood that the 
earlier deploying force package units will be equipped first. Other 
units will have ``mission essential equipment for training'' and as 
they move closer to their respective rotation dates, they will receive 
more of their needed equipment. There will also likely be increased use 
of pre-positioned equipment much the same as was done during the Cold 
War and to an extent is being done today. The Army Reserve has 
identified fiscal year 2006 as the ``Year of Equipping.'' In doing so, 
they are giving particular emphasis to critical equipment shortfalls 
that will impact the transformation to rotational force packages, 
training, and mission accomplishment. Many of the items on the 
``Unresourced Equipment and Modernization Requirements'' have not 
changed. Priorities may have moved up or down and quantities may have 
increased.

            Light Medium Tactical Vehicle (LMTV)
    This critical item was No. 1 in fiscal year 2005 and will remain 
the No. 1 equipment priority in fiscal year 2006. As indicated earlier, 
the Army Reserve's transportation role is crucial to mission 
accomplishment. The FMTV replaces many Vietnam-era trucks whose 
effective life cycle ended some time ago.
    Required.--4,512; Short.--2,683; Fiscal Year 2006 Buy.--600; 
Cost.--$91.8 million.

            Medium Tactical Vehicle (MTV)
    This item was No. 2 last year and remains the No. 2 equipment 
priority. The vehicles that the MTV's replace are past their useful 
life and the cost to keep them running can challenge the cost of 
procuring the newer and more efficient MTV. The requirement has not 
changed and the number that is currently on hand is staggeringly low.
    Required.--8,784; Short.--6,712; Fiscal Year 2006 Buy.--800; 
Cost.--$146 million.

            Multi-Band Super High Frequency Terminal
    The Army Reserve provides the majority of the Theater Signal 
management in the Army. The terminal provides inter-theater and intra-
theater range extension support. The fiscal year 2005 buy would fill 
the requirement of one integrated Theater Signal Brigade.
    Required.--50; Short.--46; Fiscal Year 2006 Buy.--10; Cost.--$30 
million.

            Truck, Cargo PLS 10X10 M1075 and PLS Trailer
    Again, the combat service support role of the Army Reserve 
highlights the need for the most current model. This requirement also 
includes the Tactical Fire Fighting Truck.
    Truck/Trailer Required.--929/1,484; Short.--275/769; Fiscal Year 
2006 Buy.--88/56; Cost.--$25.4 million/$3.0 million.

            Improved High Frequency Radio (IRFR)
    Provides voice transmission for battle command and is the primary 
means of communications for maneuver battalions.
    Required.--1,750; Short.--937; Fiscal Year 2006 Buy.--937; Cost.--
$39.8 million.

            High Mobility Multi-Purpose Wheeled Vehicle (HMMWV)
    This is the standard version of the much used workhorse of the 
Army. All units need them. Many in the Army Reserve are older models 
and Active Army ``hand-me-downs'' that might not meet deployment 
standards when a unit is mobilized.
    Required.--13,919; Short.--1,543; Fiscal Year 2006 Buy.--321; 
Cost.--$24.0 million.

            Up Armored High Mobility Multi-Purpose Wheeled Vehicle 
                    (HMMWV)
    Much has been reported about the need for this critical vehicle in 
the combat zones. Many units are attempting to ``up-armor'' their 
vehicles in the theater with whatever might be available. This is a 
survival item and needs to be resourced.
    Required.--738; Short.--705; Fiscal Year 2006 Buy.--308; Cost.--
$55.1 million.

            Truck, Tractor Line Haul (M915A3)
    These vehicles haul bulk fuel and supplies from port to combat 
areas for disbursement to brigades. About 1,800 trucks are currently 
being used in Iraq. Forty percent of the fleet is at their life 
expectancy level of 20 years and the current replacement plan would 
take many out to over 30 years old. The Line Haul Tractor would 
decrease fuel demands and maintenance costs. Fuel savings alone could 
buy 140 trucks. Most importantly the suspension system is configured to 
accept the 2,900 pounds of up-armoring required for each truck.
    Required.--2,445; Short.--1,389; Fiscal Year 2006 Buy.--92; Cost.--
$87 million.

            HEMTT Load Handling System
    This requirement would fill the much needed requirement for the 
Improved Cargo Handling Operations and Medical Supply Companies. At the 
present time, there are none on hand in these units.
    Required.--44; Short.--44; Fiscal Year 2006 Buy.--44; Cost.--$10 
million.

            Tactical Fire Fighting Truck
    This improved item of equipment is critical to both the Army 
Reserve's Engineer Fire Fighting units as well as Ammunition Support 
Teams.
    Required.--72; Short.--43; Fiscal Year 2006 Buy.--10; Cost.--$6.0 
million.
    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state of state for mobilization. 
Frequently the funds were used to purchase commercial off the-shelf 
items that units were unable to obtain through traditional sources. 
However, in 1997 an agreement between the administration and Congress 
eliminated the account with the objective of the active component 
providing the needed funds through their individual appropriations.
    The Reserve and Guard are faced with mounting challenges on how to 
replace worn out equipment, equipment lost due to combat operations, 
legacy equipment that is becoming irrelevant or obsolete, and in 
general replacing that which is gone or aging through normal wear and 
tear. Today, the ability to use NGREA funds for cost effective 
acquisition is virtually non-existent as the amount appropriated is a 
fraction of what the Army Reserve requires to meet immediate needs. An 
analysis has shown that with the implementation of the post-1997 
policy, there has been an overall decrease in procurement for the 
reserve components. In fiscal year 2004, procurement for the Reserve 
Components as a percentage of the DOD procurement budget is at its 
second lowest in recorded history at 3.19 percent. This comes even 
after a congressional add of $400 million for NGREA. Meanwhile, 
procurement for the Active Component continues to realize consistent 
real growth from fiscal year 1998 through fiscal year 2009 of 108.6 
percent. In the past, the use of ``cascading'' equipment from the 
Active Component to the Reserve Component has been a reliable source of 
serviceable equipment. However, with the changes in roles and missions 
that have placed a preponderance of combat support and combat service 
support in the reserve components, there has not been much left to 
cascade. Also, funding levels, rising costs, lack of replacement parts 
for older equipment, etc. has made it difficult for the Reserve 
Components to maintain their aging equipment, not to mention 
modernizing and recapitalizing to support a viable legacy force. The 
Reserve Components would benefit greatly from a National Military 
Resource Strategy that includes a National Guard and Reserve Equipment 
Appropriation.

Naval Reserve
            C-40
    The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
Aircraft. This aircraft was designated as the C-40A and will replace 
the aging C-9 fleet. Boeing offered the 737-700 new technology aircraft 
in response to the Navy's request for proposal.
    The C-40A, a derivative of the 737-700C is a Federal Aviation 
Administration (FAA) certified, high performance, fixed wing aircraft 
that will accommodate 121 passengers, or 8 pallets of cargo, or a 
combination configuration consisting of 3 pallets and 70 passengers. 
The C-40A is able to carry 121 passengers or 40,000 pounds of cargo, 
compared with 90 passengers or 30,000 pounds for the C-9. In addition, 
the maximum range for the Clipper is approximately 1,500 miles more 
than the C-9.
    Upgrading the aging C-9 Skytrain II airframe with new engines and 
avionics was considered, but that would leave new equipment in a 30-
year-old+ airframe. The Navy's aging C-9 fleet is not compliant with 
either future global navigation requirements or noise abatement 
standards that restrict flights into European airfields. Twenty-two 
aircraft remain to be replaced.
    A recent study by the Center for Naval Analyses recommends three 
additional C-40A be procured to meet global operational requirements 
and replace the C-9.

            Littoral Surveillance System
    Two Littoral Surveillance System (LSS) have been authorized by 
congress by fiscal year 2003. This provides timely assured receipt of 
all-weather, day/night maritime and littoral intelligence, surveillance 
and reconnaissance data. A third system would be used to support the 
Navy and would be an ideal mission to support Naval and Coast Guard 
Maritime Defense operations, when not deployed. The LSS system has been 
incorporated into the Joint Fires Network (JFN) and the cost for this 
new system is $2.0 million per set.
    JFN provides near real time intelligence correlation, sensor 
control and planning, target generation, precise target coordinates, 
moving target tracks and battle damage assessment capabilities to 
support more timely engagement of time critical targets. This 
capability allows a ship with the full JFN suite to share a greatly 
improved battlespace picture very quickly with other ships in the area 
of operations.
    The system, along with the Army's Tactical Exploitation System-
Forward and the Marines Tactical Exploitation Group, share a common 
software baseline, ensuring joint interoperability.
    At least 141 Reservists have been trained to run the two systems, 
which is viewed as a Naval Reserve mission.

Air Force Reserve
            C-5s
    C-5s are unique national assets that are unrivaled in range and 
payload. Air Force and industry studies confirm the viability of the C-
5 fleet (As and Bs) to serve until approximately 2040. These 
assessments resulted in the Air Force initiating a two-phased 
modernization program designed to improve C-5 reliability, 
maintainability, and availability. Modernization of C-5As assigned to 
the Air Force Reserve should be advanced concurrently with Air Force 
active duty units to include both the Avionics Modernization Program 
(AMP) and the Reliability Enhancement and Re-engining Program (RERP). 
C-5 modernization is the most cost effective solution for generating 
strategic airlift.
    Requirement.--ROA urges Congress to authorize and appropriate funds 
to modernize C-5As with AMP and RERP concurrent with active duty C-5Bs.

            C-17
    The C-17 Globemaster III is the newest, most flexible cargo 
aircraft to enter the airlift force. The C-17 is capable of rapid 
strategic delivery of troops and all types of cargo to main operating 
bases or directly to forward bases in the deployment area. The aircraft 
is also capable of performing tactical airlift and airdrop missions 
when required. The C-17 is the Nation's lowest risk program to increase 
capability.
    Requirement.--Commitment needed beyond 180 in January 2006 due to 
long lead items. Additionally, consideration for procurement beyond 180 
aircraft will support C-17s in the AFR and will increase the Nation's 
surge capability.

            C-40C
    Air Mobility Command's programmed force structure, based on C-9 
retirement schedule, does not include more then three C-40s for the AFR 
even though a hearing before Congress by the Air Force stated the 
demand for airlift was more then the availability of aircraft. For 
instance, the appropriate number of Operational Support Aircraft (OSA) 
does not exist to sufficiently meet increasing Congressional 
Delegation, Combatant Commander, or team travel requests. Operations 
and Maintenance are unfunded in fiscal year 2006 and fiscal year 2007 
for C-9s and C-40Cs.
    Requirement.--Increase procurement of C-40 aircraft by at least six 
additional aircraft to ensure an adequate special mission airlift force 
for the AFR by at least two C-40s per year for 3 years.

            C-130J
    AFRC C-130E aircraft are reaching the end of their economic service 
life, are becoming difficult to support, and must soon be replaced. The 
Air Mobility Command has selected the C-130J to replace these 40+ year 
old aircraft for both active, Reserve, and Guard C-130E units. The C-
130J is the latest version of the venerable C-130 Hercules and utilizes 
advanced composite materials, integrated digital avionics and a state-
of-the-propulsion system to provide significant performance 
improvements, new mission capabilities, and reduced life cycle costs. 
The recently executed C/KC-130J Multiyear Contract provides these 
aircraft at significant cost savings to the government while 
accelerating deliveries to units currently in conversion such as the 
53rd Wing at Keesler AFB, MS.
    Requirement.--ROA urges Congress to authorize and appropriate funds 
for the C/KC-130J Multiyear Procurement as requested in the President's 
Budget Request for fiscal year 2006.

            Large Aircraft Infrared Countermeasures System (LAIRCM)
    The AN/AAQ-24 V (13) LAIRCM is an infrared countermeasure system 
designed to protect both fixed and rotary wing aircraft against man-
portable (shoulder-launched) infrared-guided surface-to-air missiles.
    Requirement.--HC-130/C-130H3, $225.1 million.

            LITENING AT Advanced Targeting Pod
    Precision Attack Targeting System program was developed to fill the 
need for precision strike capability in the Air Reserve Component 
(ARC). The 25 pods will be used in AFRC A/OA-10 and B-52 aircraft.
    Requirement.--A/OA-10 and B-52, 25 pods, $53.0 million.

            APN-241 Low Power Color Radar for C-130s
    The AN/APN-241 combat aerial delivery radar provides enhanced 
safety and operational performance for C-130 aircrews. It offers the 
tanker/transport community some of the same advanced technologies 
originally developed for fighter aircraft. These technologies include 
high-resolution ground-mapping modes that enable very precise 
navigational fixes and aerial cargo drops.
    Requirement.--C-130H2, $37 million.

            C-5A Airlift Defensive Systems
    The Air Force Reserve Command has a total of 32 C-5A aircraft in 
its inventory. Currently, that aircraft has no viable onboard defensive 
system against surface to air (SAM) missiles. Funds to pay for the Part 
A and B installation of AN-AAR-47 and ALE-47 defensive systems stripped 
from C-141 aircraft as these systems become available to the SPO.
    Requirement.--C-5A 32 A/C $30.0 million.

            Situational Awareness Data Link for A-10s and HH-60s
    The Situation Awareness Data Link (SADL) integrates U.S. Air Force 
close air support aircraft with the digitized battlefield via the U.S. 
Army's Enhanced Position Location Reporting System (EPLRS). More than 
just a radio or a data modem, SADL provides fighter-to-fighter, air-to-
ground and ground-to-air data communications that are robust, secure, 
jam-resistant and contention-free. With its inherent position and 
status reporting for situation awareness, SADL provides an effective 
solution to the long-standing air-to-ground combat identification 
problem for preventing unintentional fratricide (http://
www.raytheon.com/products/sadl_eplrs/).
    Requirement.--A/OA-10 and HH-60, $7.7 million.

                           MILITARY PERSONNEL

Recruiting and Retention
            Army Reserve
    As combat operations in Iraq and Afghanistan become ``stability'' 
operations, it is expected that the Army Reserve and National Guard 
will make up 50 percent or more of the force. Both the Active Component 
and the Reserve Component will move to a rotational plan that will 
provide both predictability and stability for soldiers. The Army 
Reserve will organize its units into ``force packages'' that will help 
ensure that Reserve Component Soldiers will be available for 1 year out 
of every 5 to 6 years. This predictability will ease the pressure on 
soldiers, their families, and their employers.
    According to the Army Public Affairs announcement, May 3, 2005, 
``As of end of the April reporting period, Recruiting Command accessed 
7,283 Soldiers for the U.S. Army Reserve, 79 percent of the year-to-
date mission. The fiscal year 2005 Army Reserve recruiting mission is 
22,175.'' For the month of April the command fell short by 37 percent. 
The bonus program from last year helped to reduce recruitment and 
retention losses but with all other conditions remaining the same both 
areas will still be below goals. To overcome this, the Army Reserve 
needs to fully fund their bonus program to $149.5 million and increase 
AGR recruiter positions with funding to $59.1 million.

            Navy Reserve
    There are several challenges facing the services with recruiting 
and retention. The Naval Reserve recruiting is softer than many of the 
Navy's leadership would like to admit. The USNR has been slow to 
implement recruiting bonuses and the result is that the USNR is behind 
the power curve when compared to the other services with recruiting 
incentives for prior service members. The combined recruiting command 
has falling short of USN and USNR goals, and its Reserves are receiving 
short shrift for recruiting priorities. Even though the Navy is 
supporting deep cuts for its Naval Reserve (10,300 in fiscal year 2006) 
the need to recruit for the USNR has not lessened. To meet its 
shortcomings, the USNR is turning to activating drilling Reservists to 
fill the recruiter gap. When a problem exists, you call up the 
Reserves.

            Air Force Reserve
    Prior Service Availability.--In a 10-year period the Air Force 
Reserve went from accessing 50,507 in 1992 to 14,950 in 2005 and this 
trend has continued for the past 3 years. All of the services are 
experiencing this trend as the Guard and Reserve have gradually shifted 
to an operational force. The significance of recruiting fewer prior 
service personnel is lower average levels of experience residing in the 
Reserve Components and loss of investment in specialty training. 
According to the Air Force Reserve the most frequent reasons ADAF 
separatees give for not joining AFRC are:
  --Want to wait and see what happens (with world events);
  --Have seen Reservists deployed and don't want to risk same;
  --Done my time, not interested in continuing;
  --Have been told Reservists are first to be deployed;
  --Concerned Reserve status will negative impact civilian employment;
  --Negative feedback from activated IMAs;
  --Bad press coverage--impression active forces place Reservists & 
        Guardsman on front lines.
    Recruiting Non-Prior Service Personnel.--A decrease in prior 
service means an increase in the need for non-prior service personnel 
to meet recruiting goals. A corresponding increase in the need for 
training dollars results at a time when the administration wants to 
decrease budgets. The use of non-prior service also results in less 
availability of forces as they move through the training pipeline. Once 
formal professional military education is completed training continues 
in a member's specialty, which means it can take between 1 to 2 years 
before an individual can perform duty somewhat independently.
    ROA recommends supporting bonus incentives and reverse cost 
avoidance reduction trends that cut the reserve personnel and 
technician accounts.

Mobilization/Demobilization Impacts to Recruiting and Retention
    The impact of mobilization and demobilization does not rest just 
with the military member; it also affects their families and employers. 
This is important to note because they in turn factor in an individuals 
decision on whether or not to stay in the military.
    Two of the biggest problem areas that ROA members continue to share 
information on are with medical and pay problems.
      Comment: I am a mob'd reserve COL at Walter Reed with PTSD. The 
        problem I see that Reservists and Guardsmen are seeing is that 
        the burden of proof for absence of preexisting is on us. I have 
        seen soldiers with severe PTSD (suicidal/homicidal) be valued 
        by the board here at Walter Reed with 0 percent because they 
        concluded he was bipolar when he entered service, never mind 
        the war exacerbating the condition. I am seeing extremely low 
        valuations of disabilities for loss of limb and other traumatic 
        wounds.
      Comment: Here's the issue in a nutshell: Soldiers, according to 
        the Army Reserve Magazine, are eligible for Tricare benefits 90 
        days prior to mobilization. We have a group order from First 
        Army. When soldiers call Tricare they are told that they cannot 
        be enrolled in Tricare without an individual order. Soldiers 
        are eligible for this insurance but cannot get it. Individual 
        orders will not come until soldiers arrive at the Mobilization 
        station. Basically, we're eligible, but there is no vehicle to 
        provide this insurance. One example, our new officer's wife may 
        be pregnant. (the 2LT type) They currently have no medical 
        coverage. He is covered while on 29 day orders, but his wife 
        has no coverage. According to the AR Magazine, he should be 
        covered. This is a wonderful benefit, but de facto nothing has 
        changed since individual orders, which are required to get 
        coverage, don't come until the active duty period commences.
      Comment: Just wanted you to know that DEERS has dropped my family 
        from Tricare dental for the 4th or 5th time.
      Comment: Well, today is Day 12 of 12 in a row, with a 3-day 
        weekend ahead to recover. Of note, however--and I really hate 
        to continue to bring up pay issues, but I (and hundreds of 
        other recently demobilized reservists) have not been paid out 
        accrued pay--and it's been over 3 months now. SOMEONE has to do 
        something to force DFAS to pay us . . . but who? I'm convinced 
        no one cares or they simply can't fight the bureaucracy. I am 
        owed over $6,000 (after taxes) . . . the issues with DFAS 
        continue--that organization needs to be seriously investigated 
        and heads need to roll! I will have to take out a loan rather 
        than pay with the cash that I earned--how sad is that?
      Comment: I just wanted to touch base with you prior to leaving 
        active duty. I wanted to check on the status of any potential 
        article that was being written and also any help from the ROA 
        regarding the way that reservists (especially Army reservists) 
        have been treated with regard to reimbursements and pay. Since 
        October 1, I have been receiving only one-third of my normal 
        paycheck. Fortunately, I will be demobilizing on November 9,/ 
        2004. Regardless, a large portion of any article written MUST 
        include how DFAS (Indianapolis office) made multiple errors 
        and, yet, reservists (and their families) are paying for their 
        mistakes daily
      Comment: In late September I received a letter from DFAS stating 
        that I had received per diem in error and now owed the 
        government $11,696. I contacted an individual at DFAS and he 
        said that the Army had decided to use DOD Directive 4515.14 as 
        a guide to determine payment of per diem for soldiers in the 
        Washington, DC area. He also told me that there were lots of 
        other soldiers in the same situation and everyone had been 
        assessed with a debt for travel advances paid. I asked what 
        could be done and he said that he will submit a request for 
        waiver of debt for me to DFAS Denver. A few months later we 
        learned that DFAS Denver had denied waivers close to 900 
        soldiers in this situation. We attempted to find out from DFAS 
        Denver how to file an appeal of their decision to the Defense 
        Office of Hearings and Appeals (DOHA) and received no help. 
        October 1, I checked my bank account and discovered that my 
        direct deposit was only $548, I quickly determined that amount 
        to be approximately one-third of my usual deposit and guessed 
        that DFAS had decided to collect on the debt in the punitive 
        manner of two-thirds confiscation. With no warning from DFAS or 
        the Army that this was about to occur I was placed immediately 
        in a dire financial situation. I sought help from Army 
        Community Services by applying for a no interest loan from Army 
        Emergency Relief only to be denied a loan because I only had 35 
        days left on active duty, which would not guarantee loan 
        repayment.

Force Shaping
    The U.S. Naval Reserve has become a test bed for Active and Reserve 
Integration (ARI) and Zero Based Review (ZBR). While these two policies 
make for good endorsements on transformation, the impact of these 
policies will have a negative impact on retention. The bottom line of 
these new policies has been a recommendation within the Presidential 
Budget of a cut of 10,300 to the USNR in fiscal year 2006. Many within 
the Naval Reserve question the validity of these recommendations. The 
near term plan for the USNR is to force shape to Army support; which 
isn't necessarily preparing the force for the next at sea battle.
    The force being fashioned by Iraq is a USNR made up of SeaBee's, 
security forces, port security, custom agents and intelligence. This 
will be a more junior force. While the gain may be less in pay and 
compensation; the cost will be to experience and skill sets.
    The Zero Based Review (ZBR) which has recommend cutting the Naval 
Reserve from and end-strength of 84,300 to about 64,000 members did not 
include all of the roles, missions and demands for Reservists. Among 
the roles left out of this calculation were joint, and homeland 
security requirements. Yet Congress is being asked to cut the USNR to 
70,000.
    To reverse a growing trend ROA recommends:
  --Slow down and reduce the cuts planned for fiscal year 2006; at a 
        minimum the cut of 10,300 should be spread out over 4 to 5 
        years.
  --Determine what future roles the USNR will be supporting which could 
        lead to increases in end-strength, and;
  --Redo the USNR Zero Based Review to include joint and homeland 
        defense requirements. This ZBR should be ongoing rather than 
        periodic.

                               CONCLUSION

    DOD, as we all know, is in the middle of executing a war--the 
Global War on Terrorism and operations in Iraq are directly associated 
with that effort. For the Department, worries have emerged about 
additional spending during these military actions. Almost every 
initiative to include proposed changes to personnel practices and 
improvements in compensation programs are quickly placed under a ``what 
will it cost?'' scrutiny. It is ROA's view that this scrutiny is too 
often oriented toward immediate costs with a lack of appropriate regard 
for long-term results versus life cycle costs. This is not to say that 
prudent, fiscal personnel and budget policies and processes should be 
ignored. At all times what is being achieved should respectfully be 
balanced with how something is being achieved.
    From a positive aspect, DOD's work to change and transform is 
admirable. Although many issues effecting Reservists are difficult and 
complex, the Departments of Defense, Homeland Security, Health and 
Human Services have all accomplished much in streamlining and updating 
mobilization and demobilization and in working health care challenges 
of wounded military members. There are still areas that need scrutiny 
such a depot support and regeneration costs for equipment and training. 
The war on terrorism is our Nation's first threat and this threat will 
not go away. The Reserve Components will take part in countering this 
threat for many years to come which offers us the best opportunity to 
resolve these issues once and for all.

    Senator Stevens. Thank you very much, Ms. Lukas. I am sure 
you realize that this base closure process we are going through 
is to free up money to modernize some of that equipment, just 
as you indicated. We do have a vast need for improved trucks 
and improved vehicles. We are sending the Strykers over there 
so that they can drive them 65 miles an hour and still be safe. 
But there are not enough of them over there yet.
    But I thank you very much for your testimony and hope you 
will be pleased with the results.
    Ms. Lukas. Thank you, sir.
    Senator Stevens. Thank you very much.
    Next is Command Master Sergeant Retired Mark Olanoff, 
Retired Enlisted Association. Yes, sir. Nice to see you again, 
sir.

STATEMENT OF COMMAND MASTER SERGEANT MARK H. OLANOFF, 
            U.S. AIR FORCE (RETIRED), EXECUTIVE 
            DIRECTOR, THE RETIRED ENLISTED ASSOCIATION
    Sergeant Olanoff. Good to see you again, sir, Mr. Chairman.
    First I would like to start and thank you and Senator 
Inouye for everything you have done for us, because, you know, 
over the years we have come to see you and talked about issues 
that really are not within your purview, like concurrent 
receipt and survivor benefit offsets and health care for those 
over 65, which is now TRICARE for Life.
    You told us at one hearing, you might remember, a few years 
ago that we had to go to the authorizing committee to fix those 
problems, and we did that. Here is the debate that happened in 
the fiscal year 2001 conference report, in which virtually 
every Senator who spoke supported the improvements for health 
care. I just want to read a couple points that Senator Warner 
had to say.
    He said that: ``I turn now to what is the most important 
single item in this conference report, military health care, 
particularly for our retired personnel and their families. 
History shows they are the best recruiters of all.''
    In another part of the record he says: ``Two weeks ago in 
the testimony before the Senate Armed Services Committee and 
the House Armed Services Committee, General Hugh Shelton, 
Chairman of the Joint Chiefs of Staff, and each of the service 
chiefs strongly supported making this benefit permanent and 
using the accrual amount method of financing. The Joint Chiefs 
have repeatedly testified that failing to honor the commitment 
to our retirees has been detrimental to their recruiting and 
retention efforts.''
    Yet today we see op-ed pieces put out by the Pentagon that 
now say that military retirees are a drain on the active duty 
force and the Reserve component. This is far from the truth. As 
you know, Mr. Chairman, your subcommittee appropriates money 
for discretionary funding. We won the battle on TRICARE for 
Life through the Armed Services Committee, not here. We won the 
battle on concurrent receipt through the authorizers and it was 
paid for through the Treasury, not from the Defense Department. 
The survivor benefit correction that was done in last year's 
defense bill was offset by crazy accounting the way they do 
things here, but there was an offset of mandatory funding. We 
did not buy tankers that we were going to buy.
    So for the Pentagon to now say that we are a drain on their 
budget is totally unfair. The last point, Mr. Chairman, is I 
did some checking to find out why the Pentagon does not talk 
about civilian retirees, why they are not a drain on their 
budget. There is a good reason. I found out that the health 
care--72 percent that the Government funds for retirees of the 
civil service--is funded through the Office of Personnel 
Management (OPM) budget, which means there is no accrual 
accounting like there is for TRICARE for Life.
    So I believe that we have an obligation to fund military 
health care for military retirees who have earned their 
benefits. Again, I would like to thank you very much for 
everything that you have done to help us over the years.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    I was just talking about looking into that. We will look 
into that.
    Sergeant Olanoff. Thank you, sir.
    Senator Stevens. We appreciate it.
    [The statement follows:]

                 Prepared Statement of Mark H. Olanoff

    Mr. Chairman, it is an honor for The Retired Enlisted Association 
to testify on our concerns for military and veterans' before your 
committee.
    The Retired Enlisted Association is a Veterans' Service 
Organization founded 42 years ago to represent the needs and points of 
view of enlisted men and women who have dedicated their careers to 
serving in all the branches of the United States Armed Services active 
duty, National Guard and Reserves, as well as the members who are doing 
so today.
       funding for active duty, national guard and reserve forces
    The Retired Enlisted Association generally supports the 
administration's request to support today's troops and looks forward to 
working with the committee to that end. TREA is working on issues with 
the Senate Armed Services Committee to improve the quality of life for 
all components, retirees and their survivors.

                            DOD HEALTH CARE

    I would like to start with a statement made by Senator John Warner 
(Virginia), Chairman of the Senate Armed Services Committee during the 
debate on the fiscal year 2001 National Defense Authorization Act 
concerning the Healthcare provisions:

    ``I turn now to what is one of the most important single item in 
this conference report--military healthcare, particularly for our 
retired personnel and their families. History shows they are the best 
recruiters of all.''

    The conference report before the Senate fulfills an important 
commitment of ``healthcare for life'' made by the recruiters--the U.S. 
Government--beginning in World War II and continuing through the Korean 
war and the Viet Nam war. The goal of making that commitment was to 
encourage service members to remain in uniform and become careerists. 
Simply put, a commitment of health care for life in exchange for their 
dedicated career service.
    Again, this convergence report fulfills the promise of healthcare 
for life. I am proud of the bipartisan unanimity with which the Senate 
Armed Services Committee supported this initiative--an initiative never 
taken before by a congressional committee.
    Let me describe for my colleagues and for our active and retired 
service members around the world the legislation in this conference 
report to authorize health care benefits for Medicare-eligible military 
retirees and their families, and how we arrived at this outcome.
    For as long as I can remember, military recruits and those facing 
re-enlistment have been told that one of the basic benefits of serving 
a full military career is health care for life. We all know now that 
this commonly offered incentive was not based in statute, but was, 
nonetheless, freely and frequently made; it is a commitment that we 
must honor.
    Let me briefly review the history of military health care. Military 
medical care requirements for activity duty service members and their 
families were recognized as early as the 1700's. Congressional action 
in the last 1800's directed military medical officers to attend to 
military families whenever possible, at no cost to the family. During 
World War II, with so many service members on activity duty, the 
military medical system could not handle the health care requirements 
of family members. The Emergency Maternal and Infant Care Program was 
authorized by Congress to meet this road. This program was administered 
through state health agencies.
    The earliest reference in statute defining the health care benefit 
for military retirees was in 1956 when, for the first time, the 
Dependent's Medical Care Act specified that military retirees were 
eligible for health care in military facilities on a space-available 
basis. In 1966, this Act was amended to create the Civilian Health and 
Medical Program of the Uniformed Services, CHAMPUS, to supplement the 
care provided in military facilities. This legislation, in 1966, 
specifically excluded from coverage military retirees who were eligible 
for Medicare--a program which had been enacted by the Congress 1 year 
earlier, in 1965.
    The exclusion of over age 65, Medicare-eligible military retirees 
from guaranteed care from the military health care system was masked 
for many years because the capacity of military hospitals an the 
military medical system exceeded that required to care for active duty 
service members; therefore, many Medicare-eligible retirees were able 
to receive treatment, on a space-available basis, at military 
facilities. In the 1990's, we began to reduce the size of our military 
services and the base realignment and closure, BRAC, rounds began to 
close bases--and military hospitals--all across the Nation. The 
combined effect of fewer military medical personnel to provide care and 
the closure of over 30 percent of the military hospitals eliminated the 
excess capacity that had been so beneficial to military retirees. Also 
during this decade the retiree population grew dramatically, adding 
pressure to the military health care system. The true magnitude of the 
problem was finally exposed.
    All of us have heard from military retirees who served a full 
career and, in so doing, made many sacrifices. Many times the 
sacrifices these heroic veterans made resulted in serious medical 
conditions that manifested themselves at the time in their lives when 
they were pushed out of the military health care system. As a nation, 
we promised these dedicated retirees health care for life, but we were 
ignoring that promise.
    On February 23, 2000, I introduced a bill, S. 2087, that provided 
for access to mail order pharmaceuticals for ALL Medicare-eligible 
military retirees, for the first time. The legislation also would 
improve access to benefits under TRICARE and extend and improve certain 
demonstration programs under the Defense Health Program.
    On May 1, 2000, I introduced S. 2486, which added a retail pharmacy 
component to the previous legislation, providing for a full pharmacy 
benefit for all retirees, including those eligible for Medicare.
    On June 6, Senator Tim Hutchinson and I introduced S. 2669, a bill 
that would extend TRICARE eligibility to all military retirees and 
their families, regardless of age. Later that same day, I amended the 
defense authorization bill to add the text of S. 2669. This legislation 
provided uninterrupted access to the Military Health Care System, known 
as TRICARE, to all retirees.
    Permanently funding the military retiree health care benefit will 
be seen by retirees, active duty service members and potential recruits 
as the Nation keeping its commitment of health care for life to 
military retirees. Those serving today and those who are joining the 
military will see that the promise of a lifetime of health care, in 
return for serving a full career, will be honored in perpetuity.
    Two weeks ago, in testimony before both the Senate Armed Services 
Committee and the House Armed Services Committee, General Hugh Shelton, 
Chairman of the Joint Chiefs of Staff, and each of the service chiefs 
strongly supported making this benefit permanent and using the accrual 
account method of financing. The Joint Chiefs have repeatedly testified 
that failing to honor the commitment to our retirees has been 
detrimental to their recruiting and retention efforts.''
    TREA is very concerned with recent articles in national newspapers 
that the Department of Defense is worried that costs for military 
retiree benefits are taking funds away from the troops. These 
statements are not accurate.
    TREA urges the subcommittee to fully fund DOD's health care account 
to include a seamless transition with the Department of Veterans' 
Affairs. Further, TREA recommends report language that specifically 
prohibits the Department of Defense from raising TRICARE co-payments in 
fiscal year 2006. Finally, TREA recommends an oversight hearing with 
the Department of Defense and stakeholders to discuss differences 
between entitlement and discretionary spending.

                      BASE REALIGNMENT AND CLOSURE

    TREA realizes that this subcommittee has very little to do with the 
BRAC process, however, section 726 of the fiscal year 2004, National 
Defense Authorization Act (Public Law 108-136) states ``Working group 
on military health care for persons reliant on health care facilities 
at military installations to be closed or realigned''. Although this 
working group has been established by DOD and the group has had one 
meeting, this issue will become very important after the BRAC list is 
finalized.
    TREA urges the subcommittee to be aware of this issue when 
appropriations are made to fund BRAC.

                               CONCLUSION

    TREA is very grateful for this opportunity to testify before the 
Defense Appropriations Subcommittee and would like to thank Chairman 
Stevens and Ranking Member Inouye for their many years of support to 
the defense of our country.

    Senator Stevens. Our next witness is Retired Captain 
Marshall Hanson, Chairman of the Association for America's 
Defense. Yes, sir.

STATEMENT OF CAPTAIN MARSHALL HANSON, U.S. NAVAL 
            RESERVE (RETIRED), CHAIRMAN, ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Captain Hanson. Thank you, sir. Mr. Chairman, the 
Associations for America's Defense (A4AD) are very grateful to 
testify today on issues of national defense equipment and force 
structure. We would like to thank this subcommittee for its 
stewardship on defense issues and setting the example by its 
nonpartisan leadership.
    Support for our deployed troops continues to be a priority 
and warrants top importance. The Reserve Enlisted Association, 
which belongs to A4AD, had one of its members mobilized by the 
marines who is currently in Iraq. When asked about up-armoring 
of vehicles in country, I got an answer from this sergeant by 
e-mail just yesterday that I would like to share with the 
subcommittee. He said:
    ``Sometimes I see soldiers going out in home-armored 
vehicles. We call them grenade buckets. Our teams have two 
vehicles and one of them is a bucket, though this week we will 
be getting it refurbished. They are going to take off the 
homemade armor and add higher sides, higher back gate, 
generation three armor doors, and armor the cab's canvas roof. 
Unfortunately, I was told that we will still need to add the 
Kevlar blast pads on the rear wheel wells because the armor 
does not protect the troops that sit in the back. Another 
problem is that these pads can catch fire.
    ``The insurgents have started using antitank mines, which 
have killed about four soldiers in the next area of operation. 
We had a first sergeant here who may lose his leg. We cannot 
really armor a Hummer enough to stop these mines. We do the 
best we can with the armor and use our intel, tactics, and 
procedures to stop the improvised explosive devices (IEDs) and 
car bomb attacks.
    ``Overall, the main difficulty with the up-armoring is the 
logistics with getting the vehicle to the up-armor location. 
They expect us to take off the welded homemade armor without 
technical support and then there is the risk of driving the 
unprotected vehicle to the armoring sites. Both vehicles we use 
have some wear and tear and could use refurbishing. This is the 
standard around here, although the 7-ton truck and the light 
medium tactical vehicles (LMTV) are in good condition.'' End 
quote.
    A4AD is concerned about this wear and tear on fielded 
equipment and how our soldiers and marines who are returning 
from the combat theater without equipment because they must 
leave it behind. For the demobilized, readiness will become an 
issue because there is no equipment left to train on. Included 
in our written testimony is a list of unfunded equipment we 
would like to see procured for Active and Reserve components.
    It also should be remembered that equipment is only as good 
as the people who use it. We believe Congress must continue to 
make it a high priority to increase end strengths because this 
type of combat we are seeing is stressing our military troops. 
People are more than just human capital assets and if they are 
overtasked and undervalued we will see a growing recruiting and 
retention problem.
    Further, proposed cuts to some of our Guard, Reserve, and 
Active services may be sending out the wrong message to future 
adversaries and to our troops in the field. Increases should be 
made to both the Active and Reserve components as the 
Department of Defense (DOD) missions will continue beyond just 
the operational, to include strategic contingencies and 
homeland defense.
    We are at a point in our history where we are defending our 
national interests at the same time that we are defining our 
future security systems. Let us not overstep our capabilities 
at the risk of defense. The responsibilities that you bear 
toward the future are great and I am sure the opinions you are 
given are many.
    Thank you for your ongoing support of the Nation, the armed 
services, and the fine young men and women who defend our 
country. I am available for any questions.
    [The statement follows:]

                 Prepared Statement of Marshall Hanson

                              INTRODUCTION

    Mister Chairman and distinguished members of the committee, the 
Associations for America's Defense (A4AD) are very grateful for the 
invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of 12 
military and veteran associations that have concerns about national 
security issues that are not normally addressed by The Military 
Coalition, and the National Military Veterans Alliance. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy. Collectively, we represent about 2.5 million 
members, who are serving our Nation, or who have done so in the past. 
The number of supporters expands to beyond 5 million when you include 
family members and friends of the military.
    A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.

              CURRENT VERSUS FUTURE; ISSUES FACING DEFENSE

    The Associations for America's Defense would like to thank this 
committee for the on-going stewardship that it has demonstrated on 
issues of Defense. At a time of war, its pro-defense and non-partisan 
leadership sets the example.
    Members of this group are concerned that U.S. Defense policy is 
sacrificing future security for near term readiness. So focused are our 
efforts to provide security and stabilization in Iraq, that risk is 
being accepted as an element in future force planning.
    A Pentagon criticism is that our Armed Forces are archaic; 
structured for a Cold War. Instead, transformation is now being touted 
that would now emphasize ``boots on the ground,'' while at the same 
time it encourages technological improvements that would jump a 
generation of weapons. Yet force planning is being driven by the Global 
War on Terrorism, plans to democratize the Middle East, and to allow 
for budget limitations. Cuts are being suggested for legacy weapons and 
infrastructure to pay for current operations and future combat systems.
    What seems to be overlooked is that the United States is involved 
in a Cold War as well as a Hot war. While the United States is 
preoccupied with the Middle East and with the near-term crisis posed by 
North Korea's, China expands its influence over Africa, South America, 
and the underbelly of the former Soviet Union. It builds a military 
designed to counteract American military, and is erecting a Chinese 
stronghold of territorial claims and international lawfare.
    Our military leadership defends it policy with proud display, 
testifying to the fact that our aircraft, missiles and ships have a 
greater capability and effectiveness then ever in the past. Yet within 
the last decade, our picket lines of defense have been gapped several 
times to respond to distant crises. Platform numbers and location are 
as significant as accuracy and payload.
    China is the elephant in the war room that many force planners hope 
will just go away. As the United States expends resources in the Middle 
East and re-structures the military to fight terrorism, China patiently 
waits for America to weaken by withdrawing itself globally by 
transforming into a smaller force. China also awaits for another 
advantage which could be caused by the GWOT: the erosion of the 
American national will.
    The Pentagon has suggested that technology will keep us ahead. By 
reducing procurement of the next generation of systems that are already 
planned by the armed services, and by pouring money into future combat 
systems DOD claims that we will maintain a tactical advantage. The 
question asked by many within the A4AD, will our adversaries wait until 
we attain this future?

                        FORCE STRUCTURE CONCERNS

Aging Equipment
    Tactical Air.--The rapidly aging F-15 Eagles first flew in the 
1970's. In recent mock combat against MiG, Sukhoi and Mirage fighters, 
foreign air forces scored unexpected successes against the Eagles. What 
is characteristic of paradigm shifts in air superiority is that they 
are invariably driven by one or another technological advance. New air 
dominance platforms are urgently needed. The F/A-22 Raptor and the 
Joint Strike F-35 fighters represent vital and complementary 
capabilities.
    Airlift.--Hundreds of thousands of hours have been flown, and 
millions of passengers and tons of cargo have been airlifted. Both Air 
Force and Naval airframes and air crew are being stressed by these lift 
missions. Procurement needs to be accelerated and modernized, and 
mobility requirements need to be reported upon.
    Fleet Size.--The number of ships in the fleet is dropping. At the 
end of April, the Navy had 288 ships. The Chief of Naval Operations, 
Admiral Vern Clark, in testimony before Congress talked about a 260 
ship fleet by the year 2035.
    Under the 260-ship plan, ship purchases and spending would show a 
peak-and-valley pattern over the 2006-2035 period. Through 2015, the 
Navy would buy an average of 9.5 ships per year, at an annual cost of 
about $14.4 billion. The fleet would peak at 326 ships in 2020 and then 
gradually decline to 260 by 2035. The mid-to-late 2020's would be a 
period of low ship purchases under the 260-ship plan.
    As recently as 2003, the U.S. Navy was telling Congress that its 
long-term goal was a 375-ship Navy. According to Admiral Clark, the 
260-ship plan would cost about $12 billion a year for ship 
construction, and the 325-ship plan would cost about $15 billion a year 
for shipbuilding.
    The administration procurement rate is too low and has yet to even 
reach a 9.5 ships per year procurement rate to support a build-up 
toward 2020. It appears that the Navy won't even attain the numbers 
discussed by the CNO before Congress.
    Admiral Clark has accepted the DOD premise that technology can 
replace humans, and now seems to favor a smaller Navy because of lower 
cost and reduced manpower. He has also instituted new procedures like 
surging aircraft carriers to meet crises and keeping ships deployed 
overseas while rotating the crews. To some this means the Navy will 
need no more than 325 ships and possibly as few as 260. Yet this also 
means we will wear out people and equipment faster.
    A4AD favors a larger fleet because of an added flexibility to 
respond to emerging threats. It is also believes that Congress should 
explore options to current ship design, configuration, and shipbuilding 
methods which have created billion dollar destroyers.

A Changing Manpower Structure
    Air Force.--Compared to the Cold War Air Force, today's USAF is 
small and based mostly in the United States, necessitating rapid, 
large-scale deployments over long distances. Over the last two decades, 
the active duty Air Force was reduced by nearly 40 percent--from 
608,000 to 359,000 uniformed members. Higher retention rates have 
caused the active duty force to expand temporarily to 375,000. Now the 
Air Force must shrink by some 16,000 Airmen in order to meet the fiscal 
year 2005 authorized force level of 359,000 people. While the force 
shrinks, operations tempo at stateside and overseas bases remains high. 
Airmen are working long hours, deploying with ever-increasing frequency 
to hot spots around the world, and spending more time away from their 
families. To accommodate the new steady state, service leaders have 
extended overseas rotations for each Air and Space Expeditionary Force 
(AEF), raising it from 90 days to 120 days. Combat deployments have 
been extended. Crews are flying longer missions and have less ground 
time between missions.
    Air Guard and Reserve.--Across the board, the Total Force is 
straining to meet new requirements and challenges. The Air National 
Guard and Air Force Reserve have been activated at unprecedented 
levels. Since September 11, 2001, the Air Force has mobilized nearly 
65,000 Guardsmen and Reservists. Together, they constitute 20 percent 
of Air Force AEF packages supporting operations in Southwest Asia. 
Additionally, they conduct 89 percent of air patrols over American 
cities in support of Operation Noble Eagle. In spite of enormous 
challenges, morale throughout the Total Force remains high. Senior Air 
Force leaders at present do not seek an increase in USAF end strength.
    A4AD cautions that if the level of operations continues at the 
current pace, a decision to request more manpower cannot be avoided. 
The bottom line is that resources must be matched to tasking.
    Army.--The Active Army is currently re-structuring all three 
components (Active, Reserve, Guard) in an attempt to create 77 Brigade 
Combat Teams and the necessary support organizations. To do this, the 
Army has a short-term increase in end strength of 30,000. Many in 
Congress feel that the increase should be permanent and possibly 
increased further.
    As part of its efforts to increase the number and deployability of 
the Army's combat brigades, the Pentagon has begun the Army's 
Modularity Program. The fiscal year 2006 request contains no funding 
for the program.
    Army Reserve.--The Army Reserve has a mandated end-strength of 
205,000. It is likely that they will not end the year within the 2 
percent variance authorized by Congress. It should be considered that 
part of the Active Army end-strength increase should be devoted to 
full-time support in the Army Reserve and Guard. This would enhance 
readiness as well as provide important mentoring to soldiers in 
anticipation of future deployments. At the present time, although 
retention in the Army, Army Reserve and Army National Guard remains 
high, recruiting challenges continue. A4AD anticipates that there will 
be an increased need for monetary incentives in all components.
    Navy.--The official Navy posture is that its force level will 
reduce from approximately 360,000 sailors today to something in the 
neighborhood of 315,000 by the year 2012. A4AD has had an internal 
debate among its own membership on this manpower policy, some favor 
cuts, while others favor increases. Manpower is expensive, but it is 
people, not technology that have always won past battles and salvaged 
ships. If we tailor our fighting force too tightly with a level that is 
too low, we could create a force without indemnity.
    Naval Reserve.--New Navy policies have lead to a recommendation 
within the Presidential Budget of a cut of 10,300 to the USNR in fiscal 
year 2006. A4AD disagrees. At a time when the USN plans to cut the 
active force, these skillsets of these people should be placed into the 
Naval Reserve. Yet rather than increase the USNR as a hedge against 
policy, the Navy wants proportionally bigger cut from its Reserve.
    The Zero Based Review (ZBR) which has recommended cutting the Naval 
Reserve from an end-strength of 84,300 to about 64,000 members did not 
include all of the roles, missions and demands for Reservists. Among 
the missions not included in this review were joint, homeland security 
requirements, spec-ops and non-planned M-day demands. Aviation hardware 
units were also not included in the ZBR.
    Further, proposed civilianization of drilling Reserve and Full Time 
Staff billets do not address the call for war fighting skills and 
risks. A prime example is the Naval Reserve Construction Seabees 
Battalions, which were proposed for reduction prior to 9/11, are now 
touted as the USNR's best assets.
    At a minimum, the proposed USNR fiscal year 2006 cut needs to be 
spread over a number of years, and the Naval Reserve roles and missions 
needed to be examined.
    Marines.--As the Marine Corps is increased in size, the USMC wants 
to maintain the right number and mix of trained experienced Marines 
with first tour recruits. Ideally, 70 percent of the USMC is first 
tour, with the remaining 30 percent on extended service. With an 
expanded force, this ratio has been changing so that the number of 
first tour Marines is growing beyond the 70 percent. The Marine Corps 
will need to retain a greater number of individuals to offset new 
trainees with experienced leadership. Gradual increases need to be 
implemented to maintain the ratio of first tour to experienced Marine.
    Marine Forces Reserve.--With a similar ratio as the Active 
component, historically 70 percent of the USMCR force has been non-
prior service. But this ratio has now climbed past 74 percent which 
causes concern. Retention is also becoming a challenge which 
exasperates the non-prior service ratio. No immediate increase beyond 
500 additional would be recommended for the USMCR.
    Coast Guard Reserve.--The Coast Guard Selected Reserve has been 
held to 8,100 members by appropriation restriction, and no one in the 
Coast Guard leadership has been an advocate to ask for additional 
funding to even cover for the 10,000 billets that have been authorized 
by the Armed Services Committees.
    The 8,100 manning level is no higher than it was prior to the 
terrorist attacks on September 11. Yet, the number of missions for the 
Coast Guard Reserve has increased. Coastal maritime defense is 
considered by many to be the most important challenges facing the 
United States today. Two requirements based studies conducted since 9/
11 recommended that the USCGR strength be increased to 17,353 and 
18,031 respectively. USCGR appropriations need to support authorization 
levels.

Increasing End Strength
    The Army's fiscal year 2006 budget request does not include funding 
for its 30,000-troop increase, nor does the Marine Corps request 
include funding for a 3,000-troop increase. Total estimated cost for 
the additional forces is $3.5 billion.
    A4AD has continuing concerns about the mismatch between reducing 
active duty and reserve force strengths and the increasing mission 
requirements. While retention rates remains highs, the effects of the 
heightened OPTEMPO are beginning to have a measured impact. If the 
current Active Duty end strength was adequate, the demand for Reserve 
and Guard call-up would not be so urgent.
    End strengths need to be closely examined by both the House and 
Senate as a first step in addressing this situation.
Regeneration/Resetting of Equipment
    Aging equipment, high usage rates, austere conditions in Iraq, and 
combat losses are affecting future readiness. Equipment is being used 
at 5 to 10 times the programmed rate.
    Additionally, to provide the best protection possible for Soldiers 
and Marines in the combat theater, many units have left their equipment 
behind for follow-on units, and are returning with no equipment. 
Without equipment on which to train after de-mobilization, readiness 
will become an issue.
    The Army, Army Reserve, Army National Guard, Marines and Marine 
Forces Reserve need continued funding by Congress for equipment 
replacement.

Counter-measures to Improvised Explosive Devices
    A4AD would like to commend the committee for supporting enhanced 
countermeasures for air and ground troops now deployed. For ground 
troops, the biggest threat to safety remains the improvised explosive 
device or IED. As you know, these devices use simple electronic 
transmitters--like garage door openers, remote controls for toys or 
cell phones--to detonate a disguised explosive as a convoy or unit on 
patrol passes by. These devices are usually well concealed in ordinary 
roadside debris like tires or dead animals. One response of the 
Congress to this extraordinary threat to our ground forces has been to 
call for and fund the accelerated purchase and deployment of up-armored 
Humvees.
    A4AD would like to point out to the committee, however, that 
Humvees are not the only vehicle operated in theater and that the 
emphasis on up-armoring one type of vehicle has left others with little 
to no protection. For example, by up-armoring Humvees, we provide a 
greater degree of safety for troops escorting a convoy, but no 
additional protection for those troops driving the large supply trucks 
that are part of the same convoy. Cost-effective solutions that can 
provide an enhanced degree of safety do exist, however, in the form of 
electronic countermeasures. These devices work in one of two ways: 
either by pre-detonating an IED or by preventing the detonation through 
jamming of the signal. The committee has already seen fit to support 
the deployment of these types of solutions through the reprogramming of 
$161 million in last years' supplemental for Iraq and Afghanistan 
operations, but we believe that more remains to be done. We would 
encourage and request the committee to look at specifying that 
additional funds be made available for the purpose of purchasing and 
deploying more electronic countermeasures for ground troops. In this 
way we can provide a greater degree of safety to all of the troops 
facing the IED threat, no matter what type of vehicle they may be 
operating.
    Continued emphasis is needed for the procurement of sufficient 
quantities of countermeasures to protect every unarmored personnel 
carrier now deployed in the battle space.

Aircraft Survivability Equipment
    As for air crews, they face non-traditional threats used by non-
conventional forces and deserve the best available warning and 
countermeasure equipment available to provide the greatest degree of 
safety possible. As an example of this threat, one need only look at 
the downing of a privately-operated helicopter as recently as 1 month 
ago. A4AD hopes that the committee will continue to support the 
purchase and deployment of warning and countermeasures systems for both 
fixed and rotary wing aircraft across all of the services and insure 
that the latest and most advanced versions of these protections are 
made available to all units now deployed or slated for deployment in 
the future--be they active duty, Guard or Reserve.
    Continue to support the purchase and deployment of warning and 
countermeasures systems for both fixed and rotary wing aircraft across 
all of the services and insure that the latest and most advanced 
versions are available.

Maintaining the National Guard and Equipment List
    Pressure continues within the Navy and the Coast Guard to combine 
various appropriations so that Reserve equipment accounts would be 
merged with that of the parent service.
    A single equipment appropriation for each service would not 
guarantee that the National Guard and Reserve Components would get any 
new equipment. The National Guard and Reserve Equipment Account (NGREA) 
is vital to ensuring that the Guard and Reserve has some funding to 
procure essential equipment that has not been funded by the services. 
Without Congressional oversight, dollars intended for Guard and Reserve 
Equipment might be redirected to Active Duty non-funded requirements. 
This will lead to decreased readiness.
    This move is reminiscent of the attempt by DOD to consolidate all 
pay and O&M accounts into one appropriation per service. Any action by 
the Pentagon to circumvent Congressional oversight should be resisted.
    A4AD asks this committee to continue to provide appropriations 
against unfunded National Guard and Reserve Equipment Requirements. To 
appropriate funds to Guard and Reserve equipment would help emphasize 
to the Active Duty that it is exploring dead-ends by suggesting the 
transfer of Reserve equipment away from the Reservists.

Unfunded Equipment Requirements
    (The services are not listed in priority order.)
            Air Force
    F/A-22 and F/35 Joint Strike Fighter
    Accelerate C-17 and C-130J procurement
    Update Tanker Fleet
    E-10 multi-sensor Command and Control Aircraft
    Space Radar
            Air Force Reserve
    C-9/C-40 Personnel Sustainment (O&M) Scott AFB--$40.8 million
    C-130/HC-130 Large Aircraft I/R Counter Measures--$225.1 million
    A-10 LITENING Advanced Targeting Pod Procurement--$53.0 million
    C-130 APN-241 Radar--$37.0 million
    Tactical Data Link for A-10/HH-60--$7.7 million
            Air Guard
    Accelerate C-17 Airlifter (8) add (7)--$180 million each
    Aircraft Rescue and Fire Fighting Vehicles
    E-8C Joint STARS Aircraft Re-engine
    Patient Decontamination Assemblages (20)--$3.4 million
    Bioenvironmental Assemblages (10)--$1.0 million
            Army
    The Army spent $62.4 billion on O&M in fiscal year 2004, is 
estimating O&M spending of $45.4 billion in fiscal year 2005, and is 
requesting only $31.8 billion in fiscal year 2006. If these figures are 
accurate, then Army O&M spending has declined by roughly 50 percent in 
the space of 2 years for a military that's the same size and actively 
engaged in combat operations in Iraq, Afghanistan, and other regions of 
the world.
            Army Reserve
    Light Medium Tactical Vehicles [LMTV] (600)--$92 million
    Medium Tactical Vehicles [MTV] (800)--$146 million
    Multi-Band Super High Frequency Terminal (10)--$30 million
    Truck, Cargo PLS 1010 and PLS Trailer (44/88)--$12.7/$4.8 million
    High Mobility Multi-Purpose Wheeled Vehicle (279)--$21 million
            Army Guard
    Funding for Rapid Field Initiative, special equipment and 
protective garments. RFI is a kit of approximately 50 essential items 
that provide the most up-to-date equipment to Soldiers at war.
    High Mobility Multi-Purpose Wheeled Vehicle (HMMWV, short 13,265)
    Single Channel Ground Air Radio Sys. (SINCGARS, retire obsolete 
20,000 VRC-12)
    Night Vision Goggles (NVG, short 100,000)
            Marine Corps
    Mountain and Cold Weather Clothing Equipment--$24.9 million
    Modernization of Medical Allowance Lists--$19 million
    Shelters and Tents--$23.4 million
    Portable Tent Lighting--$8.5 million
    Tactical Radios (PRC-117 and 150)--$25 million
            Reserve Marine Corps
    Initial Issue equipment--$10 million
    Mountain and Cold Weather Clothing Equipment--$8.4 million
    Portable Tent Lighting--$3.5 million
    Shelters and Tents--$5.2 million
    Light Armored Vehicles (LAV -25, 48)--$104 million
            Navy
    Aircraft Survivability Equipment--(5) MH-53E, (18) H/MH-60, (37) P-
3 AIP--$22.1 million
    Low Band Transmitter (Jammer) pods (11)--$16.4 million
    SH-60B/H Armed Helo Kits (28)--$58.3 million
    Expand Maritime Interdiction Outfitting--personal protection, 
secure comms & cargo access --$10.5 million
    Accelerate repair/replace theater small arms--$24.0 million
            Naval Reserve
    C-40 A Inter-theater Transport (2)--$135 million
    Littoral Surveillance System, LSS coastal defense (1)--$19 million
    Explosive Ordnance Disposal/Naval Coastal Warfare Tactical Vehicles 
and Support Equipment --$14.5 million
    EOD/NWC Small Arms--$36.8 million
    Funds for activation--Funds associated for Reservist mobilize for 
GWOT

                               CONCLUSION

    A core of military and veteran associations is looking beyond 
personnel issues to the broader issues of National Defense. As a group, 
we will continue to meet in the future, and hope to provide your 
committee with our inputs.
    Cuts in manpower and force structure, simultaneously in the Active 
and Reserve Component are concerns in that it can have a detrimental 
effect on surge and operational capability.
    This testimony is an overview, and expanded data on information 
within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Senator Stevens. We do not have any questions. He is right, 
of course, and the difficulty is we still have to find a way to 
build them that way to start with. The up-armoring is costing 
us too much money. We have to go back sometimes two or three 
times to get it right.
    We appreciate your testimony, though. We will continue to 
work with you on that.
    Captain Hanson. Thank you, sir.
    Senator Stevens. The next witness is Dr. Jennifer Vendemia 
of the American Psychological Association.

STATEMENT OF JENNIFER VENDEMIA, Ph.D., ON BEHALF OF THE 
            AMERICAN PSYCHOLOGICAL ASSOCIATION
    Dr. Vendemia. Thank you, Mr. Chairman. I am Dr. Jennifer 
Vendemia from the University of South Carolina Psychology 
Department and I am testifying today on behalf of the American 
Psychological Association (APA), a scientific and professional 
organization of more than 150,000 psychologists and affiliates.
    Although I am sure you are aware of the large number of 
psychologists providing clinical services to our military 
members here and abroad, you may be less familiar with the 
extraordinary range of research conducted by psychological 
scientists within the Department of Defense. Our behavioral 
researchers work on issues critical to national defense with 
support from the Army Research Institute and Army Research 
Laboratory, the Office of Naval Research, the Air Force 
Research Laboratory, and additional smaller human systems 
research programs in the Office of the Secretary of Defense, 
Defense Advanced Research Projects Agency (DARPA), the Marine 
Corps, and the Special Operations Command.
    For example, my own brain imaging research, which received 
generous funding through this committee in fiscal year 2005, 
seeks to model the neurocognitive processes of lying in order 
to formulate new deception detection techniques using measures 
of specific brain activity. As a university researcher, I also 
collaborate with scientists conducting credibility assessment 
studies at the nearby DOD Polygraph Institute at Fort Jackson 
and the DOD Counterintelligence Field Activity here in 
Washington. Deception and its accurate detection is of course 
at the heart of counterintelligence work and the research 
collaborations with DOD are designed to bridge results from my 
investigations in basic psychophysiology to the more applied 
mission-specific science and technology work that supports 
counterintelligence activities. APA encourages the subcommittee 
to increase funding for these very small but critical research 
programs.
    In terms of the overall defense science and technology 
(S&T) account, the administration requested less in fiscal year 
2005 than the enacted fiscal year 2004 amount and congressional 
appropriators in turn provided a significant increase over both 
the budget request and the fiscal year 2004 level, for a total 
of $13.33 billion. For fiscal year 2006, the President's budget 
request of $10.52 billion for DOD S&T has again fallen short of 
both the fiscal year 2005 budget request and the fiscal year 
2005 enacted level, representing a 21 percent decrease.
    As a member of the Coalition for National Security 
Research, APA recommends the DOD science and technology program 
be funded at a level of at least 3 percent of total DOD 
spending in fiscal year 2006 in order to maintain global 
superiority in an ever-changing national security environment.
    Total spending on behavioral and cognitive research, in 
other words human-centered research, within DOD has declined 
again in the President's fiscal year 2006 budget. Specific 
human factors and manpower-personnel-training programs were cut 
in the Army. The Navy's applied programs in human systems and 
warfighter sustainment took substantial hits. Support for the 
Air Force's applied human effectiveness, crew systems, and 
personnel protection accounts were down in the President's 
budget request.
    We urge you to support the men and women on the front lines 
by reversing another round of dramatic detrimental cuts to the 
human-oriented research within the military laboratories and by 
increasing support to behavioral research programs within DOD 
activities related to credibility assessment and 
counterintelligence.
    Thank you very much.
    Senator Stevens. Thank you very much.
    [The statement follows:]

                Prepared Statement of Jennifer Vendemia

    ``Conflict is, and will remain, essentially a human activity in 
which man's virtues of judgment, discipline and courage--the moral 
component of fighting power--will endure . . . It is difficult to 
imagine military operations that will not ultimately be determined 
through physical control of people, resources and terrain--by people . 
. . Implicit, is the enduring need for well-trained, well-equipped and 
adequately rewarded soldiers. New technologies will, however, pose 
significant challenges to the art of soldiering: they will increase the 
soldier's influence in the battlespace over far greater ranges, and 
herald radical changes in the conduct, structures, capability and ways 
of command. Information and communication technologies will increase 
his tempo and velocity of operation by enhancing support to his 
decision-making cycle. Systems should be designed to enable the soldier 
to cope with the considerable stress of continuous, 24-hour, high-tempo 
operations, facilitated by multi-spectral, all-weather sensors. 
However, technology will not substitute human intent or the decision of 
the commander. There will be a need to harness information-age 
technologies, such that data does not overcome wisdom in the 
battlespace, and that real leadership--that which makes men fight--will 
be amplified by new technology. Essential will be the need to adapt the 
selection, development and training of leaders and soldiers to ensure 
that they possess new skills and aptitudes to face these 
challenges.''--NATO RTO-TR-8, Land Operations in the Year 2020.

    Mr. Chairman and members of the subcommittee, I'm Dr. Jennifer 
Vendemia from the University of South Carolina Psychology Department. I 
am submitting testimony on behalf of the American Psychological 
Association (APA), a scientific and professional organization of more 
than 150,000 psychologists and affiliates.
    Although I am sure you are aware of the large number of 
psychologists providing clinical services to our military members here 
and abroad, you may be less familiar with the extraordinary range of 
research conducted by psychological scientists within the Department of 
Defense (DOD). Our behavioral researchers work on issues critical to 
national defense, with support from the Army Research Institute (ARI) 
and Army Research Laboratory (ARL); the Office of Naval Research (ONR); 
the Air Force Research Laboratory (AFRL), and additional, smaller human 
systems research programs in the Office of the Secretary of Defense, 
the Defense Advanced Research Projects Agency (DARPA), the Marine 
Corps, and the Special Operations Command.
    For example, my own brain imaging research, which received generous 
funding through this committee in fiscal year 2005, seeks to model the 
neurocognitive processes of lying in order to formulate new deception 
detection techniques using measures of specific brain activity. As a 
university researcher, I also collaborate with scientists conducting 
credibility assessment studies at the nearby DOD Polygraph Institute 
(DODPI) at Fort Jackson and the DOD Counterintelligence Field Activity 
(CIFA) here in Washington. Deception, and its detection, is of course 
at the heart of counterintelligence work, and the research 
collaborations with DOD are designed to bridge results from my 
investigations in basic psychophysiology to the more applied, mission-
specific science and technology work that supports counterintelligence 
activities.
    I would like to address the fiscal year 2006 human-centered 
research budgets for the military laboratories and programs within the 
context of the larger DOD Science and Technology budget.

                   DOD SCIENCE AND TECHNOLOGY BUDGET

    The President's budget request for basic and applied research at 
DOD in fiscal year 2006 is $10.52 billion, a 21 percent decrease from 
the enacted fiscal year 2005 level and a decrease from the President's 
fiscal year 2005 budget request. APA joins the Coalition for National 
Security Research (CNSR), a group of over 40 scientific associations 
and universities, in urging the subcommittee to reverse this cut in 
support and dedicate at least 3 percent of total DOD spending to 6.1, 
6.2 and 6.3 level research in fiscal year 2006.
    As our Nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    In fiscal year 2005, the administration requested $10.55 billion 
for defense S&T, less than the enacted amount in fiscal year 2004. 
Congressional appropriators in turn provided a significant increase 
over both the budget request and the fiscal year 2004 level, for a 
total of $13.33 billion. For fiscal year 2006, the President's budget 
request of $10.52 billion for DOD S&T again fell short--of both the 
fiscal year 2005 budget request and the fiscal year 2005 enacted level 
(a 21 percent decrease).
    Despite substantial appreciation for the importance of DOD S&T 
programs on Capitol Hill, and within independent defense science 
organizations such as the Defense Science Board (DSB), total research 
within DOD has remained essentially flat in constant dollars over the 
last few decades. This poses a very real threat to America's ability to 
maintain its competitive edge at a time when we can least afford it. 
APA, CNSR and our colleagues within the science and defense communities 
recommend funding the DOD Science and Technology Program at a level of 
at least 3 percent of total DOD spending in fiscal year 2006 in order 
to maintain global superiority in an ever-changing national security 
environment.

          BEHAVIORAL RESEARCH WITHIN THE MILITARY SERVICE LABS

    In August, 2000 the Department of Defense met a congressional 
mandate to develop a Report to the Senate Appropriations Committee on 
Behavioral, Cognitive and Social Science Research in the Military. The 
Senate requested this evaluation due to concern over the continuing 
erosion of DOD's support for research on individual and group 
performance, leadership, communication, human-machine interfaces, and 
decision-making. In responding to the committee's request, the 
Department found that ``the requirements for maintaining strong DOD 
support for behavioral, cognitive and social science research 
capability are compelling'' and that ``this area of military research 
has historically been extremely productive'' with ``particularly high'' 
return on investment and ``high operational impact.''
    Despite the critical need for strong research in this area, the 
administration has proposed an fiscal year 2006 defense budget that 
again would slash funding for human-centered research. APA urges the 
committee to, at a minimum, restore proposed fiscal year 2006 cuts to 
the military lab behavioral research programs.
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL). These military service 
laboratories provide a stable, mission-oriented focus for science, 
conducting and sponsoring basic (6.1), applied/exploratory development 
(6.2) and advanced development (6.3) research. These three levels of 
research are roughly parallel to the military's need to win a current 
war (through products in advanced development) while concurrently 
preparing for the next war (with technology ``in the works'') and the 
war after next (by taking advantage of ideas emerging from basic 
research). All of the services fund human-related research in the broad 
categories of personnel, training and leader development; warfighter 
protection, sustainment and physical performance; and system interfaces 
and cognitive processing.
    Despite substantial appreciation for the critical role played by 
behavioral, cognitive and social science in national security, however, 
total spending on this research declined again in the President's 
fiscal year 2006 budget. Specific human factors and manpower/personnel/
training programs within the applied 6.2 and 6.3 accounts were cut in 
the Army, and the Navy's applied 6.2 programs in human systems and 
warfighter sustainment took substantial cuts. Similarly, support for 
the Air Force's applied 6.2 and 6.3 level human effectiveness and crew 
systems and personnel protection accounts were down in the President's 
budget request.
    In addition, I know first-hand the value of supporting the smaller, 
but mission-critical, behavioral research programs within DOD, 
particularly those related to credibility assessment and detection of 
deception. APA encourages the committee to increase funding for these 
programs.
    Behavioral and cognitive research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''

    The following are brief descriptions of important behavioral 
research funded by the military research laboratories:

 ARMY RESEARCH INSTITUTE FOR THE BEHAVIORAL AND SOCIAL SCIENCES (ARI) 
                   AND ARMY RESEARCH LABORATORY (ARL)

    ARI works to build the ultimate smart weapon: the American soldier. 
ARI was established to conduct personnel and behavioral research on 
such topics as minority and general recruitment; personnel testing and 
evaluation; training and retraining; and attrition. ARI is the focal 
point and principal source of expertise for all the military services 
in leadership research, an area especially critical to the success of 
the military as future war-fighting and peace-keeping missions demand 
more rapid adaptation to changing conditions, more skill diversity in 
units, increased information-processing from multiple sources, and 
increased interaction with semi-autonomous systems. Behavioral 
scientists within ARI are working to help the armed forces better 
identify, nurture and train leaders. One effort underway is designed to 
help the Army identify those soldiers who will be most successful 
meeting 21st century noncommissioned officer job demands, thus 
strengthening the backbone of the service--the NCO corps.
    Another line of research at ARI focuses on optimizing cognitive 
readiness under combat conditions, by developing methods to predict and 
mitigate the effects of stressors (such as information load and 
uncertainty, workload, social isolation, fatigue, and danger) on 
performance. As the Army moves towards its goal of becoming the 
Objective Force (or the Army of the future: lighter, faster and more 
mobile), psychological researchers will play a vital role in helping 
maximize soldier performance through an understanding of cognitive, 
perceptual and social factors.
    ARL's Human Research & Engineering Directorate sponsors basic and 
applied research in the area of human factors, with the goal of 
optimizing soldiers' interactions with Army systems. Specific 
behavioral research projects focus on the development of intelligent 
decision aids, control/display/workstation design, simulation and human 
modeling, and human control of automated systems.

Office of Naval Research (ONR)
    The Cognitive and Neural Sciences Division (CNS) of ONR supports 
research to increase the understanding of complex cognitive skills in 
humans; aid in the development and improvement of machine vision; 
improve human factors engineering in new technologies; and advance the 
design of robotics systems. An example of CNS-supported research is the 
division's long-term investment in artificial intelligence research. 
This research has led to many useful products, including software that 
enables the use of ``embedded training.'' Many of the Navy's 
operational tasks, such as recognizing and responding to threats, 
require complex interactions with sophisticated, computer-based 
systems. Embedded training allows shipboard personnel to develop and 
refine critical skills by practicing simulated exercises on their own 
workstations. Once developed, embedded training software can be loaded 
onto specified computer systems and delivered wherever and however it 
is needed.

Air Force Research Laboratory (AFRL)
    Within AFRL, Air Force Office of Scientific Research (AFOSR) 
behavioral scientists are responsible for basic research on manpower, 
personnel, training and crew technology. The AFRL Human Effectiveness 
Directorate is responsible for more applied research relevant to an 
enormous number of acknowledged Air Force mission needs ranging from 
weapons design, to improvements in simulator technology, to improving 
crew survivability in combat, to faster, more powerful and less 
expensive training regimens.
    As a result of previous cuts to the Air Force behavioral research 
budget, the world's premier organization devoted to personnel selection 
and classification (formerly housed at Brooks Air Force Base) no longer 
exists. This has a direct, negative impact on the Air Force's and other 
services' ability to efficiently identify and assign personnel 
(especially pilots). Similarly, reductions in support for applied 
research in human factors have resulted in an inability to fully 
enhance human factors modeling capabilities, which are essential for 
determining human-system requirements early in system concept 
development, when the most impact can be made in terms of manpower and 
cost savings. For example, although engineers know how to build cockpit 
display systems and night goggles so that they are structurally sound, 
psychologists know how to design them so that people can use them 
safely and effectively.

                                SUMMARY

    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decision-making, stress resilience, and human-
systems interactions. We urge you to support the men and women on the 
front lines by reversing another round of dramatic, detrimental cuts to 
the human-oriented research within the military laboratories, and by 
increasing support to behavioral research programs within DOD 
activities related to credibility assessment and counterintelligence.
    Below is suggested appropriations report language which would 
encourage the Department of Defense to fully fund its behavioral 
research programs within the military laboratories:

                        ``Department of Defense

             ``RESEARCH, DEVELOPMENT, TEST, AND EVALUATION

    ``Behavioral Research in the Military Service Laboratories.--The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the Committee has provided 
increased funding to reverse cuts to basic and applied psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research.''.

    Senator Stevens. Our next witness I hate to leave sitting 
here, Dr. Polly. I will be right back. There is a vote. If you 
look back and see all those lights, that means that we are in 
the last part of the vote.
    Our next witness is Dr. David Polly, Professor and Chief of 
Spine Surgery at the University of Maryland, formerly of Walter 
Reed Hospital, an eminent surgeon who made it possible for me 
to walk straight up again.

STATEMENT OF DAVID W. POLLY, JR., M.D., PROFESSOR OF 
            ORTHOPAEDIC SURGERY AND CHIEF OF SPINE 
            SURGERY, UNIVERSITY OF MINNESOTA, ON BEHALF 
            OF THE AMERICAN ASSOCIATION OF ORTHOPAEDIC 
            SURGEONS
    Dr. Polly. Thank you, sir.
    Senator Stevens. Thank you very much.
    Dr. Polly. Mr. Chairman and Senator Inouye: I thank you for 
this opportunity to testify today. I am Dr. David Polly, 
Professor of Orthopaedic Surgery at the University of 
Minnesota, and I speak on behalf of the American Academy of 
Orthopaedic Surgeons.
    I have personally cared for injured soldiers at Walter Reed 
during four different military conflicts and have been deployed 
to a war zone as an orthopaedic surgeon in the military. My 
last assignment was as Chair of the Department of Orthopaedic 
Surgery and Rehab at Walter Reed.
    I speak today in support of the proposal to establish an 
Orthopaedic Extremity Trauma Research Program at the U.S. Army 
Institute of Surgical Research (ISR) at Fort Sam Houston, 
Texas, to fund intramural and extramural orthopaedic trauma 
research. It is no surprise that approximately 70 percent of 
all the trauma out of Afghanistan and Iraq is extremity trauma 
and it is orthopaedic-related--upper extremity, lower 
extremity, as well as spine trauma. Body armor has done a 
remarkable job of protecting the soldier's torso, but his or 
her extremities are very vulnerable to attacks, especially with 
IEDs. Wounded soldiers who may have died in previous conflicts 
from their injuries are now surviving and have to recover from 
these devastating injuries.
    There are remarkable examples of injured soldiers 
overcoming all odds and returning to full function and even 
Active duty, including the recent return of Captain David 
Rozelle to duty in Iraq as the first amputee returning to a 
combat zone in this conflict.
    The American Academy of Orthopaedic Surgeons has worked 
closely with top military orthopaedic surgeons at war class 
facilities, including the Institute for Surgical Research, 
Brooke Army Medical Center, and Walter Reed, to identify gaps 
in orthopaedic trauma research, specifically the need for 
improved anti-microbial bone replacement, systems for rapid 
wound irrigation, cleaning and debridement, laboratory 
investigations of pathogenesis and treatment of persistent 
infections in orthopaedic trauma, and surgical and 
pharmacologic methods to treat direct multiple trauma.
    To ensure that sufficient research is being supported on 
orthopaedic musculoskeletal trauma, it is critical that a 
dedicated program be created within the DOD. Thus the 
establishment of this orthopaedic trauma research program at 
ISR.
    It is important to note that military orthopaedic surgeons, 
in addition to personnel at the U.S. Army Medical Research and 
Material Command at Fort Detrick, have had significant input 
into the creation of this proposal and fully support its goals.
    I commend Congress for its commitment to the amputee care 
funding, especially the establishment of the Amputee Center at 
Walter Reed, which is near and dear to my heart. Thank you, 
sir. But another goal must be to do everything possible to 
salvage wounded limbs in the first place so that a soldier 
ideally does not need the Amputee Care Center at all. An 
expanded Federal commitment to orthopaedic extremity trauma 
would move us closer to this goal.
    National Institutes of Health (NIH) funding is directed at 
problems facing the U.S. population as a whole. This type of 
war extremity trauma is unique to DOD and not highly 
prioritized within the NIH. With over 70 percent of military 
trauma being orthopaedic-related, orthopaedic extremity trauma 
research clearly would be of great benefits to the sons and 
daughters of America serving in the global war on terror and in 
future conflicts.
    On behalf of America's soldiers, military orthopaedic 
surgeons in every branch of the service, and the American 
Academy of Orthopaedic Surgeons, I respectfully request that 
this subcommittee establish and fund the Orthopaedic Trauma 
Research Program to be administered at the U.S. Army Institute 
of Surgical Research.
    Thank you for this opportunity.
    [The statement follows:]

               Prepared Statement of David W. Polly, Jr.

    Chairman Stevens, Ranking Member Inouye, Members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
testify today. My name is David W. Polly, Jr., MD., and I speak today 
on behalf of the American Academy of Orthopaedic Surgeons, of which I 
am an active member, as well as on behalf of military and civilian 
orthopaedic surgeons involved in orthopaedic trauma research and care.
    I am a graduate of the United States Military Academy at West Point 
and was an airborne ranger serving as a line officer in the Army. 
Subsequently, I attended medical school at the Uniformed Services 
University of the Health Sciences and trained in orthopaedic surgery at 
Walter Reed Army Medical Center. I have personally cared for injured 
soldiers at Walter Reed during four different military conflicts and 
have been deployed to a war zone as a military orthopaedic surgeon. My 
last assignment was as Chair of the Department of Orthopaedic Surgery 
and Rehabilitation at Walter Reed. I retired at the end of 2003 after 
24\1/2\ years of service. I am currently Professor of Orthopaedic 
Surgery and Chief of Spine Surgery at the University of Minnesota.
    I would like to cover several topics today. First, I would like to 
discuss the common types of orthopaedic trauma seen out of Iraq and 
Afghanistan. Second, I will comment on the current state of orthopaedic 
trauma research. Third, I would like to offer a military perspective, 
as laid out yearly in extensive research priorities documents, of the 
direction in which orthopaedic research should head in order to better 
care for soldiers afflicted with orthopaedic trauma. Finally, I would 
like to encourage subcommittee members to consider favorably a proposal 
to create a peer-reviewed grant program, administered by the U.S. Army 
Institute of Surgical Research (USAISR), to fund intramural and 
extramural orthopaedic trauma research.

         ORTHOPAEDIC TRAUMA FROM OPERATION IRAQI FREEDOM (OIF)

    The Armed Forces are attempting to recover significantly injured 
soldiers to return them to full function or by limiting their 
disabilities to a functional level in the case of the most severe 
injuries. The ability to provide improved recovery of function moves 
toward the goal of keeping injured soldiers part of the Army or service 
team. Moreover, when they do leave the Armed Forces, these 
rehabilitated soldiers have a greater chance of finding worthwhile 
occupations outside of the service and continuing to contribute 
positively to society. The Army believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country.
    It probably comes as no surprise that approximately 70 percent of 
trauma seen out of Iraq and Afghanistan, as well as in previous 
conflicts, is orthopaedic-related, especially upper and lower extremity 
and spine. For example, during the USNS Comfort's 6-month deployment, 
surgeons on board performed 498 orthopaedic-related procedures 
accounting for almost 85 percent of the total surgical procedures 
performed. Of the 210 injured soldiers who have returned to Tripler 
Army Medical Center in Honolulu, 70 percent have had orthopaedic 
injuries. For the 447th Mobile Forward Surgical Team (FST) stationed in 
Baghdad, the extent of orthopaedic injuries has been even greater with 
89 percent of the injuries requiring orthopaedic stabilization.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. The vast majority of the orthopaedic 
injuries seen are to the upper and lower extremities. While body armor 
does a great job of protecting a soldier's torso, his or her 
extremities are particularly vulnerable during attacks.
Characteristics of Military Orthopaedic Trauma
    According to the New England Journal of Medicine, blast injuries 
are producing an unprecedented number of ``mangled extremities''--limbs 
with severe soft-tissue and bone injuries. These can be devastating, 
potentially mortal injuries (``Casualties of War--Military Care for the 
Wounded from Iraq and Afghanistan,'' NEJM, December 9, 2004).
    The trauma seen thus far is usually inflicted from close proximity 
and is most often a result of blast devices, such as improvised 
explosive devices (IEDs) and mortars. The result of such trauma is 
open, complex wounds with severe bone fragmentation. Often there is 
nerve damage, as well as damage to tendons, muscles, vessels, and soft-
tissue. In these types of wounds, infection is often a problem.
Military Versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted. First, with 
orthopaedic military trauma, there are up to five echelons of care, 
unlike in civilian settings when those injured are most likely to 
receive the highest level of care immediately. Instead, wounded 
soldiers get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be medevaced to receive care and 
transportation is often delayed due to weather or combat conditions. It 
has been our experience that over 65 percent of the trauma is urgent 
and requires immediate attention.
    Second, soldiers wounded are often in fair or poor health, are 
frequently malnourished, and usually fatigued due to the demanding 
conditions. This presents many complicating factors when determining 
the most appropriate care.
    Third, the setting in which care is initially provided to wounded 
soldiers is less than ideal, to say the least, especially in comparison 
to a sterile hospital setting. The environment, such as that seen in 
Iraq and Afghanistan, is dusty and hot, leading to concerns about 
sterilization of the hospital setting. For example, infection from 
acinetobacter baumanni, a ubiquitous organism found in the desert soil 
of Afghanistan and Iraq, is extremely common. In addition, the surgical 
environment is under constant threat of attack by insurgents. In fact, 
a considerable percentage of the care provided by military surgeons is 
for injured Iraqis, both friendly and hostile. Finally, the surgical 
team is faced with limited resources that make providing the highest 
level of care difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, such as the external fixateur, 
which has been used extensively during the current conflict as well as 
in civilian care.

      THE CURRENT AND FUTURE STATE OF ORTHOPAEDIC TRAUMA RESEARCH

    Since the Vietnam War there have been advances in medical science, 
both on the civilian and the military side. One example is with 
microvascular surgery, which is when reconstructive procedures are 
performed to try to save limbs by putting blood vessels back together 
again, providing definitive wound coverage of severe open wounds to get 
vital structures covered, such as bone, nerves, and tendons. This means 
taking tissue from one part of the body and moving it to another part 
of the body and sewing in blood vessels with the use of a microscope. 
This allows the surgeon to wash, clean, debride and cover severe open 
contaminated wounds with some type of definitive coverage
    At the annual meeting of the Advanced Technology Applications for 
Combat Casualty Care (ATACCC), medical research priorities are laid out 
for military research facilities and programs. Many of the priorities 
expand on research that is currently underway at facilities such as the 
U.S. Army Institute of Surgical Research (USAISR) and Walter Reed Army 
Medical Center (WRAMC). I would like to provide you details of some of 
the research that is already underway and the outlook for these medical 
research advances.

Anti-microbial Bone-replacement Material
    High-energy wounds on the battlefield produce contaminated wounds 
with bone loss. The goal is to develop a product that can be placed 
into an open fracture after initial debridement at far forward medical 
treatment units. The product will deliver a time-release dose of 
antibiotic into the wound as well as promote bone growth. Evaluation of 
various materials has been conducted in animal models to determine the 
best product for treating highly contaminated injuries. Future work 
focuses on accelerating healing in larger defects, as well as 
evaluation of antimicrobial bone replacement materials in humans.

Improved Long Bone Splint/cast
    The current materials employed to splint injured limbs on the 
battlefield do not provide optimal support of the injured limb and are 
too bulky to be carried by the medic along with other required medical 
supplies. The goal is to develop a smaller and lighter weight splint/
cast system that can be molded to the injured limb providing adequate 
structural support. Research is currently underway on a self-contained 
splint that can be molded to an injured extremity like a fiberglass or 
plaster splint without the requirement of external water and extra 
padding that fiberglass and plaster splinting requires.

System for Rapid Wound Irrigation and Cleaning
    Decontamination for prevention of infection in open fractures is 
essential in caring for battlefield extremity injuries. Development of 
strategies for decontamination in the far forward environment includes 
pulsatile irrigation with antimicrobial irrigation solutions. The goal 
is to identify an antimicrobial irrigation solution that produces 
optimal decontamination of open fractures. Activity against organisms 
that are unusual in the United States but have been common and 
problematic in the Iraq and Afghanistan conflicts are being considered. 
Characteristics of the contaminated wound, such as bacterial biofilm 
formation and its effect on the ability to decontaminate, are also 
being explored. Research is currently being conducted in an animal 
model.

Temporary Skin Substitute
    Prevention of contamination of open wounds after battlefield injury 
would prevent infection in minor to moderate wounds. The focus is on 
the development of a rapid set polymer that can be applied to a wound 
after cleaning.

System of Assessing Wound Tissue Viability and Cleaning
    Determination of adequate debridement to remove contaminated and 
dead tissue is essential in the treatment of battlefield injuries. 
Research in this area to produce a hand held, portable device that can 
provide a real time assessment of tissue viability as an adjunct to 
surgical debridement is ongoing.

Measuring Physical and Psychological Outcomes for Survivors of Severe 
        Penetrating Upper Extremity Injury Sustained on the Battlefield 
        in Iraq and Afghanistan
    A proposal to study the functional outcomes of U.S. casualties 
following major limb injury is being finalized by the U.S. Army 
Institute of Surgical Research. This study will help to determine the 
effect of these injuries as well as to identify areas for research in 
the future. The initial look will be a pilot study of the casualties 
from the conflicts. The ultimate goal is to establish a project to 
study these casualties prospectively throughout their treatment course.

Joint Theater Trauma Registry (JTTR)
    The U.S. Army Institute of Surgical Research has developed this 
registry modeled after trauma registries mandated by the American 
College of Surgeons at U.S. trauma centers. This registry provides 
demographic and injury data on U.S. casualties in Afghanistan and Iraq. 
It will be very useful in determining outcomes from major limb 
battlefield injury.
    There are also many exciting proposals for orthopaedic trauma 
research that have not been explored, such as:
  --Laboratory investigations on the pathogenesis and treatment of 
        persistent infections in orthopaedic trauma.
  --Those injured in Iraq are suffering from a significant rate of 
        wound infection, despite standard of care treatment. 
        Acinetobacter, a bacterium, has been identified as a frequent 
        cause of these infections, and research is needed into the 
        pathogenesis of this organism in traumatic wounds, and 
        evaluation of novel treatments.
  --Surgical and pharmacologic methods for the treatment of direct 
        muscle trauma.

                      STORIES FROM THE FRONTLINES

    There have been many heroic stories of injured soldiers struggling 
to regain function and to return to normal life, or even back to 
service. I am sure you heard about Captain David Rozelle, a Commander 
in the 3rd Armored Cavalry Regiment, who was the first OIF amputee to 
return to active duty back in March 2005 less than 2 years after having 
his right foot blown off by a landmine. In an interview with the 
National Review Online (2/14/05), when asked why he wanted to return to 
duty, Capt. Rozelle responded, ``I am smarter, stronger, and more ready 
to help create freedom for the Iraqi people.'' Before returning to 
Iraq, Capt. Rozelle even completed the New York City Marathon. His 
heroic attitude, coupled with the superior care he received following 
his injuries, made Capt. Rozelle's return to service possible.
    Another story was recently highlighted in a March 2005 National 
Public Radio (NPR) series titled ``Caring for the Wounded: The Story of 
Two Marines.'' The story followed two Marines injured in Iraq: 1st Sgt. 
Brad Kasal and Lance Cpl. Alex Nicoll. Lance Cpl. Nicoll had to have 
his left leg amputated as a result of his injuries from gunshot wounds. 
While Nicoll continues to undergo physical therapy at Walter Reed to 
get used to his new prosthetic leg, made from graphite and titanium, 
his doctors, therapists, and he are confident that he will return to 
full function. In fact, shortly after the NPR series ran, Nicoll 
visited New Hampshire for a snowboarding vacation.
    While Sgt. Kasal's was so seriously injured that he lost 4 inches 
of bone in his right leg, due to medical advances in limb salvaging, 
Sgt. Kasal did not have to have his leg amputated. Kasal is currently 
undergoing a bone growth procedure, called the Illizarov Technique, 
which grows the bone 1 millimeter a day. In about 4 months, it is 
likely that Kasal will be able to walk on both of his own legs. These 
stories clearly illustrate the benefits of orthopaedic trauma research 
to America's soldiers.

                  ORTHOPAEDIC TRAUMA RESEARCH PROGRAM

    The American Academy of Orthopaedic Surgeons (AAOS) and military 
and civilian orthopaedic surgeons and researchers are grateful that the 
committee included language in the fiscal year 2005 Defense 
Appropriations Bill to make ``orthopaedic extremity trauma research'' a 
priority research topic within the Peer Reviewed Medical Research 
Program. From all indications, the number of grants submitted under 
this topic has been incredibly high compared to other research 
priorities listed in previous years. Clearly, there is both a need and 
a demand for funding for orthopaedic trauma research.
    With orthopaedic trauma being the most common form of trauma seen 
in military conflicts, it is crucial that there be funding dedicated 
specifically to the advancement of related trauma research. The 
American Academy of Orthopaedic Surgeons (AAOS) has worked closely with 
the top military orthopaedic surgeons, at world-class facilities such 
as the U.S. Army Institute of Surgical Research, Fort Sam Houston, TX, 
Brooke Army Medical Center, and Walter Reed Army Medical Center, to 
identify gaps in orthopaedic trauma research and care, such as the need 
for improved anti-microbial bone-replacement material; systems for 
rapid wound irrigation, cleaning and debridement; laboratory 
investigations on the pathogenesis and treatment of persistent 
infections in orthopaedic trauma; and surgical and pharmacologic 
methods for the treatment of direct muscle trauma.
    The result of these discussions has been a proposal to create an 
Orthopaedic Trauma Research Program, administered by the U.S. Army 
Institute of Surgical Research (USAISR) at Fort Sam Houston, Texas, to 
fund peer-reviewed intramural and extramural orthopaedic trauma 
research. The USAISR is the only Department of Defense Research 
laboratory devoted solely to improving combat casualty care. Having the 
program administered by the USAISR will ensure that the research 
funding follows closely the research priorities laid out by the Army 
and the Armed Forces, will be of the most benefit to injured soldiers, 
and will better ensure collaboration between military and civilian 
research facilities. USAISR has extensive experience administering 
similar grant programs.
    It is important to note that military orthopaedic surgeons, in 
addition to personnel at the U.S. Army Medical Research and Materiel 
Command, Fort Detrick, have had significant input into the creation of 
this proposal and fully support its goals.

                               CONCLUSION

    I hope that I have given you a well-rounded perspective on the 
extent of what orthopaedic trauma military surgeons are seeing and a 
glimpse into the current and future research for such trauma. Military 
trauma research currently being carried out at military facilities, 
such as WRAMC and the USAISR, and at civilian medical facilities, is 
vital to the health of our soldiers. The USAISR takes a leadership role 
in the administration of funding for peer-reviewed intramural and 
extramural orthopaedic trauma research. The research carried out at 
these facilities is vital to the Armed Forces' objective to return 
injured soldiers to full function in hopes that they can continue to be 
contributing soldiers and active members of society.
    Mr. Chairman, the American Academy of Orthopaedic Surgeons, as well 
as the entire orthopaedic community, stands ready to work with this 
subcommittee to identify and prioritize research opportunities for the 
advancement of orthopaedic trauma care. Military and civilian 
orthopaedic surgeons and researchers are committed to advancing 
orthopaedic trauma research that will benefit the unfortunately high 
number of soldiers afflicted with such trauma and return them to full 
function. It is imperative that the Federal Government, when 
establishing its defense health research priorities in the fiscal year 
2006 Defense Appropriations bill, ensure that orthopedic trauma 
research is a top priority.
    I urge you to establish the Orthopaedic Trauma Research Program at 
a funding level of $25 million. While Congress funds an extensive array 
of medical research through the Department of Defense, with over 70 
percent of military trauma being orthopaedic-related, no other type of 
medical research would better benefit our men and women serving in the 
War on Terror and in future conflicts.

    Senator Stevens. Well, thank you very much, Dr. Polly. 
Every time we go out to Walter Reed or Bethesda to visit the 
wounded people, I am convinced in this war we are having fewer 
deaths, but more severe injuries.
    Dr. Polly. Yes, sir.
    Senator Stevens. Those too are going to require a 
considerable amount of research. As I said before, I do not 
know anyone that could match your ability in that.
    For the information of the audience, I had two back 
operations. After each one I went back to the same condition of 
not being able to stand up straight. Dr. Polly theorized that 
there was something in the spine rather than in the disks and 
he pursued his theory to my success. I run, I play tennis, I 
lift weights and I swim because of your skill and research, 
doctor. So we will follow you anywhere.
    Dr. Polly. Thank you, sir.
    Senator Stevens. Thank you very much.
    Senator Inouye. Will you check me out?
    Dr. Polly. Yes, sir. Right now?
    Senator Inouye. May I ask a question.
    Dr. Polly. Yes, Senator.
    Senator Inouye. A few days ago the base realignment and 
closure (BRAC) decisions were announced. Will that have any 
impact on your program?
    Dr. Polly. Sir, it is a needed realignment. There is some 
overt redundancy between Bethesda and Walter Reed and there are 
opportunities from the combination. The challenge is how to do 
it right. I think if you keep the spirit alive--I know that you 
spoke in 1988 at a dining-in at Walter Reed that I attended and 
you inspired each and every one of us, and we will be terribly 
sorry to lose the legacy of that institution and the 100 years 
of service and the many, many, many great Americans who have 
gone through there and received their care.
    But I think we need to move forward and to the future. One 
of the challenges at Walter Reed is simply parking and that 
people cannot get on and off the campus there and they do not 
have good public transportation. Bethesda is a better solution.
    While as a West Point graduate I admit a bias toward the 
Army, I recognize the overriding need for the good of DOD and 
the concept of the Walter Reed National Military Medical Center 
at Bethesda is a good idea. It should allow us to leverage the 
benefits of the NIH and build the world-class--continue the 
world-class facility that it is to provide the best care 
possible today, tomorrow, and in the future for the sons and 
daughters of America.
    Senator Inouye. Do you have any thoughts on the Uniformed 
Services University of the Health Sciences (USUHS)?
    Dr. Polly. Yes, sir. I am a graduate of the Uniformed 
Services University. I went to West Point, I served as a line 
officer, and then decided I wanted to go to medical school. I 
interviewed at the University of Virginia and had a deposit 
down on a place to live there. I went and interviewed at USUHS 
and was so inspired by J.P. Sanford and the program there that 
I changed my mind at the last minute and went to school there.
    That school is the reason that there was military medical 
care coordination in Desert Storm, because the USUHS graduates 
in the Army and the Navy and the Air Force called each other up 
and said: I am short on fluids; what have you got? Well, I got 
this and I got that. And there was a lot of horse-trading that 
went on that coordinated the care because of the network of 
interconnected people across the DOD.
    USUHS now serves as the hub for thinking about military 
medical care and we need to keep the best and brightest minds 
either on a consulting basis or a full-time basis there to 
stimulate the thoughts so that we can do a better job for the 
next generation of people serving our country.
    Senator Inouye. I thank you very much, doctor. You have 
been most reassuring.
    Dr. Polly. Thank you, sir.
    Senator Stevens. Well said, doctor. We are going to pursue 
you on that, too.
    The next witness is Carolina Hinestrosa, the Executive Vice 
President for Programs of the National Breast Cancer Coalition.

STATEMENT OF CAROLINA HINESTROSA, EXECUTIVE VICE 
            PRESIDENT OF PROGRAMS AND PLANNING, 
            NATIONAL BREAST CANCER COALITION
    Ms. Hinestrosa. Good afternoon. Thank you, Chairman Stevens 
and ranking member Inouye. Thank you and your subcommittee for 
your great determination and leadership in helping us secure 
funding for understanding how to prevent and cure breast cancer 
through the Department of Defense breast cancer research 
program.
    I am a two-time breast cancer survivor. I am a wife and a 
mother and, as you know, I am Executive Vice President of the 
National Breast Cancer Coalition. On behalf of the coalition 
and the more than 3 million women living with breast cancer, I 
thank you for the opportunity to speak today.
    We are requesting level funding for the breast cancer 
research program this year. This program is a critical research 
program that has transformed biomedical research. It has 
established itself as a model that is admired around the world 
for its accountability and innovation. This critical program--
it is important that this program maintains its structure and 
integrity. The program fills critical gaps in breast cancer 
research.
    As the Institute of Medicine (IOM) has pointed out in two 
separate reports, the DOD breast cancer research program fills 
an unmet need in breast cancer research in this community and 
is not duplicative of other programs. In both reports the IOM 
recommends that the program continue. Any changes to the 
structure of the program could significantly undermine its 
innovation and its ability to fund cutting edge breast cancer 
research.
    An inherent component of this program has been the 
inclusion of consumer advocates at every level, which has 
created an unprecedented working relationship between advocates 
and scientists and ultimately has led to new avenues of 
research in breast cancer. Since 1992 over 400 breast cancer 
survivors have served in the peer review panels for the DOD 
breast cancer research program and their vital role is key to 
the success of this model of biomedical research which is 
imitated around the world.
    The program is accountable to the public. Every cent that 
is spent must be reported at a public meeting held every 2 
years, called Era of Hope. The Era of Hope meeting this year is 
just a few weeks away in Philadelphia, from June 8 through June 
11. I hope you all will be able to attend this meeting to see 
the incredible progress that is being made through this 
program.
    I want to provide you with a couple of examples of research 
that has been funded through this program and that is making a 
real difference. You have heard about Timoxicin, a drug that 
was developed many years ago for a certain type of breast 
cancer. About 50 percent of women respond to that drug and some 
others and we do not know--we did not know who was able to 
respond. Funding by this program has identified two genes that 
can predict who would respond from this drug Timoxicin, so we 
will be able to give it to the right people.
    But most stunningly, last night I listened to a 
presentation in Orlando at the American Society for Clinical 
Oncology where they presented the results of a study of women 
with earlier breast cancer which was unprecedented. Using a 
biological monitor and an antibody of a drug, Receptin, they 
were able to show a 50 percent improvement in survival for 
women who have a particularly aggressive type of breast cancer.
    This funding for this type of research was possible in the 
early years by the Department of Defense breast cancer research 
program. It was innovative research and visionary research that 
was languishing and not being funded anywhere else. The DOD 
breast cancer research program understood and recognized the 
potential impact of this research and funded it in the early 
years and then the research progressed to women with advanced 
breast cancer and now with early breast cancer. The results 
from this research are about a 50 percent improvement in 
outcomes for these women.
    So clearly the vision, the innovation of this program, is 
paying in a very important way to the American taxpayer.
    On behalf of the women with breast cancer and on behalf of 
our daughters and granddaughters who are counting on us to do 
the right thing, I thank you for your support and urge level 
funding for this program.
    [The statement follows:]

               Prepared Statement of Carolina Hinestrosa

    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to speak to you today 
about a program that, with little Federal investment, goes a long way 
toward increasing and improving breast cancer research. You and your 
committee have shown great determination and leadership in searching 
for the answers by funding the Department of Defense (DOD) Peer-
Reviewed Breast Cancer Research Program (BCRP) at a level that has 
brought us closer to eradicating this disease.
    I am Carolina Hinestrosa, a two-time breast cancer survivor, a wife 
and mother, and Executive Vice President for Programs and Planning of 
the National Breast Cancer Coalition (NBCC). On behalf of NBCC, and the 
more than 3 million women living with breast cancer, I would like to 
thank you again for the opportunity to testify today.
    The DOD BCRP's 13 years of progress in the fight against breast 
cancer has been made possible by the Appropriations Committee's 
investment in breast cancer research. To continue this unprecedented 
progress, we ask that you support level funding for this program--a 
$150 million appropriation for fiscal year 2006. As an Institute of 
Medicine (IOM) report concluded last year, there continues to be 
excellent science that goes unfunded, but for this small program, which 
is why we believe that the BRCP should be appropriated level funding 
for fiscal year 2006.
    As you know, the National Breast Cancer Coalition is a grassroots 
advocacy organization made up of more than 600 organizations and tens 
of thousands of individuals and has been working since 1991 toward the 
eradication of breast cancer through advocacy and action. NBCC supports 
increased funding for breast cancer research, increased access to 
quality health care for all women, and increased influence of breast 
cancer activists at every table where decisions regarding breast cancer 
are made.

   WHY THE DOD BREAST CANCER RESEARCH PROGRAM NEEDS LEVEL FUNDING IN 
                            FISCAL YEAR 2006

    In the past 13 years, the DOD Peer-Reviewed Breast Cancer Research 
Program has established itself as a model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative and accountable approach. The groundbreaking research 
performed through the program has the potential to benefit not just 
breast cancer, but all cancers, as well as other diseases. Biomedical 
research is being transformed by the BCRP's success.
    This program is both innovative and incredibly streamlined. It 
continues to be overseen by a group of distinguished scientists and 
activists, as recommended by the IOM. Because there is no bureaucracy, 
the program is able to respond quickly to what is currently happening 
in the scientific community. It is able to fill gaps with little red 
tape. It is responsive, not just to the scientific community, but also 
to the public.
    This program has matured from an isolated research program to a 
broad-reaching influential voice forging new and innovative directions 
for breast cancer research and science. The flexibility of the program 
has allowed the Army to administer this groundbreaking research effort 
with unparalleled efficiency and effectiveness.
    In addition, an inherent part of this program has been the 
inclusion of consumer advocates at every level, which has created an 
unprecedented working relationship between advocates and scientists, 
and ultimately has led to new avenues of research in breast cancer. 
Since 1992, nearly 800 breast cancer survivors have served on the BCRP 
review panels. Their vital role in the success of the BCRP has led to 
consumer inclusion in other biomedical research programs at DOD. This 
program now serves as an international model.
    the dod peer reviewed bcrp provides unique funding opportunities
    It is important to note that the DOD Integration Panel that designs 
this program has a plan of how best to spend the funds appropriated. 
This plan is based on the state of the science--both what scientists 
know now and the gaps in our knowledge--as well as the needs of the 
public. This plan coincides with our philosophy that we do not want to 
restrict scientific freedom, creativity or innovation. While we 
carefully allocate these resources, we do not want to predetermine the 
specific research areas to be addressed.
    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. The IDEA grants have been instrumental in the development of 
promising breast cancer research. These grants have allowed scientists 
to explore beyond the realm of traditional research and have unleashed 
incredible new ideas and concepts. IDEA grants are uniquely designed to 
dramatically advance our knowledge in areas that offer the greatest 
potential.
    IDEA grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health, and academic research programs. Therefore, they 
complement, and do not duplicate, other Federal funding programs. This 
is true of other DOD award mechanisms as well.
    For example, the Innovator awards are structured to invest in world 
renowned, outstanding individuals, rather than projects, from any field 
of study by providing funding and freedom to pursue highly creative, 
potentially breakthrough research that could ultimately accelerate the 
eradication of breast cancer. The Era of Hope Scholar is intended to 
support the formation of the next generation of leaders in breast 
cancer research, by identifying the best and brightest independent 
scientists early in their careers and giving them the necessary 
resources to pursue a highly innovative vision toward ending breast 
cancer.
    Also, Historically Black Colleges and Minority Universities/
Minority Institutions Partnership Awards are intended to provide 
assistance at an institutional level. The major goal of this award is 
to support collaboration between multiple investigators at an applicant 
Minority Institution and a collaborating institution with an 
established program in breast cancer research, for the purpose of 
creating an environment that would foster breast cancer research, and 
in which Minority Institute faculty would receive training toward 
establishing successful breast cancer research careers.
    These are just a few examples of innovative approaches at the DOD 
BCRP that are filling gaps in breast cancer research. It is vital that 
these grants are able to continue to support the growing interest in 
breast cancer research--$150 million for peer-reviewed research will 
help sustain the program's momentum.
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. A major feature of the awards offered by the BCRP is that they 
are designed to fill niches that are not offered by other agencies. The 
BCRP considers translational research to be the application of well-
founded laboratory or other pre-clinical insight into a clinical trial. 
To enhance this critical area of research, several research 
opportunities have been offered. Clinical Translational Research Awards 
have been awarded for investigator-initiated projects that involve a 
clinical trial within the lifetime of the award. The BCRP expanded its 
emphasis on translational research by offering five different types of 
awards that support work at the critical juncture between laboratory 
research and bedside applications.
    The Centers of Excellence awards mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
major contribution towards the eradication of breast cancer. These 
Centers put to work the expertise of basic, epidemiology and clinical 
researchers, as well as consumer advocates to focus on a major question 
in breast cancer research. Many of these centers are working on 
questions that will translate into direct clinical applications.

 SOME OF THE MANY EXAMPLES OF SCIENTIFIC ACHIEVEMENTS BROUGHT ABOUT BY 
       THIS COMMITTEE'S INVESTMENT IN THE DOD PEER REVIEWED BCRP

    The BCRP research portfolio is comprised of many different types of 
projects, including support for innovative ideas, infrastructure 
building to facilitate clinical trials, and training breast cancer 
researchers.
    One of the most promising outcomes of research funded by the BCRP 
was the development of Herceptin, a drug that prolongs the lives of 
women with a particularly aggressive type of advanced breast cancer. 
This drug could not have been developed without first researching and 
understanding the gene known as HER-2/neu, which is involved in the 
progression of some breast cancers. Researchers found that over-
expression of HER-2/neu in breast cancer cells results in very 
aggressive biologic behavior. Most importantly, the same researchers 
demonstrated that an antibody directed against HER-2/neu could slow the 
growth of the cancer cells that over-expressed the gene. This research, 
which led to the development of the drug Herceptin, was made possible 
in part by a DOD BCRP-funded infrastructure grant. Other researchers 
funded by the BCRP are currently working to identify similar kinds of 
genes that are involved in the initiation and progression of cancer. 
They hope to develop new drugs like Herceptin that can fight the growth 
of breast cancer cells.
    Another example of success from the program is a study of sentinel 
lymph nodes (SLNs). This study confirmed that SLNs are indicators of 
metastatic progression of disease. The resulting knowledge from this 
study and others has lead to a standard of care that includes lymph 
node biopsies. If the first lymph node is negative for cancer cells, 
then it is unnecessary to remove all the lymph nodes. This prevents 
lymphoderma, which can be painful and have lasting complications.
    Several studies funded by the BCRP will examine the role of 
estrogen and estrogen signaling in breast cancer. For example, one 
study examined the effects of the two main pathways that produce 
estrogen. Estrogen is often processed by one of two pathways; one 
yields biologically active substances while the other does not. It has 
been suggested that women who process estrogen via the biologically 
active pathway may be at higher risk of developing breast cancer. It is 
anticipated that work from this funding effort will yield insights into 
the effects of estrogen processing on breast cancer risk in women with 
and without family histories of breast cancer.
    One DOD IDEA award success has supported the development of new 
technology that may be used to identify changes in DNA. This technology 
uses a dye to label DNA adducts, compounds that are important because 
they may play a role in initiating breast cancer. Early results from 
this technique are promising and may eventually result in a new marker/
method to screen breast cancer specimens.
    Investigators funded by the DOD have developed a novel imaging 
technique that combines two-dimensional and three-dimensional digital 
mammographic images for analysis of breast calcifications. Compared to 
conventional film screen mammography, this technique has greater 
resolution. Ultimately, this technique may help reduce the number of 
unnecessary breast biopsies.
    Despite the enormous successes and advancements in breast cancer 
research made through funding from the DOD BCRP, we still do not know 
what causes breast cancer, how to prevent it, or how to cure it. It is 
critical that innovative research through this unique program continues 
so that we can move forward toward eradicating this disease.
congress and taxpayers know how their investment is spent and that the 

           DOD PEER REVIEWED BCRP IS FEDERAL MONEY WELL SPENT

    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
program allows the Army to administer it in such a way as to maximize 
its limited resources. The program is able to quickly respond to 
current scientific advances, and fulfills an important niche by 
focusing on research that is traditionally underfunded. This was 
confirmed and reiterated in an IOM report released last year. It is 
responsive to the scientific community and to the public. This is 
evidenced by the inclusion of consumer advocates at both the peer and 
programmatic review levels. The consumer perspective helps the 
scientists understand how the research will affect the community, and 
allows for funding decisions based on the concerns and needs of 
patients and the medical community.
    Since 1992, the BCRP has been responsible for managing $1.66 
billion in appropriations. From its inception through fiscal year 2003, 
4,073 awards at 420 institutions throughout the United States and the 
District of Columbia have been awarded. Approximately 150 awards will 
be granted for fiscal year 2004. The areas of focus of the DOD BCRP 
span a broad spectrum and include basic, clinical, behavioral, 
environmental sciences, and alternative therapy studies, to name a few. 
The BCRP benefits women and their families by maximizing resources and 
filling in the gaps in breast cancer research. Scientific achievements 
that are the direct result of the DOD BCRP grants are undoubtedly 
moving us closer to eradicating breast cancer.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
6,200 publications in scientific journals, more than 4,200 abstracts 
and 140 patents/licensure applications. The Federal Government can 
truly be proud of its investment in the DOD BCRP.

 RESEARCHERS, CONSUMERS AND POLICY MAKERS AGREE: THE DOD PEER REVIEWED 
                          BCRP SHOULD CONTINUE

    The National Breast Cancer Coalition has been the driving force 
behind this program for many years. The success of the DOD Peer-
Reviewed Breast Cancer Research Program has been illustrated by several 
unique assessments of the program. The IOM, which originally 
recommended the structure for the program, independently re-examined 
the program in a report published in 1997. They published another 
report on the program in 2004. Their findings overwhelmingly encouraged 
the continuation of the program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD Peer-Review Breast Cancer Research 
Program commended the program and stated that, ``the program fills a 
unique niche among public and private funding sources for cancer 
research. It is not duplicative of other programs and is a promising 
vehicle for forging new ideas and scientific breakthroughs in the 
nation's fight against breast cancer.'' The IOM report recommended 
continuing the program and established a solid direction for the next 
phase of the program. The 2004 report reiterated these same statements 
and indicated that is important for the program to continue. It is 
imperative that Congress recognizes the independent evaluations of the 
DOD Breast Cancer Research Program, as well as reiterates its own 
commitment to the program by appropriating the funding needed to ensure 
its success.
    The DOD Peer-Reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people at a 
biennial public meeting called the Era of Hope. The Era of Hope meeting 
has set a precedent, it is the first time a federally funded program 
reported back to the public in detail not only on the funds used, but 
also on the research undertaken, the knowledge gained from that 
research and future directions to be pursued. The transparency of the 
BCRP allows scientists, consumers and the American public to see the 
exceptional progress made in breast cancer research.
    At the 2002 Era of Hope meeting, all BCRP award recipients from 
fiscal years 1998-2000 were invited to report their research findings, 
and many awardees from previous years were asked to present 
advancements in their research. Scientists reported important advances 
in the study of cancer development at the molecular and cellular level. 
Researchers presented the results of research that elucidates several 
genes and proteins responsible for the spread of breast cancer to other 
parts of the body, and, more importantly, reveals possible ways to stop 
this growth. The meeting, which marked the 10th anniversary of the 
program, also featured grant recipients who are working towards more 
effective and less toxic treatments for breast cancer that target the 
unique characteristics of cancer cells and have a limited effect on 
normal cells. The next meeting will be held in June 2005.
    The DOD Peer-Reviewed Breast Cancer Research Program has attracted 
scientists with new ideas and has continued to facilitate new thinking 
in breast cancer research and research in general. Research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/
bcrp/.

           COMMITMENT OF THE NATIONAL BREAST CANCER COALITION

    The National Breast Cancer Coalition is strongly committed to the 
DOD program in every aspect, as we truly believe it is one of our best 
chances for finding cures and preventions for breast cancer. The 
Coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this program at a level that allows 
this research to forge ahead.
    In May 1997, our members presented a petition with more than 2.6 
million signatures to congressional leaders on the steps of the 
Capitol. The petition called on the President and the U.S. Congress to 
spend $2.6 billion on breast cancer research between 1997 and the year 
2000. Funding for the DOD Peer-Reviewed Breast Cancer Research Program 
was an essential component of reaching the $2.6 billion goal that so 
many women and families worked for.
    Once again, NBCC is bringing its message to Congress. Just over 1 
month from now, many of the women and family members who supported the 
campaign to gather the 2.6 million signatures will come to NBCCF's 
Annual Advocacy Training Conference here in Washington, DC. More than 
600 breast cancer activists from across the country will join us in 
continuing to mobilize our efforts to end breast cancer. The 
overwhelming interest in, and dedication to eradicate this disease 
continues to be evident as people not only are signing petitions, but 
are willing to come to Washington, DC from across the country to 
deliver their message about their commitment.
    Since the very beginning of this program in 1992, Congress has 
stood in support of this important investment in the fight against 
breast cancer. In the years since, Mr. Chairman, you and this entire 
committee have been leaders in the effort to continue this innovative 
investment in breast cancer research.
    NBCC asks you, Defense Appropriations Subcommittee, to recognize 
the importance of what has been initiated by the Appropriations 
Committee. You have set in motion an innovative and highly efficient 
approach to fighting the breast cancer epidemic. What you must do now 
is support this effort by continuing to fund research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to the 3 million women in the United States living with 
breast cancer.

    Senator Inouye [presiding]. Thank you very much. I think 
you should also thank the members of the United States Senate, 
because you may notice that this is in a defense account. It 
should have been in the health account. But as we all know, the 
health account is lacking in appropriate funds. Therefore, with 
the permission of the Senate, we have put it in the defense 
fund.
    Ms. Hinestrosa. And I thank you for that.
    Senator Inouye. You can be assured that will continue.
    Ms. Hinestrosa. Thank you very much.
    Senator Inouye. Thank you.
    Our next witness is the Director of the Osteoporosis 
Research Center on behalf of the National Coalition for 
Osteoporosis and Related Bone Diseases, Dr. Robert Recker. 
Doctor.

STATEMENT OF ROBERT RECKER, M.D., DIRECTOR, 
            OSTEOPOROSIS RESEARCH CENTER, ON BEHALF OF 
            THE NATIONAL COALITION FOR OSTEOPOROSIS AND 
            RELATED BONE DISEASES
    Dr. Recker. Mr. Chairman, I am Robert Recker, Director of 
the Osteoporosis Center at Creighton University in Omaha, 
Nebraska. I am testifying on behalf of the National Coalition 
for Osteoporosis and Related Bone Diseases. We appreciate the 
opportunity to discuss the necessity for continued support and 
funding of the bone health and military medical readiness 
research program within the Department of Defense.
    This research program addresses the problem of stress 
fractures. These fractures are the most serious overuse 
injuries that are the result of repeated stresses that occur in 
vigorous training and not from a single traumatic event. Stress 
fracture injury has a marked impact on the health and force 
readiness of military personnel, imposing significant costs in 
medical care, extended training time, attrition of personnel, 
and ultimately military readiness.
    It is one of the most common and disabling overuse injuries 
seen in military recruits today, particularly in women. 
Approximately 50 percent of all women and 30 percent of all men 
sustain an overuse injury in basic training, and the majority 
of soldiers pulled from training for rehabilitation suffer from 
stress fractures. Worse, 40 percent of the men and 60 percent 
of the women pulled from training due to stress fracture do not 
return and are retired from the military and discharged. Those 
who do return require 80 to 120 days of rehabilitation.
    At Fort Jackson alone, an estimated $26 million was spent 
in one year on training 749 soldiers later discharged due to 
stress fracture. Our own archive from our experience and 
research at Fort Leonard Wood shows that extent of these 
fractures that range from pelvic fractures to upper hip 
fractures, mid-leg fractures, lower limb fractures, foot 
fractures. Some of them are disabling for life.
    The bone health and military medical readiness research 
program has provided some practical solutions to help protect, 
sustain, and enhance the performance of military personnel. 
Research with human and animal models has revealed the 
following. The length of stride for women is related to 
fracture. Genetics plays a role in bone marrowization and 
structural processes of bone that influence strength. Calorie 
restriction and calcium deficiency result in decreased 
structural properties of bone and contribute to decreased bone 
strength. Oral contraceptive use contributes to reduced bone 
mass, which increases fracture risk. Chronic alcohol 
consumption inhibits bone formation.
    We at Creighton, collaborating with military scientists, 
have demonstrated that heel ultrasound measurement and 
assessment of risk factors, such as physical fitness, smoking, 
use of injectable contraceptives, performed at the onset of 
basic training predict risk of stress fractures. As a result of 
such research, technologies such as positron emission 
tomography, acoustic emission, are being developed for higher 
imaging and better identification of stress fractures. 
Modifications have been made to the U.S. Army physical fitness 
training program to reduce fractures while hopefully not 
decreasing the overall fitness of military recruits at the end 
of basic training.
    Studies are ongoing to determine whether Vitamin D or 
calcium supplementation decreases the incidence of stress 
fractures in new recruits. Additional research is needed. We 
need better approaches to identify and improve bone health in 
recruits, interventions to reduce stress fracture during 
strenuous physical training and deployment, and acceleration of 
stress fracture healing and return to full status.
    Mr. Chairman, in summary, stress fractures continue to 
occur, significantly impair military readiness, and delay the 
time to battlefield deployment. It is imperative that the 
Department of Defense build on recent findings and maintain an 
aggressive and sustained bone health research program at a 
level of $6 million in fiscal year 2006.
    Thank you very much.
    [The statement follows:]

   Prepared Statement of Joan Goldberg, Executive Director, American 
                 Society for Bone and Mineral Research

    Mr. Chairman and members of the committee, I am Joan Goldberg, 
Executive Director of the American Society for Bone and Mineral 
Research and I am testifying on behalf of the National Coalition for 
Osteoporosis and Related Bone Diseases. The members of the Bone 
Coalition are the American Society for Bone and Mineral Research, the 
National Osteoporosis Foundation, the Paget Foundation for Paget's 
Disease of Bone and Related Disorders, and the Osteogenesis Imperfecta 
Foundation. We appreciate this opportunity to discuss with you the 
necessity for continued support and funding of the Bone Health and 
Military Medical Readiness Research Program within the Department of 
Defense (DOD).
    The Bone Health and Military Medical Readiness Research Program 
addresses a critical obstacle to military readiness and a major cause 
of low soldier retention during basic training and thereafter. This 
program supports research to improve our understanding of stress 
fracture risk, to develop better assessment and prevention methods, all 
aimed at the preservation of bone health in military men and women. 
Currently, a significant research effort underway to protect and 
enhance bone health is targeting the elimination of training-related 
stress fractures.
    Stress fracture injury has a marked impact on the health and force 
readiness of military personnel, imposing significant costs to the 
Department of Defense in terms of medical care, extended training time, 
attrition of military personnel and, ultimately, military readiness. It 
is one of the most common and potentially debilitating overuse injuries 
seen in military recruits today, particularly in women. Recent 
statistics show that approximately 50 percent of all women and 30 
percent of all men sustain an overuse injury in basic training. The 
majority of soldiers pulled from training for rehabilitation suffer 
from stress fracture. Worse, 40 percent of the men and 60 percent of 
the women pulled from training due to stress fracture do not return to 
training. In fact, they are discharged from the military. Those who do 
return to training require 80 to 120 days of rehabilitation. At Fort 
Jackson alone, over a 1-year period an estimated $26 million was spent 
on training 749 soldiers later discharged due to stress fracture. This 
does not include costs related to health care.
    Stress fractures occur when muscles transfer the overload of strain 
to the bone, most commonly in the lower leg, and cause a tiny crack. 
Anyone who suddenly increases his or her frequency, intensity, or 
duration of physical activity, such as reservists or soldiers returning 
from long deployments where physical activity could not be undertaken 
on a regular basis, has an increased risk of developing lower body 
stress fractures. There are several forms of stress fractures that 
require more involved treatment. Stress fractures in the ``knobby'' 
part of the femur--the bone that fits into the hip socket or hip bone 
itself--sometimes progress to full fractures or larger fractures and 
interrupt the blood supply to the thigh bone portion of the hip joint. 
This in turn can cause early degenerative changes in the hip joint. 
Physicians consider this type of stress fracture to be a medical 
emergency for this reason. Other particularly slowly healing stress 
fractures include those of the navicular (foot bone), anterior cortex 
of the tibia (front portion of the mid-shin bone) and proximal fifth 
metatarsal (a bone in the foot). Healing takes months.
    The Bone Health and Military Medical Readiness Research Program is 
already providing the military with some practical solutions to help 
protect, sustain and enhance the performance of military personnel. 
Research using animal and human models to study the influence of 
genetics, nutrition, exercise, and other influences on bone quality, 
and fracture risk, has revealed the following:
  --The length of stride for women is related to fracture.
  --Genetics plays a role not only in bone mineralization, but 
        significantly influences other structural properties of bone 
        that influence bone strength. Further, genetics influences the 
        sensitivity of bone tissue to mechanical loading and unloading. 
        (``Loading'' is experienced when moving, with higher load 
        experienced when bending over, lifting weights, etc.)
  --In identical environments, the genetic influence of mechanical 
        loading is site specific, and affects different kinds of bone 
        differently.
  --In the tibia, the most common site of stress fracture injury, bone 
        tissue compensates for the smaller geometry of this bone 
        through variations in material properties that result in 
        increased susceptibility to bone damage under conditions of 
        repetitive loading.
  --Caloric restriction and calcium deficiency--common to women on 
        diets--result in decreased structural properties of bone, and 
        may contribute to decreased bone strength. (Weaker bones may 
        suffer more damage.)
  --Oral contraceptive use contributes to reduced bone mass 
        accumulation. (Low bone mass increases fracture risk.)
  --Chronic alcohol consumption inhibited tibial bone formation, 
        possibly through observed decreases in production of the growth 
        factor IGF-I.
  --The growth factor IGF-I is critical for puberty-induced bone 
        growth, further supporting a prominent role for IGF-I in bone 
        formation.
  --Meta-analyses--reviews of multiple studies--confirm that both 
        aerobic exercise and resistance training improve bone density 
        at multiple sites in women.
  --Short-term exercise was sufficient to elicit improvements in 
        mechanical properties of male but not female mice, indicating a 
        gender-specific response to exercise.
  --Individuals with dark skin or who are receiving minimal sun 
        exposure--e.g. in late winter--demonstrate Vitamin D deficiency 
        and may benefit from supplementation with Vitamin D, important 
        in maintaining bone health.
    As a result of research such as the above:
  --A successful working prototype of a small-scale, high resolution 
        positron emission tomography (PET) device was developed, for 
        higher imaging and better identification of stress fractures.
  --Acoustic emission, a promising new method to detect microdamage in 
        bone, detected changes in bone prior to its breaking in a 
        laboratory setting.
  --Modifications have already been made to the U.S. Army physical 
        fitness training program to decrease the volume of running and 
        marching activities that take place during recruit training in 
        an effort to reduce stress fracture injuries. This impact is 
        being tracked.
  --A study is ongoing to determine whether Vitamin D supplementation 
        decreases the incidence of stress fracture in new recruits.
    Additional bone research is needed, including better approaches to 
identify and improve bone health in at risk recruits, interventions to 
reduce stress fracture during strenuous physical training and 
deployment, and acceleration of stress fracture healing and return to 
full duty status. Areas of need include:
  --Utilizing genetic (bone density, bone geometry), lifestyle 
        (nutrition, exercise history), and other risk factors 
        (menstrual status, oral contraceptive use, smoking) to 
        establish a risk factor profile that identifies individuals at 
        high risk for stress fracture injury.
  --Expanding on preliminary findings that revealed gender differences 
        in the response of bone to physical training.
  --Conducting small pilot studies and larger clinical trials of 
        resistance training, aerobic exercise training, and diet and 
        nutrition interventions to improve bone quality in a military 
        population and to determine whether they can be successfully 
        implemented to prevent or reduce significantly the incidence of 
        stress fracture in a basic training population.
  --Advancing non-invasive bone imaging technologies to assess risk, 
        identify stress fractures (easily missed by commonly used 
        technology) and monitor healing.
    Mr. Chairman, the bottom line is that stress fractures continue to 
occur, significantly impair military readiness, and delay the time to 
battlefield/deployment. Therefore, it is imperative that the Department 
of Defense build on recent findings and maintain an aggressive and 
sustained bone health research program at a level of $6 million in 
fiscal year 2006.

    Senator Inouye. Doctor, does your research indicate that 
there is a difference in the services? Does the Army suffer 
more stress than the Navy or the Air Force?
    Dr. Recker. No, the incidence of stress fractures seems to 
occur across the military, because the military basic training 
is pretty much similar in all the branches.
    Senator Inouye. Do you believe that the training mode 
should be studied?
    Dr. Recker. Yes, it should, and it has been studied. On the 
one hand, we cannot reduce the physical fitness of our training 
at the end of training, and on the other hand we have to 
arrange the training program so that we do not have so much 
disability from and training loss from stress fractures and 
other overuse injuries. But stress fractures are the worst. So 
yes, we need to continue to study that to try to get training 
programs that will give us----
    Senator Inouye. So your program is cost effective?
    Dr. Recker. I think so.
    Senator Inouye. I thank you very much, sir.
    Dr. Recker. Thank you very much.
    Senator Inouye. Our next witness is a member of the Board 
of Directors of the National Brain Injury Research, Treatment, 
and Training Foundation, Mr. Martin B. Foil, Jr. Mr. Foil.

STATEMENT OF MARTIN B. FOIL, JR., MEMBER, BOARD OF 
            DIRECTORS, NATIONAL BRAIN INJURY RESEARCH, 
            TREATMENT, AND TRAINING FOUNDATION
    Mr. Foil. Good morning, Senator Inouye--good afternoon, I 
guess. Nice to see you again and good to be here.
    Senator Inouye. It is morning in Hawaii, sir.
    Mr. Foil. Point well taken.
    I am happy to be here today and talk to you some about what 
some people call the signature condition of the conflict in 
Iraq, and that is traumatic brain injury (TBI), and to request 
$14 million for the defense and veterans head injury program. 
Over the past year this program has treated 1,000 troops with 
TBI. You have probably seen this in the papers, including USA 
Today and People magazine, copies of which have been attached 
to the written statement.
    Many of our service men and women are returning from Iraq 
with TBI's and not all have been appropriately diagnosed and 
treated. Through the work of the defense and veterans head 
injury program (DVHIP), we are able to identify most of these 
injuries, but unless we expand our research to areas where 
there are no treatment facilities or Veterans Administration 
(VA) hospitals many are going to fall through the cracks.
    Last year you asked me how the DVHIP could assure the 
optimum care beyond its eight lead sites and the regional 
network of secondary VA hospitals. This has been a top priority 
for DVHIP, but the agency administering has had other 
priorities. So we are going to move the program to Fort 
Detrick. We think it will be more successful, and ideally we 
would like to have facilities much like Virginia NeuroCare 
throughout the country, which last year had a 35 percent return 
to active duty rate.
    To meet immediate needs, DVHIP needs to offer a call for 
proposals for innovative clinical programs that will support 
distributed care networks. In addition, care coordinators will 
be strategically placed throughout the country for patients 
with TBI and their families in their home States.
    DVHIP continues to focus on blast injury, especially for 
those who are hit with IEDs, and is leading the effort to 
provide guidelines for the assessment and follow-up care after 
these blast-related TBIs within the military environment.
    Another priority is evaluating the connection between post-
traumatic stress disorder (PTSD) and TBI. There are 
similarities in the symptoms, yet treatment for the two 
conditions is quite different. There is not much known about 
combat PTSD in persons with TBI. Clinically focused research 
initiatives by DVHIP would investigate this unique relationship 
to ensure that the troops are receiving the best care available 
for both their brain and their mind.
    Mr. Chairman, there is $7 million in the DOD budget. We are 
asking for a plus-up of $7 million, so in all $14 million is 
being requested for this important program. The funding is 
needed to continue training combat medics, surgeons, general 
medical officers and reservists and the best practices of TBI 
care, provide continuity of care from the battlefield to rehab 
and back to Active duty, and to work to ensure that no one 
falls through the cracks.
    We are going to hope that you will continue to support our 
efforts to provide the best care possible to our Nation's brave 
men and women in uniform.
    Thank you very much. Any questions?
    [The statement follows:]

               Prepared Statement of Martin B. Foil, Jr.

    My name is Martin B. Foil, Jr. and I am the father of Philip Foil, 
a young man with a severe brain injury. I serve as a volunteer on the 
Board of Directors of the National Brain Injury Research, Treatment and 
Training Foundation (NBIRTT) \1\ and Virginia NeuroCare in 
Charlottesville, Virginia (VANC).\2\ Professionally, I am the Chief 
Executive Officer and Chairman of Tuscarora Yarns in Mt. Pleasant, 
North Carolina.
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment and training.
    \2\ VANC provides brain injury rehabilitation to military 
personnel, veterans and civilians through an innovative and cost 
effective day treatment program.
---------------------------------------------------------------------------
    On behalf of the thousands of military personnel that receive brain 
injury treatment and services annually, I respectfully request that a 
total of $14 million be provided in the Department of Defense (DOD) 
Appropriations bill for fiscal year 2006 for the Defense and Veterans 
Head Injury Program (DVHIP). This request includes the $7 million in 
the DOD's POM which we hope will be moved from the Uniformed Services 
University of the Health Sciences to the Army Medical Research and 
Materiel Command (AMRMC) at Fort Detrick. An additional $7 million plus 
up would allow the important work of the program to continue, with 
clinical care coordinated through Walter Reed Army Medical Center 
(WRAMC) as the headquarters for the entire program.

  TRAUMATIC BRAIN INJURY (TBI) MAY BE THE SIGNATURE CONDITION OF THE 
                            CONFLICT IN IRAQ

    Nearly 1,000 combat casualties from the Global War on Terrorism 
have been served by DVHIP, and that does not include active duty 
military injured in car crashes and other incidents occurring once they 
return home.\3\
---------------------------------------------------------------------------
    \3\ Survivors of War Take Fatal Risks on Roads, Gregg Zoroya, USA 
Today, May 3, 2005, pg A1. http://www.usatoday.com/news/nation/2005-03-
03-brain-trauma-lede_x.htm
---------------------------------------------------------------------------
    As we reported in last year's testimony, the incidence of TBI 
sustained in theater was expected to be higher than in previous 
conflicts. That indeed has been true, and continues to be the case. In 
previous conflicts, TBI accounted for some 25 percent of combat 
casualties. However, last spring one WRAMC study found 61 percent of 
at-risk soldiers seen at WRAMC were assessed to have TBIs. Although 
this one study does not reflect the entire population of wounded in 
action, the high percentage suggests that TBI acquired in theater 
continues to be a problem that needs to be addressed. The reasons for 
the higher incidence of TBI include:
  --The use of effective body armor has saved more lives;
  --Medical personnel are more aware of the significance of mild closed 
        TBIs and concussions and are therefore more likely to identify 
        them; and
  --The incidence of blast injuries in Iraq and Afghanistan is high.
    There has also been an increase in awareness of TBI, mostly through 
news media reports of injured troops (e.g. recent USA Today and People 
articles are attached).\4\ Like Army Reserve Officer Alec Giess, 
featured in the People magazine story, some troops may not be diagnosed 
with TBI until months later. One of the greatest challenges the 
military health care and veterans systems face is to assure that no one 
falls through the cracks. The DVHIP is an important tool to assure a 
continuum of care, but the program requires additional resources to 
assure that no TBI is overlooked or misdiagnosed.
---------------------------------------------------------------------------
    \4\<bullet>T3AAfter Iraq, Devastating New Wounds, High-tech body 
armor is saving soldiers' lives on the battlefield. But it's leaving 
them with brain damage, T. Fields-Myer, V. Bane, J. Podesta, R. 
Schlesinger, J. Voelker, People Magazine, May 9, 2005, pg. 223-5; Key 
Iraq Wound: Brain Trauma, Body Armor Prevents Death, Not Damage, Gregg 
Zoroya, USA Today, March 4, 2005, pg. A1. http://www.palo-
alto.med.va.gov/resources/docs/polytrauma/media/People Magazine050905-
Print.pdf
---------------------------------------------------------------------------
          THE DEFENSE AND VETERANS HEAD INJURY PROGRAM (DVHIP)

    Established in 1992, the DVHIP is a component of the military 
health care system that integrates clinical care and clinical follow-
up, with applied research, treatment and training. The program was 
created after the first Gulf War to address the need for an overall 
systemic program for providing brain injury specific care and 
rehabilitation within DOD and DVA. The DVHIP seeks to ensure that all 
military personnel and veterans with brain injury receive brain injury-
specific evaluation, treatment and follow-up. Clinical care and 
research is currently undertaken at seven DOD and DVA sites and one 
civilian treatment site.\5\ In addition to providing treatment, 
rehabilitation and case management at each of the 8 primary DVHIP 
centers, the DVHIP includes a regional network of additional secondary 
veterans' hospitals capable of providing TBI rehabilitation, and linked 
to the primary lead centers for training, referrals and consultation. 
This is coordinated by a dedicated central DVA TBI coordinator and 
includes an active TBI case manager training program. DVHIP also 
provides education to providers and patients' families.
---------------------------------------------------------------------------
    \5\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, FL; Naval Medical Center San Diego, San 
Diego, CA; Minneapolis Veterans Affairs Medical Center, Minneapolis, 
MN; Veterans Affairs Palo Alto Health Care System, Palo Alto, CA; 
Virginia Neurocare, Inc., Charlottesville, VA; Hunter McGuire Veterans 
Affairs Medical Center, Richmond, VA; Wilford Hall Medical Center, 
Lackland Air Force Base, TX.
---------------------------------------------------------------------------
               CONTINUING EFFORTS AND CURRENT CHALLENGES

Clinical Care
    DVHIP continues to ensure optimal care, conduct clinical research, 
provide educational programs on TBI as well as provide family support 
for active duty military and veterans. All DVHIP sites have maintained 
and many have increased treatment capacity. This has been a direct 
response to the influx of patients seen secondary to Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF). WRAMC receives more 
casualties from theater than all of the other military treatment 
facilities (MTFs) in the continental United States. Patients are often 
seen at WRAMC within a week or two after injury and many of these 
patients have multiple injuries (e.g., TBI, traumatic amputations, 
shrapnel wounds, etc.).
    To meet the increased demand, screening procedures were developed 
by DVHIP headquarters and clinical staff. The DVHIP clinical staff 
reviews all incoming casualty reports at WRAMC and screens all patients 
who may have sustained a brain injury based on the mechanism of injury 
(i.e., blast/explosion, vehicular accident, fall, gunshot wound to the 
head, etc.). DVHIP screening is identifying TBI patients that might 
otherwise go undetected, posing a potential threat to patients and, in 
the case of premature return to active duty, military readiness.

Community Reentry and Return To Work
    As of April 29, 2005, a full 35 percent of soldiers treated at 
Virginia NeuroCare (VANC) returned to active duty. As a core program of 
the DVHIP, VANC provides innovative community based rehabilitation 
programs that maximize functional independence and facilitate re-entry 
into family and community life. VANC's coordination with the Judge 
Advocate General (JAG) school, in which active duty soldiers get back 
into the military environment and develop work skills as well as 
participate in military exercises has demonstrated its excellence in 
the continuum of care received by injured military personnel. Housing 
for eight additional beds is needed, however, to accommodate the 
increase in active duty patients enrolled at VANC.

Blast Injury Research
    Improved body armor, the significance of even mild brain injury, 
and the high frequency of troops wounded in blasts all lead to blast-
induced TBI being an important health issue in this war. DVHIP at WRAMC 
has identified over 400 patients who have sustained TBIs in OIF/OEF, 
most of whom have been injured in blasts. The goal of TBI treatment is 
to maintain individuals at duty whenever possible without negatively 
affecting the unit mission or the individual service member and to 
maximize the individual service member's potential for long term 
productivity and quality of life.
    The DVHIP is leading the effort to elucidate patterns of brain 
injury from blast, including providing guidelines for the assessment 
and follow-up care after blast-related TBI within the military 
environment. Ongoing DVHIP research is linked to clinical care programs 
to ensure that information learned from caring for these individuals 
will be disseminated to military and veteran treatment facilities and 
added to the medical literature. Continuing collaboration with military 
experts on blast, working with preclinical subjects, also will help to 
better understand the injuries our troops sustain.

Medic Training
    In response to an unmet need identified at the March 2004 DVHIP co-
sponsored Neurotrauma in Theater: Lessons Learned from Iraq and 
Afghanistan conference, DVHIP is developing a Combat Medic Training 
module, to be made available online and in theater by November 2005. 
DVHIP continues to proactively train deploying clinicians and care 
providers at troop-intensive military treatment facilities. A military 
first responder (Medic) online training course, which will offer CME 
and CEU credits, will be available online and in theater by early 
summer. Additional education initiatives include a Coordination of Care 
Guide for TBI case managers, multiple Grand Rounds, and the 
dissemination of DVHIP research and clinical practice publications.

Post Deployment Forms
    DVHIP will continue its efforts to have blast and head injury 
exposure added to the current Post Deployment form. DVHIP's experience 
in identifying individuals with TBI and referring them for care at Ft. 
Bragg and Camp Pendleton will be turned into management algorithms for 
large scale use.

                            NEW INITIATIVES

Improving Access to TBI Specific Care
    In order to assure that TBI specific care is available to 
individuals after leaving specialty treatment centers, DVHIP will offer 
a call for proposals for innovative clinical programs that will 
establish distributed care networks. Outcomes measurement will include 
patient level of independence, family education and satisfaction, and 
cost savings analyses. TBI care is currently centralized at DVHIP lead 
centers: four VA and three military medical centers, and one civilian 
community re-entry center. Patients who need TBI specialty follow-up 
care may be forced to travel great distances to receive it. Thus, 
proposals will be solicited to address this need, including bringing 
specialty TBI outpatient care to areas with no VA hospital (e.g., 
Alaska). Proposals for two types of programs will be elicited:
  --TBI Community care.--Coordinated TBI case management, to include 
        family support initiatives, has the potential to greatly 
        facilitate community re-entry among TBI survivors. Proposals to 
        be considered include augmented clinics and telemedicine. To be 
        considered for funding, proposals must have clear outcome 
        measures designed to quantify improvements in patient self-
        sufficiency and cost-savings to the Federal Government.
  --Treatment of neurobehavioral consequences of TBI.--Often the most 
        disturbing to patients and families, neurobehavioral problems 
        such as memory, personality, and mood may complicate re-entry 
        to home and other relationships. Innovative, community-based 
        programs that add neurobehavioral expertise for ongoing care of 
        patients with TBI will be solicited.

TBI and Mental Health Evaluation
    As soldiers return home, much attention is often paid to the 
possibility of post-traumatic stress disorder (PTSD). One critical area 
not to be overlooked is the relationship between TBI and PTSD. Research 
suggests that patients with both PTSD and TBI are an important 
population to identify, though not much is known about combat PTSD in 
persons with TBI. While there are some similarities in initial symptoms 
(headaches, trouble focusing, irritability), treatment for PTSD and TBI 
are indeed very different. Clinically focused research initiatives by 
DVHIP would investigate the unique relationship between TBI and PTSD to 
ensure that the troops are receiving the best care available for both 
their brain and their mind. Additional initiatives could focus on 
mental health providers, who may where individuals with TBI present for 
care.

TBI Assessment in Theater
    DVHIP is leading the effort to provide evidence-based guidelines 
for the assessment and follow-up care after blast-related TBI within 
the military environment. An integral part of this effort is the 
development of militarily relevant concussion guidelines that are 
medically and scientifically based. Existing sports concussion 
guidelines are not fully applicable to combat situations--particularly 
because post injury symptoms may put the individual and fellow troops 
at risk. Medics and clinicians in theater have voiced great interest in 
objective tools to aide in the diagnosis and management of TBI. DVHIP 
is continuing to work toward the final development and deployment of a 
computerized assessment battery for concussion. DVHIP's unique role in 
ensuring state of the art clinical care throughout the various levels 
from battlefield to community reentry makes this possible.
    A January 2005, GAO report on vocational rehabilitation for injured 
service members emphasized that early intervention following TBI is 
highly correlated with positive outcomes.\6\ By making it possible to 
identify TBI immediately following an injury, America's war fighters 
will receive the best care possible. Widespread use of a TBI assessment 
battery will ensure that medics and clinicians in theater follow 
evidence-based concussion guidelines.
---------------------------------------------------------------------------
    \6\ Vocational Rehabilitation: More VA and DOD Collaboration Needed 
to Expedite Services for Seriously Injured Service members, GAO-05-167 
(Washington, DC: January 2005).
---------------------------------------------------------------------------
TBI Screening
    The addition of a TBI clinician at key medical transfer points such 
as Landstuhl Regional Medical Center (LRMC) in Germany and Andrews Air 
Force Base will ensure that the screening process developed at WRAMC by 
DVHIP identifies wounded service members who may also have a TBI. The 
implementation of screening at WRAMC has identified TBI in many 
soldiers who were not yet diagnosed with TBI. This effort would augment 
the current Joint Theater Trauma Registry that has limited information 
on brain injury, especially milder forms of TBI.

Clinical Registry Database
    DVHIP proposes to develop a clinical registry, designed for 
obtaining information on TBI patients far forward and following their 
clinical outcomes. The database will also allow for rapid response to 
clinical questions from military and VA medical leaders regarding the 
incidence and outcome of TBI as well as permit the sharing of medical 
information between clinicians and case managers. Additionally, this 
will enable medical providers in theater to communicate questions 
regarding TBI patients to the DVHIP, and facilitate the timely transfer 
of patients to appropriate VA and military programs. This can be 
completed as a stand alone project focused on hospital and in-theater 
care, or as an augmentation of the Joint Theater Trauma Registry 
database.

Educational Outreach
    There is a need for greater educational outreach (teams of trainers 
or other types of educational outreach) at specific non-DVHIP military 
medical facilities and troop intensive sites (e.g. Fort Hood, Fort 
Carson, etc.) to provide TBI training and education for providers with 
direct contact with large numbers of troops, both troops stationed 
locally and troops returning from theater (e.g., Reservists). This 
effort could also increase DVHIP's reach in surveillance to include 
centers beyond those in the core DVHIP network.
    An educational outreach team was very successful in educating 
providers of the 249th General Hospital who were deploying to 
Afghanistan without a neurosurgeon, as allied neurosurgical injuries 
were not anticipated. Training in neurocare was provided at Fort Gordon 
and contact continued via email after the 249th reached Afghanistan.

                               CONCLUSION

    In NBIRTT's view, the Congress has been very responsive to the 
needs of our brave men and women in uniform who risk their lives for 
us. We urge your continued support for active duty military men and 
women sustaining brain injuries, whether in combat or at home. The 
DVHIP has stepped up to the plate to meet the needs of soldiers with 
brain injuries. Please support $14 million for the DVHIP in the fiscal 
year 2006 Defense Appropriations bill under AMRMC, Fort Detrick to 
continue this important program.
    Thank you.

    Senator Inouye. Will the VA benefit from your program?
    Mr. Foil. Yes, sir.
    Senator Inouye. Will you be able to seal up the cracks so 
they will not fall through?
    Mr. Foil. Well, nothing is 100 percent positive. But last 
year, if you remember, you and Senator Stevens asked us how we 
are going to help Hawaii and Alaska. You remember that?
    Senator Inouye. Yes, we have got big cracks there.
    Mr. Foil. That is right. Well, you heard me talk about care 
coordinators. What we would like to do and what our agenda is 
if we get this money is to take this--hold on just a minute. 
Let us see.
    There are a couple of places in Hawaii that we are looking 
at that if we have the money to do this we would like to look 
at, Tripler Army Medical Center in Honolulu and the VA Medical 
Center in Honolulu. We would like to place a care coordinator 
in there, and their job is going to be to start a program much 
like we see here in the United States that has been so 
successful.
    In Alaska there are a couple of opportunities, Bassett Army 
Community Hospital in Fort Wainwright, which is in Fairbanks, 
and there is a medical facility at Elmendorf Air Base called 
the Health and Wellness Center in Anchorage. Also, the VA 
Medical Center in Alaska is in Anchorage with two other 
outpatient clinics in both Fairbanks and Kenai--is that the way 
you pronounce it?
    Senator Stevens [presiding]. ``KEE-nie.''
    Mr. Foil. ``KEE-nie.''
    Senator Stevens. Kenai, it is the home of the greatest 
salmon in the world.
    Mr. Foil. All right, sir. I stand corrected.
    But there is a lot to be done and I think we have the 
opportunity to do this and do it properly. But we need your 
support to be able to get it done, Senators. We would love to 
have the opportunity to do this both in Hawaii and Alaska, and 
there are other places where we do not have those 
opportunities.
    Senator Inouye. Thank you very much, sir.
    Mr. Foil. Thank you, sir.
    Senator Stevens. Doctor, we are going to try to make sure 
that we do move that budget over to the Army Medical Research 
and Material Command at Fort Detrick. We agree with you on that 
and we will do our best to do that.
    Mr. Foil. Thank you very much. We really appreciate it.
    Senator Stevens. Our next witness is Dennis Duggan, Deputy 
Director, National Security Commission for the American Legion. 
Comrade, it is nice to see you.

STATEMENT OF DENNIS MICHAEL DUGGAN, DEPUTY DIRECTOR, 
            NATIONAL SECURITY COMMISSION, THE AMERICAN 
            LEGION
    Mr. Duggan. Yes, sir, nice to see you again. Mr. Chairman 
and ranking member, Senator Inouye: The American Legion, the 
Nation's largest organization of wartime veterans, is extremely 
grateful for this opportunity to present its views on defense 
appropriations for fiscal year 2006. We have always valued your 
leadership and your subcommittee's leadership in assessing and 
authorizing adequate funding for quality of life, 
modernization, and readiness features for the Nation's armed 
forces, Active, Reserve, National Guard, as well as for our 
Nation's military retiree veterans and their dependents.
    As we know too well, the war on terrorism is being waged on 
two fronts, overseas in a bitter, bloody struggle with armed 
insurgents and at home, protecting and securing the homeland. 
Most of what we hold dear as Americans was made possible by the 
peace and stability that the armed forces have provided by 
taking the fight to the enemy in overseas battlegrounds.
    However, a decade of overuse of a smaller Army, a large-
scale use of reservists and National Guardsmen in combat, and a 
past history of some underfunding has certainly warranted your 
sustained investment. And, Mr. Chairman, it is deeply 
appreciated.
    The American Legion continues to urge an increase in Army 
manpower strengths. We also are strongly supportive of 
congressional authorization and funding of the necessary 
recruiting tools, particularly for the Army, Army Reserve, and 
Army National Guard, and perhaps the Marines. The funding of 
even more recruiting bonuses, recruiters, advertising as 
appropriate should be funded if needed.
    Funding of an improved Montgomery Government Issue (GI) 
bill for the Active and Reserve components was certainly 
justified, and increased death gratuities and traumatic injury 
insurance we believe are overdue as well.
    We salute the Senate in protecting our troops and boosting 
military benefits.
    Mr. Chairman, while we are fighting what will likely be a 
long, hard war on terrorism, we believe we must also keep an 
eye on the Far East, particularly North Korea and China. Both 
countries are flexing their military muscles in the Pacific 
while the United States is distracted at war in Iraq and 
Afghanistan. For that reason, we are extremely grateful that 
the Senate is requiring the Navy to retain the 12-carrier fleet 
Navy rather than scaling back.
    As a concerned veterans organization, something tells us 
perhaps that we should also be producing more than four Aegis 
DDGs per year and perhaps not discharging as many as the 10,000 
sailors that we seem to be doing.
    Finally, with regard to the 2005 defense BRAC, the American 
Legion would only urge that irreplaceable base facilities and 
essential base facilities, perhaps such as military medical 
facilities and commissaries and perhaps training areas, be 
retained for use by Reserve components as needed or by military 
retiree veterans and their families whenever such is possible.
    Mr. Chairman, that concludes the oral statement of the 
American Legion and we thank you again for this opportunity.
    [The statement follows:]

              Prepared Statement of Dennis Michael Duggan

    Mr. Chairman, the American Legion is grateful for the opportunity 
to present its views on defense appropriations for fiscal year 2006.The 
American Legion values your leadership in assessing and authorizing 
adequate funding for quality-of-life (QOL) features of the Nation's 
armed forces to include the active, reserve and National Guard forces 
and their families, as well as quality of life for military retirees 
and their dependents.
    Since September 2001, the United States has been involved in the 
war against terrorism in Operations Iraqi Freedom and Enduring Freedom. 
American fighting men and women are again proving they are the best-
trained, best-equipped and best-led military in the world. As Secretary 
of Defense Donald Rusted has noted, the war in Iraq is part of a long, 
dangerous global war on terrorism. The war on terrorism is being waged 
on two fronts: overseas against armed insurgents and at home protecting 
and securing the Homeland. Casualties in the shooting wars, in terms of 
those killed and seriously wounded, continue to mount daily. Indeed, 
most of what we as Americans hold dear is made possible by the peace 
and stability that the Armed Forces provide by taking the fight to the 
enemy.
    The American Legion adheres to the principle that this Nation's 
armed forces must be well-manned and equipped, not just to pursue war, 
but to preserve and protect the peace. The American Legion strongly 
believes past military downsizing was budget-driven rather than threat 
focused. Once Army divisions, Navy warships and Air Force fighter 
squadrons are downsized, eliminated or retired from the force 
structure, they cannot be reconstituted quickly enough to meet new 
threats or emergency circumstances. The Marine Corps, Army National 
Guard and the Reserves have failed to meet their recruiting goals and 
the Army's stop-loss policies have obscured retention and recruiting 
needs. Clearly, the active Army is struggling to meet its recruitment 
goals. Military morale undoubtedly has been adversely affected by the 
extension and repetition of Iraq tours of duty.
    The administration's fiscal year 2006 budget requests $419.3 
billion for defense or about 17 percent of the total budget. The fiscal 
year 2006 defense budget represents a 4.8 percent increase in defense 
spending over current funding levels. It also represents about 3.5 
percent of our Gross National Product. Active duty military manpower 
end-strength is now over 1.388 million. Selected Reserve strength is 
about 863,300 or reduced by about 25 percent from its strength levels 
during the Gulf War of 14 years ago.
    Mr. Chairman, this budget must advance ongoing efforts to fight the 
global war on terrorism, sustain and improve quality of life and 
continue to transform the military. A decade of over use of the 
military and past under-funding, necessitates a sustained investment. 
The American Legion believes the budget must continue to address 
increases in Army end-strengths, accelerate improved Active and Reserve 
Components quality of life features, provide increased funding for the 
concurrent receipt of military retirement pay and VA disability 
compensation (``Veterans Disability Tax''); and elimination of the 
offset of survivors benefit plan (SBP) and Dependency and Indemnity 
Compensation (DIC) that continues to penalize military survivors.
    If we are to win the war on terror and prepare for the wars of 
tomorrow, we must take care of the Department of Defense's greatest 
assets--the men and women in uniform. They do us proud in Iraq, 
Afghanistan and around the world. They need help.
    In order to attract and retain the necessary force over the long 
haul, the active duty force, Reserves and National Guard continue to 
look for talent in an open market place and to compete with the private 
sector for the best young people this Nation has to offer. If we are to 
attract them to military service in the active and reserve components, 
we need to count on their patriotism and willingness to sacrifice, to 
be sure, but we must also provide them the proper incentives. They love 
their country, but they also love their families--and many have 
children to support, raise and educate. We have always asked the men 
and women in uniform to voluntarily risk their lives to defend us; we 
should not ask them to forego adequate pay and allowances, adequate 
health care and subject their families to repeated unaccompanied 
deployments and sub-standard housing as well. Undoubtedly, retention 
and recruiting budgets need to be substantially increased if we are to 
keep and recruit quality service members.
    The President's fiscal year 2006 defense budget requests over $105 
billion for military pay and allowances, including a 3.1 percent 
across-the-board pay raise. It also includes billions to improve 
military housing, putting the Department on track to eliminate most 
substandard housing by 2007--several years sooner than previously 
planned. The fiscal year 2005 budget further lowered out-of-pocket 
housing costs for those living off base. The American Legion encourages 
the Subcommittee to continue the policy of no out-of-pocket housing 
costs in future years.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained soldiers, sailors, airmen, Marines and Coast Guard 
personnel.
    The American Legion National Commanders have visited American 
troops in Europe, the Balkans, and South Korea as well as a number of 
installations throughout the United States, including Walter Reed Army 
Medical Center and Bethesda National Naval Medical Center. During these 
visits, they were able to see first hand the urgent, immediate need to 
address real quality of life challenges faced by service members and 
their families. Severely wounded service members who have families and 
are convalescing in military hospitals clearly need to have their 
incomes increased when they are evacuated from combat zones. Also, the 
medical evaluation board process needs to be expedited so that military 
severance and disability retirement pays will be more immediately 
forthcoming. Our National Commanders have spoken with families on 
Women's and Infants' Compensation (WIC), where quality-of-life issues 
for service members, coupled with combat tours and other operational 
tempos, play a role in recurring recruitment and retention efforts and 
should come as no surprise. The operational tempo and lengthy 
deployments, other than combat tours, must be reduced or curtailed. 
Military missions were on the rise before September 11 and deployment 
levels remain high. The only way to reduce repetitive overseas tours 
and the overuse of the Reserves is to increase active duty and perhaps 
reserve end-strengths for the services. Military pay must be on a par 
with the competitive civilian sector. Activated reservists must receive 
the same equipment, the same pay and timely health care as active duty 
personnel. If other benefits, like health care improvements, 
commissaries, adequate quarters, quality child care and impact aid for 
DOD education are reduced, they will only serve to further undermine 
efforts to recruit and retain the brightest and best this nation has to 
offer.
    To step up efforts to bring in enlistees, all the Army components 
are increasing the number of recruiters. The Army National Guard sent 
1,400 new recruiters into the field last February. The Army Reserve is 
expanding its recruiting force by about 80 percent. If the recruiting 
trends and the demand for forces persist, the Pentagon under current 
policies could eventually ``run out'' of reserve forces for war zone 
rotation, a Government Accountability Office expert warned. The 
Pentagon projects a need to keep more than 100,000 reservists 
continuously over the next 3 to 5 years. The Defense Appropriations 
bill for fiscal year 2005 provides the funding for the first year force 
level increases of 10,000. The Army's end-strength increased 30,000 and 
the Marine Corps end-strength increased 3,000.
    Army restructuring will increase the number of active Army maneuver 
brigades by 30 percent by fiscal year 2007. The Army National Guard 
will reach 34 brigades. The Marine Corps will increase by two 
battalions.
    The budget deficit is projected to be $427 billion; the largest in 
U.S. history and it appears to be heading higher perhaps to $500 
billion. National defense spending must not become a casualty of 
deficit reduction.

                     FORCE HEALTH PROTECTION (FHP)

    As American military forces are again engaged in combat overseas, 
the health and welfare of deployed troops is of utmost concern to The 
American Legion. The need for effective coordination between the 
Department of Veterans Affairs and the DOD in the force protection of 
U.S. forces is paramount. It has been 14 years since the first Gulf 
War, yet many of the hazards of the 1991 conflict are still present in 
the current war.
    Prior to the 1991 Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health examinations 
nor were they properly briefed on the potential hazards, such as 
fallout from depleted uranium munitions they might encounter. Record 
keeping was poor. Numerous examples of lost or destroyed medical 
records of active duty and reserve personnel were identified. Physical 
examinations (pre- and post-deployment) were not comprehensive and 
information regarding possible environmental hazard exposures was 
severely lacking. Although the government had conducted more than 230 
research projects at a cost of $240 million, lack of crucial deployment 
data resulted in many unanswered questions about Gulf War veterans 
illnesses.
    The American Legion would like to specifically identify an element 
of FHP that deals with DOD's ability to accurately record a service 
member's health status prior to deployment and document or evaluate any 
changes in his or her health that occurred during deployment. This is 
exactly the information VA needs to adequately care for and compensate 
service members for service-related disabilities once they leave active 
duty. Although DOD has developed post-deployment questionnaires, they 
still do not fulfill the requirement of ``thorough'' medical 
examinations nor do they even require a medical officer to administer 
the questionnaires. Due to the duration and extent of sustained combat 
in Operations Iraqi Freedom and Enduring Freedom, the psychological 
impact on deployed personnel is of utmost concern to The American 
Legion. VA's ability to adequately care for and compensate our Nation's 
veterans depends directly on DOD's efforts to maintain proper health 
records/health surveillance, documentation of troop locations, 
environmental hazard exposure data and the timely sharing of this 
information with the VA.
    The American Legion strongly urges Congress to mandate separation 
physical exams for all service members, particularly those who have 
served in combat zones or have had sustained deployments. DOD reports 
that only about 20 percent of discharging service members opt to have 
separation physical exams. During this war on terrorism and frequent 
deployments with all their strains and stresses, this figure, we 
believe, should be substantially increased.

                        MILITARY QUALITY OF LIFE

    Our major national security concern continues to be the enhancement 
of the quality of life issues for active duty service members, 
reservists, National Guardsmen, military retirees and their families. 
During the last Congressional session, President Bush and the Congress 
made marked improvements in an array of quality of life issues for 
military personnel and their families. These efforts are vital 
enhancements that must be sustained.
    Mr. Chairman: during this period of the War on Terrorism, more 
quality of life improvements are required to meet the needs of 
servicemembers and their families as well as military retiree veterans 
and their families. For example, the totally inadequate $12,000 death 
gratuity needs to be increased to $100,000 and the SGLI needs to be 
increased to at least $400,000; the improved Reserve MGIB for education 
needs to be completely funded as well; combat wounded soldiers who are 
evacuated from combat zones to military hospitals need to retain their 
special pay (combat pay, family separation pay, etc) and base pay and 
allowances during the period of their convalescence continued at the 
same level to not jeopardize their families' financial support during 
recovery. Furthermore, the medical evaluation board process needs to be 
expedited so that any adjudicated military severance or military 
disability retirement payments will be immediately forthcoming; 
recruiting and retention efforts, to include the provision of more 
service recruiters, needs to be fully funded as does recruiting 
advertising. The Defense Health Program and in particular the Uniformed 
Services University of the Health Sciences must also be fully 
appropriated. The American Legion appreciates the administration and 
Congress's support of the Wounded Warrior bill designed to provide 
financial help to soldiers and their families when they are wounded or 
otherwise traumatically injured.
    Likewise, military retiree veterans as well as their survivors, who 
have served their Country for decades in war and peace, require 
continued quality of life improvements as well. First and foremost, The 
American Legion strongly urges that FULL concurrent receipt and Combat-
Related Special Compensation (CRSC) be authorized for disabled retirees 
whether they were retired for longevity (20 or more years of service) 
or military disability retirement with fewer than 20 years. In 
particular, The American Legion urges that disabled retirees rated 40 
percent and below be authorized CRPD and that disabled retirees rated 
between 50 percent and 90 percent disabled be authorized non-phased-in 
concurrent receipt. Additionally, The American Legion strongly urges 
that ALL military disability retirees with fewer than 20 years service 
be authorized to receive CRSC and VA disability compensation provided, 
of course, they're otherwise eligible for CRSC under the combat-related 
conditions.
    Secondly, The American Legion urges that the longstanding inequity 
whereby military survivors have their survivors benefit plan (SBP) 
offset by the Dependency and Indemnity Compensation (DIC) be 
eliminated. This ``Widows' Tax'' needs to be eliminated as soon as 
possible. It is blatantly unfair and has penalized deserving military 
survivors for years. A number of these military survivors were nearly 
impoverished because of this unfair provision. As with concurrent 
receipt for disabled retirees, military survivors should receive both 
SBP AND DIC. They have always been entitled to both and should not have 
to pay for their own DIC. The American Legion will continue to convey 
that simple, equitable justice is the primary reason to fund FULL 
concurrent receipt of military retirement pay and VA disability 
compensation as well as the survivors benefit plan (SBP) and DIC for 
military survivors. Not to do so merely continues the same inequity. 
Both inequities need to be righted by changing the unfair law that 
prohibits both groups from receiving both forms of compensation.
    Mr. Chairman: the American Legion as well as the armed forces and 
veterans continue to owe you and this subcommittee a debt of gratitude 
for your support of military quality of life issues. Nevertheless, your 
assistance is needed in this budget to overcome old and new threats to 
retaining and recruiting the finest military in the world. Service 
members and their families continue to endure physical risks to their 
well-being and livelihood as well as the forfeiture of personal 
freedoms that most Americans would find unacceptable. Worldwide 
deployments have increased significantly and the Nation is at war. The 
very fact that over 300,000 Guardsmen and Reservists have been 
mobilized since September 11, 2001 is first-hand evidence that the 
United States Army desperately needs to increase its end-strengths and 
maintain those end-strengths so as to help facilitate the rotation of 
active and reserve component units to active combat zones.
    The American Legion congratulates and thanks congressional 
subcommittees such as this one for military and military retiree 
quality of life enhancements contained in past National Defense 
Appropriations Acts. Continued improvement however is direly needed to 
include the following:
  --Completely Closing the Military Pay Gap with the Private Sector.--
        With U.S. troops battling insurgency and terrorism in Iraq and 
        Afghanistan, The American Legion supports the proposed 3.1 
        percent military pay raise as well as increases in Basic 
        Allowance for Housing (BAH).
  --Commissaries.--The American Legion urges the Congress to preserve 
        full Federal subsidizing of the military commissary system and 
        to retain this vital non-pay compensation benefit for use by 
        active duty families, reservist families, military retiree 
        families and 100 percent service-connected disabled veterans 
        and others.
  --DOD Domestic Dependents Elementary and Secondary Schools (DDESS).--
        The American Legion urges the retention and full funding of the 
        DDESS as they have provided a source of high quality education 
        for military children attending schools on military 
        installations.
  --Funding the Reserve Montgomery GI Bill for Education.
  --Increasing the death gratuity to $100,000 and $400,000 for SGLI for 
        all active duty or activated Reservists who are killed or who 
        die while on active duty after September 11, 2001 during the 
        War on Terror.
  --Improving the pay of severely wounded service members and 
        expediting the medical evaluation board process.
  --Providing FULL concurrent receipt of military retirement pay and VA 
        disability compensation for those disabled retirees rated 40 
        percent and less; providing non-phased concurrent receipt for 
        those disabled retirees rated between 50 percent and 90 percent 
        disabled by the VA; and authorizing those military disability 
        retirees with fewer than 20 years service to receive both VA 
        disability compensation and Combat-Related Special Compensation 
        (CRSC).
  --Eliminating the offset of the survivors benefit plan (SBP) and 
        Dependency and Indemnity Compensation (DIC) for military 
        survivors.

                   OTHER QUALITY OF LIFE INSTITUTIONS

    The American Legion strongly believes that quality of life issues 
for retired military members and their families are augmented by 
certain institutions which we believe need to be annually funded as 
well. Accordingly, The American Legion believes that Congress and the 
administration must place high priority on insuring these institutions 
are adequately funded and maintained:
  --The Uniformed Services University of the Health Sciences.--The 
        American Legion urges the Congress to resist any efforts to 
        less than fully fund, downsize or close the USUHS through the 
        BRAC process. It is a national treasure, which educates and 
        produces military physicians and advanced nursing staffs. We 
        believe it continues to be an economical source of CAREER 
        medical leaders who enhance military health care readiness and 
        excellence and is well-known for providing the finest health 
        care in the world.
  --The Armed Forces Retirement Homes.--The United States Soldiers' and 
        Airmen's Home in Washington, DC and the United States Naval 
        Home in Gulfport, Mississippi, are under-funded as evidenced by 
        the reduction in services to include on-site medical health 
        care and dental care. Increases in fees paid by residents are 
        continually on the rise. The medical facility at the USSAH has 
        been eliminated with residents being referred to VA Medical 
        Centers or Military Treatment Facilities such as Walter Reed 
        Army Medical Center. The American Legion recommends that the 
        Congress conduct an independent assessment of these two 
        facilities and the services being provided with an eye toward 
        federally subsidizing these two Homes as appropriate. Both 
        facilities have been recognized as national treasures until 
        recent years when a number of mandated services have been 
        severely reduced and resident fees have been substantially 
        increased.
  --Arlington National Cemetery.--The American Legion urges that the 
        Arlington National Cemetery be maintained to the highest of 
        standards. We urge also that Congress mandate the eligibility 
        requirements for burial in this prestigious Cemetery reserved 
        for those who have performed distinguished military service and 
        their spouses and eligible children.
  --2005 Defense Base Realignment and Closure Commission.--The American 
        Legion urges that certain base facilities such as military 
        medical facilities, commissaries, exchanges and training 
        facilities and other quality of life facilities be preserved 
        for use by the active and reserve components and military 
        retirees and their families.

               THE AMERICAN LEGION FAMILY SUPPORT NETWORK

    The American Legion continues to demonstrate its support and 
commitment to the men and women in uniform and their families. The 
American Legion's Family Support is providing immediate assistance 
primarily to activated National Guard families as requested by the 
Director of the National Guard Bureau. The American Legion Family 
Support Network has reached out through its Departments and Posts to 
also support the Army' Disabled Soldier Support System (DS3). Many 
thousands of requests from these families have been received and 
accommodated by the American Legion Family across the United States. 
Military family needs have ranged from requests for funds to a variety 
of everyday chores which need doing while the ``man or woman `` of the 
family is gone. The American Legion, whose members have served our 
Nation in times of adversity, remember how it felt to be separated from 
family and loved ones. As a grateful Nation, we must ensure than no 
military family endures those hardships caused by military service, as 
such service has assured the security, freedom and ideals of our great 
Country.

                              CONCLUSIONS

    Thirty-two years ago, America opted for an all-volunteer force to 
provide for the National Defense. Inherent in that commitment was a 
willingness to invest the needed resources to bring into existence and 
maintain a competent, professional and well-equipped military. The 
fiscal year 2006 defense budget, while recognizing the War on Terrorism 
and Homeland Security, represents another good step in the right 
direction. Likewise our military retiree veterans and military 
survivors, who in yesteryear served this Nation for decades, continue 
to need your help as well.
    Mr. Chairman, This concludes our statement.

    Senator Stevens. Thank you very much.
    Do you have any comments?
    Senator Inouye. I support.
    Senator Stevens. We generally support what you have said. I 
disagree with you on the aircraft carriers, but he agrees with 
you, so you are ahead.
    Thank you very much for your testimony.
    Mr. Duggan. Thank you, sir.
    Senator Stevens. Next is Lieutenant Colonel (retired) Paul 
Austin of the American Association of Nurse Anesthetists. Yes, 
sir.

STATEMENT OF LIEUTENANT COLONEL PAUL N. AUSTIN, CRNA, 
            Ph.D., U.S. AIR FORCE (RETIRED), ON BEHALF 
            OF THE AMERICAN ASSOCIATION OF NURSE 
            ANESTHETISTS
    Dr. Austin. Chairman Stevens and Senator Inouye: Good 
afternoon. My name is Dr. Paul Austin and I'm a certified 
registered nurse anesthetist (CRNA), recently retired from the 
U.S. Air Force after 24 years of proudly serving my country. 
For the majority of this time I served as a nurse anesthesia 
educator who was the Director of both the U.S. Air Force and 
the Uniformed Services University nurse anesthesia programs.
    The American Association of Nurse Anesthetists (AANA) 
represents more than 30,000 CRNAs, including 483 Active duty 
CRNAs, 790 reservists in the military. CRNAs continue to be 
deployed to the Middle East for Operation Iraqi Freedom and 
Operation Enduring Freedom, providing anesthesia in all types 
of surgical procedures, both on ships and on the ground.
    In many cases CRNAs are the sole anesthesia providers for 
our troops, which General Brannon stated before this 
subcommittee last week, and I quote: ``Lieutenant Colonel 
Bonnie Mack and Major Virginia Johnson are CRNAs deployed to 
Tallil Air Base in Iraq as the only anesthesia providers for 
over 20,000 U.S. and coalition forces and civilian contract 
personnel.''
    Today maintaining adequate numbers of Active duty CRNAs is 
of the utmost importance to the Department of Defense to meet 
its military medical readiness mission. For several years the 
number of CRNAs serving on Active duty has fallen somewhat 
short of the number authorized by the DOD. This is complicated 
by the strong demand for CRNAs in both the public and private 
sectors. This considerable gap between civilian and military 
pay was addressed in the fiscal year 2003 Defense Authorization 
Act with an incentive specialty pay, or ISP, increase from 
$15,000 to $50,000. The AANA appreciates this subcommittee's 
continued support to fund the ISP to retain and to recruit 
CRNAs.
    Last, the establishment of the joint VA-DOD program in 
nurse anesthetist education at Fort Sam Houston in San Antonio 
holds the promise of making significant improvements in the VA 
CRNA workforce and improving retention of VA registered nurses 
(RNs) in a cost effective manner. This 30-month program 
attracts RNs into VA service by sending RNs a strong message 
that the VA is committed to their educational advancement.
    Due to continued interest by VA RNs in the program, the 
program will be expanding to five openings for the June 2005 
class. In addition, this partnership enables the VA faculty 
director to cover her Army colleagues' classes when they are 
deployed at a moment's notice.
    In conclusion, the AANA believes that the recruitment and 
retention of CRNAs in the services is critical to our men and 
women in uniform. Continued funding of the ISP will help meet 
this challenge. The AANA thanks this subcommittee for your 
continued support for CRNAs in the military.
    [The statement follows:]

     Prepared Statement of Lieutenant Colonel (Ret.) Paul N. Austin

    Chairman Stevens, Ranking Member Inouye, and members of the 
subcommittee, the American Association of Nurse Anesthetists (AANA) is 
the professional association representing over 30,000 certified 
registered nurse anesthetists (CRNAs) in the United States, including 
482 active duty and 799 reservists in the military. The AANA 
appreciates the opportunity to provide testimony regarding CRNAs in the 
military. We would also like to thank this committee for the help it 
has given us in assisting the Department of Defense (DOD) and each of 
the services to recruit and retain CRNAs.

              BACKGROUND INFORMATION ON NURSE ANESTHETISTS

    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the military medical system.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today CRNAs participate in 
approximately 65 percent of the anesthetics given to patients each year 
in the United States. Nurse anesthetists are also the sole anesthesia 
providers in more than two-thirds of rural hospitals, assuring access 
to surgical, obstetrical and other healthcare services for millions of 
rural Americans.
    CRNAs have a personal and professional commitment to patient 
safety, made evident through research into our practice. In our 
professional association, we state emphatically ``our members' only 
business is patient safety.'' Safety is assured through education, high 
standards of professional practice, and commitment to continuing 
education. Having first practiced as registered nurses, CRNAs are 
educated to the master's degree level and meet the most stringent 
continuing education and recertification standards in the field. Thanks 
to this tradition of advanced education, the clinical practice 
excellence of anesthesia professionals, and the advancement in 
technology, we are humbled and honored to note that anesthesia is 50 
times safer now than 20 years ago (National Academy of Sciences, 2000). 
Research further demonstrates that the care delivered by CRNAs, 
anesthesiologists, or by both working together yields similar patient 
safety outcomes. In addition to studies performed by the National 
Academy of Sciences in 1977, Forrest in 1980, Bechtholdt in 1981, the 
Minnesota Department of Health in 1994, and others, Dr. Michael Pine, 
MD, MBA recently concluded once again that among CRNAs and physician 
anesthesiologists, ``the type of anesthesia provider does not affect 
inpatient surgical mortality'' (Pine, 2003). Thus, the practice of 
anesthesia is a recognized specialty in nursing and medicine. Both 
CRNAs and anesthesiologists administer anesthesia for all types of 
surgical procedures from the simplest to the most complex, either as 
single providers or together.

                   NURSE ANESTHETISTS IN THE MILITARY

    Since the mid-19th Century, our profession of nurse anesthesia has 
been proud to provide anesthesia care for our past and present military 
personnel and their families. From the Civil War to the present day, 
nurse anesthetists have been the principal anesthesia providers in 
combat areas of every war in which the United States has been engaged.
    Military nurse anesthetists have been honored and decorated by the 
U.S. and foreign governments for outstanding achievements, resulting 
from their dedication and commitment to duty and competence in managing 
seriously wounded casualties. In World War II, there were 17 nurse 
anesthetists to every one anesthesiologist. In Vietnam, the ratio of 
CRNAs to physician anesthesiologists was approximately 3:1. Two nurse 
anesthetists were killed in Vietnam and their names have been engraved 
on the Vietnam Memorial Wall. During the Panama strike, only CRNAs were 
sent with the fighting forces. Nurse anesthetists served with honor 
during Desert Shield and Desert Storm. Military have CRNAs provided 
critical anesthesia support to humanitarian missions around the globe 
in such places as Bosnia and Somalia. In May 2003, approximately 364 
nurse anesthetists had been deployed to the Middle East for the 
military mission for ``Operation Iraqi Freedom'' and ``Operation 
Enduring Freedom.''
    Data gathered from the U.S. Armed Forces anesthesia communities' 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. Bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harm's way.
    In the current mission ``Operation Iraqi Freedom'' CRNAs will 
continue to be deployed both on ships and on the ground, as well as in 
U.S. special operations forces. This committee must ensure that we 
retain and recruit CRNAs now and in the future to serve in these 
military overseas deployments, and to ensure the maximum readiness of 
America's armed services.

CRNA RETENTION AND RECRUITING--HOW THIS COMMITTEE CAN HELP THE DEFENSE 
                               DEPARTMENT

    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty has fallen somewhat short of the number 
authorized by the Department of Defense (DOD). This is further 
complicated by strong demand for CRNAs in both the public and private 
sectors.
    However, it is essential to understand that while there is strong 
demand for CRNA services in the public and private healthcare sectors, 
the profession of nurse anesthesia is working effectively to meet this 
workforce challenge. Our evidence suggests that while vacancies exist, 
there is not a crisis in the number of anesthesia providers. The 
profession of nurse anesthesia has increased its number of accredited 
CRNA schools, from 88 to 94 in the past year. Each CRNA school 
continues to turn away qualified applicants--bachelor's educated nurses 
who had spent at least 1 year serving in a critical care environment. 
Recognizing the importance of nurse anesthetists to quality healthcare, 
the AANA has been working with its 94 accredited schools of nurse 
anesthesia to increase the number of qualified graduates, and to expand 
the number of CRNA schools. The Council on Accreditation of Nurse 
Anesthesia Educational Programs (COA) reports that in 1999, our schools 
produced 948 new graduates. By 2004, that number had increased to 
1,628, a 72 percent increase in just 5 years. The growth is expected to 
continue. The COA projects CRNA schools to produce 1,800 graduates in 
2005.
    This committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.

           INCENTIVE SPECIAL PAY (ISP) FOR NURSE ANESTHETISTS

    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by the Department of 
Defense, a large pay gap existed between annual civilian and military 
pay in 1992. This study concluded, ``this earnings gap is a major 
reason why the military has difficulty retaining CRNAs.'' In order to 
address this pay gap, in the fiscal year 1995 Defense Authorization 
bill Congress authorized the implementation of an increase in the 
annual Incentive Special Pay (ISP) for nurse anesthetists from $6,000 
to $15,000 for those CRNAs no longer under service obligation to pay 
back their anesthesia education. Those CRNAs who remain obligated 
receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act Conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. There had been no change in 
funding level for the ISP since the increase was instituted in fiscal 
year 1995, while it is certain that civilian pay has continued to rise 
during this time. The AANA is requesting that this committee support 
funding increases for the ISP for all the branches of the armed 
services to retain and recruit CRNAs now and into the future.
    In addition, there still continues to be high demand for CRNAs in 
the healthcare community leading to higher incomes, widening the gap in 
pay for CRNAs in the civilian sector compared to the military. The 
fiscal year 2004 AANA Membership survey measured income in the civilian 
sector by practice setting. The median income in a hospital setting is 
$135,000, anesthesiologist group $120,000, and self-employed CRNA 
$159,000 (includes Owner/Partner of a CRNA Group). These median 
salaries include call pay, overtime pay, and bonus pay. These salaries 
are still higher than the median CRNA's salary of $88,000 across all 
military service branches.
    In civilian practice, all additional skills, experience, duties and 
responsibilities, and hours of work are compensated for monetarily. 
Additionally, training (tuition and continuing education), healthcare, 
retirement, recruitment and retention bonuses, and other benefits often 
equal or exceed those offered in the military.
    Salaries in the civilian sector will continue to create incentives 
for CRNAs to separate from the military, especially at the lower grades 
without a competitive incentive from the military to retain CRNAs. 
Therefore, it is vitally important that the Incentive Special Pay (ISP) 
be increased to ensure the retention of CRNAs in the military
    AANA thanks this committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation and an 
increase in the annual funding for ISP for fiscal year 2006. The ISP 
recognizes the special skills and advanced education that CRNAs bring 
to the Department of Defense healthcare system.

             BOARD CERTIFICATION PAY FOR NURSE ANESTHETISTS

    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain healthcare professionals, including advanced practice 
nurses. AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this type of pay may assist in closing the 
earnings gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, there are 
many that remain ineligible. Since certification to practice as a CRNA 
does not require a specific master's degree (though all CRNAs 
graduating and being certified today do so as master's graduates), many 
nurse anesthetists have chosen to diversify their education by pursuing 
an advanced degree in other related fields. But CRNAs with master's 
degrees in education, administration, or management are not necessarily 
eligible for board certification pay since their graduate degrees are 
not in a clinical specialty. To deny a bonus to these individuals is 
unfair, and will certainly affect their morale as they work side-by-
side with their less-experienced colleagues, who will collect a bonus 
for which they are not eligible. In addition, in the future this bonus 
will act as a financial disincentive for nurse anesthetists to 
diversify and broaden their horizons.
    AANA encourages the Department of Defense and the respective 
services to reexamine the issue of awarding board certification pay 
only to CRNAs who have clinical master's degrees.

 DOD-VA RESOURCE SHARING: DOD-VA NURSE ANESTHESIA SCHOOL UNIVERSITY OF 
            TEXAS HOUSTON HEALTH SCIENCE CENTER, HOUSTON, TX

    The establishment of the joint Department of Defense-VA program in 
nurse anesthesia education at Fort Sam Houston in San Antonio, TX holds 
the promise of making significant improvements in the VA CRNA 
workforce, as well as improving retention of VA registered nurses in a 
cost effective manner. The current program utilizes existing resources 
from both the Department of Veterans Affairs Employee Incentive 
Scholarship Program (EISP) and VA hospitals to fund tuition, books, and 
salary reimbursement for student registered nurse anesthetists (SRNAs).
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. Due to continued success and 
interest by VA registered nurses for the school, the program will be 
increasing to five openings for the June 2005 class. This program 
continues to attract registered nurses into VA service, by sending RNs 
the strong message that the VA is committed to their professional and 
educational advancement. The faculty director would like to expand the 
program to seven students for the June 2006 class. In order to achieve 
this goal, it is necessary for full funding of the current and future 
EISP to cover tuition, books, and salary reimbursement.
    The 30-month program is broken down into two phases. Phase I, 12 
months, is the didactic portion of the anesthesia training at the U.S. 
AMEDD Center and School (U.S. Army School for Nurse Anesthesia). Phase 
II, 18 months, is clinical practice education, in which VA facilities 
and their affiliates would serve as clinical practice sites. In 
addition to the education taking place in Texas, the agency will use VA 
hospitals in Augusta, Georgia, increasing Phase II sites as necessary. 
Similar to military CRNAs who repay their educational investment 
through a service obligation to the U.S. Armed Forces, graduating VA 
CRNAs would serve a 3-year obligation to the VA health system. Through 
this kind of Department of Defense-VA resource sharing, the VA will 
have an additional source of qualified CRNAs to meet anesthesia care 
staffing requirements.
    At a time of increased deployments in medical military personnel, 
DOD-VA partnerships are a cost-effective model to fill these gaps in 
the military healthcare system. At Fort Sam Houston nurse anesthesia 
school, the VA faculty Director has covered her Army colleagues' 
didactic classes when they are deployed at a moments notice. This 
benefits both the VA and DOD to ensure the nurse anesthesia students 
are trained and certified in a timely manner to meet their workforce 
obligation to the Federal Government as anesthesia providers.
    We are pleased to note that the U.S. Army Surgeon General and Dr. 
Michael J. Kussman, MD, MS, FACP (Department of Veterans' Affairs 
Acting Deputy Under Secretary for Health) approved funding to start 
this VA nurse anesthesia school in 2004. In addition, the Army program 
director COL Norma Garrett, Ph.D., CRNA with VA director Dr. Maureen 
Reilly, CRNA, MSN, MHS, Ph.D. working under her guidance continue to 
work together for the continued success in this DOD-VA partnership, 
with the support of Anesthesia Service Director Dr. Michael Bishop, MD. 
With modest levels of additional funding in the EISP, this joint DOD-VA 
nurse anesthesia education initiative can grow and thrive, and serve as 
a model for meeting other VA workforce needs, particularly in nursing.
    Department of Defense and VA resource sharing programs effectively 
maximize government resources while improving access to healthcare for 
Veterans.

                               CONCLUSION

    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. The efforts 
detailed above will assist the military services in maintaining the 
military's ability to meet its wartime and medical mobilization through 
the funding both the ISP and board certification pay. Last, we commend 
and thank this committee for their continued support for CRNAs in the 
military.

    Senator Stevens. Senator Inouye.
    Senator Inouye. About 2 years ago I had laser surgery in 
the eye and the anesthesia was administered by a nurse 
anesthetist. They are very good.
    Dr. Austin. Thank you, sir. We are very proud and very 
proud to serve the men and women in uniform.
    Senator Stevens. We have supported this annual funding for 
incentive pay. Tell us how it worked?
    Dr. Austin. Increasing the ceiling from the former level to 
the level it is now, it is a bit too soon to tell whether or 
not it is going to make a difference. That increased the 
ceiling and that ceiling then can be dealt with by the 
individual services to meet the needs of the services. The Army 
was the service that was and is most impacted and it is 
probably too soon to tell whether or not it is going to make a 
difference, but we are very optimistic that it is going to help 
maintain those billets.
    Senator Stevens. Let us know, because with the record of 
your profession's participate in the military, I think we might 
have to mandate its use rather than authorize its use. But tell 
them to keep us informed, will you, please?
    Dr. Austin. Thank you very much, sir.
    Senator Stevens. Thank you.
    Senator Inouye. What is the national shortage of registered 
nurse anesthetists?
    Dr. Austin. Currently the national shortage, as far as a 
percentage, we would have to get you that data. But there 
continues to be a shortage. For instance, in the State of 
Maryland there is a hospital that has an immediate need for 11 
full-time nurse anesthetists that they have not figured out by 
July 1 how they are going to fill. So that is a local example 
that really does serve as an example nationally.
    The exact number, though, sir, we can get to you.
    Senator Inouye. Thank you very much.
    Dr. Austin. I am sorry. A staff member brought up: In 2003 
there is an 11 percent vacancy rate nationwide.
    Senator Inouye. Thank you.
    Senator Stevens. Thank you very much.
    I believe we have Jim Hoehn to testify for the Coalition of 
Experimental Program to Stimulate Competitive Research; is that 
correct?

STATEMENT OF JIM HOEHN, ON BEHALF OF THE COALITION OF 
            EPSCoR (EXPERIMENTAL PROGRAM TO STIMULATE 
            COMPETITIVE RESEARCH) STATES
    Mr. Hoehn. Yes, Senator. Jim Hoehn.
    Senator Stevens. Hoehn, thank you very much.
    Mr. Hoehn. Good afternoon, Mr. Chairman and Senator Inouye. 
Thank you for the opportunity to testify regarding the 
Department of Defense's basic science research program and the 
Defense Experimental Program to Stimulate Competitive Research, 
or DEPSCoR. I am a senior associate at the EPSCoR Idea 
Foundation, which is a nonprofit organization that promotes the 
importance of strong science and technology research 
infrastructure and works to improve the research 
competitiveness of States that have historically received less 
Federal research funding. Previously I spent 29 years with the 
National Science Foundation (NSF), the last 5 of which I was 
head of the EPSCoR Office at NSF, chairing the interagency 
coordinating committee for EPSCoR.
    I speak today on behalf of the coalition of 24 EPSCoR 
States in support of both the Department of Defense's science 
and engineering research program and an important component of 
that program, DEPSCoR. Mr. Chairman, we regret that some of the 
DEPSCoR researchers from Alaska could not be here because of 
the change of the date of the hearing.
    Mr. Chairman and Senator Inouye, thank you for your 
leadership and support, which led to an increase in DEPSCoR 
funding in 2005. This increase was a good first step in 
bringing funding up to a level that will fully enable DEPSCoR 
researchers to offer quality research directly related to the 
mission of the Department of Defense. The Coalition of EPSCoR 
States strongly supports the Department's budget request for 
basic research. DEPSCoR is a small but significant part of this 
larger multifaceted DOD research program.
    The coalition recommends that Congress appropriate $25 
million to the Department of Defense budget for the DEPSCoR 
program in 2006. DEPSCoR was initially authorized in the 1995 
National Defense Authorization Act and was created to help 
build national infrastructure for research and education by 
funding research activities in science and engineering fields 
that are important to national defense. DEPSCoR's objectives 
are to enhance the capability of institutions of higher 
education in DEPSCoR States to develop, plan, and execute 
science and engineering research that is competitive under the 
merit review system used for awarding Federal research 
assistance; and also to increase the probability of long-term 
growth in competitively awarded financial assistance that 
DEPSCoR universities receive for research.
    I would like now to briefly highlight a few DEPSCoR-funded 
success stories out of research projects that have and are 
presently contributing to our national defense interests. The 
University of Alaska Fairbanks Institute of Arctic Biology has 
conducted research on the central nervous system with potential 
applications for reducing the severity of combat casualties by 
extending the window of opportunity for transport to medical 
facilities.
    The University of Hawaii at Manoa has developed tropical 
cyclone forecasts for the Joint Typhoon Warning Center, which 
is DOD's operational center for tropical cyclone forecasting in 
the Pacific and Indian Oceans.
    At Montana State University, research is being conducted to 
protect pilots and sensors from attacks from laser weaponry. 
The University of Nevada researchers are working on a project 
to mitigate the noise in the drive systems of ships and 
submarines. North Dakota State University is conducting 
research aimed at lengthening the life of ship structures. This 
research, like the other research, will lead to significant 
savings in military spending on marine fuel, maintenance, and 
replacement of ships. Again, these are just a few of the 
examples of DEPSCoR-funded recent initiatives that are adding 
to our national body of knowledge on various national security 
issues.
    DEPSCoR awards are provided to the mission-oriented 
individual academic investigators to conduct research that has 
practical military applications. However, the program as 
currently implemented has not taken into account the 
significant benefits that can be derived from pooling 
individual investigators' efforts into the centers of research 
that meet the ever-increasing challenges and needs of the 
Department of Defense and the services.
    The DEPSCoR States propose restructuring the program into 
two components. The first component would retain the current 
structure whereby the single investigators are invited to 
compete for research awards in areas identified by the 
Department. The second component would award funding to 
mission-oriented centers. These centers of defense excellence 
would be interdisciplinary and would build defense capacity. We 
believe that $25 million could be broken out for $10 million 
obligated for the individual investigator awards and $15 
million for the mission-oriented centers.
    In conclusion, DEPSCoR is a wise and worthwhile investment 
of scarce public resources and will continue to contribute 
research that supports national defense needs. Thank you for 
your consideration of this request.
    Senator Stevens. Well, I assume Senator Inouye agrees with 
me, if we have the money we will continue to do it. But we do 
not know yet. The House has knocked $3.3 billion off. We do not 
know what our allocation is going to be, but assuming that we 
have the money to do so, we want to continue to support your 
programs.
    Mr. Hoehn. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    [The statement follows:]

Prepared Statement of Dr. Jerome Odom, Distinguished Provost Emeritus, 
   University of South Carolina on Behalf of the Coalition of EPSCoR 
                                 States

    Mr. Chairman and members of the subcommittee, I thank you for the 
opportunity to submit this testimony regarding the Defense Department's 
basic scientific research program and the Defense Experimental Program 
to Stimulate Competitive Research (DEPSCoR).
    My name is Jerome Odom. I am Distinguished Provost Emeritus and a 
Professor of Chemistry and Biochemistry of the University of South 
Carolina. I am here today to speak in support of both the Defense 
Department's science and engineering research program and an important 
component of that research, the Defense Department's Experimental 
Program to Stimulate Competitive Research (EPSCoR). This statement is 
submitted on behalf of the Coalition of EPSCoR States and the 21 States 
and Puerto Rico that participate in the Coalition.
    Mr. Chairman and Senator Inouye, on behalf of the EPSCoR States, I 
want to thank the subcommittee for increasing DEPSCoR funding over the 
administration request for fiscal year 2005. This increase is a good 
first step to bringing funding up to a level that will enable 
researchers from EPSCoR States to offer quality research of direct 
benefit to the mission of the Department of Defense.
    The Coalition of EPSCoR States strongly supports the Department's 
budget request for basic research. The Defense EPSCoR program is a 
small, but significant, part of this larger program. The Coalition 
recommends that Congress appropriate $25 million to the Defense 
Department's budget for the Defense Experimental Program to Stimulate 
Competitive Research (Program Element PE 61114D).
    EPSCoR is a research and development program that was initiated by 
the National Science Foundation. Through a merit review process, EPSCoR 
is improving our Nation's science and technology capability by funding 
research activities of talented researchers at universities and non-
profit organizations in States that historically have not received 
significant Federal research and development funding. EPSCoR helps 
researchers, institutions, and States improve the quality of their 
research capabilities in order to compete more effectively for non-
EPSCoR research funds. EPSCoR is a catalyst for change and is widely 
viewed as a ``model'' Federal-State partnership. EPSCoR seeks to 
advance and support the goals of the program through investments in 
four major areas: research infrastructure improvement; research cluster 
development and investigator-initiated research; education, career 
development and workforce training; and outreach and technology 
transfer.
    The Defense Experimental Program to Stimulate Experimental Research 
(DEPSCoR) was initially authorized by Section 257 of the fiscal year 
1995 National Defense Authorization Act (Public Law 103-337). The 
Defense Department's EPSCoR program helps build national infrastructure 
for research and education by funding research activities in science 
and engineering fields important to national defense. DEPSCoR's 
objectives are to:
  --Enhance the capabilities of institutions of higher education in 
        eligible States to develop, plan, and execute science and 
        engineering research that is competitive under the peer-review 
        systems used for awarding Federal research assistance; and
  --Increase the probability of long-term growth in the competitively 
        awarded financial assistance that universities in eligible 
        States receive from the Federal Government for science and 
        engineering research.
    The Defense EPSCoR program contributes to the States' goals of 
developing and enhancing their research capabilities, while 
simultaneously supporting the research goals of the Department of 
Defense. DEPSCoR grants are based on recommendations from the EPSCoR 
State committees and the Department's own evaluation and ranking. 
Research proposals are only funded if they provide the Defense 
Department with research in areas important to national defense. The 
DEPSCoR States have established an impressive record to research that 
has directly contributed to our Nation's security interests. If you 
will allow me, I would like to highlight some of DEPSCoR's success.
    In my State of South Carolina, researchers from Clemson University 
have produced communications protocols to enhance the effectiveness of 
radio networks on the battlefield. Researchers are focused on the 
development of protocols for mitigating the limitations of radio 
devices of widely disparate capabilities that will be required in 
future tactical communication networks used by the Army. The new 
technique will yield a significant improvement in performance and allow 
for more robust radio system operation for the Army. The University of 
South Carolina has completed a study to help the Navy revolutionize 
data processing methods for battlefield operations through the use of 
sophisticated mathematical techniques. Funded by the Navy, the research 
project, carried out at the internationally recognized Industrial 
Mathematics Institute of the University of South Carolina, develops 
state of the art compression methods that can be used in a variety of 
military scenarios including: automated target recognition, mission 
planning, post battlefield assessment, intelligence and counter 
intelligence.
    The University of Alaska Fairbanks Institute of Arctic Biology has 
conducted research into the central nervous system and the University's 
Institute of Northern Engineering and Water has conducted research into 
the measurement of soil moisture. Both studies have important Defense 
applications.
    The University of Hawaii at Manoa has developed tropical cyclone 
forecasts for the Joint Typhoon Warning Center (JTWC), which is DOD's 
operational center for tropical cyclone (TC) forecasting for the 
Pacific and Indian Oceans. The project will develop new tropical 
cyclone forecasting capabilities in collaboration with the JTWC. The 
research is closely related to U.S. Navy research and operational 
needs. An important aspect of the project is to closely collaborate 
with the JTWC locally. This will enhance the cooperation between DOD's 
operational site and the State of Hawaii university research community.
    University of Alabama researchers have conducted important work to 
reducing gearbox noise in Army helicopters. By reducing the noise 
levels, the crew will be more alert and able to communicate more 
effectively while in such a vehicle, thus improving safe operation of 
the rotorcraft. Additionally, reducing structural vibrations can 
decrease fatigue damage in the rotorcraft.
    Montana State University has received funding from the Air Force 
conduct research into protecting pilots and sensors from attack from 
laser weaponry. This project is of particular interest for protecting 
pilots using Night Vision Goggles (NVG), for laser range finders and 
target designators.
    University of Nevada at Reno investigators are exploring novel 
military applications for non-lethal weaponry for use by the Air Force. 
This research could be used for ultimately developing ``stunning/
immobilizing'' weapons that do not rely on chemicals and that do not 
cause human injury. University of Nevada researchers are working on a 
project to mitigate the noise in the drive systems of ships and 
submarines. The mitigation of noise and the accompanying vibration will 
significantly improve stealth performance of naval vessels.
    North Dakota State University obtained funding to develop 
mechanisms that allow the Navy's unmanned airborne vehicles (UAVs) to 
carry out mission tasks with little external supervision and control. 
The development of this technology will lead to individual or teams of 
UAVs efficiently carrying out search, surveillance, reconnaissance, and 
delivery of weapons missions in the presence of enemy threat and 
without risk to the lives of military personnel. University of North 
Dakota researchers received Army funding to develop weather models for 
improving the availability of weather information worldwide. 
Improvements in satellite technology research will lead to a better 
forecasting tool that can be utilized by Army personnel to help 
maximize their advantage in a battlefield or homeland defense 
environment. North Dakota State obtained funding from the Navy to 
conduct a project to lengthen the life of ship structures. This 
research will lead to significant savings in military spending on 
marine fuel, maintenance and replacement of ships.
    University of Vermont researchers conducted a study to decompose 
chemical warfare agents such as mustard gas in a safe and 
environmentally sustainable system. This method is similar to one used 
in industry to remove toxic compounds from the smokestacks of coal-
burning plants. This process can decompose nearly 100 percent of half 
mustard from a gas sample. The chemical by-products of this process are 
environmentally friendly and non-toxic. Similar technologies can be 
used to decompose sarin, soman, and VX simulants.
    Currently, DEPSCoR awards are provided to mission-oriented 
individual investigators from universities and other institutions of 
higher education. The individual investigators conduct extremely 
important research that has practical military applications. However, 
the program as it is currently implemented has not taken into account 
the significant benefits that can be derived from individual 
investigators pooling their efforts to provide ``centers'' of research 
that meet the ever increasing challenges and needs of the Department of 
Defense and the Services.
    Therefore, the DEPSCoR States propose restructuring the program 
into two components. The first component would retain the current 
program whereby the individual investigators are invited to compete for 
research awards in areas identified by the Department and the Services. 
The second and new component would award funding to mission-oriented 
``centers.'' These centers of defense excellence would be mission 
oriented interdisciplinary areas to build defense research capacity.
    To achieve important defense research objectives of both the 
components of the program, the DEPSCoR States need the program to be 
funded at $25 million for fiscal year 2006 with approximately $10 
million obligated to the individual investigator awards and $15 million 
for the mission-oriented centers initiative. This twin approach to 
funding will significantly enhance the Department's ability to tap into 
the best ideas that the DEPSCoR States have to offer in support of the 
Nation's security needs.
    The Defense Department's Experimental Program to Stimulate 
Competitive Research is a wise and worthwhile investment of scarce 
public resources. It will continue to contribute significantly to 
efforts to build scientific and engineering research efforts in support 
of national defense needs.
    Finally, the Coalition of EPSCoR States believes a $25 million 
Defense EPSCoR program with the modifications suggested will ensure 
that Federal dollars are being used in a cost-effective way and that 
the EPSCoR States are contributing to the Nation's Defense efforts. 
Thank you for your consideration of this request.

    Senator Stevens. Next witness, Major General Paul Weaver, 
Juvenile Diabetes Research Foundation International.

STATEMENT OF MAJOR GENERAL PAUL A. WEAVER, JR., U.S. 
            AIR FORCE (RETIRED), ON BEHALF OF THE 
            JUVENILE DIABETES RESEARCH FOUNDATION 
            INTERNATIONAL
    General Weaver. Good afternoon, sir.
    Senator Stevens. Nice to see you again.
    General Weaver. Nice seeing you both, sir.
    Mr. Chairman and Senator Inouye, thank you for the 
opportunity to speak with you on behalf of the Juvenile 
Diabetes Research Foundation. I am retired Major General Paul 
Weaver, former Director of the Air National Guard. I am here 
today to report on the success and continued progress of the 
technologies for metabolic monitoring, also known as the Julia 
Weaver Fund after my 6-year-old daughter. I would also like to 
thank you for your past support and encourage an additional $10 
million this year for this innovative program.
    Metabolic measuring research has had great successes and 
continuing progress as we work to understand metabolism and the 
lifesaving insight new technologies can provide for our 
warfighting men and women. Metabolic measuring truly holds the 
potential to improve and save lives. It will give our troops an 
immediate advantage when the unthinkable occurs.
    I ask you to imagine for a moment this all too real and 
common scenario. A soldier is wounded by an Iraqi insurgent 
mortar attack. With this technology's remote real-time capacity 
to provide an online window into the body, monitoring metabolic 
alterations, field surgeons will have the potential to 
immediately assess the extent of the soldier's injuries. 
Ultimately, metabolic measuring can be integrated with other 
automated medical devices and Objective Force warrior 
equipment, activating devices such as the automatic tourniquets 
or injections to respond appropriately to injuries even before 
medical help arrives.
    This amazing technology will ultimately allow soldiers to 
wear a uniform that will actually provide treatment on the 
spot. In the critical moments after an injury, metabolic 
measuring could treat injuries and give doctors at a field 
hospital miles away information to prepare for a soldier's 
specific wounds.
    While the possibility of such lifesaving measures through 
technologies from metabolic measuring is still on the horizon, 
we are moving closer and closer to this reality every day. 
Already there are excellent examples of metabolic measuring 
funded research like a gel that responds to the concentration 
of glucose in your tears by changing colors, allowing soldiers 
to survive and recover from injuries, making our armed forces 
stronger.
    In essence, metabolic measuring research will provide a 
real-time access to the warfighter's metabolic state, improved 
health and lifesaving measures for women and men in the 
military. Access to the soldier's real-time metabolic state 
will have an enormous impact, sir. The technology will enhance 
our knowledge of basic metabolism, enabling the military to 
tailor fundamental elements of training and nutrition and 
ultimately be able to tailor their medical care to not only 
improve their survival, but, almost as important, reduce their 
healing time and the long-term effects of their injuries.
    Congress' investment in this innovative technology and 
progressive approach has been vital to our national security 
and national health. A continued investment in this program 
will enable technologies for metabolic measuring partners, such 
as the Department of Defense, the NIH, NASA, and Juvenile 
Diabetes Research Foundation, to continue to develop and 
improve technologies to measure the physiology and the 
viability of our fighting men and women accurately, 
consistently, and non-evasively.
    I have seen firsthand the fruits of your investment: 
Velcro, global positioning system (GPS), and the Internet. With 
funding through your subcommittee, technologies for metabolic 
measuring has the potential to be this kind of innovative and 
even lifesaving tool.
    It is critical for your support of this lifesaving research 
by funding $10 million for technologies for metabolic 
measuring, the Julia Weaver Fund Initiative. Not only will this 
improve the lives of our soldiers and their families, but it 
will be a great step toward an even more personal wish for me 
and many families, a cure for juvenile diabetes. Giving my 
daughter even the possibility of a non-invasive option to her 
multiple shots each day and the potential of avoiding the 
devastating complications of diabetes, like blindness, kidney 
failure, and heart disease are promises that would provide hope 
to so many suffering with juvenile diabetes.
    Finally, sir, my son Brett is an 18 year old marine headed 
to Iraq. Please give him and all the men and women like him who 
are already there in the front lines absolutely the best chance 
to survive if the unthinkable occurs.
    Thank you for your time and your support, sir.
    Senator Stevens. Thank you very much. The best to your son.
    General Weaver. Thank you, sir.
    Senator Stevens. Nice to see you again.
    General Weaver. Nice seeing you, sir.
    Senator Stevens. Do you have a question, Senator?
    Senator Inouye. We will do our best.
    [The statement follows:]

     Prepared Statement of Major General Paul A. Weaver, Jr. (Ret.)
                            program overview

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to support $10 million in 
funding for the Technologies for Metabolic Monitoring/Julia Weaver Fund 
(TMM/JWF) Initiative on behalf of the Juvenile Diabetes Research 
Foundation International.
    I am here to report on the great success and continued progress of 
the TMM program thanks to your past support of this innovative project. 
The TMM program is working to improve understanding of metabolism and 
subsequently develop monitoring technology to provide our military with 
critical information about the physiology and viability of soldiers in 
the field, and astronauts orbiting the earth, accurately, constantly 
and non-invasively. The real life application of this technology will 
offer healthcare professionals an online window into the body; 
information which can ultimately provide life saving insight.
    I am pleased to report that Congress's investment in this inventive 
technology and progressive approach to a vital national security, as 
well as national health need since fiscal year 2001, has yielded 
remarkable successes. We come before you this year to request an 
additional $10 million to elevate this research, and move it rapidly to 
the soldiers in the field who will benefit the most from the results of 
this exciting program. A continued investment in the program will 
enable TMM's partners--the Department of Defense, the National 
Institutes of Health and the National Aeronautics and Space Agency, as 
well as the Juvenile Diabetes Research Foundation and the many TMM 
participants from academia, industry and government--to continue to 
develop and improve technologies to measure the physiology and 
viability of our fighting men and women.
    After 35 years of military service, including 8 years as the 
Director and Deputy Director of the Air National Guard, I am proud of 
the Department of Defense's long and distinguished tradition of funding 
research, driven by genuine mission necessity. While in uniform, I saw 
the benefits of your commitment to the brave who serve. As an American 
out of uniform, I know that the fruits of your investments yield some 
of the most used applications in American culture. Some items on this 
list are part of our American lexicon--Velcro, GPS and the Internet. 
The program I speak of today has the potential to join this list, but 
it won't just make lives easier, it has the potential to improve and 
save lives as well.

                      A CRITICAL BATTLEFIELD TOOL

    As we know all too well from the fields of Iraq and Afghanistan, 
providing our military's medical units with the most sophisticated 
cutting edge technology has significantly improved their ability to 
tackle battlefield trauma, ultimately saving the lives of our fighting 
men and women. Our soldiers, sailors, airmen and marines wounded in 
Iraq, Afghanistan and elsewhere are much more likely to survive their 
injuries today than in past wars. As recently reported by the Army News 
Service, only 1.6 percent of soldiers injured in Operation Iraqi 
Freedom and Operation Enduring Freedom have died of their wounds. This 
is less than half the 3.68 percent death rate for wounded soldiers in 
Vietnam. The technologies developed by the TMM program will accelerate 
this trend.
    TMM will provide our soldiers with an immediate advantage when the 
worst occurs. Imagine the following all too real and common scenario: A 
soldier is wounded by an Iraqi insurgency's mortar attack. With the 
technology's remote real time capacity to monitor metabolic 
alterations, field surgeons will have the potential to assess the 
extent of his injuries in such an acute incident. TMM can be integrated 
with other automated medical devices in Objective Force Warrior 
equipment, activating devices such as automatic tourniquets or 
injections to respond appropriately to his injuries. ``Knowledge of the 
metabolic status of the warfighter, both prior to injury and during 
treatment, is vital to providing medical care. While in the past there 
have been numerous individual programs addressing various aspects of 
telemetry and metabolic monitoring, TMM has finally provided the 
opportunity to look at the whole issue end to end. We are especially 
excited about the opportunity to work more closely with our colleagues 
in NASA and NIH using the TMM program as a framework,'' said Colonel 
John Holcomb, Commander, U.S. Army Institute of Surgical Research. It 
is this capability that will potentially have a truly dramatic impact 
on reduction of our died-of-wounds numbers, not to mention ultimately 
improving the long-term quality of life, as well as reducing the cost 
of our military's medical obligations to its veterans.
    TMM sensors also will have the potential to measure a soldier's 
metabolism in response to exertion, particularly in an environment of 
extreme heat. In another real scenario, this technology could direct an 
over-exerted soldier to take actions to optimize his performance, such 
as when and how much fluid to drink, or to consume a MRE specially 
formulated to optimize his performance for the task at hand. The 
sensors could also inform his commander that the soldier is too 
exhausted to make good decisions, protecting not only him but also the 
mission.
    Access to a soldier's real time metabolic state will have enormous 
impact. The technology will enhance our knowledge of basic metabolism, 
enabling the military to tailor fundamental elements of training, 
nutrition and soldier health and performance. and ultimately be able to 
tailor their medical care to not only improve their survival, but 
almost as important reduce their healing time and the long term effects 
of their injuries. Saving the warfighters life is of tantamount 
importance, but we must also reduce the impact of their injuries on the 
rest of their lives.
    According to Dr. Frazier Glenn, Technical Director, U.S. Army 
Medical Research and Materiel Command at Fort Detrick, ``current 
technology investments have been somewhat divergent and the overall 
metabolic research area needed some way to coalesce around a central 
effort. TMM has fulfilled that role admirably.'' As a result, the DOD 
research in this area is even more effective, with the assistance of 
the TMM program.

             A STRONG INVESTMENT WITH DEMONSTRABLE RESULTS

    To demonstrate this program's dramatic success in the 5 years since 
its inception, in fiscal year 2001 the U.S. Army Medical Research and 
Materiel Command (USAMRMC), which manages this initiative, received 16 
applications and supported 5 novel metabolic monitoring research 
projects and a highly successful workshop. In fiscal year 2002, the 
program received $2.5 million in appropriations and was expanded to 
include academic, industry, civilian and defense researchers. As a 
result, 48 applications were received and following a highly 
competitive review, an additional 12 novel metabolic monitoring 
research projects received seed grants for 1 year. This year we have 
received nearly 60 proposals that have been reviewed by an expert 
scientific panel. The work of previously funded TMM researchers is 
among the highest scoring submissions. As this program continues to 
progress with the addition of an intramural component, we will utilize 
highly skilled laboratories with unique complementary skills, such a 
high-powered computer models of human disease, to realize the potential 
of these technologies to the benefit of both soldiers and civilians.
    A critical component of the success of this project has been a 
structure which emphasized and encouraged innovative thinking. 
Fostering such an atmosphere resulted in new discoveries, some of which 
built upon existing ideas, and others which took this promising 
research in bold new directions. As a result of our continued combined 
effort, the TMM program has brought several highly attractive 
technologies from the drawing board to successful laboratory and field 
demonstrations.
    Some of the intriguing examples of TMM-funded research include a 
polyacrylamide gel technology that responds to changes in the 
concentration of glucose in tear fluid by changing color--a high-tech 
contact lens if you will. In another project, researchers developed 
miniaturized implantable sensors, one of which wirelessly transmits 
glucose concentrations, and another measures multiple metabolites. 
Other projects included the development and validation of several 
portable devices to monitor the energy expended during physical 
activity, and determine the general energy costs of physical training 
in ROTC cadets.
    Now, it is time to build upon this investment. The TMM program is 
ready to begin to transition from a basic research focus to a 
development and implementation process in order to expedite the 
clinical application of technology sooner. We hope not only to continue 
the current exciting direction of the program, but also to have the 
resources to begin to expand and truly maximize some of our real 
successes.
    In addition to the work we have been doing, in partnership with 
DOD, NASA and NIH's academic and industrial partners in all 50 States, 
we hope to refine, manufacture and begin testing these technologies so 
they may rapidly enter the developmental and approval pipeline. Our 
goal is to create centrally organized programs that can utilize the 
strengths of the many facilities that can support this effort. This 
will be done in addition to our continued efforts to ensure a constant 
supply of new and novel capabilities.

              PROGRAMMATIC SUCCESS WILL HAVE A BROAD REACH

    There is no question that TMM holds great promise and is a superb 
investment for our soldiers in the field. Just like numerous other 
Defense Department programs before it, this technology teems with 
potential for those out of uniform.
    As a military man, I am optimistic about the real life application 
of this technology for our fighting men and women, but I must be honest 
that my real passion for this research is my daughter Julia. One month 
after my retirement from military service, my wife and I took our 2\1/
2\-year-old daughter Julia to the emergency room at Mary Washington 
Hospital in Fredericksburg, Virginia, a day that truly changed our 
lives. Prior to that day, we had been told Julia had the flu. Her 
condition continued to worsen. On New Years Day morning, we noticed a 
severe degradation with her overall health. She lost 10 pounds in 1 
week and was losing mental awareness of her surroundings. We proceeded 
to the emergency room at Mary Washington Hospital where we were told, 
after her blood was tested, that she had developed juvenile diabetes. 
Julia, whom we call ``The Precious'', was transported by a helicopter 
ambulance to the Pediatric Intensive Care Unit at Walter Reed Army 
Medical Center. As the chopper lifted off, I could never explain the 
feeling in our hearts that we may never see our little girl alive 
again.
    She was in the Intensive Care Ward for approximately 2 days and 
then moved to a regular ward after her condition became stable. The 
great medical staff at Walter Reed saved her life and for that, my wife 
and I will be eternally grateful. My daughter's daily regimen with 
juvenile diabetes consists of having her finger pricked 6-8 times a day 
and receiving 2-4 shots a day. I made a commitment to God that if I 
could ever do anything to help find a cure for diabetes, I would do it.

                        THE PROMISE FOR DIABETES

    What you must know about the promise of this research effort as it 
applies to diabetes is that it offers more than an improvement in a 
diabetic's quality of life. As a parent, the simple act of eliminating 
the daily regimen of the 6 to 8 finger pricks and 2 to 4 shots my 
daughter endures would be a great relief. TMM offers the potential to 
replace this painful routine and provide a more complete picture of the 
disease. The real benefit of TMM is its ability to greatly reduce--or 
ideally eliminate--the daily risk of the diabetic emergencies of 
hypoglycemia and hyperglycemia, and most significantly, the long term 
damage caused by the fluctuations in blood glucose. JDRF reports that 
on average, the life expectancy of a child with type 1 diabetes is 
shortened by 15 years because of this long-term damage. As Julia's 
father, this is a statistic I cannot accept.
    Anyone who has a loved one with this disease, or has the disease 
him or herself, knows the difficulties of controlling ever-fluctuating 
glucose levels with insulin and diet. Current technology is good but it 
is extremely difficult to maintain tight control of blood glucose 
levels, especially over long periods of time. New and improved 
technologies would help to ward off the devastating complications, such 
as blindness, kidney failure, amputation, heart disease, and nerve 
damage, which are often the inevitable result of a lifetime with this 
disease.
    Technologies that would non-invasively monitor a diabetic's 
metabolism, coupled with an ability to provide information remotely (or 
wirelessly), would allow individuals with the disease to monitor their 
blood sugar levels accurately, constantly, and non-invasively, which 
could ultimately improve the control of fluctuations in their blood 
glucose levels and potentially reduce the severity of debilitating 
complications. In this way, this technology could offer a significant 
and immediate improvement in the quality of life of 18 million 
Americans who suffer from this disease and relieve much of the economic 
burden of this disease on our Nation.

                 APPLICATION IN THE INTENSIVE CARE UNIT

    Insulin resistance and hyperglycemia often accompany the critical 
injuries and illnesses of patients in the intensive care unit (ICU), 
placing them at high risk for multiple organ failure and death. TMM 
could have a profound impact for these people as well. Recent studies 
show that preventing hyperglycemia by maintaining insulin levels 
substantially improves outcomes for these critically ill patients. TMM 
holds the potential to improve glycemic control in injured soldiers and 
other ICU patients that could ultimately be implemented in every 
hospital's intensive care unit, saving countless lives.

                               CONCLUSION

    JDRF and I thank you Mr. Chairman and members of the subcommittee 
for your generous funding of this program, which allowed it to prosper 
into a unique and successful initiative. The attached research 
summaries demonstrate the high level of innovation that has been 
pursued with these funds. I respectfully ask that you continue your 
strong support for this initiative by providing $10 million for fiscal 
year 2006. This funding will allow the U.S. Army Medical Research and 
Materiel Command (USAMRMC), in combination with its partners at NASA, 
the NIH and JDRF to capitalize on the opportunities provided by the 
previous 5 years of funding. Such funding will enable this truly 
unconventional consortium to expand this initiative, and transition 
from development to evaluation and application of these novel 
technologies in soldiers in the field and patients in the clinic.
    This subcommittee is faced with difficult choices as it looks to 
stretch limited resources in a way that makes our military more lethal, 
robust and sustaining. I urge you to recognize the promise of this 
program to protect our most valuable asset, the men and women in 
uniform, when they need it most, which is following an injury. The 
science and technology in the TMM initiative is real; it holds the 
promise to assist wounded warriors immediately in times of trauma, and 
to optimize war fighter performance when it is most needed. While the 
health care cost savings it offers are significant, the cost of the 
lives, and the improvement in their quality, is truly incalculable.
    I thank you for the opportunity to appear before you today.

                       TMM/JWF PROGRAM SUCCESSES

    Development of a mouse/mammalian model for test and validation of 
implantable glucose sensors. This is vital to allow the progress of 
implantable research to move forward. TMM allowed this vital base-line 
infrastructure work to occur that will have wide ranging impact on many 
technology and research efforts that would not have been nearly as 
effective without it.
    Numerous papers and research into Iontophoresis and other non-
invasive/minimally invasive techniques of analysis and extraction of 
glucose and other analytes for assessment of metabolism.
    Acceleration of research in implantable sensors to apply to 
numerous applications, including glucose monitoring. TMM allowed 
significant forward movement and acceleration in various industrial 
programs leading to earlier commercialization, and thereby more rapid 
move to the public of new techniques and devices.
    TMM initiative has sharpened the focus and galvanizing the relevant 
research and development community in developing techniques for 
continuous monitoring of metabolic status in day-to-day activities, 
vital data to determine the effectiveness of new sensors and systems. 
This has led to seminal publications in peer-reviewed scientific 
journals to establish the technical foundations and, in conjunction 
with industrial collaborators, the beginnings of translation of the 
technology from the university research lab to the hands of the public. 
As a result of TMM, there are clear prospects for novel implantable 
sensors that can be of use in a variety of metabolic monitoring 
situations in the next several years.
    TMM allowed the development and validation of several portable 
techniques for monitoring the amount of physical activity and its 
associated energy expenditure, and to determine the general energy 
costs of physical training in ROTC cadets. The TMM program has 
successfully completed tests in April of 2004, and is in the active 
process of analyzing the abundant data that was ascertained.
    TMM funded research toward developing and characterizing a 
minimally invasive near-infrared fluorescence affinity glucose sensor 
for transdermal monitoring of subdermal interstitial fluid in diabetics 
and soldiers (fitness control). TMM allowed the successful completion 
of the optimization of a sensor in-vitro under simulated body 
conditions. The excellent long-term stability data of the TMM sensor, 
which performed satisfactorily over a period of 6 months on the 
benchtop, can be considered to be a scientific breakthrough in the 
field of optical affinity sensors for glucose monitoring.

            TMM INVESTIGATORS--BRIEF PROJECT SUMMARIES 2004

    Sanford Asher, Ph.D.--University of Pittsburgh, Department of 
Chemistry.--(a) Novel Approaches to Glucose Sensing Based on 
Polymerized Crystalline Colloidal Array Hydrogel Sensors; (b) Fabricate 
superparamagnetic particle hydrogels responsive to glucose which will 
report on the interstitial glucose concentration noninvasively through 
a magneto-acoustic response; (c) Interstitial measurement; (d) 
Implantable; (e) Particles will have a natural frequency of oscillation 
which is glucose dependent; (f) Oscillating particles will generate an 
ultrasonic acoustic response which we detect by a piezoelectric 
transducer.
    Ralph Ballerstadt, Ph.D., Biotex, Inc.--(a) Implantable 
Fluorescence Sensor For in vivo Glucose Monitoring; (b) Fluorescent 
properties of the sensor will vary in response to local glucose 
concentrations.
    Diane J. Burgess, Ph.D.--University of Connecticut.--(a) 
Miniaturized, Wireless, Implantable Glucose Sensors; (b) With the help 
of fiscal year 2002 TMM-support: assembled an interdisciplinary team 
who designed, built and tested various components of a miniaturized, 
wireless-integrated and totally-implantable glucose sensor; (c) 
Development of an advanced hydrogel coating containing tissue response 
modifiers (TRMs) capable of minimizing inflammation, preventing fibrous 
encapsulation and promoting neovascularization; (d) Glucose-oxidase 
technology; (e) Implanted, wireless technology.
    Matthew R. Glucksberg, Ph.D.--Northwestern University.--(a) 
Surface-Enhanced Raman Spectroscopy for Monitoring Lactate and Glucose; 
(b) Raman spectroscopy: powerful analytical tool that permits the 
unambiguous identification of molecules based on their unique 
vibrational modes; (c) Surface Enhanced Raman Scattering (SERS) 
phenomenon increases by up to a trillion fold the Raman signal from 
molecules near gold and silver nanoscale materials; (d) Project aims to 
develop and test these SERS active substrates on the tip of an 
indwelling, percutaneously implanted fiber optic probe.
    Krzysztof C. Kwiatkowski, Ph.D.--Lynntech, Inc.--(a) A New Non-
Invasive Continuous Glucose Sensor; (b) Micro-needle arrays created by 
Lawrence Livermore National Laboratory (LLNL) as the basis for a 
glucose sensor; (c) Interstitial fluid glucose measurement; (d) Similar 
to CGMS, but with new micro-needle technology.
    Joseph Y. Lucisano, Ph.D.--GlySens, Inc.--(a) Dependable Detection 
and Warning of Hypoglycemia; (b) A very small, sensor array that can be 
inserted through a needle into the subcutaneous tissues of healthy 
individuals and that can be retrieved after 2 weeks of intensive 
monitoring; (c) A larger, disc-shaped version of the sensor array for 
long-term (1 year) implantation, especially in diabetic children to 
detect and warn of hypoglycemia; (d) Sensors indicative of the 
metabolic state, including sensors for glucose, oxygen, lactate, 
temperature, heart rate, breathing rate and physical activity.
    Michael Pishko--Penn State, Dept Chemical Engineering.--(a) 
Microfabricated Multianalyte Sensor Arrays for Metabolic Monitoring; 
(b) Electrochemical biosensors based on redox polymer/enzyme thin films 
fabricated using conventional wafer fabrication technologies; (c) 
Implantable.
    J. Bruce Pitner, Ph.D.--Becton, Dickinson and Company.--(a) Real-
Time Energy Metabolite Monitoring Developing in vivo Sensors for 
Glucose, Fatty Acids, and Lactate; (b) Fluorophore-labeled binding 
proteins specific to metabolites such as glucose, lactate, and fatty 
acids; (c) Fluorophores are located at the binding site of the protein. 
Upon ligand attachment, the binding site undergoes conformational 
changes, which causes changes of the fluorescence response of the 
labeled dye.
    Leah Tolsa, Ph.D.--University of Maryland Baltimore County.--(a) 
Low-Cost Portable System for Multianalyte Metabolic Monitoring; (b) 
Specific binding of each analyte to a corresponding binding protein. A 
sample of set volume is pumped into a microfluidic cassette, diluted 
accordingly, and channeled into three chambers containing the protein 
biosensors; (c) Proteins will be labeled with an environment-sensitive 
fluorophore (acrylodan) at a site that responds to analyte binding.

                                  2003

    Tadeusz M. Drzewiecki, Ph.D.--Defense Research Technologies, Inc.--
(a) Non-Invasive Metabolic Monitoring Using a Breath-by-Breath 
Microfluidic Gas Monitoring System.
    Jeffrey I. Joseph, D.O.--Thomas Jefferson University.--(a) 
Artificial Pancreas for Control of BG and Insulin Levels in 
Hospitalized Patients with Diabetes and Stress Hyperglycemia; (b) 
MiniMed technologies--with inclusion of 3 rather than 1 sensor and 
intravenous monitoring.
    Thomas Joseph--Becton Dickinson Technologies.--(a) Indwelling 
Metabolite Sensors for Optical Reading Through Skin: A Platform Based 
on NIR Dyes Conjugated to Binding Proteins: NIR Fluorescent Dyes 
conjugated to binding proteins.
    David Gough--University of California, San Diego.--(a) 
Implementation of Implantable Disc, long-lived lactate sensor, monitor 
heart and breathing into animal models.
    Donald Kreutzer--University of Connecticut.--(a) Uses of 
Neovascularization to Enhance Glucose Sensor Function In Vivo: Local 
delivery of angiogenic factors to enhance glucose sensor function; (b) 
Role of Macrophages in the Function and Lifespan of Glucose Sensors In 
Vivo.
    Michael J. McShane, Ph.D.--Louisiana Tech University.--(a) Novel 
Micro/Nano Approaches for Glucose Measurement Using pH-Sensitive 
Hydrogels: pH-sensitive microgels for glucose measurement.
    Jackie Y. Ying, Ph.D.--Massachusetts Institute of Technology.--(a) 
Glucose-Responsive Nanoparticles for Controlled Insulin Delivery.

                                  2002

    Daniel Moran, Institute of Military Physiology, Israel.--(a) Non-
invasive metabolic rate monitor and predict energy expenditure.
    Kong Chen, Vanderbilt University Medical Center.--(a) Non-invasive 
physical activity monitor, predict energy expenditure, determine energy 
costs and physiological responses.
    Richard Guy, University of Geneva, Switzerland.--(a) Transdermal 
ionophoretic metabolic monitoring.
    Ralph Ballerstadt, Biotex, Inc.--(a) Minimally invasive nearIR 
fluorescent polymer sensor for transdermal glucose monitoring.
    Diane Burgess, University of Connecticut.--(a) Autonomous sensory 
device, low-power CMOS microelectronics, glucose oxidase based, 
improved stability via coatings.
    David Gough, University of California, San Diego.--(a) Implantable 
Disc, multi-sensor array.
    Stuart Harshbarger, Johns Hopkins University.--(a) Metabolic 
activity at wound site, prediction of wound healing.
    James Mansfield, Hypermed, Inc., Watertown MA.--(a) Hyperspectral 
Imaging, focal changes in cutaneous hemoglobin.
    Bradley Nindl, Military Performance, U.S. Army Research Institute 
of Environmental Medicine, Natick, Massachusetts.--(a) Non-invasive 
IGF-1 monitoring during warfighter training, interstitial micropore 
measurement.
    Kenneth W. Ward, iSense Corporation.--(a) 300 m wire sensor for 
continuous amperometric monitoring of glucose and lactose.
    Babak Ziaie, U. of Minnesota.--(a) Hydrogel-based implantable 
micromachined transponder for wireless glucose measurement.

                                  2001

    Jerome Shultz, NASA-AMES Research Center.--(a) Non-invasive, 
physiological evaluation system.
    Bradley Nindl, Military Performance, U.S. Army Research Institute 
of Environmental Medicine.--(a) IGF-I and IGFBP-3 analysis--Filter 
Paper Spot Assay.
    Amanda O'Donnell, Naval Aerospace Medical Research Laboratory.--(a) 
Telemetric Device, heart rate variability, non-invasive assessment of 
operational performance.
    Kaveh Zamani, Medical Research and Materiel Command.--(a) Real-time 
stress monitoring, non-invasive, stress hormone.
    Motilal Pamanani, Henry M. Jackson Foundation for the Advancement 
of Military Medicine.--(a) Interstitial vs. Intravascular changes in 
hemorrhagic shock.

    Senator Stevens. Our next witness, Dr. Harry Armen, 
President of the American Association of Mechanical Engineers. 
Yes, sir.

STATEMENT OF HARRY ARMEN, Ph.D., PRESIDENT, AMERICAN 
            SOCIETY OF MECHANICAL ENGINEERS
    Dr. Armen. Good afternoon, Mr. Chairman, Senator Inouye. I 
am Harry Armen and I serve as the elected President of the 
American Society of Mechanical Engineers (ASME), a 120,000-
member professional engineering society founded in 1880. I am 
an engineer with over 40 years of experience in defense 
aerospace.
    Engineers are a major part of this Nation's technology 
base, a base that is essential for defense and for our economic 
vitality. We therefore appreciate the opportunity to appear 
before your subcommittee to present our views on the DOD 
science, engineering, and technology programs, the S&T 
programs.
    I want to specifically thank the subcommittee and 
especially you, Mr. Chairman and Senator Inouye, for your past 
and ongoing support you have shown for these programs. A stated 
goal of this administration and Congress is to maintain defense 
S&T funding at 3 percent of the overall defense budget. That 
level would require $13.4 billion for fiscal year 2006. We urge 
you to support this level of funding for the S&T programs.
    While we appreciate your continued support for the overall 
program, we remain very concerned about critical shortages in 
specific DOD S&T areas, particularly in those that support 
basic research, the 6.1 account. And we are concerned about the 
trends for funding for scientific and technical education. 
Basic research supports science and engineering research and 
technical education at universities in all 50 States. Many of 
the technically talented engineers who have developed and are 
developing our current weapons systems received funding for 
their education as a result of working on basic research 
projects and other programs funded by DOD that promoted 
technical education. On a personal level, I am a product of the 
National Defense Education Act of 1961.
    In the early 1980s basic research was 20 percent of S&T 
funding. That level has declined to 12 percent. The 
technological superiority our young men and women in the 
services have been given in the campaigns in Afghanistan and 
Iraq were a direct result of investments made in science and 
technology several decades ago. We strongly encourage this 
subcommittee to reverse the declining trend and support robust 
investment in basic research.
    We also urge the members of the subcommittee to support 
advanced technical education. As the need for a more highly 
skilled workforce which includes a higher percentage of 
individuals with master's and doctoral degrees increases and 
the available technical workforce decreases, corporations that 
must hire engineers who are U.S. citizens and have appropriate 
security clearances will be faced with critical shortages.
    These shortages are a result of our own students declining 
to pursue careers in engineering and science, compounded by the 
fact that almost 60 percent of the current civilian science and 
technology defense workforce will be eligible for retirement or 
early retirement within the next 5 years.
    Mr. Chairman and members of the subcommittee, we have a 
serious problem. The questions that must be addressed are the 
following: Will the United States, which is now dependent upon 
foreign suppliers for our energy and foreign financial 
resources to underwrite our deficits, also be dependent on 
foreign sources for science and engineering knowledge?
    The second question: Will this Nation be the leader or just 
an observer in the next technological revolution, involving the 
confluence of bio, nano, and information technologies? That 
confluence will result in remarkable breakthroughs that will 
alter virtually every aspect of our lives. Or as Al Jolson once 
said, ``You ain't seen nothing yet.''
    In summary, I urge the members of the subcommittee to 
continue your support to strengthen DOD's science and tech 
programs. It will take a great deal of continued attention and 
a commitment to defense research and development (R&D) to 
ensure that the best engineering and scientific minds are once 
again willing to apply their talents to meeting the future 
defense needs of this Nation.
    Thank you for the opportunity to present our views.
    Senator Stevens. Well, thank you very much, doctor. We are 
pleased to have you appear before us.
    Senator Inouye?
    Senator Inouye. Thank you.
    Senator Stevens. We appreciate your comments. Thank you.
    Dr. Armen. Thank you.
    [The statement follows:]

                   Prepared Statement of Harry Armen

    Mr. Chairman and distinguished members of the subcommittee, the 
ASME Department of Defense (DOD) Task Force of the Committee on Federal 
Research and Development is pleased to comment on the fiscal year 2006 
budget request for the Research, Development, Test and Evaluation 
(RDT&E) and the Science and Technology (S&T) portion of the Department 
of Defense budget request.
    ASME is a nonprofit, worldwide engineering Society serving a 
membership of 120,000. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets many industrial 
and manufacturing standards. The work of the Society is performed by 
its member-elected Board of Governors through five Councils, 44 Boards, 
and hundreds of Committees operating in 13 regions throughout the 
world.
    This task force is comprised of experts from universities, 
industry, and members from the engineering and scientific community who 
contribute their time and expertise to evaluate the budgets requests 
and legislative initiatives the DOD sends to Congress.
    We appreciate the opportunity to provide input on these areas that 
are critical to the national security and economic vitality of the 
United States. This subcommittee under your leadership has shown strong 
support for maintaining growth in Defense Research and Engineering in 
general and more specifically in Defense Science and Technology 
funding. We understand that Congress is faced with a more highly 
constrained budget environment this year and that there are many areas 
where increased funding could provide benefits. However, these Science 
and Technology accounts not only contribute directly to national 
security by creating the technology that will be inserted into our next 
generation of weapon systems, they also contribute through direct 
benefits, such as workforce development, job creation, and economic 
growth which are also vital to a strong national defense.
    Our testimony addresses three primary funding areas: overall 
Engineering (RDT&E); Science and Technology (S&T); and the University 
Research Initiative (URI). In addition, the consequences of inadequate 
funding for defense research are outlined. These include a degraded 
competitive position in developing advanced military technology versus 
potential peer competitors. This could have profound consequences to 
the United States' economic and military position in the world.
    The fiscal year 2006 request, if implemented, would represent a 
significantly reduced investment in Defense S&T. We strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $13.4 billion, or 
about $2.9 billion above the President's Request is required just to 
maintain inflation adjusted level funding.

                         DOD REQUEST FOR RDT&E

    The administration requested $69.356 billion for the Research, 
Development, Test and Evaluation (RDT&E) portion of the fiscal year 
2006 DOD budget. These resources are used mostly for developing, 
demonstrating, and testing weapon systems, such as fighter aircraft, 
satellites, and warships. This amount represents growth from last 
year's appropriated amount of $69.199 billion of about 0.2 percent. 
Therefore, when adjusted for inflation, this represents a reduction of 
about 2 percent in real terms. One of the largest percentage cuts is in 
the Operational Test and Evaluation (OT&E) function, where the proposed 
funding of $168 million is little more than half of the 2005 
appropriated amount of $310 million. The OT&E organization and the 
testing it conducts was mandated by Congress, and is intended to insure 
that weapon systems are thoroughly tested so that they are effective 
and safe for our troops.
    While this testimony focuses on the fiscal year 2006 budget, the 
task force notes that the multi-year spending plan, as provided in the 
Future Years Defense Program (FYDP), generally shows reduced spending 
in RDT&E accounts over the next 5 years, with spending in fiscal year 
2011 being just $59.7 billion, or a 14 percent reduction from current 
levels. This reduced spending in R&D is inconsistent with the goal of 
developing new systems with advanced capabilities that support military 
transformation.
    In recent years, the task force has supported the overall RDT&E 
request. However, this request falls short in meeting requirements and 
hence we request that the top line RDT&E be increased to $73.1 billion. 
The specific areas that most need augmentation will be addressed in 
subsequent sections. While no specific recommendation on OT&E funding 
is provided, the committee should consider the level of funding 
required to ensure that the approximately $70 billion worth of weapon 
systems that the Department is procuring are adequately tested and 
shown to be safe and effective.

                 DOD REQUEST FOR SCIENCE AND TECHNOLOGY

    The fiscal year 2006 budget request for Defense Science and 
Technology (S&T) is $10.522 billion, which is $2.549 billion less than 
the fiscal year 2005 appropriated amount of $13.069 and represents a 
19.5 percent reduction. The S&T portion of overall DOD spending of $419 
billion would fall to 2.5 percent with this request. The 2001 
Quadrennial Defense Review (QDR), the Defense Science Board (DSB), as 
well as senior Defense Department officials and commanders from the Air 
Force, Army, and Navy have voiced strong support for the future 
allocation of at least 3 percent for S&T programs. Clearly, this budget 
request moves the country in the wrong direction, by reducing S&T 
funding.
    A relatively small fraction of the RDT&E budget is allocated for 
S&T programs. Specifically, the S&T request for $10.522 billion 
represents only about 15 percent of the RDT&E total, but these accounts 
support all of the new knowledge creation, invention and technology 
developments for the military. These S&T funds support Basic Research 
(6.1), Applied Research (6.2), and Advanced Technology Development 
(6.3) and all categories are programmed for significant funding 
reductions.
    Basic Research (6.1) accounts would decrease from $1.513 billion to 
$1.318 billion, a 12.9 percent decline. While these basic research 
accounts comprise less than 12 percent of the S&T budget and less than 
2 percent of the RTD&E total, the programs that these accounts support 
are critically important to fundamental, scientific advances and to the 
generation of a highly skilled science and engineering workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 States. Almost all of the current high-technology weapon 
systems, from laser-guided, precision weapons, to the global 
positioning satellite (GPS) system, have their origin in fundamental 
discoveries generated in these defense-oriented, basic research 
programs. Proper investments in basic research are needed now, so that 
the fundamental scientific results will be available to create 
innovative solutions for the future defense needs of this country. Many 
of the technical leaders in corporations and government laboratories 
that are developing current weapon systems, such as the F-22 and Joint 
Strike Fighter, were educated under basic research programs funded by 
DOD. Failure to invest sufficient resources in basic, defense-oriented 
research will reduce innovation and weaken the future scientific and 
engineering workforce. The Task Force recommends that Basic Research 
(6.1) be funded at the level of $1.6 billion.
    Applied Research (6.2) would be reduced from $4.849 billion to 
$4.139 billion, a 14.6 percent reduction. The programs supported by 
these accounts are generally intended to take basic scientific 
knowledge, perhaps phenomena discovered under the basic research 
programs, and apply them to important defense needs. These programs may 
involve laboratory proof-of-concept and are generally conducted at 
universities, government laboratories, or by small businesses. Many of 
the successful demonstrations create or foster small companies, such as 
those done in the Small Business Innovative Research (SBIR) programs. 
Some devices created in these defense technology programs have dual 
use, such as GPS, and the commercial market far exceeds the defense 
market. Many small companies that fuel job growth in many states 
obtained their start in defense programs, but later broadened their 
markets. However, without initial support many of these companies would 
not exist. Failure to properly invest in applied research would prevent 
many ideas for devices from being tested in the laboratory, and would 
stunt the creation and growth of small entrepreneurial companies.
    The largest reduction would occur in Advanced Technology 
Development (6.3), which would experience a 24.5 percent decline, from 
$6.707 billion to $5.046 billion. These resources support programs that 
develop technology to the point that they are ready to be transitioned 
into weapon systems. Without the real system level demonstrations 
funded by these accounts, companies are reluctant to incorporate new 
technologies into weapon systems programs. The individual service's S&T 
accounts reflect the general trend of large reductions described above. 
However the largest reductions are in the Army's accounts, where Basic 
Research would be cut by 21.6 percent, Applied Research by 39.9 
percent, and Advanced Technology Development by 45.4 percent. The only 
major S&T component with an increase is ``Defense-Wide'' Applied 
Research (6.2) where a 2.8 percent increase is proposed, mainly due to 
a 3.6 percent increase for the Defense Advanced Research Projects 
Agency (DARPA), an increase we strongly endorse.
    We urge this subcommittee to support an appropriation of $13.4 
billion for S&T programs, which is 3 percent of the overall fiscal year 
2005 DOD budget. This request is consistent with recommendations 
contained in the Quadrennial Defense Review and made by the Defense 
Science Board (DSB), as well as senior Defense Department officials and 
commanders from the Air Force, Army, and Navy, who have voiced support 
for the future allocation of 3 percent as a worthy benchmark for 
science and technology programs.

        DOD REQUEST FOR THE UNIVERSITY RESEARCH INITIATIVE (URI)

    The University Research Initiative (URI) supports graduate 
education in Mathematics, Science, and Engineering and would see a 
$46.1 million decrease from $294.2 million in fiscal year 2005 to 
$248.1 million next year, a 15.7 percent reduction. While these amounts 
are small in comparison with the overall defense budget, they are 
critical to educating the next generation of engineers and scientist 
for the defense industry. Lack of funding for the URI will prevent or 
discourage students from pursuing careers in defense related 
technologies. This will have a serious long-term negative consequence 
on the ability of companies to hire highly skilled scientific and 
engineering workforce to build weapons systems in the years to come.
    DOD has shown a lack of commitment to these programs, first by 
devolving these programs to the services 3 years ago and over the last 
2 years not maintaining adequate funding. The reduction in funding will 
directly translate into fewer Americans having an opportunity to pursue 
advanced study in engineering, science, and mathematics, and therefore 
will reduce the pool of qualified workers with advanced technical 
skills for companies that design and manufacture defense systems.
    While DOD has enormous current commitments, these pressing needs 
should not be allowed to squeeze out the small but very important 
investments required to create the next generation of highly skilled 
technical workers for the American defense industry. This would be 
shortsighted.
    The task force recommends that the subcommittee support advanced 
technical education and provide $325 million to the URI program for 
fiscal year 2006.

          REDUCED S&T FUNDING IS A THREAT TO NATIONAL SECURITY

    Since World War II the United States has led the world in science, 
innovation, and defense technology. This preeminent position in 
science, engineering and technology has made us an economic and 
military superpower, second to none. However, this lead is quickly 
eroding and within the next few years may be substantially reduced or 
may completely evaporate in some areas. Many European and Asian 
countries are educating far more engineers and scientists per capita 
and investing a greater portion of gross domestic product (GDP) in 
basic research and innovation than is the United States. If these 
trends continue, the United States, which relies heavily on advanced 
technology for military superiority, may find its dominant military 
position compromised. In the longer term the United States may become a 
second tier economic and military power.
    A recent study performed by the Task Force on the Future of 
American Innovation, entitled ``The Knowledge Economy: Is the United 
States Losing Its Competitive Edge'' evaluated the position of the 
United States in several critical measures of technology, innovation, 
and scientific workforce development. While the report indicated that 
the United States maintains a slight lead in research and discovery, 
there was concern expressed that, ``Nations from Europe and Eastern 
Asia are on the fast track to pass the United States in scientific 
excellence and technological innovation''.
    The report compared the United States to other advanced, industrial 
countries in education, science and engineering workforce, scientific 
knowledge, innovation (as measured by the number of patent 
applications), investment in R&D, and trade balances in high technology 
goods and services.
    Of all the measures considered the United States fared worst in the 
state of technical education. The United States already lags most 
advanced countries in several important measures of natural science and 
engineering education. These findings are supported by a 2002 Rand 
report titled, ``Federal Investment in R&D'', which noted that, 
``numerous competitor nations have made greater advances than the 
United States in terms of developing human resources for science and 
technology. Many countries in the European Union and Asia have exceeded 
U.S. degree production in the natural sciences and engineering. Europe 
overtook the United States in degree production in 1988 and has stayed 
ahead, and Asia pulled ahead in 1998. During this same period, U.S. 
degree attainment in these fields has declined.'' Currently 5.7 percent 
of U.S. bachelor degrees are in engineering or natural science. In 
European and developed or developing Asian counties this ranges from 
about 8 to 13 percent. For science and engineering doctoral degrees, 
which are becoming widely needed in industries that use advanced 
technology, the U.S. share of the worldwide total has been steadily 
decreasing. In 2000 only 22 percent of all doctoral degrees in 
engineering and natural science were awarded by American universities. 
This has fallen from more than 40 percent in the 1970's.
    A useful measure of knowledge creation and the generation of new 
ideas is the number of technical papers published. The total number of 
U.S. publications has been nearly flat over the last 15 years. However, 
other countries have seen steady, and in some cases remarkable growth. 
Therefore, the U.S. share of worldwide technical papers published has 
fallen from 38 percent in 1988 to 31 percent in 2001. The EU countries 
when taken in total now lead in this area, accounting for 36 percent of 
world wide scientific publications. Asian countries, while still far 
behind at only 17 percent of the total, have experienced the most rapid 
growth in this category, more than doubling their output in the past 15 
years. These countries will surpass the United States in about 6 years 
if current trends continue.
    One area where the United States maintains a lead over developing 
Asian countries is in total R&D investment. Currently the United States 
invests over $250 billion in combined private and public financed R&D 
compared with about $100 billion for China, Singapore, South Korea, and 
Taiwan. However, even in this area the gap is rapidly closing. If 
current trends persist, the combined R&D expenditures of these 
countries will match the United States by about 2015. One of these 
reasons is the relatively slow growth in U.S. R&D funding. In 1970 
about 0.1 percent of the GDP was invested in engineering and physical 
science research, mostly in the defense area. This proportion has 
steadily decreased and by 2000 less than half this much, or 0.05 
percent of GDP, was allocated to research in these areas.
    Finally the report compared U.S. balance of trade in advanced 
technology products, such aircraft, computers, communications 
equipment, pharmaceuticals, and precision and optical instruments. In 
1990 the United States had a $30 to $40 billion trade surplus in these 
industries. This situation has steadily eroded to the point that in 
2003 the United States ran a trade deficit in high technology products 
of nearly $30 billion. One of the consequences of the growing economic 
power of China, which is increasing based on higher technology 
industries and an increasingly educated technical work force, is that 
China has surpassed the United States as the world's leading recipient 
of foreign direct investment (FDI).
    There is a general belief among defense strategist that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense.
    Many members of Congress also hold this view. In order to have this 
capability, a native, skilled, scientific and engineering work force is 
required. There is a growing and alarming trend in many commercial 
industries to outsource engineering and other high-skilled service 
activities to foreign workers. In the past outsourcing was largely 
driven by cost considerations and was limited to low-cost, low-skilled 
workers. However, there is an emerging trend to outsource highly 
skilled engineering workforce products such as software and systems 
design and integration. A U.S.-based defense contractor cannot rely on 
engineers and scientists in other countries. Domestic content 
legislation for defense procurement makes little or no sense if the 
foremost scientists, engineers and manufacturers of sophisticated 
defense systems ultimately reside outside the United States. As the 
need for a more highly skilled workforce, which includes a higher 
percentage of employees with Masters and Doctoral level technical 
educations, increases, and the available technical workforce decreases, 
corporations that must hire engineers who are U.S. Citizens with the 
appropriate security clearances, will be faced with serious shortages. 
A critical issue to be faced is: Will the United States, now dependent 
on foreign energy sources and finances to underwrite our deficits, now 
be dependent on foreign sources for scientific and engineering 
leadership?
    We believe that protectionist measures will not be able to serve 
the long-term policy objective of having the capability to design, 
develop, and manufacture defense systems within the United States. In 
order to assure this capability, sufficient manpower, particularly 
those with the critical skills needed for creating advanced defense 
systems, needs to be available in sufficient numbers in the United 
States. Therefore, prudent investments in programs that create a 
robust, domestic supply of engineers and scientist with masters and 
doctoral level educations are in the national interest. Demographic 
data indicate that participation of U.S. students in science and 
engineering students will continue to decline. Retirements of 
scientists and engineers currently in the workforce will accelerate 
over the coming years. This will create a critical shortage of American 
citizens able to create the innovative, effective defense systems of 
the future.
    As Congress considers the allocation of resources in the fiscal 
year 2006 defense appropriations, proper attention to the vital role 
that S&T plays in future innovations and defense workforce should be 
considered. There are critical shortages in the DOD S&T areas, 
particularly in those that support in basic research and technical 
education. These programs protect the stability of the Nation's defense 
base, will lead to technological superiority in future weapons systems, 
and educate new generations of scientists and engineers, who maintain 
our position as the world's technological leader.
    Study after study has linked over 50 percent of our economic growth 
over the past 50 years to technological innovation. U.S. leadership in 
technological innovation is being seriously threatened by the 
accelerating pace of investments by other nations in R&D, their 
innovative capacity and their efforts in technical workforce 
development. All of these trends are occurring within the framework of 
an increasingly competitive global economy.

                               CONCLUSION

    Leadership in engineering research, education and practice is a 
prerequisite to global leadership in technology innovation. A soon-to-
be released National Academy of Engineering report entitled ``Assessing 
the Capacity of the U.S. Engineering Research Enterprise'' provides a 
roadmap for balancing the Federal R&D portfolio and re-establishing 
basic engineering research as a priority for this Nation. We strongly 
urge this committee to review the recommendations outlined in this 
report, particularly those pertaining to discovery-innovation 
institutes, strengthening linkages between industry and research 
universities, and human capital. The report is available at http://
www.nae.edu/NAE/engecocom.nsf/weblinks/MKEZ-68JK55/$File/
Engineering%20Research.pdf.
    In conclusion, we thank the subcommittee for its ongoing strong 
support of Defense S&T. The Task Force believes that proposed funding 
levels are inadequate and the increased investments that are outlined 
are necessary and will make a vital contribution to our national 
security and to a stronger, more vibrant economy.
    ASME International is a non-profit technical and educational 
organization with 125,000 members worldwide. The Society's members work 
in all sectors of the economy, including industry, academic, and 
government. This statement represents the views of the ASME Department 
of Defense Task Force of the Committee on Federal R&D of the Council on 
Engineering and is not necessarily a position of ASME as a whole.

    Senator Stevens. Our next witness is William Destler of the 
University of Maryland, is that correct? Is it ``Doctor 
Destler?''

STATEMENT OF WILLIAM W. DESTLER, Ph.D., PROVOST, 
            UNIVERSITY OF MARYLAND, COLLEGE PARK, ON 
            BEHALF OF THE ASSOCIATION OF AMERICAN 
            UNIVERSITIES
    Dr. Destler. It is.
    Senator Stevens. Thank you, sir.
    Dr. Destler. Mr. Chairman, Senator Inouye: I am here to 
represent the American Association of Universities (AAU), which 
consists of 60 prominent public and private universities that 
together conduct about 60 percent of all federally sponsored 
research and produce about half of the Nation's Ph.D.'s each 
year.
    I want to thank the two of you and the rest of the 
subcommittee for your past strong support of defense science 
and technology research efforts. I think it is no surprise to 
any of us that in the United States the combined research 
capabilities of our Federal laboratories, including our DOD 
labs, together with our corporate research assets, which are 
frankly in decline, and those in our research universities, 
represent one of our last unfair advantages over potential 
adversaries abroad. Spinoffs from defense science and 
technology, moreover, have resulted in the introduction of many 
new products and services in the private sector and are a key 
element in the maintenance of our national standard of living.
    So as the subcommittee begins its work on the fiscal year 
2006 defense appropriations bill, the AAU offers two major 
recommendations. One, strengthen support for basic research in 
defense science and technology. Funding for 6.1 research has 
steadily declined over the last decade, despite the fact that 
basic research is the seed corn that leads to technological 
superiority in defense systems. It is this technological 
superiority that has materially shortened military conflicts in 
which the United States has engaged in recent years and saved 
the lives of countless U.S. citizens.
    Funding for 6.1 basic research, moreover, is a two-fer. It 
not only engages our top scientists and engineers nationwide in 
support of national defense interests, but it also supports the 
training of tomorrow's experts in these critical disciplines.
    Second, the AAU supports the full funding of DOD's new 
National Defense Education Act phase I initiative, a program 
that many years ago benefited our previous speaker. In recent 
years the United States has failed to attract enough of its own 
best students to study in areas of critical importance to our 
national security. The new National Defense Education Act is 
intended to provide scholarships and fellowships to 
undergraduates and graduate students entering critical fields 
such as science, mathematics, engineering and foreign languages 
in return for a commitment of national service after completion 
of their studies--a perfect match in my opinion.
    The AAU therefore fully supports the funding of the $10.3 
million requested for this program in fiscal year 2006 and 
recommends a greatly expanded program in fiscal year 2007 if 
funding will permit.
    I am very grateful for the chance to speak to you today 
and, as you know, I am a very efficient speaker and I will give 
you a little bit of time back.
    [The statement follows:]

                Prepared Statement of William W. Destler

    Mr. Chairman and members of the subcommittee, I am William W. 
Destler, Senior Vice President for Academic Affairs and Provost, 
University of Maryland, College Park. I appear before you today on 
behalf of the Association of American Universities, which represents 60 
of America's most prominent public and private research universities. 
AAU's member universities perform 60 percent of federally funded 
university-based research and award approximately half of all Ph.D. 
degrees granted annually.
    I greatly appreciate this opportunity to testify on behalf of AAU 
on the important role the Department of Defense (DOD) plays in 
supporting both research and education in fields critical to our 
national defense. Before going further, I would like to thank Chairman 
Stevens, Ranking Member Inouye, and the members of the subcommittee for 
your strong support for Defense Science and Technology (S&T) programs 
in the past. For each of the past 4 years the final funding levels for 
Defense S&T have met or exceeded 3 percent of the total defense 
budget--a target originally established in 1989 by the Defense Science 
Board and then included in the Quadrennial Defense Review in 2001. This 
strong support for Defense S&T has been due in large part to your 
efforts. Your support of Defense S&T is even more significant given 
that in each of these years, the budget proposed by the Pentagon for 
S&T programs fell short of the 3 percent target.
    As the subcommittee begins its work on the fiscal year 2006 defense 
appropriations bill, AAU offers the subcommittee two major 
recommendations.
    Within funds provided for Defense S&T, strengthen support for basic 
research.--While significantly more resources have been allocated to 
Research, Development, Testing and Evaluation (RDT&E) in recent years 
and as referenced above, the 3 percent target for Defense S&T has been 
met, the percentage of this funding devoted to basic 6.1 research has 
declined. In fact, over the last 20 years, basic 6.1 research funding 
has declined in inflation-adjusted dollars, despite the demonstrated 
benefit of such funding.
    In December 2004, the Council on Competitiveness--a national 
consortium of industrial, university and labor leaders--released a 
report entitled Innovate America, which identified innovation as ``the 
single most important factor in determining America's success in the 
21st century.'' Among its recommendations, the report urged that DOD 
restore its historic commitment to pioneering discoveries by devoting 
not less than one-fifth of the Defense S&T budget to basic research. To 
achieve that goal, AAU recommends increasing funding for defense basic 
research (budget category 6.1) programs by $200 million in fiscal year 
2006 to $1.7 billion.
    Fully fund DOD's New National Defense Education Act (NDEA)--Phase I 
Initiative.--This year, in addition to the existing University Research 
Initiative, the National Defense Science and Engineering Graduate 
Fellowship Program, and the National Security Education Program 
(NSEP)--all programs for which AAU urges your continued support--the 
Pentagon has proposed $10.3 million for a new National Defense 
Education Act--Phase I program. The NDEA initiative would provide 
scholarships and fellowships to undergraduate and graduate students 
entering critical fields of science, mathematics, engineering and 
foreign languages in return for a commitment of national service after 
completion of their studies.
    AAU applauds this new initiative and believes it is a positive step 
toward addressing U.S. science and engineering (S&E) workforce needs. 
AAU encourages you to provide the $10.3 million requested for this 
program in fiscal year 2006 and recommends greatly expanding this 
exciting new initiative in fiscal year 2007. AAU has called for an even 
more comprehensive, multi-agency national defense education initiative 
to be developed aimed at stemming national educational deficiencies and 
encouraging more U.S. students to study in critical fields of 
knowledge.
    In the time I have remaining, let me briefly outline some key 
reasons why your support for basic defense research is critical. Then I 
will conclude with some final remarks about why AAU supports DOD's 
National Defense Education Act proposal.

     WHY INVESTING IN DOD RESEARCH IS CRITICAL FOR NATIONAL DEFENSE

    DOD basic (6.1) research is the foundation for the scientific and 
technological breakthroughs required to meet future military needs.--
During the Cold War, DOD provided robust support for breakthrough basic 
research performed at the Nation's universities and national 
laboratories. This support resulted in many of the highly-effective 
technologies currently fielded in the war on terrorism today, such as 
global navigation, radar, laser targeting systems and ``smart'' bombs; 
lightweight body armor; the Internet; night vision and thermal imaging; 
unmanned aerial vehicles; and biological and chemical sensors. This 
funding was also critical to supporting some of the Nation's top 
scientific talent.
    Since the end of the Cold War, DOD's focus on basic research has 
declined significantly, dropping from 20 percent of total defense S&T 
funds in 1980 to less than 12 percent in fiscal year 2005. According to 
an assessment of DOD basic research released earlier this year, the 
decline in funding for 6.1 basic research in real terms from 1993 to 
2004 was 10 percent according to the inflation indexes used by the DOD 
and 18 percent using the Consumer Price Index (CPI). Growing concerns 
about declining investments in fundamental research have been 
highlighted in a number of recent news articles which have brought 
attention to DARPA's move away from support of high risk, high payoff 
basic research.
    As the threats we face have grown more complex, the need for new 
knowledge is greater now than ever before.--New dangers facing the 
military, such as high technology terrorism, information warfare, and 
the proliferation of weapons of mass destruction, require new and more 
sophisticated technologies. To meet these threats, DOD must strengthen 
its front-end commitment to basic research in areas such as: 
nanotechnology; high-speed microchips; computing and microchip 
capacity; composites research and stealth technology; explosive 
detection devices; self-healing wound technology; cybersecurity and 
encryption; and biological and chemical defense. The knowledge required 
to generate cutting edge technologies in these areas is critically 
dependent upon DOD's sustained investments in long-term, high risk, 
defense-oriented research performed at U.S. universities.
    At the University of Maryland, for example, DOD support has enabled 
the University to bring together researchers from academia, industry, 
and DOD laboratories to work together on problems ranging from 
energetic materials to advanced electronic devices. This year, for 
example, we are partnering with DOD to establish a new Joint Institute 
for Knowledge Discovery which will assist the agency with the 
extraordinary problem of sifting important information from the huge 
quantities of information collected daily by our intelligence services, 
including NSA. This effort will involve researchers from several 
universities, the private sector, and DOD.
    Defense support for research enlists today's top scientists in 
support of national defense while training tomorrow's experts in 
critical disciplines.--DOD's basic research investment produces not 
only military technology but also the people without whom technology 
would never see the light of day. DOD support to universities and DOD 
laboratories keeps top scientists and engineers involved in the 
academic disciplines that underpin national defense. It also plays a 
vital role in training the next generation of scientists and engineers 
who will become the future defense workforce and implement new defense 
innovations well into the 21st century.
    DOD is the third-largest Federal sponsor of university-based 
research. More than 300 universities and colleges conduct DOD-funded 
research. This research is concentrated in fields where advances are 
most likely to contribute to national defense: DOD provides 71 percent 
of Federal funding for electrical engineering, 46 percent for materials 
engineering, 38 percent for computer sciences, and 30 percent for ocean 
sciences. DOD also sponsors fellowships and provides significant 
support for graduate students in critical defense fields such as 
computer science and aerospace and electrical engineering.
    But there are still too few U.S. students studying these critical 
fields. The need to attract and retain them is the reason that AAU has 
endorsed DOD's proposal for the new National Defense Education Act and 
has called for an even greater multi-agency initiative in future years.

         WHY AAU SUPPORTS A NEW NATIONAL DEFENSE EDUCATION ACT

    As you know, a concerted effort to increase government investment 
in security-related research, education, and training is not novel. In 
response to the launch of Sputnik and the emerging threat posed by the 
Soviet Union, Congress in 1958 created NASA and adopted the National 
Defense Education Act (NDEA). The NDEA inspired generations of U.S. 
students to pursue fields critical to our national security, and 
enabled the United States to establish dominance in science and 
technology for military and civilian purposes.
    Our future military challenges simply cannot be met without an 
appropriately educated and trained U.S. defense workforce. These needs 
have been highlighted by several sources, including the Hart/Rudman 
Commission on National Security, the National Science Board, and most 
recently, the defense industry and the Pentagon itself.
    The sad truth is that in recent years, our country has failed to 
attract enough of our own best students to areas of critical importance 
to our security. This has left us critically dependent upon foreign 
talent to fulfill our workforce needs.
    Since 9/11, however, there has been a drop in the number of foreign 
students coming to the United States to study. Moreover, most of these 
foreign students cannot obtain security clearances and cannot be 
employed in DOD laboratories or by the defense industry. Based on 
numerous benchmarks contained in a recent report by the Task Force on 
the Future of American Innovation, the scientific and technological 
advantage that the United States has held over other nations is 
eroding.
    Rapidly developing economies, particularly those in Asia, are 
vigorously investing in their own research and higher education 
infrastructures, which is thus increasing their ability to both educate 
their people at home and to perform cutting-edge research.

                                SUMMARY

    For reasons of national, homeland, and economic security, the 
United States must produce more graduates in critical fields. Not only 
are DOD and the defense and aerospace industries experiencing 
significant difficulty in attracting and retaining the science and 
engineering talent they require, but as many as 13,000 DOD laboratory 
scientists will be eligible to retire in the next decade. There may not 
be sufficient numbers of graduating, security-clearable U.S. students 
to replace them. In addition, thousands more scientists and engineers 
will be needed in other governmental agencies such as NASA and the 
Department of Energy, and in energy-related industries. And the 
military and intelligence communities face an acute shortage of 
linguists and area specialists in key parts of the world. We must act 
now to fill the pipeline of U.S. students trained in fields vital to 
our national and economic security.
    The Nation should not wait until we face a national security 
workforce crisis. It should act now. With your help, AAU believes that 
the DOD should and will play a leadership role in this effort.
    We urge your support for the $10.3 million requested for the NDEA-
Phase I proposal and encourage you to recognize the need for additional 
resources for defense basic research. This is a small, but vital, 
investment in addressing the monumental national defense challenges we 
now face.
    Again, I would like to thank the subcommittee for its continued 
support of Department of Defense research and look to your continued 
leadership in this area.

    Senator Stevens. Well, doctor, tell me. Does this money 
really flow into the students or just into the university and 
the fixed staff?
    Dr. Destler. It goes entirely to the students. It provides 
scholarships and fellowships for the students to encourage them 
to study.
    Senator Stevens. This amount goes beyond the grants for 
research. It really reaches out to the students?
    Dr. Destler. That is exactly correct.
    Senator Stevens. Well, you will have our support on that. I 
just finished a meeting with some of the people that loan money 
to students and they tell me there is not enough incentive for 
the science and engineering students. So we want to try to help 
you on that.
    Dr. Destler. Exactly. Thank you very much for your support.
    Senator Stevens. Thank you very much.
    Sydney Hickey of the National Military Family Association.

STATEMENT OF SYDNEY HICKEY, ON BEHALF OF THE NATIONAL 
            MILITARY FAMILY ASSOCIATION
    Ms. Hickey. Yes, sir.
    Mr. Chairman, Senator Inouye: the National Military Family 
Association (NMFA) appreciates this opportunity to express its 
views and the views of the families that we represent. We 
continue to be very grateful to you for your strong support of 
military family issues. Tremendous strides have been made in 
predeployment, deployment, and return and reunion support for 
families. Our families are concerned, however, about the long-
term effects of frequent deployments, both on their service 
member and on their own family's integrity. Return and reunion 
programs must be long-term and include the families even when 
the service member is no longer on Active duty.
    Families are also concerned about the availability of 
quality child care. NMFA believes the situation will only 
worsen as rebasing, transformation, and BRAC cause significant 
shifts in population. Alternatives are being developed by the 
Department of Defense and we support these initiatives and urge 
funding for their rapid expansion.
    Transformation, overseas rebasing, and BRAC will require 
significantly more resources than are currently available to 
ensure that quality of life programs remain in effect at losing 
installations until the last family has left and are in place 
at gaining installations before the first families arrive. NMFA 
is therefore very concerned about recent reports that basic 
family support is short of funding.
    NMFA appreciates the many schools that have stepped up to 
the plate to provide needed counseling and other services to 
the children of deployed military parents. We believe that the 
extraordinary workload currently being placed on school systems 
necessitates an increase in the DOD impact aid supplement to 
$50 million and continued congressional oversight of the 
resources requested by DOD for their own schools.
    We also believe additional funds will be required in the 
out-years to assist those school districts that will receive 
many thousands of new military children from overseas areas and 
because of BRAC. NMFA believes robust funding of family support 
programs, including the education of children, is imperative 
for readiness.
    Significant beneficiary turmoil occurred during the 
changeover to the new TRICARE contracts. While progress has 
been made, difficulties remain. Access standards for Prime 
enrollees, particularly those enrolled in military treatment 
facilities, are not being met in many cases. Families returning 
stateside due to overseas rebasing will not be able to be 
accommodated in many instances in military treatment facilities 
(MTFs). If the BRAC proposals for MTFs are implemented, 
significant inpatient workload will also shift out of the MTFs. 
NMFA believes the military health care system should be 
realistically and fully funded to provide quality and promised 
care to all beneficiaries wherever they receive that care.
    NMFA is very grateful for the significant increase in the 
death gratuity and the servicemen's group life insurance 
(SGLI), but strongly believes that all in line of duty deaths 
must be treated the same; and we continue to believe that 
removing the dependency indemnity compensation offset to the 
survivor benefit plan is the best way to establish the long-
term financial stability of the surviving family.
    NMFA thanks you, Mr. Chairman and Senator Inouye, and your 
fellow members of this subcommittee for your support of 
military families and respectfully requests that it continue.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. If I did not do that my wife would not let 
me home. If I did not support you my wife would throw me out.
    Ms. Hickey. More power to her.
    Thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]

Prepared Statement of Kathleen B. Moakler, Deputy Director, Government 
          Relations, the National Military Family Association

    The National Military Family Association (NMFA) is the only 
national organization whose sole focus is the military family and whose 
goal is to influence the development and implementation of policies 
which will improve the lives of those family members. Its mission is to 
serve the families of the seven uniformed services through education, 
information and advocacy.
    Founded in 1969 as the Military Wives Association, NMFA is a non-
profit 501(c)(3) primarily volunteer organization. NMFA today 
represents the interests of family members and the active duty, reserve 
components and retired personnel of the seven uniformed services: Army, 
Navy, Air Force, Marine Corps, Coast Guard, Public Health Service and 
the National Oceanic and Atmospheric Administration.
    NMFA Representatives in military communities worldwide provide a 
direct link between military families and NMFA staff in the Nation's 
capital. Representatives are the ``eyes and ears'' of NMFA, bringing 
shared local concerns to national attention.
    NMFA receives no Federal grants and has no Federal contracts.
    NMFA's web site is located at http://www.nmfa.org.
    Mr. Chairman and distinguished members of this subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony on quality of life issues 
affecting servicemembers and their families. NMFA is also grateful for 
your leadership in the 108th Congress in securing funds to:
  --Make increases in the Family Separation Allowance and Imminent 
        Danger Pay permanent.
  --End the age-62 Survivor Benefit Plan offset.
  --Help DOD support the education of military children.
  --Support family readiness programs and military health care.
    As a founding member of The Military Coalition, NMFA subscribes to 
the recommendations contained in the Coalition's testimony presented 
for this hearing. We especially endorse the Coalition's request that 
this subcommittee work to protect the benefits depended upon by members 
of the all-volunteer force, retirees, their families, and survivors. 
According to DOD statistics, approximately one-fourth of today's 
servicemembers came from military families. Ensuring a robust support 
network for today's military families and fulfilling promises made to 
military retirees will enhance the capabilities of tomorrow's force.
    NMFA also endorses The Military Coalition's recommendations to:
  --Enhance education and outreach to improve military family readiness 
        and support families of deployed active duty, National Guard, 
        and Reserve servicemembers.
  --Fully-fund the commissary benefit and scrutinize proposals to close 
        commissaries or combine exchange services.
  --Ease the transition of Guard and Reserve families to TRICARE when 
        the servicemember is mobilized by providing a choice of 
        purchasing TRICARE coverage when in drill status or receiving 
        Federal payment of civilian health care premiums when the 
        servicemember is mobilized.
  --Fully-fund the Defense Health Program budget to provide access to 
        quality care for all beneficiaries.
  --Authorize full Basic Allowance for Housing (BAH) for Guard and 
        Reserve members mobilized for more than 30 days.
    In this statement, NMFA will address issues related to military 
families.

            FAMILY READINESS THROUGHOUT THE DEPLOYMENT CYCLE

    The Services continue to refine the programs and initiatives to 
provide support for military families in the period leading up to 
deployments, during deployment, and the return and reunion period. Our 
message to you today is simple: increased funding to support family 
readiness is paying off! Family readiness over the long term requires 
that resources must be directed not just at deployment-related support 
programs, but also to sustain the full array of baseline installation 
quality of life programs. As referenced in NMFA's 2004 analysis report, 
``Serving the Home Front: An Analysis of Military Family Support from 
September 11, 2001 through March 31, 2004,'' consistent levels of 
targeted family readiness funding are needed, along with consistent 
levels of command focus on the importance of family support programs.
    NMFA is very concerned about recent reports from Service leadership 
and from individual installations about potential shortfalls in base 
operations funding and appropriated fund support for Morale, Welfare 
and Recreation (MWR) and other quality of life programs. While some of 
these cuts may be temporary, in programs and facilities seeing declines 
in patronage due to the deployment of units from the installations, 
others are in services that support families, such as spouse employment 
support, volunteer support, child development center hours, or family 
member orientation programs. These core quality of life programs make 
the transition to military life for new military members easier and 
lessen the strain of deployment for all families. NMFA does not have 
the expertise to ferret out exact MWR funding levels from Service 
Operations and Maintenance budgets. We are concerned about the state of 
this funding--both appropriated and non-appropriated fund support--
because of what we hear from servicemembers and families, what we read 
in installation papers chronicling cutbacks, and from Service leaders 
who have identified shortfalls in base operations funding in the 
administration's fiscal year 2006 budget request. Resources must be 
available for commanders and others charged with ensuring family 
readiness to help alleviate the strains on families facing more 
frequent and longer deployments.
    NMFA is particularly troubled by what we see as mixed signals 
regarding DOD's long-term commitment to quality of life services and 
programs. In recent testimony, several DOD and Service leaders have 
focused on the costs of many benefit programs and emphasized plans to 
increase bonuses, as opposed to other types of benefits or 
compensation. NMFA regards this narrow focus on bonuses as an 
inadequate quick fix to recruiting and retention woes. We agree with 
the Senior Enlisted Advisors who, in recent testimony, emphasized the 
importance of addressing quality of life issues for active, National 
Guard and Reserve servicemembers and their families. They listed child 
care and housing as top priorities, in addition to pay, health care, 
and educational opportunities for servicemembers and their families. 
NMFA believes military leaders must recognize that the robust military 
benefit package needed to recruit and retain a quality force demands 
attention to both pay and non-pay elements of that package.

                   WHAT'S NEEDED FOR FAMILY SUPPORT?

    Family readiness volunteers and installation family support 
personnel in both active duty and reserve component communities have 
been stretched thin over the past 3\1/2\ years as they have had to 
juggle pre-deployment, ongoing deployment, and return and reunion 
support, often simultaneously. Unfortunately, this juggling act will 
likely continue for some time. Family member volunteers support the 
servicemembers' choice to serve; however, they are frustrated with 
being called on too often during longer than anticipated and repeated 
deployments. Military community volunteers are the front line troops in 
the mission to ensure family readiness. They deserve training, 
information, and assistance from their commands, supportive unit rear 
detachment personnel, professional backup to deal with family issues 
beyond their expertise and comfort level, and opportunities for respite 
before becoming overwhelmed. NMFA is pleased to note that the Army's 
paid Family Readiness Support Assistants are getting rave reviews from 
commanders and family readiness volunteers--funding is needed so that 
more of these positions can be created.
    NMFA knows that complicated military operations can result in 
deployments of unexpected lengths and more frequent deployments. But we 
also understand the frustrations of family members who eagerly 
anticipated the return of their servicemembers on a certain date only 
to be informed at the last minute that the deployment will be extended 
or that the unit will be deployed again within a year or less of its 
return. Other than the danger inherent in combat situations, the 
unpredictability of the length and frequency of deployments is perhaps 
the single most important factor frustrating families today. Because of 
this unpredictability, family members need more help in acquiring the 
tools to cope. They also need consistent levels of support throughout 
the entire cycle of deployment, which includes the time when 
servicemembers are at the home installation and working long hours to 
support other units who are deployed or gearing up their training in 
preparation for another deployment. As one spouse wrote to NMFA:

    ``This is really starting to take a toll on families out here since 
some families are now on the verge of their third deployment of the 
servicemember to Iraq. Families are not so much disgruntled by the 
tempo of operations as they are at a loss for resources to deal with 
what I've started calling the `pivotal period.' This is the point where 
the honeymoon from the last deployment is over, the servicemember is 
starting to train again for the next deployment in a few months and is 
gone on a regular basis, the family is balancing things with the 
servicemember coming and going and also realizing the servicemember is 
going to go away again and be in harm's way. We have deployment briefs 
that set the tone and provide expectations for when the servicemember 
leaves. We have return and reunion briefs that prepare families and 
provide expectations for when the servicemember returns. These two 
events help families know what is normal and what resources are 
available but there is an enormous hole for that `pivotal period.' No 
one is getting families together to let them know their thoughts, 
experiences and expectations are (or aren't) normal in those in between 
months. Deployed spouses have events, programs, and free child care 
available to them as they should--but what about these things for the 
in-betweeners who are experiencing common thoughts and challenges?''

    Efforts to improve the return and reunion process must evolve as 
everyone learns more about the effects of multiple deployments on both 
servicemembers and families, as well as the time it may take for some 
of these effects to become apparent. Information gathered in the now-
mandatory post-deployment health assessments may also help identify 
servicemembers who may need more specialized assistance in making the 
transition home over the long term. NMFA applauds the announcement made 
in January by the Assistant Secretary of Defense for Health Affairs 
that DOD would mandate a second assessment at the 4- to 6-month mark 
following the servicemember's return. We urge Congress to ensure the 
military Service medical commands have the personnel resources needed 
to conduct these assessments.
    NMFA is concerned that much of the research on mental health issues 
and readjustment has focused on the servicemember. More needs to be 
done to study the effects of deployment and the servicemembers' post-
deployment readjustment on family members. Return and reunion issues 
are long-term issues. More also needs to be done to ensure proper 
tracking of the adjustment of returning servicemembers. Post-deployment 
assessments and support services must also be available to the families 
of returning Guard and Reserve members and servicemembers who leave the 
military following the end of their enlistment. Although they may be 
eligible for transitional health care benefits and the servicemember 
may seek care through the Veterans' Administration, what happens when 
the military health benefits run out and deployment-related stresses 
still affect the family?
    NMFA is pleased that DOD has intensified its marketing efforts for 
Military OneSource as one resource in the support for families 
throughout the entire deployment cycle. Military OneSource provides 24/
7 access, toll-free or online, to community and family support 
resources, allowing families to access information and services when 
and where they need them. DOD, through OneSource, has committed to 
helping returning servicemembers and families of all Services access 
local community resources and receive up to six free face-to-face 
mental health visits with a professional outside the chain of command. 
NMFA is concerned that some of the recent cuts in family program staff 
at installations suffering a shortfall in base operations funding may 
have been made under the assumption that necessary support could be 
provided remotely through OneSource. The OneSource information and 
referral service must be properly coordinated with other support 
services, to enable family support professionals to manage the many 
tasks that come from high optempo.
    Geographically-isolated Guard and Reserve families must depend on a 
growing but still patchy military support network. Countless local and 
State initiatives by government organizations and community groups have 
sprung up to make dealing with deployment easier for Guard and Reserve 
family members. One new initiative that has the potential to network 
these local efforts is the National Demonstration Program for Citizen-
Soldier Support. This community-based program is designed to strengthen 
support for National Guard and Reserve families by building and 
reinforcing the capacity of civilian agencies, systems, and resources 
to better serve them. Initiated by the University of North Carolina at 
Chapel Hill, with $1.8 million in seed money provided in the fiscal 
year 2005 Defense Appropriations Act, the Citizen-Soldier Support 
Program will be coordinated closely with existing military programs and 
officials in order to avoid duplication of effort and to leverage and 
optimize success. Leveraging community programs with Federal funding 
and programs can be a win-win situation. NMFA recommends continued 
funding of this program to allow it time to develop a model that can be 
replicated in other locations and to set up training to achieve this 
replication.

                              HEALTH CARE

    This year, NMFA is monitoring the after-effects of the transition 
to the new round of TRICARE contracts and the continued transition of 
mobilized Guard and Reserve members and their families in and out of 
TRICARE. We are concerned that the Defense Health Program may not have 
all the resources it needs to meet both military medical readiness 
mission and provide access to health care for all beneficiaries. The 
Defense Health Program must be funded sufficiently so that the direct 
care system of military treatment facilities and the purchased care 
segment of civilian providers can work in tandem to meet the 
responsibilities given under the new contracts, meet readiness needs, 
and ensure access for all TRICARE beneficiaries. Families of Guard and 
Reserve members should have flexible options for their health care 
coverage that address both access to care and continuity of care
    NMFA believes that ``rosy'' predictions when significant contract 
changes are being made are a disservice to both beneficiaries and the 
system. NMFA is appreciative of the intense effort being made to 
improve the referral and authorization process, but is concerned about 
the cost of the work-around and the prospect of a new round of 
disruptions when DOD's electronic referral and authorization system is 
implemented. It is imperative that whatever changes are made, the 
promised Prime access standards must be met.
    NMFA again notes that more must be done to educate Standard 
beneficiaries about their benefit and any changes that might occur to 
that benefit. To end the TRICARE Standard access problem that is a 
constant complaint of beneficiaries, DOD must work harder to attract 
providers and understand the reasons why providers do not accept 
TRICARE Standard.
    We are closely watching the impending implementation of the TRICARE 
Reserve Select health care benefit for the reserve component. We have 
several concerns about the implementation of this program, especially 
regarding beneficiary education. Both the servicemember and the family 
need to understand the coverage provided under Reserve Select, the 
costs, and, most importantly, how Reserve Select differs from the 
TRICARE Prime or Prime Remote benefit the family used while the 
servicemember was on active duty. Emphasis must continue on promoting 
continuity of care for families of Guard and Reserve servicemembers. 
NMFA's recommendation to enhance continuity of care for this population 
is to allow members of the Selected Reserve to choose between buying 
into TRICARE when not on active duty or receive a DOD subsidy allowing 
their families to remain with their employer-sponsored care when 
mobilized. NMFA also recommends that the rules governing health care 
coverage under TAMP be updated to allow the servicemember and family to 
remain eligible for TRICARE Prime Remote.

                           ALARMING DISCOVERY

    Over the years, NMFA has received anecdotal information from family 
members that providers are not accepting them as TRICARE patients 
because the TRICARE reimbursement level was below that provided by 
Medicaid. Needless to say, family members have been outraged! However, 
since TRICARE reimbursement is tied by law to Medicare reimbursement, 
NMFA has believed the problem to be far larger than the military health 
care system. Alarm bells sounded, however, when NMFA was recently 
informed of the situation in several locations where differences 
between Medicaid and TRICARE rates for obstetrical care or pediatric 
procedures have added to the reasons providers give for not accepting 
TRICARE patients. NMFA does not know how prevalent this problem may be 
across the country and urgently requests that Congress require DOD to 
compare the reimbursement rates of Medicaid with those of TRICARE. We 
are particularly concerned with the rates for pediatric and 
obstetrical/gynecological care where Medicare has little experience in 
rate setting.

                               SURVIVORS

    NMFA believes that the government's obligation as articulated by 
President Lincoln, ``to care for him who shall have borne the battle 
and for his widow and his orphan,'' is as valid today as it was at the 
end of the Civil War. We know that there is no way to compensate those 
who have lost their servicemember, but we do owe it to these families 
to help ensure a secure future. NMFA strongly believes that all 
servicemembers' deaths should be treated equally. Servicemembers are on 
duty 24 hours a day, 7 days a week, 365 days a year. Through their 
oath, each servicemember's commitment is the same. The survivor benefit 
package should not create inequities by awarding different benefits to 
families who lose a servicemember in a hostile zone versus those who 
lose their loved one in a training mission preparing for service in a 
hostile zone. To the family, the loss is the same. NMFA was pleased 
that both the House and Senate included increased survivor benefits in 
their versions of the fiscal year 2005 Emergency Supplemental 
Appropriations Act. We urge this subcommittee to ensure that these 
increased benefits will be funded for fiscal year 2006.
    NMFA recommends the following changes to support surviving family 
members of active duty deaths:
  --Treat all active duty deaths equally. The military Services have 
        procedures in place to make ``line of death'' determinations. 
        Do not impose another layer of deliberation on that process.
  --Eliminate the DIC offset to SBP. Doing so would recognize the 
        length of commitment and service of the career servicemember 
        and spouse. Eliminating the offset would also restore to those 
        widows/widowers of those retirees who died of a service-
        connected disability the SBP benefit that the servicemember 
        paid for.
  --Improve the quality and consistency of training for Casualty 
        Assistance Officers and family support providers so they can 
        better support families in their greatest time of need.
  --In cases where the family has employer sponsored dental insurance, 
        treat them as if they had been enrolled in the TRICARE Dental 
        Program at the time of the servicemember's death, thus making 
        them eligible for the 3-year survivor benefit.
  --Update the TRICARE benefit provided in 3-year period following the 
        servicemember's death in which the surviving spouse and 
        children are treated as their active duty family members and 
        allow them to enroll in TRICARE Prime Remote.
  --Allow surviving families to remain in government or privatized 
        family housing longer than the current 6-month period if 
        necessary for children to complete the school year, with the 
        family paying rent for the period after 6 months.
  --Expand access to grief counseling for spouses, children, parents, 
        and siblings through Vet Centers, OneSource, and other 
        community-based services.
  --To provide for the long-term support of surviving families, 
        establish a Survivor Office in the Department of Veterans' 
        Affairs.

              WOUNDED SERVICEMEMBERS HAVE WOUNDED FAMILIES

    Post-deployment transitions could be especially problematic for 
servicemembers who have been injured and their families. NMFA asserts 
that behind every wounded servicemember is a wounded family. Wounded 
and injured servicemembers and their families deserve no less support 
than survivors. Spouses, children, and parents of servicemembers 
injured defending our country experience many uncertainties, including 
the injured servicemember's return and reunion with their family, 
financial stresses, and navigating the transition process to the 
Department of Veterans Affairs (VA).
    Support, assistance, and above all, counseling programs, which are 
staffed by real people who provide face to face contact, are needed for 
the families of wounded/injured servicemembers. Whenever feasible, 
Military OneSource should be used as a resource multiplier. Mental 
health services and trained counselors need to be available and easily 
accessible for all servicemembers and their families who may suffer 
``invisible'' injuries like combat stress and PTSD. Distance from MTFs 
or VA Centers should not preclude servicemembers and their families 
from seeking and receiving care. Respite care options should be 
provided and accessible for family members who care for the seriously 
wounded.
    NMFA recommends the following changes to support wounded and 
injured servicemembers and their families:
  --Direct the military Services, OSD, and the VA to improve their 
        coordination in support of the wounded servicemember and 
        family.
  --Consider initiatives to enhance the short term financial stability 
        of the wounded servicemember's family, such as: continuing 
        combat pays and tax exclusion, creating a disability gratuity, 
        or implementing a group disability insurance program.
  --Extend the 3-year survivor health care benefit to servicemembers 
        who are medically retired and their families.
  --Enhance servicemember and spouse education benefits and employment 
        support.
  --Establish a Family Assistance Center at every Military Treatment 
        Facility (MTF) caring for wounded servicemembers.

                    EDUCATION FOR MILITARY CHILDREN

    A significant element of family readiness is an educational system 
that provides a quality education to military children, recognizing the 
needs of these ever-moving students and responding to situations where 
the military parent is deployed and/or in an armed conflict. Addressing 
the needs of these children, their classmates, and their parents is 
imperative to lowering the overall family stress level and to achieving 
an appropriate level of family readiness. But it does not come without 
cost to the local school system. Schools serving military children, 
whether DOD or civilian schools, need the resources available to meet 
military parents' expectation that their children receive the highest 
quality education possible.
    NMFA is appreciative of the support shown by Congress for the 
schools educating military children. You have consistently supported 
the needs of the schools operated by the DOD Education Activity 
(DODEA), both in terms of basic funding and military construction. The 
commitment to the education of military children in DOD schools between 
Congress, DOD, military commanders, DODEA leadership and staff, and 
especially military parents has resulted in high test scores, 
nationally-recognized minority student achievement, parent involvement 
programs and partnership activities with the military community. This 
partnership has been especially important as the overseas communities 
supported by DODDS and many of the installations with DDESS schools 
have experienced high deployment rates. DOD schools have responded to 
the operations tempo with increased support for families and children 
in their communities. NMFA is concerned that 3 years of a weak dollar 
has forced the DODDS schools, especially in Europe, to divert funds 
from maintenance and other accounts to pay necessary increases in 
employee allowances. Given the high level of deployment from European 
communities, we ask that Congress work with DOD to ensure DOD schools 
have the resources they need to handle their additional tasks.
    NMFA is also appreciative of the approximately $30 million Congress 
adds in most years to the Defense budget to supplement Impact Aid for 
school districts whose enrollments are more than 20 percent military 
children and for the additional funding to support civilian school 
districts who are charged with educating severely disabled military 
children. NMFA does not believe, however, that this amount is 
sufficient to help school districts meet the current demands placed on 
them. Additional counseling and improvements to security are just two 
needs faced by many of these school districts. NMFA asks this 
subcommittee to increase the DOD supplement to Impact Aid to $50 
million so that the recipient school districts have more resources at 
their disposal to educate the children of those who serve.

                           SPOUSE EMPLOYMENT

    Sixty-nine percent of all military spouses and 86 percent of junior 
enlisted spouses are in the labor force. For many families this second 
income is a critical factor in their financial well being. Concerned 
that spouses desiring better careers will encourage servicemembers to 
leave the military, DOD has instituted several programs to support 
military spouses in their career goals. With 700,000 active duty 
spouses, however, the task of enhancing military spouse employment is 
too big for DOD to handle alone. Improvements in employment for 
military spouses and assistance in supporting their career progression 
will require increased partnerships and initiatives by a variety of 
government agencies and private employers.
    Despite greater awareness of the importance of supporting military 
spouse career aspirations, some roadblocks remain. State laws governing 
unemployment compensation vary greatly and very few states generally 
grant unemployment compensation eligibility to military spouses who 
have moved because of a servicemember's government ordered move. NMFA 
has been pleased to note that some States are examining their in-state 
tuition rules and licensing requirements. These changes ease spouses' 
ability to obtain an education or to transfer their occupation as they 
move. NMFA is appreciative of the efforts by DOD to work with States to 
promote the award of unemployment compensation to military spouses, 
eligibility for in-state tuition, and reciprocity for professional 
licenses. Its website, usa4militaryfamilies.org, provides details on 
these State initiatives.

                               CHILD CARE

    On a recent visit to Europe, President and Mrs. Bush stopped at 
Ramstein Air Base, Germany, to thank the troops for their service and 
dedication to our Nation. While visiting with families there, Mrs. Bush 
was made aware of the lack of child care providers in the community. 
This information is not new to NMFA. We have been hearing from our 
field Representatives that this is an on-going problem, especially 
OCONUS where child care options are limited. As one of our members in 
Germany stated: ``Drawing from the pool of military spouses is no 
longer working over here. Big shortages. They are asking too much of 
the spouses as it is.'' Families in Europe state that funding targeted 
to pay raises for child care providers and increased subsidies for in-
home providers could help the Services recruit more child care workers.
    A recent online survey conducted by NMFA further outlines the need 
for more child care. Of special interest in the survey results was the 
frustration from dual military parents. Dealing with deployments, drill 
weekends and lack of child care facilities were of great concern. 
Families also cited concerns about finding child care after relocating 
to a new area. Because the servicemember is often quickly deployed 
after relocation, the spouse must deal with the added stress as he/she 
looks for employment and childcare in the new location. At a recent 
hearing, three of the four Service Senior Enlisted Advisors cited child 
care as their number one concern for their servicemembers and families. 
The advisors spoke of lost duty time by servicemembers unable to find 
child care. DOD officials estimate that the Department needs at least 
38,000 more slots. According to the Enlisted Advisors, the need may be 
greater. All spoke of waiting lists stretching into the thousands.
    DOD is expanding partnerships to meet the demand described by the 
NMFA survey respondents and the Senior Enlisted Advisors. The National 
Association of Child Care Resource and Referral Agencies (NACCRRA) 
initiated a program entitled Operation Child Care to provide donated 
short term respite and reunion child care for members of the National 
Guard and Reserve returning from Operation Enduring Freedom/Operation 
Iraqi Freedom for the 2-week Rest and Recreation leave period. Another 
initiative through Military OneSource offers 10 hours of free childcare 
to each service member returning on R&R leave. NACCRA is also 
partnering with DOD on ``Operation Military Child Care,'' which will 
help provide much needed government-subsidized, high quality child care 
for mobilized and deployed military parents who cannot access a 
military child development center. More funding dedicated to support 
families' access to child care and subsidize the costs is still needed.

               TRANSFORMATION, GLOBAL RE-BASING, AND BRAC

    As the Base Realignment and Closure (BRAC) Commission prepares to 
receive DOD's list of installations recommended for realignment and 
closure, military beneficiaries are looking to Congress to ensure that 
key quality of life benefits and programs remain accessible. Members of 
the military community, especially retirees, are concerned about the 
impact base closures will have on their access to health care and the 
commissary, exchange, and MWR benefits they have earned. They are 
concerned that the size of the retiree, Guard, and Reserve populations 
remaining in a location will not be considered in decisions about 
whether or not to keep commissaries and exchanges open. In the case of 
shifts in troop populations because of Service transformation 
initiatives, such as Army modularity, or the return of servicemembers 
and families from overseas bases, community members at receiving 
installations are concerned that existing facilities and programs may 
be overwhelmed by the increased populations. NMFA does not have a 
position on whether or not downsizing overseas should occur or how or 
where troops should be based. Our interest in this discussion is in 
raising awareness of the imperative that military family and quality of 
life concerns be considered by policy-makers in their decision-making 
process and in the implementation of any rebasing or transformation 
plans.
    Quality of life issues that affect servicemembers and families must 
be considered on an equal basis with other mission-related tasks in any 
plan to move troops or to close or realign installations. Maintaining 
this infrastructure cannot be done as an afterthought. Planning must 
include the preservation of quality of life programs, services, and 
facilities at closing installations as long as servicemembers and 
families remain AND the development of a robust quality of life 
infrastructure at the receiving installation that is in place before 
the new families and servicemembers arrive. Ensuring the availability 
of quality of life programs, services, and facilities at both closing 
and receiving installations and easing service members and families' 
transition from one to another will take additional funding and 
personnel. NMFA looks to Congress to ensure that DOD has programmed in 
the costs of family support and quality of life as part of its base 
realignment and closure calculations from the beginning and receives 
the resources it needs. DOD cannot just program in the cost of a new 
runway or tank maintenance facility; it must also program in the cost 
of a new child development center or new school, if needed.

                 STRONG FAMILIES ENSURE A STRONG FORCE

    Mr. Chairman, NMFA is grateful to this subcommittee for ensuring 
funding is available for the vital quality of life components needed by 
today's force. As you consider the quality of life needs of 
servicemembers and their families this year, NMFA asks that you 
remember that the events of the past 3\1/2\ years have left this family 
force drained, yet still committed to their mission. Servicemembers 
look to their leaders to provide them with the tools to do the job, to 
enhance predictability, and to ensure that their families are cared 
for. Further, they look to their leaders to make sure their children 
are receiving a quality education and their spouses' career aspirations 
can be met. They look for signs from you that help is on the way, that 
their pay reflects the tasks they have been asked to do, and that their 
hard-earned benefits will continue to be available for themselves, 
their families, and their survivors, both now and into retirement.

    Senator Stevens. Our next witness is Donetta D'Innocenzo.

STATEMENT OF DONETTA D'INNOCENZO, PUBLIC POLICY 
            COMMITTEE, THE LEUKEMIA & LYMPHOMA SOCIETY
    Ms. D'Innocenzo. D'Innocenzo, Mr. Chairman.
    Senator Stevens. Public Policy Committee of the Leukemia & 
Lymphoma Society. Thank you very much.
    Ms. D'Innocenzo. Mr. Chairman, Senator Inouye: My name is 
Donetta D'Innocenzo and I am pleased to appear today to testify 
on behalf of the Leukemia & Lymphoma Society. During its 56 
year history, the society has been dedicated to finding a cure 
for blood-related cancers. That includes leukemia, lymphoma, 
and myeloma. The society has the distinction of being both the 
largest private organization dedicated to blood cancers and the 
Nation's second largest private cancer organization.
    We are pleased to report that impressive progress is being 
made in the treatment of many blood cancers. Over the last 20 
years there have been steady and impressive strides in the 
treatment of the most common form of childhood leukemia, and 
just 3 years ago a new therapy called Gleevec was approved for 
chronic myelogenous leukemia, which is a so-called targeted 
therapy that corrects the molecular defect that causes the 
disease and does so with few side effects.
    The Leukemia & Lymphoma Society is proud to have played a 
role in the development of this lifesaving therapy, but our 
mission is far from complete. There is much work still to be 
done and we believe the research partnership between the public 
and private sectors, as represented in the Department of 
Defense's congressionally directed medical research program is 
an integral part of that effort and should be strengthened.
    Hematological, or blood-related, cancers pose a serious 
health risk to all Americans. In 2005 more than 115,000 
Americans will be diagnosed with a form of blood-related cancer 
and almost 56,000 will die. The Leukemia & Lymphoma Society, 
along with its partners, the Lymphoma Research Foundation and 
the Multiple Myeloma Research Foundation, believe this type of 
medical research is particularly important to the Department of 
Defense for a number of reasons.
    First, research on blood-related cancers has significant 
relevance to the armed forces as the incidence of these cancers 
is substantially higher among individuals with chemical and 
nuclear exposure. Higher incidences of leukemia have long been 
substantiated in extreme nuclear incidents in both military and 
civilian populations, and recent studies have proven that 
individual exposure to chemical agents such as Agent Orange in 
the Vietnam war cause an increased risk of contracting lymphoid 
malignancies. In addition, bone marrow transplants were first 
explored as a means of treating radiation-exposed combatants 
and civilians following World War II.
    Second, research in blood-related cancers has traditionally 
pioneered treatments in other malignancies. This research 
frequently represents the leading edge in cancer treatments 
that are later applied to other forms of cancer. Chemotherapy 
and bone marrow transplants are two striking examples of 
treatments first developed in the blood cancers.
    From a medical research perspective, it is a particularly 
promising time to build a Department of Defense research effort 
focused on blood-related cancers. That relevance and 
opportunity were recognized over the last 4 years when Congress 
appropriated $4.5 million annually, a total of $18 million, to 
begin initial research into chronic myelogenous leukemia 
through the congressionally directed medical research program.
    As members of the subcommittee know, a noteworthy and 
admirable distinction of the congressionally directed medical 
research program (CDMRP) is its cooperative and collaborative 
process that incorporates the experience and expertise of a 
broad range of patients, researchers, and physicians in the 
field. Since the chronic myelogenous leukemia (CML) program was 
announced, members of the society, individual patient 
advocates, and leading researchers have enthusiastically 
welcomed the opportunity to become a part of this program.
    Unfortunately for us, $4.5 million does not go very far in 
medical research. Recognizing that fact and the opportunity 
this research presents, a bipartisan group of 34 Members of 
Congress have requested that the program be modestly increased 
to $15 million and be expanded to include all blood cancers, 
that is leukemias, lymphomas, and myeloma. This would provide 
the research community with the flexibility to build on the 
pioneering tradition that has characterized this field.
    Department of Defense research on other forms of blood 
cancers addresses the importance of preparing for civilian and 
military exposure to weapons being developed by several hostile 
nations and to aid in the march to more effective treatment for 
all who suffer from these diseases.
    We respectfully request inclusion of this in the 2006 
legislation. Thank you.
    [The statement follows:]

               Prepared Statement of Donetta D'Innocenzo

                              INTRODUCTION

    I am pleased to appear before the subcommittee today and testify on 
behalf of The Leukemia & Lymphoma Society (LLS).
    During its 56-year history, the Society has been dedicated to 
finding a cure for the blood cancers--leukemia, lymphoma, and myeloma. 
The Society has the distinction of being both the largest private 
organization dedicated to blood-related cancers and the Nation's second 
largest private cancer organization.
    Our central contribution to the search for a cure is providing a 
significant amount of the funding for basic and translational research 
in the blood cancers. In 2005, we will provide approximately $50 
million in research grants. In addition to our role funding research, 
we provide a wide range of services to individuals with the blood 
cancers, their caregivers, families, and friends through our 63 
chapters across the country. Finally, we advocate responsible public 
policies that will advance our mission of finding a cure for the blood 
cancers.
    We are pleased to report that impressive progress is being made in 
the treatment of many blood cancers. Over the last two decades, there 
have been steady and impressive strides in the treatment of the most 
common form of childhood leukemia, and the survival rate for that form 
of leukemia has improved dramatically.
    And just 3 years ago, a new therapy was approved for chronic 
myelogenous leukemia, a form of leukemia for which there were 
previously limited treatment options, all with serious side-effects. 
Let me say that more clearly, if 4 years ago your doctor told you that 
you had CML, you would have been informed that there were limited 
treatment options and that you should get your affairs in order. Today, 
those same patients have access to this new therapy, called Gleevec, 
which is a so-called targeted therapy that corrects the molecular 
defect that causes the disease, and does so with few side effects.
    LLS funded the early research on Gleevec, as it has contributed to 
research on a number of new therapies. We are pleased that we played a 
role in the development of this life-saving therapy, but we realize 
that our mission is far from complete. Many forms of leukemia, lymphoma 
and myeloma present daunting treatment challenges. There is much work 
still to be done, and we believe the research partnership between the 
public and private sectors--as represented in the Department of 
Defense's Congressionally Directed Medical Research Program--in an 
integral part of that effort and should be strengthened.

         THE GRANT PROGRAMS OF THE LEUKEMIA & LYMPHOMA SOCIETY

    The grant programs of the Society are in three broad categories: 
Career Development Grants, Translational Research Grants for early-
stage support for clinical research, and Specialized Centers of 
Research. In our Career Development program, we fund Scholars, Special 
Fellows, and Fellows who are pursuing careers in basic or clinical 
research. In our Translational Research Program, we focus on supporting 
investigators whose objective is to translate basic research 
discoveries into new therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator on Gleevec, was 
supported by a translational research grant from the Society. Dr. 
Druker is certainly a star among those supported by LLS, but our 
support in this field is broad and deep. Through the Career Development 
and Translational Research Programs, we are currently supporting more 
than 500 investigators in 38 States and ten foreign countries.
    Our new Specialized Centers of Research grant program (SCOR) is 
intended to bring together research teams focused on the discovery of 
innovative approaches to benefit patients or those at risk of 
developing leukemia, lymphoma, or myeloma. The awards will go to those 
groups that can demonstrate that their close interaction will create 
research synergy and accelerate our search for new therapies, 
prevention, or cures.

                    IMPACT OF HEMATOLOGICAL CANCERS

    Despite enhancements in treating blood cancers, there are still 
significant research opportunities and challenges. Hematological, or 
blood-related, cancers pose a serious health risk to all Americans. 
These cancers are actually a large number of diseases of varied causes 
and molecular make-up, and with different treatments, that strike men 
and women of all ages. In 2005, more than 115,000 Americans will be 
diagnosed with a form of blood-related cancer and almost 56,000 will 
die from these cancers. For some, treatment may lead to long-term 
remission and cure; for others these are chronic diseases that will 
require treatments on several occasions; and for others treatment 
options are extremely limited. For many, recurring disease will be a 
continual threat to a productive and secure life.
    A few focused points to put this in perspective:
  --Taken together, the hematological cancers are fifth among cancers 
        in incidence and second in mortality.
  --Almost 700,000 Americans are living with a hematological malignancy 
        in 2005.
  --Almost 56,000 people will die from hematological cancers in 2005, 
        compared to 40,000 from breast cancer, 30,200 from prostate 
        cancer, and 56,000 from colorectal cancer.
  --Blood-related cancers still represent serious treatment challenges. 
        The improved survival for those diagnosed with all types of 
        hematological cancers has been uneven. The 5-year survival 
        rates are: Hodgkin's disease, 83 percent; Non-Hodgkin's 
        lymphoma, 53 percent; Leukemias (total), 45 percent; Multiple 
        Myeloma, 29 percent; Acute Myelogenous Leukemia, 14 percent.
  --Individuals who have been treated for leukemia, lymphoma, and 
        myeloma may suffer serious adverse events of treatment, 
        including second malignancies, organ dysfunction (cardiac, 
        pulmonary, and endocrine), neuropsychological and psychosocial 
        aspects, and quality of life.

                                 TRENDS

    Since the early 1970's, incidence rates for non-Hodgkin's lymphoma 
(NHL) have nearly doubled.
    For the period from 1973 to 1998, the death rate for non-Hodgkin's 
lymphoma increased by 45 percent, and the death rate for multiple 
myeloma increased by more than 32 percent. These increases occurred 
during a time period when death rates for most other cancers are 
dropping.
    Non-Hodgkin's lymphoma and multiple myeloma rank second and fifth, 
respectively, in terms of increased cancer mortality since 1973.
    Recent statistics indicate both increasing incidence and earlier 
age of onset for multiple myeloma.
    Multiple myeloma is one of the top ten leading causes of cancer 
death among African Americans.
    Despite the significant decline in the leukemia death rate for 
children in the United States, leukemia is still one of the two most 
common diseases that cause death in children in the United States.
    Lymphoma is the third most common childhood cancer.

                    CAUSES OF HEMATOLOGICAL CANCERS

    The causes of hematological cancers are varied, and our 
understanding of the etiology of leukemia, lymphoma, and myeloma is 
limited. Chemicals in pesticides and herbicides, as well as viruses 
such as HIV and EBV, play a role in some hematological cancers, but for 
most cases, no cause is identified. Researchers have recently published 
a study reporting that the viral footprint for simian virus 40 (SV40) 
was found in the tumors of 43 percent of NHL patients. These research 
findings may open avenues for investigation of the detection, 
prevention, and treatment of NHL. There is a pressing need for more 
investigation of the role of infectious agents or environmental toxins 
in the initiation or progression of these diseases.

                IMPORTANCE TO THE DEPARTMENT OF DEFENSE

    The Leukemia & Lymphoma Society, along with its partners in the 
Lymphoma Research Foundation and the Multiple Myeloma Research 
Foundation, believe this type of medical research is particularly 
important to the Department of Defense for a number of reasons.
    First, research on blood-related cancers has significant relevance 
to the armed forces, as the incidence of these cancers is substantially 
higher among individuals with chemical and nuclear exposure. Higher 
incidences of leukemia have long been substantiated in extreme nuclear 
incidents in both military and civilian populations, and recent studies 
have proven that individual exposure to chemical agents, such as Agent 
Orange in the Vietnam War, cause an increased risk of contracting 
lymphoid malignancies. In addition, bone marrow transplants were first 
explored as a means of treating radiation-exposed combatants and 
civilians following World War II.
    Secondly, research in the blood cancers has traditionally pioneered 
treatments in other malignancies. This research frequently represents 
the leading edge in cancer treatments that are later applied to other 
forms of cancer. Chemotherapy and bone marrow transplants are two 
striking examples of treatments first developed in the blood cancers.
    From a medical research perspective, it is a particularly promising 
time to build a DOD research effort focused on blood-related cancers. 
That relevance and opportunity were recognized over the last 4 years 
when Congress appropriated $4.5 million annually--for a total of $18 
million--to begin initial research into chronic myelogenous leukemia 
(CML) through the Congressionally Directed Medical Research Program 
(CDMRP). As members of the subcommittee know, a noteworthy and 
admirable distinction of the CDMRP is its cooperative and collaborative 
process that incorporates the experience and expertise of a broad range 
of patients, researchers and physicians in the field. Since the CML 
program was announced, members of the Society, individual patient 
advocates and leading researchers have enthusiastically welcomed the 
opportunity to become a part of this program and contribute to the 
promise of a successful, collaborative quest for a cure.
    Unfortunately, $4.5 million a year does not go very far in medical 
research. Recognizing that fact and the opportunity this research 
represents, a bipartisan group of 34 Members of Congress have requested 
that the program be modestly increased to $15 million and be expanded 
to included all the blood cancers--the leukemias, lymphomas and 
myeloma. This would provide the research community with the flexibility 
to build on the pioneering tradition that has characterized this field.
    DOD research on the other forms of blood-related cancer addresses 
the importance of preparing for civilian and military exposure to the 
weapons being developed by several hostile nations and to aid in the 
march to more effective treatment for all who suffer from these 
diseases. This request clearly has merit for inclusion in the fiscal 
year 2006 legislation.
    The Leukemia & Lymphoma Society strongly endorses and 
enthusiastically supports this effort and respectfully urges the 
committee to include this funding in the fiscal year 2006 Defense 
Appropriations bill.
    We believe that building on the foundation Congress initiated over 
the past 4 years would both significantly strengthen the CDMRP and 
accelerate the development of cancer treatments. As history has 
demonstrated, expanding its focus into areas that demonstrate great 
promise; namely the blood-related cancers of leukemia, lymphoma and 
myeloma, would substantially aid the overall cancer research effort and 
yield great dividends.

    Senator Stevens. We try each year to do our best on this. 
These are very serious diseases and you have the great support 
of members of this subcommittee. Whether we have the money to 
do it is getting to be another matter. But we will do our best. 
Thank you very much.
    Ms. D'Innocenzo. Thank you, Mr. Chairman.
    Senator Stevens. Senator Inouye.
    Senator Inouye. No, thank you.
    Senator Stevens. Our next witness is Patricia Goldman, 
President Emeritus, and Ian Volvner, Ovarian Cancer National 
Alliance. Good afternoon.

STATEMENTS OF:
        PATRICIA GOLDMAN, PRESIDENT EMERITUS, ON BEHALF OF THE OVARIAN 
            CANCER NATIONAL ALLIANCE
        IAN VOLVNER, ON BEHALF OF THE OVARIAN CANCER NATIONAL ALLIANCE

    Ms. Goldman. Thank you, Mr. Chairman and Senator Inouye. I 
am here today representing the Ovarian Cancer National Alliance 
along with Ian Volvner. We are a patient-led organization and 
we are here to give you our personal perspectives on this and 
our activities.
    I am a very lucky lady. I am a 12 year survivor of ovarian 
cancer, and I suppose it is unusual to say you are lucky to 
have had a cancer, but in my case, where in ovarian cancer over 
half of the people who get this every year do not survive the 
5-year mark with this.
    One should not have to be lucky to survive ovarian cancer, 
and one of the things we are very grateful for for the research 
program that I am here to support is the progress we are 
beginning to make. Unlike breast, colon, cervical, there is no 
detection test that is applied for ovarian cancer. One of the 
things you may have seen in recent news accounts--and these 
have grown directly out of the research that has come from 
that--are the announcements of various biomarkers. We are not 
there yet, but it is exciting that the research is beginning to 
promise that has come out of this program that there may be a 
way if we keep at this to detect ovarian cancer.
    As a further example, we formed this organization 8 years 
ago. A third of the founding board members, all in their 50s, 
have succumbed to the disease. So I think you get a sense of 
where we are with this.
    Despite, as I mentioned, the terrible toll, we are 
beginning to make some progress. I am privileged, in addition, 
to serve on, have served on both the scientific review panels 
and the peer review panels of this very well managed program, 
in which case the patient advocates, the scientists, and the 
clinical physician sit together to review the programs. We have 
begun to find not only the markers, but some clinical evidence 
that can be applied. So we are very grateful for this program, 
and we respectfully request that the program be continued as it 
has been in the form, both with the request of $50 million for 
this.
    I will submit the rest of my examples for the record if I 
may, and I thank you for that. I will turn to Mr. Volvner to 
have Ian give you his perspective on this from his own 
experience.
    Senator Stevens. Please do.
    Mr. Volvner. Mr. Chairman, Senator Inouye: I am here today 
because my family----
    Senator Stevens. Would you pull the mike up toward you, 
please.
    Mr. Volvner. I am here today because my family is a two-
time survivor of ovarian cancer. You do not know the terrible 
toll that this insidious disease takes on a family, and I 
cannot begin to try to explain it to you. What I can tell you 
is that the very real gains that Pat Goldman referred to that 
have been made as a result of the research performed under the 
Defense Department's cancer research program, ovarian cancer 
research program, made our second tour of duty, if you will, 
considerably easier than the first time my wife incurred this 
dreadful disease.
    The funding request that the Ovarian Cancer National 
Alliance has made is very modest. It is $15 million. The 
returns in terms of the relief of burden on the social system, 
on the health care program, on our country, are enormous, and 
in simple human terms. I really do not know that my wife would 
be here but for this program.
    So we thank you very much and we ask for your continued 
support of this very important but very modest financial 
program. Thank you.
    [The statements follow:]

       Prepared Statement of the Ovarian Cancer Research Program

                       STATEMENT OF IAN D. VOLNER

    Mr. Chairman and members of the committee, my name is Ian Volner, 
and I am a lawyer here in Washington, DC. Over the years, I have 
testified in my professional capacity before Congress on numerous 
occasions on a variety of public issues. This is only the second time I 
have testified in my personal capacity. On both occasions, I have 
appeared before this subcommittee to thank you for your support of the 
Department of Defense (DOD) Ovarian Cancer Research Program (OCRP) and 
urge your continued support. I do so because my wife, Martha, our two 
sons, and I have ``survived'' ovarian cancer--not once, but twice.
    The purpose of my testimony is to assure you that the monies you 
invested in the DOD Ovarian Cancer Research Program over the past 9 
years have been wisely spent. We ask, therefore, that the funding level 
for this vital and very successful program be set at $15 million for 
fiscal year 2006.
    I first testified in support of the OCRP before the subcommittee in 
May of 2000. Two weeks later, Martha was diagnosed, for the second 
time, with ovarian cancer. Our first battle with this insidious disease 
occurred in 1994. At that time, Martha's cancer was not detected until 
a very advanced stage; her chances of living 5 years was less than 1 in 
3, and our sons were aged 13 and 10. Despite the odds, Martha survived 
due to the skill and dedication of her physicians and, in no small 
measure, because of their courage and hers. In 1994, the diagnostic 
tools were imprecise, unreliable and costly. The chemotherapy Martha 
underwent was designated as experimental, and its efficacy and side 
effects were not well understood.
    The situation was measurably different when Martha was diagnosed 
with ovarian cancer for the second time, in late May of 2000. It was 
clear even then that the research being done under the auspices of this 
appropriation was bearing fruit. While the diagnostic tools were still 
imprecise, the medical professional better understood the strengths and 
weaknesses of the available tools. Treatment options had also improved. 
Thus, while skill, dedication and courage were still vitally important 
to Martha's survival of her second bout with ovarian cancer, it was 
clear to our family that the research conducted by the OCRP was 
beginning to have effects, both in its own terms and, no less 
importantly, in fostering the development of a sustained commitment to 
ovarian cancer research.
    While the OCRP has been funded at a constant level for the past 3 
fiscal years, progress in diagnostics and treatment of ovarian cancer 
has been made. For example, research funded by the OCRP has resulted in 
the identification of new biomarkers that have the potential to alert 
doctors to the presence of ovarian cancer at an early stage. This could 
mean that in the future, women will not be exposed to the risks of late 
stage diagnosis as my wife was in 1994. Similarly, because of research 
funded by the OCRP, new and more effective treatments for this 
insidious disease are in development. In the future, women should not 
have to undergo the long and exhausting chemotherapy regime that Martha 
was subjected to in 1994.
    There has been little or no improvement in the survival rate for 
women who are diagnosed at a late stage. This disease moves with 
daunting speed, and the mortality rates are alarming. Due to the 
funding limits for this program, many research projects rated as 
outstanding or excellent have not been funded. Even a modest increase 
in funding would help to further the progress that has been made.
    When the subcommittee views the work that has been accomplished by 
the program in our written statements, I am sure it will agree that the 
money Congress appropriates for OCRP is being well spent. In some, 
perhaps immeasurable but nonetheless clear way, Martha is with us 
today--and is able to attend the graduation of each of her sons (now 24 
and 21) from college--thanks to this program. The human, economic and 
social returns of the modest investment in this program are enormous. 
As a proxy for the millions of women who will benefit from that 
investment, I urge the committee to appropriate $15 million for the 
Ovarian Cancer Research Program for fiscal year 2006.
    I want to thank the members of the subcommittee for the opportunity 
to testify at this important hearing today. I know it has been a long 
day for you. I am ready to answer any questions you may have.

                     STATEMENT OF PATRICIA GOLDMAN

    Senator Stevens, members of the subcommittee on Defense 
Appropriations, I am here today representing the Ovarian Cancer 
National Alliance (the Alliance), a patient-led organization that works 
to increase public and professional understanding of ovarian cancer and 
advocates for increased resources to support research on more effective 
ovarian cancer diagnostics and treatments. I thank you for the 
opportunity to submit comments for the record and to give you my very 
personal perspective on the program you are reviewing.
    I am a very lucky lady. I am a 12-year survivor of ovarian cancer--
the deadliest of all gynecologic cancers. I am lucky because I am one 
of the rare women whose cancer was detected in an early and curable 
stage. Currently, more than half of the women diagnosed with ovarian 
cancer will die within 5 years of diagnosis. Therefore, I am here 
representing thousands of women who could not be here. One shouldn't 
have to be ``lucky'' to survive ovarian cancer.
    Because of extensive research and generous, sustained Federal 
investments, it is possible to diagnose and successfully treat many 
forms of cancer like breast, colon and prostate. Unfortunately, that is 
not yet the case for ovarian cancer. There is no screening test for 
ovarian cancer and few standard treatments. Federal programs for 
ovarian cancer continue to receive flat line funding for their already 
minimal budgets. In the 8 years since the Alliance was founded, a third 
of our founding board members have died and three more are being 
treated for a recurrence of their disease.
    The discouragement of this death toll is balanced by the hope 
engendered by the progress we are making through research to fulfill 
the mandate of the program you are reviewing today. Because of the 
Federal investment in the DOD Ovarian Cancer Research Program, 
researchers are identifying the mechanisms by which ovarian cancer is 
initiated in the body and how the disease spreads. The research 
community is also tantalizingly close to identifying a reliable and 
easily administered screening test, an achievement that could 
dramatically impact survival rates.
    I have been privileged to serve as a patient advocate on both the 
scientific and peer review panels for this program. One of the 
program's mandates is to attract new researchers to the field, and it 
has been encouraging to see the increase in the numbers of young 
research scientists who are dedicating themselves to ovarian cancer 
research. Yet, as a reviewer, I have been discouraged to see an 
expanding number of worthwhile research proposals that have been 
unfounded due to flat funding for the program over the past 3 years.
    In the testimony I am submitting for the record, I have recounted 
the accomplishments of this excellent program. I believe the program 
has followed Congress's directives directly and completely, which makes 
a strong case for it to be continued. For that reason the Alliance 
respectfully requests the subcommittee to provide $15 million for the 
program in fiscal year 2006. Thank you, Senator.

       OVARIAN CANCER NATIONAL ALLIANCE STATEMENT FOR THE RECORD

Ovarian Cancer's Deadly Toll
    According to the American Cancer Society, in 2005, more than 22,000 
American women will be diagnosed with ovarian cancer, and approximately 
16,000 will lose their lives to this terrible disease. Ovarian cancer 
is the fourth leading cause of cancer death in women. Currently, more 
than half of the women diagnosed with ovarian cancer will die within 5 
years. Among African American women, only 48 percent survive 5 years or 
more. When detected early, the 5-year survival rate increases to more 
than 90 percent, but when detected in the late stages, as are most 
diagnoses, the 5-year survival rate drops to 28 percent.
    Today, it is both striking and disheartening to see that despite 
progress made in the scientific, medical and advocacy communities, 
ovarian cancer mortality rates have not significantly improved during 
the past decade, and a valid and reliable screening test--a critical 
tool for improving early diagnosis and survival rates--still does not 
yet exist for ovarian cancer. Behind the sobering statistics are the 
lost lives of our loved ones, colleagues and community members. While 
we have been waiting for the development of an effective early 
detection test--thousands of our sisters have lost their battle to 
ovarian cancer.
    Women should not have to rely on luck for their survival. Research 
must continue on this disease through all possible avenues, building a 
comprehensive knowledge of its symptoms, causes and treatments. All 
women should have access to treatment by a specialist. All women should 
have access to a valid and reliable screening test. We must deliver new 
and better treatments to patients and the health care professionals who 
treat them. The Ovarian Cancer Research Program at DOD has begun to 
tackle the multiple gaps in our knowledge of this deadly disease, 
providing a growing baseline understanding of ovarian cancer.
The Ovarian Cancer Research Program at the Department of Defense
    Over the past 9 years, Congress has appropriated funds to support 
the Ovarian Cancer Research Program at DOD, which is modeled after the 
successful breast cancer program first included in the DOD budget in 
1992. The Ovarian Cancer Research Program supports innovative, 
integrated, multidisciplinary research efforts that will lead to better 
understanding, detection, diagnosis, prevention, and control of ovarian 
cancer. The program shares the Alliance's mission and objective of 
reducing and preventing--and eventually--eliminating ovarian cancer.
    Awards made by the Ovarian Cancer Research Program are designed to 
stimulate research that will attract new investigators into the field, 
challenge existing paradigms, and support collaborative ventures, 
including partnerships with private and public institutions. Research 
awards are determined using a two-tier review process of peer and 
programmatic review that ensures scientific merit and attainment of 
program goals. The two-tier process is the hallmark of the 
Congressional Directed Medical Research Programs (CDMRP) and 
increasingly has served as a model for research programs throughout the 
world. Another important element in the execution of the Ovarian Cancer 
Research Program is the collaboration of advisors from the scientific, 
clinical, and consumer communities in the program. These advisors 
provide important guidance regarding funding strategies and serve on 
both levels of review.
    In addition, the Ovarian Cancer Research Program has developed a 
funding strategy to complement awards made by other agencies and has 
taken steps to ensure that the duplication of long-term basic research 
supported by the National Institutes of Health is avoided. Importantly 
the program offers several awards that specifically seek to fill gaps 
in ongoing research and complement initiatives sponsored by other 
agencies.
    Like all of the CDMRP Programs at DOD, the Ovarian Cancer Research 
Program serves as an international model in administrative efficiency 
for research programs. Integrating the latest technology and 
communications, the Ovarian Cancer Research Program only has a 5.64 
percent management cost. The program has a quick turnaround time of 6 
months from the initial proposal review (including two-tier review), to 
distribution of funds to investigators--speeding up the process of 
study concept to research conclusion.

Scientific Achievements of the Ovarian Cancer Research Program
    Since its inception, the Ovarian Cancer Research Program at DOD has 
developed a multidisciplinary research portfolio that encompasses 
etiology, prevention, early detection/diagnosis, preclinical 
therapeutics, quality of life, and behavioral research projects. The 
Ovarian Cancer Research Program strengthens the Federal Government's 
commitment to ovarian cancer research and supports innovative and novel 
projects that propose new ways of examining prevention, early detection 
and treatment. The program also attracts new investigators into ovarian 
cancer research and encourages proposals that address the needs of 
minority, elderly, low-income, rural and other commonly 
underrepresented populations.
    The program's achievements have been documented in numerous ways, 
including 131 publications in professional medical journals and books; 
169 abstracts and presentations given at professional meetings; and six 
patents, applications and licenses granted to awardees of the program. 
The program has also introduced and supported 33 new investigators in 
the field of ovarian cancer research.
    Investigators funded through the Ovarian Cancer Research Program 
have yielded several crucial breakthroughs in the study of prevention 
and detection, including:
  --Recognition of the role of the progestins, hormonal components 
        found in oral contraceptives, as a key agent in reducing the 
        risk of ovarian cancer;
  --Identification of several new biomarkers that have the potential to 
        alert health care providers to the presence of early stage 
        ovarian cancer, and be used to develop an early detection tool 
        which would significantly improve early detection and survival; 
        and
  --Discovery of three new agents that inhibit tumor growth and 
        spreading, as well as new blood vessel formation 
        (angiogenesis)--a development that will result in new and more 
        effective treatments.

Increased Investment Needed
    In fiscal year 2005, the Ovarian Cancer Research Program received 
222 proposals, but due to resource limitations, was only able to fund 
17 awards. The program has received $10 million for the past 3 years 
and when inflation is taken into account, the allocation of $10 million 
actually represents an overall diminished level of funding. With new 
funding, the Ovarian Cancer Research Program can support new grants, 
provide funding to promising young investigators, and allocate 
additional resources to grants that should be extended or renewed.
    The Ovarian Cancer Research Program has helped leverage and 
maximize both public and private sector funding. Awardees have cited 
DOD support as an impetus for the maturation of clinical trials, which 
led to an increase of locally funded ovarian cancer grants.
    The fiscal year 1998-fiscal year 2003 awards have led to the 
recruitment of more than 33 new investigators into the ovarian cancer 
research field. Additionally, the Fox Chase Cancer Center in 
Philadelphia and the Fred Hutchinson Cancer Research Center in Seattle 
reported that the progress made during the first year of their DOD 
Program Project Awards enabled both institutions to successfully 
compete for National Cancer Institute SPOREs (Specialized Programs of 
Research Excellence) Awards to fund additional long-term ovarian cancer 
research.
    Despite progress made, we still do not fully understand the risks 
factors, symptoms and causes of ovarian cancer. No effective screening 
tool exists to detect the disease at early stages and the devastating 
mortality rates remain the same year after year. The DOD Ovarian Cancer 
Research Program is developing science and scientists to help us 
achieve the necessary breakthroughs desperately needed in the field of 
ovarian cancer. Biomedical research--particularly in such insidious and 
complex conditions as ovarian cancer--requires a sustained, long-term 
investment and commitment in order to make significant gains. The 
investment the Congress and the DOD have made in the Ovarian Cancer 
Research Program to date is appreciated and has helped move the field 
forward; however, without new resources the program will be unable to 
maintain the status quo--let alone continue to reap benefits from 
previous and current Federal investments.

Summary and Conclusion
    As an umbrella organization with 46 State and local groups, the 
Alliance unites the efforts of more than 500,000 grassroots activists, 
women's health advocates, and health care professionals to bring 
national attention to ovarian cancer. As part of this effort, the 
Alliance advocates sustained Federal investment in the Ovarian Cancer 
Research Program at DOD. The Alliance respectfully requests the 
subcommittee to provide $15 million for the program in fiscal year 
2006.
    The Alliance maintains a longstanding commitment to work with 
Congress, the administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research, and communication. Please know that we 
appreciate and understand that our Nation faces many challenges, and 
Congress has limited resources to allocate; however, we are concerned 
that without increased funding to bolster and expand ovarian cancer 
research efforts, the Nation will continue to see growing numbers of 
women losing their battle with this terrible disease. Thank you for 
your consideration of our views and for supporting increased funding 
for the DOD Ovarian Cancer Research Program in fiscal year 2006.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer.
    Material in this testimony was partly taken from the 
Congressionally Directed Medical Research Program's Ovarian Cancer 
program Web site at http://cdmrp.army.mil.

    Senator Stevens. Thank you very much. We appreciate your 
testimony.
    Senator Inouye.
    Senator Inouye. Most people do not realize this, but a very 
significant number of Members of the Senate or members of their 
immediate family have been afflicted by this terrible, terrible 
disease one way or the other.
    Ms. Goldman. I am aware. I did not specify this in 
particular, but we all know in fact one of the Senators' wife 
is experiencing a recurrence again of her disease, which I am 
sure is what you are referring to.
    Senator Stevens. Despite differences, it is a very close 
family. We all know that.
    Ms. Goldman. Indeed.
    Senator Stevens. Thank you very much.
    Ms. Goldman. Thank you.
    Senator Stevens. The next witness is Brigadier General 
Stephen Koper, President of the National Guard Association. It 
is nice to have you back, General.

STATEMENT OF BRIGADIER GENERAL STEPHEN KOPER, U.S. AIR 
            FORCE (RETIRED), PRESIDENT, NATIONAL GUARD 
            ASSOCIATION OF THE UNITED STATES
    General Koper. I thank you, Mr. Chairman. Chairman Stevens, 
members of the subcommittee, thank you for this opportunity to 
testify today. You have always been champions of the citizen-
soldier and citizen-airman and the National Guard Association 
(NGAUS) thanks you for your many years of outstanding support. 
This subcommittee is well versed in the contributions being 
made by the members of the National Guard in Operation Iraq, 
Afghanistan, and the global war on terror.
    As the Secretary of Defense has said repeatedly, the war on 
terror could not be fought without the National Guard. Battles 
would not be won, peace would not be kept, and sorties would 
not be flown without the citizen-soldier and citizen-airmen. We 
are asking on their behalf for the resources necessary to allow 
them to continue to serve the Nation.
    At the top of that list of resources is access to health 
care. The National Guard Association believes every member of 
the National Guard should have the ability to access TRICARE 
coverage on a cost-share basis regardless of duty status. While 
we are encouraged by the establishment of TRICARE Reserve 
Select, which is a program where members earn medical coverage 
through deployments, we do not believe it goes far enough.
    Health care coverage for our members is a readiness issue. 
If the Department of Defense expects Guard members to maintain 
medical readiness, then it follows that they should also have 
access to health care. As you know, when a National Guardsman 
is called to full-time duty he or she is expected to report 
ready for duty. Yet studies show that a significant percentage 
of our members do not have access to health care. Making 
TRICARE available to all members of the National Guard on a 
cost-share basis would provide a solution to this problem and 
it would finally end the turbulence visited on soldiers and 
their families who are forced to transition from one health 
care coverage to another each time they answer the Nation's 
call.
    In addition to addressing readiness concerns, access to 
TRICARE will also be a strong recruitment and retention 
incentive. In an increasingly challenging recruitment and 
retention environment, TRICARE could make a significant 
difference. Part-time civilian Federal employees are eligible 
to participate in Federal health insurance programs. NGAUS 
believes that National Guard members should receive at a 
minimum the opportunity afforded to other Federal part-time 
employees.
    Another issue of serious concern is full-time manning for 
the Army National Guard. For many years the Army National Guard 
full-time manning has been funded at approximately 58 percent 
of the validated requirements. All other Reserve components are 
manned at significantly higher levels. Recognizing this 
disparity, Congress, the Army, and the Army National Guard 
agreed to increase the Army Guard's full-time manning to a 
level of 71 percent by 2012. This increase was to be obtained 
through gradual increases in Active Guard and Reserve (AGR) and 
technician end strength. However, the wars in Iraq and 
Afghanistan have further exacerbated the problem as it is the 
full-time staff that bears the bulk of the increased workload 
associated with mobilization.
    Consequently, we believe acceleration in the ramp is 
warranted. NGAUS believes there is a requirement to reach the 
71 percent full-time level by 2010 versus the current target of 
2012. This would require an increase in fiscal year 2006 of $12 
million for an additional 292 AGRs and $6.2 million for 195 
military technicians. Obviously, our ultimate goal is to reach 
100 percent of validated requirements, and sooner rather than 
later.
    NGAUS is also very concerned about equipment for the Army 
National Guard. When Army National Guard gets deployed to Iraq 
they deploy with their equipment. In most cases this equipment 
remains in theater when the unit returns home. The end result 
is that units cannot adequately train for the next rotation and 
they may not be equipped to meet an emergency at home, whether 
it is a natural disaster or terrorist act.
    High on the priority list of Army Guard equipment 
shortfalls is the Humvee. The Army National Guard is critically 
short more than 13,000 of the nearly 42,000 vehicles required. 
In Alaska the Army Guard has only 62 of the 151 vehicles 
required, leaving the State 41 percent short of requirements.
    The current President's budget request does not fully 
address the National Guard shortfall. Also, we understand there 
is money for Humvees in the supplemental, but it is not clear 
how much of the funds will go to provide equipment for the Army 
National Guard. NGAUS urges Congress to continue to support 
funding for Humvees and to ensure that the Army takes the needs 
of the Guard into consideration while procuring these vehicles. 
NGAUS also encourages the subcommittee to continue to support 
the procurement of up-armored Humvees for the Guard. While the 
Army has made a valiant commitment to procure armored Humvees 
for use in theater, we also recognize the need for up-armored 
vehicles for the homeland defense mission. Congress needs to 
provide additional earmarked funds to guarantee continued 
armored vehicle production.
    Army Guard aviation is also a top priority. The extremely 
high operational tempos of our Operation Enduring Freedom and 
Iraqi Freedom have increased the demand for aviation assets. 
For Guard units, aviation assets are also critical for many 
State missions. HH-60 medevac units continue to have the 
highest operational tempo of any fixed wing or rotary aircraft 
in theater today and NGAUS requests the committee favorably 
consider funding the UH-60s and medevac aircraft.
    Mr. Chairman, I submitted testimony earlier and I have 
revised my closing remarks and I would like to skip to that now 
if I may. In closing, I will address a serious concern we have 
regarding the Air Force Future Total Force, FTF, concept. With 
the release of DOD's BRAC list on May 13, our worst fears for 
the future of the Air National Guard have been confirmed. The 
Future Total Force was developed over the course of the last 2 
years, cloaked in secrecy, and it did not include the adjutants 
general from its inception.
    When reports of the direction and scope of the Air Force 
plan began to surface in the Guard community, the adjutants 
general individually and collectively expressed their concerns. 
Those concerns were dismissed. The adjutants general were 
finally admitted collectively to the process in October 2004.
    Concurrently, the 2005 BRAC process provided an 
opportunity, again secure from scrutiny and debate, for the Air 
Force to carry out a reduction of fighter, transport, and 
tanker force structure in the Air National Guard without 
benefit of a detailed follow-on mission plan. It even spawned a 
new category of BRAC action for the Air National Guard called 
``enclaved.'' In layman's terms, that means the unit aircraft 
have been removed but the personnel will either stay, commute 
to a new base, or leave the force.
    Now the challenge of airing out the full impact of FTF has 
been dumped on the doorstep of the Congress and the BRAC 
Commission. Our concerns include the question as to whether the 
2005 BRAC will meet the requirements of the 2005 quadrennial 
defense review (QDR), or will the QDR merely be written to 
support the BRAC? Why not offer the continued upgrade of F-15 
and F-16 aircraft and their systems that will have relevance 
well into the 2020s as an informed alternative to increased 
buys of new weapons platforms?
    The enclaved units will threaten our ability to maintain a 
skilled and stable workforce. While the active Air Force can 
routinely move its personnel assets to follow its weapons 
systems, we see the potential for severe personnel losses 
because of their traditional ties to a community. It is the 
cornerstone of the militia.
    Our members fully understand the need to modernize the Air 
Force, but we want to make sure that it is done in a prudent 
manner that will best protect the interests of the Nation. We 
will continue to urge the Congress and the BRAC Commission to 
closely scrutinize these initiatives to ensure that decisions 
regarding Air National Guard force structure are based on sound 
strategic principles.
    Mr. Chairman, members of the subcommittee, I sincerely 
thank you for your time today and I am happy to answer any 
questions.
    Senator Stevens. Thank you very much.
    [The statement follows:]

    Prepared Statement of Brigadier General (Ret.) Stephen M. Koper

    Chairman Stevens, members of the committee, thank you for this 
opportunity to testify today. You have always been champions of the 
citizen soldier and citizen airman and the National Guard Association 
thanks you for your many years of outstanding support.
    This committee is well versed in the contributions being made by 
members of the National Guard in operations in Iraq, Afghanistan and 
the Global War on Terror. As the Secretary of Defense has said 
repeatedly, ``The War on Terror could not be fought without the 
National Guard''. Battles would not be won, peace would not be kept and 
sorties would not be flown without the citizen soldier and citizen 
airman. We are asking on their behalf for the resources necessary to 
allow them to continue to serve the Nation.
    At the top of that list of resources is access to health care. The 
National Guard Association believes every member of the National Guard 
should have the ability to access TRICARE coverage, on a cost-share 
basis, regardless of duty status.
    While we are encouraged by the establishment of TRICARE Reserve 
Select, which is a program where members ``earn'' medical coverage 
through deployments, we don't believe it goes far enough. Healthcare 
coverage for our members is a readiness issue. If the Department of 
Defense expects Guard members to maintain medical readiness, then it 
follows that they should also have access to healthcare. As you know, 
when a National Guardsman is called to full time duty, he or she is 
expected to report ``ready for duty''. Yet, studies show that a 
significant percentage of our members do not have access to healthcare. 
Making TRICARE available to all members of the National Guard, on a 
cost-share basis, would provide a solution to this problem. And, it 
would finally end the turbulence visited on soldiers and their families 
who are forced to transition from one healthcare coverage to another 
each time they answer the Nation's call.
    In addition to addressing readiness concerns, access to TRICARE 
would also be a strong recruitment and retention incentive. In an 
increasingly challenging recruiting/retention environment, TRICARE 
could make a significant difference. Part-time civilian Federal 
employees are eligible to participate in Federal health insurance 
programs. NGAUS believes that National Guard members should receive, at 
a minimum, the opportunity afforded other Federal part-time employees.
    Currently in the Senate, Senator Lindsey Graham and Senator Hillary 
Clinton, have co-sponsored a bill which would provide TRICARE, on a 
cost-share basis, to every member of the National Guard. NGAUS fully 
supports this bill, and asks the members of the committee to do the 
same by including the cost for this program in the Appropriations mark-
up.
    Another issue of serious concern is full time manning for the Army 
National Guard. For many years the Army National Guard full time 
manning has been funded at approximately 58 percent of the validated 
requirements. All other reserve components are manned at significantly 
higher levels.
    Recognizing this disparity, the Congress, the Army and the Army 
National Guard agreed to increase the Army Guard's full time manning to 
a level of 71 percent by 2012. This increase was to be attained through 
gradual increases in AGR and technician end strength.
    However, the wars in Iraq and Afghanistan have further exacerbated 
the problem since it is the full time staff that bears the brunt of the 
increased work load associated with mobilization. Consequently, we 
believe acceleration in the ramp is warranted.
    The National Guard Association of the United States believes there 
is a requirement to reach the 71 percent full-time manning level by 
2010 versus the current target of 2012. This would require an increase 
in fiscal year 2006 of $12 million for an additional 292 AGRs and $6.2 
million for 195 military technicians. Obviously, our ultimate goal is 
to reach 100 percent of validated requirements and sooner, rather than 
later.
    NGAUS is also very concerned about equipment for the Army National 
Guard. When Army National Guard units deploy to Iraq, they deploy with 
their equipment. In most cases, this equipment remains in theater when 
the unit returns home. The end result that units cannot adequately 
train for the next rotation, and they may not be equipped to meet an 
emergency at home, whether it is a natural disaster or terrorist 
attack.
    High on the priority list of Army Guard equipment shortfalls is the 
HMMWV. The ARNG is critically short 13,581 of the nearly 42,000 
vehicles required. In Alaska, the Army Guard has only 62 of the 151 
vehicles required, leaving the State 41 percent short of its 
requirements. The current President's Budget request does not fully 
address the National Guard's shortfall. Also, we understand there is 
money for HMMWVs in the supplemental but it is not clear how much of 
the funds will go to provide equipment for the Army National Guard. The 
National Guard Association of the United States urges the Congress to 
continue to support funding for HMMWVs and to insure that the Army 
takes the needs of the Guard into consideration when procuring these 
vehicles.
    NGAUS also encourages the committee to continue to support the 
procurement of Up-Armored HMMWVs for the Guard. While the Army has made 
a valiant commitment to procure Up-Armored HMMWVs for use in theater, 
we also recognize a need for Up-Armored vehicles fort the Homeland 
Defense mission. Congress needs to provide additional earmarked funds 
to guarantee continued armored vehicle production until all deployed 
combat units have properly armored vehicles and Army National Guard Up-
Armored HMMWV requirements inside the United States are backfilled.
    Army Guard aviation is also a top priority. The extremely high 
operational tempos of Operation Enduring Freedom and Operation Iraqi 
Freedom have increased the demand for aviation assets while the 
environment and enemy conditions have reduced the number of aircraft. 
For Guard units, aviation assets are also critical for many State 
missions. HH-60 MEDEVAC units continue to have the highest operational 
tempo of any fixed wing or rotary aircraft in theater today.
    NGAUS requests that the committee favorably consider funding for 
UH-60s and MEDEVAC aircraft.
    On the Air Guard side, our equipment needs are also directly tied 
to operations in Iraq and Afghanistan. As you know, the C-130 is the 
workhorse of the Air Force, and a large segment of that force resides 
in the Air National Guard. These aircraft are vulnerable to enemy 
attack when flying in hostile areas. One of the primary threats is the 
proliferation of shoulder fired infrared missiles.
    LAIRCM, Large Aircraft Infrared Countermeasures, would provide 
added protection from infrared missiles to C-130 crews flying in 
hostile areas. We are requesting $34.5 million for LAIRCM for the ANG 
C-130 fleet.
    Thanks to the Congress, one of the greatest Air Guard success 
stories is the procurement of targeting pods for fighter aircraft. 
Money added by the Congress over the past several years has enabled the 
Air Guard to be on the front line of air operations in Iraq. To 
continue this successful program, we are requesting an appropriation 
for an additional 15 pods in fiscal year 2006.
    This committee has always been particularly sensitive to the 
equipment needs of the National Guard and generous in funding the 
National Guard and Reserve Equipment Account. Mr. Chairman, each and 
every dollar that has been appropriated over the years in the account 
has purchased combat capability. This account is absolutely essential 
to both the Army and Air National Guard and we thank you for your 
continued support of NGREA.
    Chairman Stevens, I've highlighted some of the top procurement 
items which are urgently needed by the Army Guard and the Air Guard, 
but unfortunately, that is not an exhaustive list. Your professional 
staff has graciously agreed to meet with us and we will discuss 
additional Guard equipment requirements with them.
    In closing, I will address a serious concern we have regarding the 
Air Force's Future Total Force concept. We urge the Congress to closely 
scrutinize this initiative to ensure that decisions regarding Air 
National Guard force structure are based on sound strategic principles.
    Over the past several years, the Congress has wisely invested money 
in upgrading the Air Guard's F-16 fleet to keep it relevant well into 
the 2020's. Faced with a growing deficit and a turbulent world, it 
seems imprudent to send capable aircraft to the bone yard. Yet, this is 
what we fear the Air Force is planning to do when in fact we believe 
they should be fully utilizing all the resources which the tax payers 
have already funded.
    The Air National Guard has been at the forefront of providing the 
air defense of the Nation, as well as playing a major role in the Air 
Expeditionary Force. Yet, the Air Force has not fully addressed how it 
will meet these mission requirements with a significantly reduced Air 
Guard fighter force.
    NGAUS believes the Air Force should provide details to the Congress 
on how it intends to meet critical national defense requirements at the 
same time it plans to drawdown significant amounts of Air Guard fighter 
force structure.
    Our members fully understand the need to modernize the Air Force, 
but we want to make sure that it is done in a prudent manner that will 
best protect the interests of national defense. We hope that Congress 
will continue to ask the Air Force for more details as the plan 
unfolds.
    Mr. Chairman, members of the committee, I sincerely thank you for 
your time today and am happy to answer any questions.

    Senator Stevens. Senator Bond has come in, General, and I 
want to recognize Senator Bond. He came particularly on notice 
that we gave him you would be here.
    Senator Bond. Thank you very much, Mr. Chairman, Senator 
Inouye. I had an Intelligence hearing, but this was so 
important, and I very much appreciate your having Brigadier 
General Koper, President of the National Guard Association, 
speaking out about his concerns relating to the BRAC report.
    As you know from previous sessions we have had with the 
Secretary of Defense and the chief, Joint Chiefs of Staff, the 
Chairman of the Joint Chiefs of Staff, I had concerns prior to 
the release and now I think what General Koper has just cited 
is something that should be read by every Member of the United 
States Congress. When he said the Future Total Force was 
developed over the course of the last 2 years cloaked in 
secrecy and did not include the adjutants general from its 
inception, well, I think that is accurate. It appears that the 
Pentagon had its mind made up, and there are very, very 
significant implications for maintaining the civilian force, 
the civilian fighters that we have so often relied on and now 
rely on for 50 percent of the force in Iraq.
    As I said, I raised these concerns 2 months ago. 
Unfortunately, those concerns and the concerns expressed by the 
Guard leaders were ignored. The result is a BRAC list that is 
absolutely stunning. It will eliminate over one-third of the 
Air Guard's aviation assets. In the tactical air forces 
(TACAIR) alone there would be 12 F-16 wings and 3 F-15 wings 
gone, poof. It would adversely impact, as the General said, 
community basing concept the Guard relies so heavily upon in 
recruiting and retention. In an area that I do not know that we 
have adequately touched on, it would adversely compromise our 
Nation's ability to defend the skies over our homeland, because 
it ignores the very significant role that the Air National 
Guard provides in the homeland defense mission, specifically 
the conduct of Operation Noble Eagle.
    Finally, I think it shortsightedly undermines the Air 
Guard's proven, effective, and invaluable expeditionary role. 
If we continue to shortchange the Guard, if we treat them as an 
unwanted stepchild, particularly in this Future Total Force of 
our air assets--and I made a freudian slip last hearing when I 
called it a ``feudal total force.'' I did not mean to do that, 
but unfortunately my words have appeared to come true.
    I have asked the chairman of the BRAC Commission to hold a 
hearing in St. Louis, where I hope to discuss the shortfalls of 
the Pentagon's BRAC plan and try to work with my colleagues who 
also share my concern about and commitment to the National 
Guard, the Pentagon's plan irreparably harming the Air National 
Guard.
    Mr. Chairman, I would just pose one question to the General 
if it is appropriate now.
    Senator Stevens. Yes, sir.
    Senator Bond. In your view, General, were Guard leaders 
allowed a substantive role in the planning of the Future Total 
Force strategy, and if not what is the impact on the Guard of 
the BRAC process? What are your conclusions from these actions 
and the results?
    General Koper. Mr. Chairman, Senator Bond, as I said in my 
closing remarks, it is the view of the adjutants general that 
collectively they were not included in the development of the 
Future Total Force from its inception. They were fed bits and 
pieces, and not until October 2004 did they manage to get some 
regular representation in the general officer steering 
committee on Future Total Force.
    With respect to BRAC, the BRAC, as I also earlier 
indicated, is by its very nature a process which deals in 
confidentiality. The adjutants general were not a player in the 
gathering of facts with respect to units of the Army and Air 
National Guard.
    I would say this to you, however. The Army National Guard, 
as all of you are well aware, is loaded down with terribly 
outdated facilities in armories across the country. The Army 
National Guard and the Army full well recognize that the 
military construction process is never going to be able to 
solve that issue. The Army and the Army National Guard have 
come up with a rather creative plan to utilize the BRAC process 
to close and consolidate a large number of those kinds of 
installations. It probably makes good sense.
    So with respect to the Army National Guard, I believe there 
was at least some long-term general conversations between State 
adjutants general about Army National Guard facilities, not an 
official part of the BRAC process because they don't have an 
active role in that.
    On the Air National Guard side, the adjutants general that 
I have spoken to since the release of the list on Friday are 
finding out things that of course they did not know. So we have 
only had since Friday to determine the full impact of that, but 
we will be continuing to do that.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. I am glad to learn that they consulted with 
the Army National Guard.
    General Koper. You bet. And I would add, sir, that as a 
former blue suiter I am a little embarrassed. We have had a 
reputation for a great relationship and we are at a total loss 
to determine why this has come about.
    Senator Stevens. Yes, General, and we are at a loss to 
understand how this relates to the Total Force Concept, this 
movement of forces to the South and to the East, particularly 
with the almost denuding of the forces that face the Pacific. 
Very difficult for us to understand. We intend to go into it 
pretty deeply here soon. We have some other problems ahead of 
us right now, but as soon as we can start scheduling some 
hearings we are going to schedule some hearings on this process 
and listen to some people.
    I am not sure there is much we can do about it, now the 
BRAC process has started, except to try to enlighten the BRAC 
people themselves. I think we should do that.
    So we thank you for your contribution.
    General Koper. Thank you, Mr. Chairman.
    Senator Stevens. Our next witness is Mary Ann----
    Ms. Guerra. Guerra.
    Senator Stevens. Guerra, thank you. Vice President, 
Research Operations, for Translational----
    Ms. Guerra. Genomics Research Institute, TGen. We call it 
``TGen'' for short.
    Senator Stevens. My eyes hurt today. Maybe you can tell me 
a little bit of research about that.

STATEMENT OF MARY ANN GUERRA, SENIOR VICE PRESIDENT FOR 
            RESEARCH OPERATIONS, TRANSLATIONAL GENOMICS 
            RESEARCH INSTITUTE, ON BEHALF OF THE 
            NATIONAL PROSTATE CANCER COALITION
    Ms. Guerra. Good afternoon, Mr. Chairman, Senator Inouye. 
It is a pleasure to be here this afternoon. Thank you for your 
time.
    I enthusiastically offer testimony on behalf of the 
National Prostate Cancer Coalition. From 1994 to 2001 I served 
as the Deputy Director for Management of the National Cancer 
Institute (NCI), where I watched this prostate cancer program 
grow, launch, and flourish. I also recently served on the 
congressionally sponsored Institute of Medicine panel that was 
asked to evaluate alternative funding strategies that could 
leverage DOD research programs.
    My organization, TGen, is a leading private sector 
biomedical research institute focused on identifying genes that 
can quickly be translated into diagnostics and therapeutics to 
serve the American public to improve health. Thus, these 
combined career experiences have made me a congressionally 
directed medical research program (CDMRP) convert and a strong 
supporter of the prostate cancer research program (PCRP), 
because they fill a research niche that is not served by other 
programs, including the NCI.
    These programs achieve two important objectives. First, 
they provide innovative programs that support early stage high 
risk and novel research. They also fund programs that 
specifically support the translation of discoveries into 
products that improve lives. The translational component is an 
essential and sometimes missing ingredient in the discovery to 
bedside process. You might find it astonishing that while the 
rate of R&D spending at the NIH and in pharma has gone up since 
1993, the number of new drug applications has gone down. In 
simple words, discoveries are not being translated into drugs 
that serve the people of the United States.
    These principles of translation and acceleration govern the 
venture research sponsored by the PCRP in its relentless effort 
to change the course of prostate cancer, the most commonly 
diagnosed non-skin cancer and the second leading cause of 
cancer death in men. The facts are in 2005, 232,000 men will be 
diagnosed with prostate cancer. They will join the 2 million 
men already diagnosed. Over 30,000 of these men will die of 
cancer this year.
    African-Americans will be harder hit, with occurrence rates 
nearly 65 percent greater and death rates 2.5 times greater 
than Caucasian men.
    The Veterans Administration estimates that there are 
roughly 24.7 million male veterans living in the United States. 
The impact of percent on them? 4.1 million veterans will be 
diagnosed with prostate cancer in their lifetime. Nearly 5,000 
patients in the VA system will be diagnosed with prostate 
cancer this year.
    A recent scientific study has also shown that cancer rates 
are increased among service men who were in Southeast Asia and 
that men whose assignments averaged more than the normal, the 
average tour of duty, are at a greater risk of prostate cancer.
    But let me bring this even closer to home. The Department 
of Defense estimated that the direct costs of prostate cancer 
on the military were expected to exceed $42 million in 2004 and 
nearly 85 percent of the 1.4 million individuals serving in 
America's military are men. The impact? 200,000 service men 
will be diagnosed with prostate cancer. The DOD, America's 
largest company, must be prepared to protect its employees from 
the killer that will affect 14 percent of their workforce.
    Thanks to your vision and leadership, the CDMRP has become 
the gold standard for conducting and administering cancer 
research. To effectively fight this war on prostate cancer and 
to leverage your already earlier investments, the committee 
must appropriate $100 million for the PCRP. Without such an 
investment, the translation pipeline remains closed and this 
investment in the valuable research already funded will not be 
translated into discoveries that are used in the lab--in the 
clinic.
    Two years ago this subcommittee requested that the DOD, in 
consultation with the Institute of Medicine, evaluate 
opportunities for public and private sector funding 
collaborations to reduce the burden of Federal appropriations 
for the CDMRP. Those of us who served on that committee found 
that there are no new funding sources because these programs 
fund research that is not funded by the private sector. Our 
panel found that we have--this program has been efficiently and 
effectively managed, with only a 6 percent overhead rate. They 
have created novel funding mechanisms for that early and 
translational research that is not being done in other 
institutions. They have been scientifically productive and they 
play an important role in the national health research 
enterprise.
    The Prostate Cancer Research Foundation conference is a 
great example of a private-public partnership. This panel 
brings together all Government people that are working on 
cancer research along with their private counterparts. This 
parent consumer research group looks for innovation in 
translation rather than funding small incremental science that 
is sometimes funded in other agencies. As co-conveners of this 
conference, the PCRP helps establish priorities.
    For this conference to be successful, Federal agencies 
engaged in cancer research should be required to participate in 
this conference, and we are asking that you lend your 
leadership to make this participation required. We need more 
leveraging of the existing resources and a broader and more 
active engagement of our Federal agencies to accomplish this 
important objective. No one institution, scientific discipline, 
or business sector is solely equipped to fully translate 
discoveries into products. Government, academia, and industry 
must be brought together to solve these complex problems that 
are affecting our Nation and our families. Moreover, Congress 
must encourage them to cooperate together.
    Mr. Chairman, Senator Inouye, we have done remarkable work 
and are making progress. I urge you to continue to support an 
enhanced growth of PCRP, a program that is efficient, is driven 
by scientific priorities, and is scientifically productive.
    The war on prostate cancer must be funded appropriately so 
researchers can get new drugs to patients who need them most. 
For this to happen, the PCRP needs $100 million in fiscal year 
2006 and I respectfully request that you appropriate this need.
    Thank you for the time and I would be glad to answer any 
questions.
    Senator Stevens. Thank you very much.
    Senator Inouye. Thank you.
    [The statement follows:]

                 Prepared Statement of Mary Ann Guerra

    Mr. Chairman and members of the Senate Defense Appropriations 
Subcommittee, good morning. My name is Mary Ann Guerra, and I am Senior 
Vice President for Operations at the Translational Genomics Research 
Institute (TGen) in Phoenix, Arizona, a not-for-profit research 
enterprise. From 1994 until 2001, I served as Deputy Director for 
Management at the National Cancer Institute, and I am thoroughly 
familiar with the prostate cancer research effort and portfolio at the 
NCI. During my time at NCI, I watched the Department of Defense 
Congressionally Directed Medical Research Program (CDMRP) in prostate 
cancer grow and flourish since its inception at Fort Detrick in 1997. I 
also served on the Institute of Medicine (IOM) panel that Congress 
asked to evaluate leveraging strategies for funding of DOD peer 
reviewed medical research programs in order to reduce the burden on 
Federal appropriations. While our IOM panel did not include a formal 
evaluation of the CDMRP programs, I can tell you that I was very 
impressed by their scope and breadth--doing what parallel research 
efforts the NCI cannot do, and serving as a crucial part of this 
Nation's biomedical research effort to beat serious, often life 
threatening diseases. I must say, my past experience at NCI and NIH, my 
recent experience in the private sector, and the knowledge gained 
through participating in the IOM review, made me a convert and strong 
supporter of the CDMRP. Consequently, I am particularly pleased to 
offer testimony on behalf of the National Prostate Cancer Coalition, 
supporting an appropriation of $100 million for the CDMRP Prostate 
Cancer Research Program (PCRP) for fiscal year 2006.
    My organization, TGen, is among the world's leading private sector 
biomedical research institutes. It strives to make and quickly 
translate genomic discoveries into diagnostic and therapeutics that 
improve the health of all Americans. Our prostate cancer research 
program, headed by Dr. John Carpten, uses cutting edge technology to 
search for genes predisposing to prostate cancer, particularly among 
special populations including African American men, the population 
hardest hit by this devastating disease. Using information generated 
from mapping the human genome, coupled with our technology, TGen can 
now conduct large family and population based studies not possible 
before. With the patient who suffers from disease as our focus, TGen is 
guided by three core principles: integration, translation and 
acceleration. We integrate the best and brightest scientists across 
disciplines to attack disease; we hasten the translation of research 
discoveries into meaningful therapies; and, through our academic, 
health and industry partnerships, we accelerate our research goals on 
behalf of those who need them most.
    The same kinds of principles govern venture research sponsored by 
the PCRP in its effort to change the course of prostate cancer, the 
nation's most commonly diagnosed nonskin cancer and the second leading 
cause of cancer death among men. In 2005, the American Cancer Society 
has estimated that more than 232,000 men will hear physicians tell 
them, ``You have prostate cancer,'' as they join the nearly 2 million 
Americans who already have the disease. Sadly, over 30,000 men will 
lose their lives to prostate cancer this year. Although the wider use 
of early detection along with changes in early treatment likely account 
for the near 100 percent survival of men with localized disease, too 
many men are still diagnosed with advanced disease, particularly at 
younger ages (in their 40's and 50's), too many men suffer advanced 
recurrences after an earlier successful treatment, and too many 
ultimately face no cure.
    However hard prostate cancer may hit among white families, it is 
regularly a tragedy in African American communities. Prostate cancer 
occurrences rates are nearly 65 percent higher among black Americans 
and death rates are nearly 2\1/2\ times greater than those of Caucasian 
men. Research dollars directed at special populations is not a high 
priority as evidenced by the overall funding expended on such studies.
    The Department of Veterans Affairs (VA) estimates that there are 
roughly 24.7 million male veterans living in the United States. That 
means at least 4.1 million veterans will be diagnosed with prostate 
cancer at some point during their lifetimes. The Veterans Health 
Administration currently estimates that nearly 5,000 patients in its 
system are diagnosed with prostate cancer each year. While evidence is 
not conclusive, it appears that America's servicemen, who stood in 
harm's way for their country in the Asian theater and were directly 
exposed to Agent Orange, may be at double the risk for prostate cancer. 
Moreover, a recent scientific study has shown that cancer rates are 
increased among men who were in uniform in Southeast Asia, even if they 
were not directly involved in spraying herbicides, and that men who had 
longer than average tours of duty in the Asian theater may be at 
particular risk of prostate cancer. With our brave men in uniform in 
mind, I am asking you today to take care of all of them, past, present 
and future.
    The Department of Defense estimated the direct health care costs of 
prostate cancer on the military were expected to be over $42 million in 
fiscal year 2004. Nearly 85 percent of the current 1,465,000 
individuals serving in America's military are men. That means about 
200,000 servicemen will be diagnosed with prostate cancer--without the 
additional consideration of service related environmental factors, like 
Agent Orange exposure, that may increase occurrences of the disease. 
The DOD refers to itself as America's largest company; it must 
therefore be prepared to protect its employees from a killer that will 
affect 14 percent of its workforce.
    Whether in battle or peacetime, the lives of men from coast to 
coast depend on your decisions. You have the unique opportunity to 
provide a brighter future for millions of men and families through 
continued and expanded prostate cancer research. With proper funding we 
can find a way to end the pain and suffering caused by this disease.
    To effectively fight the war on prostate cancer for America's 
families, your committee must appropriate $100 million for the PCRP. As 
stated in its fiscal year 1997 business plan, PCRP needs at least $100 
million to conduct human clinical trials research. Without that 
appropriation, the program is unable to test new treatments and get 
those new products to patients that could retard the course of their 
disease and improve the quality of their lives. Without such an 
investment, the translational pipeline remains closed, meaning that 
valuable prostate cancer research remains stuck in laboratories instead 
of at work in clinics.
    Thanks to your vision and leadership, CDMRP has become the gold 
standard for administering cancer research. Prostate cancer advocates 
and scientists throughout this Nation have long applauded the program 
and its peer and consumer driven approach to research. PCRP is a unique 
program within the government's prostate cancer research portfolio 
because it makes use of public/private partnerships, awards competitive 
grants for new ideas, does not duplicate the work of other funders, 
integrates scientists and survivors and uses a unique perspective to 
solve problems. Its mission and its results are clear. The program 
fills a niche that other Federal research programs do not. It funds 
research with the end in mind; funding science that advances solutions 
that will change the lives of the people who are diagnosed with this 
disease. Each year, the program issues an annual report detailing what 
it has done with taxpayer dollars to battle prostate cancer. PCRP's 
transparency allows people affected by prostate cancer and people in 
the consumer research community to clearly see what our government is 
doing to fight the disease.
    Two years ago, this committee requested that DOD, in consultation 
with the Institute of Medicine, evaluate opportunities for public and 
private sector funding collaborations to reduce the burden of Federal 
appropriations for CDMRP--and maintain or improve efficiencies, 
throughput and outcomes for its research programs. Those of us who 
served on the IOM task force determined that, on the whole, there are 
no new funding sources for CDMRP that would enhance its overall 
research effort, because the redirection of dollars would reduce the 
work those dollars provide in some other part of the research universe. 
While it was not part of our charge, we also had an opportunity to 
appreciate the special contribution that the CDMRP makes to the 
research landscape.
    Our panel noted that despite initial respect for the primacy of 
NCI, skepticism about CDMRP in the scientific community, its location 
in DOD and the participation of consumers in peer review and priority 
setting, the program has been efficiently and effectively managed, 
scientifically productive and a valuable component of the Nation's 
health research enterprise. CDMRP's distinctive program features 
include its rigorous peer review of proposals for scientific merit and 
program relevance by outside reviewers--including consumers; its 
inclusive priority setting process; its emphasis on exploratory high-
risk/high-gain basic, translational, and clinical research projects and 
on research capacity building; and its holding of periodic national 
meetings to share results among the investigators and with the 
program's constituencies. It can also do what NCI cannot, speedily 
evaluate proposed projects and rapidly change focus as research 
discoveries offer new opportunities to America's scientific community. 
CDMRP is a terrific reflection of a well-proved maxim: ``Give the Army 
a problem, and you'll soon have a solution.'' The Army simply gets 
things done in a thorough and novel manner.
    The CDMRP structure is based on a model developed by an earlier IOM 
report. Its mission and its philosophy for awarding research grants 
reflect that of DOD's Defense Advanced Research Projects Agency 
(DARPA). The DARPA model, performance through competition and 
innovation, was specifically praised in President Bush's fiscal year 
2005 budget. This DARPA-esque approach to cancer research allows PCRP 
to identify novel research with large potential payoffs and to focus on 
innovative methods that do not receive funding elsewhere. This is an 
essential element of the research enterprise, that needs to be 
expanded, not contracted.
    One of the strongest aspects of the program is PCRP's Integration 
Panel. The panel is composed of those who know prostate cancer research 
and the issues facing it: scientists, researchers, and prostate cancer 
survivors. This peer and consumer driven model allows the program to 
select grants based on merit and their translational benefit while 
incorporating the views of those who need research the most, prostate 
cancer patients. It funds research that encourages innovation rather 
than research that incrementally answers small scientific questions. No 
other publicly funded cancer research entity effectively brings 
together all those with a stake in curing prostate cancer.
    Perhaps the best example of public-private partnerships in prostate 
cancer research is the Prostate Cancer Research Funders Conference. 
That panel brings together representatives of all the government 
agencies that fund prostate cancer research along with their 
counterparts in the private sector. Participants include NIH/NCI, DOD, 
the Veterans Health Administration, the Centers for Disease Control and 
Prevention, the Food and Drug Administration, Canadian and British 
government agencies, private foundations/organizations and 
representatives from industry. Members of the Conference have come 
together to focus on shared objectives and address commonly recognized 
barriers in research.
    As a co-convener of the conference, PCRP plays an important role in 
shaping its priorities. Currently, Federal agencies participate 
voluntarily, but they can opt in or out based on the tenure of 
executive leadership. For the conference to be successful, Federal 
agencies engaged in prostate cancer research should, in my opinion, be 
required to participate, and we ask for your leadership to make that 
happen. We need to see more leveraging of existing resources and a 
broader engagement of Federal agencies can help accomplish this 
important objective. Moreover, Congress must also offer sufficient 
incentives for the private sector to participate. However, these 
incentives must not compromise the autonomy or integrity of PCRP's peer 
review structure. I firmly believe that a collaborative, multifaceted 
approach to prostate cancer research can bring about better results in 
a more timely fashion. No one Institution is equipment to fully 
translate discoveries into products; government, academia and industry 
must be brought together to solve these very difficult and complex 
problems that face our Nation and our families. Mr. Chairman, we have 
done remarkable work and are making progress. Public-private 
collaboration and new scientific discoveries are moving us toward a 
better understanding of how prostate cancer kills, but, for our work to 
be worthwhile, it must be translated into tangible goals and results 
for patients.
    I urge you to continue to support and enhance growth of PCRP, a 
program that is efficient, driven by scientific priorities and 
scientifically productive. The War on Prostate Cancer must be funded 
appropriately so researchers can get new drugs to patients who need 
them most. For this to happen, PCRP needs $100 million in fiscal year 
2006, and I respectfully request that you appropriate this need.

    Senator Stevens. Our next witness is Captain Robert Hurd 
and Chief Petty Officer Michael Silver of the United States 
Naval Sea Cadet Corps.

STATEMENT OF CAPTAIN ROBERT C. HURD, U.S. NAVY 
            (RETIRED)
ACCOMPANIED BY CHIEF PETTY OFFICER MICHAEL SILVER, UNITED STATES NAVY 
            SEA CADET CORPS

    Captian Hurd. Good afternoon, Senators.
    Senator Stevens. Yes, sir.
    Captain Hurd. It is my pleasure today to have Chief Petty 
Officer Michael Silver present our testimony. Just as a little 
bit of background, out of 10,000 young men and women in the 
Naval Sea Cadet Corps, about 50 a year attain the rank of chief 
petty officer. So it is quite a significant accomplishment. We 
have him for about 1 more month before he joins the Marine 
Corps upon graduation from high school.
    Senator Stevens. Good.
    Nice to have you.
    Mr. Silver. Thank you, sir. Good afternoon, Mr. Chairman, 
Senator Inouye. I am a chief petty officer. I am with a 
battalion based in the naval base in Ventura County in 
California. I also go to El Camino Real High School in Woodland 
Hills.
    I am honored to represent over 10,000 Sea Cadets across the 
Nation, and also 2,000 adult volunteers in the program. We are 
a congressionally chartered youth development and education 
program whose main goals are to develop young men and women 
while promoting interest and skills in seamanship, aviation, 
construction, and other military fields. We instill a sense of 
patriotism, commitment, self-reliance, along with the Navy's 
core values, honor, courage, and commitment. We also take pride 
in molding strong moral character and self-discipline in a 
drug- and gang-free environment.
    Many young people join our program for our hands-on 
experience. We try to maximize our opportunities as much as 
possible all throughout the program with the armed services and 
also the civilian workforce. Our program over any other youth 
program, over Reserve Officer Training Corps (ROTC), Sea 
Scouts, Boy Scouts, Devil Pups, we have the most in-depth 
program that is offered outside of school.
    We have the most hands-on experience. We were out there 
with the actual Navy, with the actual Marine Corps, the Air 
Force, different services. We go on the bases. There is no 
other program that is offered that goes in depth as we do. We 
go on Navy ships, on Coast Guard ships. I personally have 
been--I participated in basic airman's training where it is 
pretty much I am on a ground crew, on Navy aircraft. I have 
been to medical training. I worked at a naval hospital for 2 
weeks. I have worked in the emergency room (ER).
    I have been to a leadership academy. I learned pretty much 
how to be a successful leader to others and stuff like that. I 
have also been to field training, which is pretty much on the 
Marine Corps aspect of it; field ops aviation school in 
Maryland. I have also been to an international exchange with 
the Her/His Majesty's Ship (HMS) Bristol in England, where I 
was there with Swedish, Canadian, South Korean, Chinese, and 
Australian, because the Sea Cadets is also an international 
program and they were there with over 50 other people from 
different other countries.
    Also, there are 473 former Sea Cadets now attending the 
U.S. Naval Academy and approximately 400 former cadets annually 
enlist in the armed services. These prescreened, highly 
motivated and well prepared young people have shown that prior 
Sea Cadet experience is an excellent indicator of high career 
success rate, both in and out of the military. Whether or not 
we choose a military career, we also carry forth the forged 
values of good citizenship, leadership, and moral courage that 
we believe will benefit our country and us as well.
    The corps is particularly sensitive that no young person is 
denied access to the program because of economic status, as for 
the most part we are responsible for our own expenses, which 
can amount to an average of $500 without outside assistance per 
cadet per year. Federal funds have been used to help offset the 
cadets' out of pocket training costs. However, for a variety of 
reasons current funding can no longer adequately sustain the 
program and we respectfully ask you to consider and support 
funding that will allow for the full amount of $2 million 
requested for the next fiscal year.
    Thank you for the opportunity to speak today and I and the 
entire Sea Cadet Corps appreciate your support for this fine 
program that has meant so much to myself over the past 7 years 
and which will continue to influence me for the rest of my 
life. I would just like to thank you, and I am open to 
questions.
    [The statement follows:]

              Prepared Statement of Captain Robert C. Hurd

                                REQUEST

    Navy had originally requested full funding at the $2,000,000 level 
in their fiscal year 2006 budget submission. This was in response to 
last year's Senate/House conference committee language urging them to 
include the NSCC in their fiscal year 2006 request. Navy initially 
budgeted these funds at the $2,000,000 level but subsequently deleted 
this funding to meet an imposed budget mark. Subsequent negations with 
Navy after the President's Budget had been submitted have resulted in a 
verbal promise to fund the NSCC in fiscal year 2006 at the fiscal year 
2005 appropriated level of $1,700,000--to be funded from existing 
budget lines. Because this action occurred after the budget submission, 
no separate line item exists for NSCC and because it was originally 
funded (Before the mark), no Unfunded Requirements List item was 
submitted.
    It is respectfully requested that $300,000 be appropriated for the 
NSCC in fiscal year 2006, so that when added to the promised $1,700,000 
will restore full funding at the $2,000,000 level. Further, in order to 
codify the Navy's promised commitment and to ensure future funding, 
consideration of including the following conference language is 
requested: ``Congress is pleased to learn that Navy has agreed to fund 
the U.S. Naval Sea Cadet Corps in the fiscal year 2006 budget as urged 
by the Senate and House in the 2005 Defense Budget Conference Report. 
Conferees include an additional $300,000 for the U.S. Naval Sea Cadet 
Corps, that when added to the $1,700,000 in the fiscal year 2006 budget 
request will fund the program at the full $2,000,000 requested. 
Conferees urge the Navy to continue to fund this program in the fiscal 
year 2007 budget request and out years.''

                               BACKGROUND

    At the request of the Department of the Navy, the Navy League of 
the United States established the Naval Sea Cadet Corps in 1958 to 
``create a favorable image of the Navy on the part of American youth.'' 
On September 10, 1962, the U.S. Congress federally chartered the Naval 
Sea Cadet Corps under Public Law 87-655 as a non-profit civilian youth 
training organization for young people, ages 13 through 17. A National 
Board of Directors, whose Chairman serves as the National Vice 
President of the Navy League for Youth Programs, establishes NSCC 
policy and management guidance for operation and administration. A 
full-time Executive Director and small staff in Arlington, Virginia 
administer NSCC's day-to-day operations. These professionals work with 
volunteer regional directors, unit commanding officers, and local 
sponsors. They also collaborate with Navy League councils and other 
civic, or patriotic organizations, and with local school systems.
    In close cooperation with, and the support of, the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently over 368 Sea Cadet units with a program total 
of 10,980 participants (2,204 adult Officers and Instructors and 8,776 
Cadets (about 33 percent female).

                            NSCC OBJECTIVES

  --Develop an interest and skill in seamanship and seagoing subjects.
  --Develop an appreciation for our Navy's history, customs, traditions 
        and its significant role in national defense.
  --Develop positive qualities of patriotism, courage, self-reliance, 
        confidence, pride in our Nation and other attributes, which 
        contribute to development of strong moral character, good 
        citizenship traits and a drug-free, gang-free lifestyle.
  --Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11 through 13. While it is 
not part of the Federal charter provided by Congress, the Navy League 
of the United States sponsors NLCC. NLCC was established ``. . . to 
give young people mental, moral, and physical training through the 
medium of naval and other instruction, with the objective of developing 
principles of patriotism and good citizenship, instilling in them a 
sense of duty, discipline, self-respect, self-confidence, and a respect 
for others.''

                                BENEFITS

    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young Cadet the opportunity to 
experience self-reliance early on, while introducing this Cadet to 
military life without any obligation to join a branch of the armed 
forces. The young Cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, over 178 Cadets have received financial 
assistance in continuing their education in a chosen career field at 
college.

                               ACTIVITIES

    Naval Sea Cadets pursue a variety of activities including 
classroom, practical and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of Sea Cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the Cadet's previous experience and 
desires).

                           SENIOR LEADERSHIP

    Volunteer Naval Sea Cadet Corps officers and instructors furnish 
senior leadership for the program. They willingly contribute their time 
and effort to serve America's youth. The Cadet Corps programs succeed 
because of their dedicated, active participation and commitment to the 
principles upon which the Corps was founded. Cadet Corps officers are 
appointed from the civilian sector or from active, reserve or retired 
military status. All are required to take orientation, intermediate and 
advanced Officer Professional Development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space available air travel in conjunction with carrying 
out training duty orders.

                  DRUG-FREE AND GANG-FREE ENVIRONMENT

    One of the most important benefits of the Sea Cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug and gang free environment. Supporting 
this effort is a close liaison with the U.S. Department of Justice Drug 
Enforcement Administration (DEA). The DEA offers the services of all 
DEA Demand Reduction Coordinators to provide individual unit training, 
as well as their being an integral part of our boot camp training 
program.
    Among a variety of awards and ribbons that Cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in he areas of leadership, perseverance and courage. 
Requirements include intensive anti-drug program training and giving 
anti-drug presentations to interested community groups.

                                TRAINING

Local Training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps Officers and 
instructors, as well as Navy, Coast Guard, Marine and other service 
member instructors.
    Cadets receive classroom and hands on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, naval history, naval customs and traditions, and 
nautical skills. Training may be held onboard ships, small boats or 
aircraft, depending upon platform availability, as well as onboard 
military bases and stations. In their training, cadets also learn about 
and are exposed to a wide variety of civilian and military career 
opportunities through field trips and educational tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged, and scheduled, 
to participate in civic activities and events to include parades, 
social work, and community projects, all part of the ``whole person'' 
training concept.
    For all Naval Sea Cadets the training during the first several 
months is at their local training site, and focuses on general 
orientation to, and familiarization with, the entire Naval Sea Cadet 
program. It also prepares them for their first major away from home 
training event, the 2 weeks recruit training which all Sea Cadets must 
successfully complete.
    The Navy League Cadet Corps training program teaches younger cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability and a sense of responsibility for shipmates. In 
accordance with a Navy orientated syllabus, this education prepares 
them for the higher level of training they will receive as Naval Sea 
Cadets.

Summer Training
    After enrolling, all sea cadets must first attend a 2-week recruit 
training taught at the Navy's Recruit Training Command, at other Naval 
Bases or stations, and at regional recruit training sites using other 
military host resources. Instructed by Navy or NSCC Recruit Division 
Commanders, cadets train to a condensed version of the basic course 
that Navy enlistees receive. The curriculum is provided by the Navy, 
and taught at all training sites. In 2004 there were 19 Recruit 
training classes at 18 locations, including 1 class conducted over the 
winter holiday school break. These 18 nationwide regional sites are 
required to accommodate the increased demand for quotas and also to 
keep cadet and adult travel costs to a minimum. Over 2500 Naval Sea 
Cadets attended recruit training in 2004, supported by another 230 
adult volunteers.
    Once Sea Cadets have successfully completed recruit training, they 
may choose from a wide variety of advanced training opportunities 
including basic/advanced airman, ceremonial guard, seamanship, sailing, 
amphibious operations, leadership, firefighting and emergency services, 
submarine orientation, seal and mine warfare operations, Navy diving, 
and training in occupational specialties including health care, legal, 
music, master-at-arms and police science, and construction.
    The Naval Sea Cadet Corps is proud of the quality and diversity of 
training opportunities offered to its Cadet Corps. For 2004 
approximately 8,000 training opportunities were formally advertised for 
both cadets and adults. Another 600 opportunities presented themselves 
through the dedication, resourcefulness and initiative of the adult 
volunteer officers who independently arranged training for cadets 
onboard local bases and stations. This locally arranged training 
represents some of the best that the NSCC has to offer and includes the 
consistently outstanding training offered by the U.S. Coast Guard. The 
total cadet and adult opportunity for 2004 stood at about 8,500 quotas, 
including all recruit training. Approximately 7,800 NSCC members, with 
about 7,050 being cadets, stepped forward and requested orders to take 
advantage of these training opportunities. Cadets faced a myriad of 
challenging and rewarding training experiences designed to instill 
leadership and develop self-reliance. It also enabled them to become 
familiar with the full spectrum of Navy and Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of Federal funding for 
2001 through 2004. The NSCC continues to experience increased recruit 
and advanced training attendance of well over 2,000 cadets per year 
over those years in which Federal funding was not available. While the 
Global War On Terrorism (GWOT) following the events of 9/11 has 
continued to preclude berthing availability at many bases and stations, 
the NSCC maintained its strength and opportunity for cadets as other 
military hosts offered resources in support of the NSCC. While recruit 
training acquaints cadets with Navy life and Navy style discipline, 
advanced training focuses on military and general career fields and 
opportunities, and also affords the cadets many entertaining, drug 
free, disciplined yet fun activities over the entire year. 
Approximately 400-500 cadets per year further confirm the program's 
popularity by performing multiple 2-week trainings, taking maximum 
advantage of the opportunities presented. The NSCC also remains proud 
that approximately 9 percent of the midshipman brigade at the U.S. 
Naval Academy report having been prior Naval Sea Cadets, most citing 
summer training as a key factor in their decision to attend the USNA.

Training Highlights for 2004
    The 2004 training focus was once again on providing every cadet the 
opportunity to perform either recruit or advanced training during the 
year. To that end emphasis was placed on maintaining all traditional 
and new training opportunities developed since federal funding was 
approved for the NSCC. These include classes in sailing and legal (JAG) 
training, expanded SEAL orientation opportunity, SCUBA classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, and additional honor guard training opportunities. Other 
highlights included:
  --Maintained national recruit training opportunity for every cadet 
        wanting to participate with 19 evolutions in 2004.
  --In spite of escalating costs and increased competition for base 
        resources, kept cadet summer training cost at only $40 per 
        week, an increase of only $10 per week per cadet for all 
        training.
  --Continued NSCC's expanded use of Army and State National Guard 
        facilities to accommodate demand for quotas for recruit 
        training.
  --Completed total rewrites and updates of the NSCC Officer 
        Professional Development Courses for all adults and implemented 
        programs for reducing adult volunteer out of pocket 
        participation expenses, dramatically improving the quality and 
        extent of training for adult volunteers.
  --Expanded NSCC cadet training with Navy Explosive Ordnance Disposal/
        Mobile Diving Salvage Units to include West Coast opportunities 
        in addition to the training in Norfolk, Virginia.
  --Expanded SEAL training opportunities beyond NSCC's traditional two 
        annual classes to include an additional class with the Navy's 
        Special Warfare Combat Craft (SWCC) units in Norfolk.
  --Developed and instituted the first ever Air Traffic Control 
        training class at NAS, Kingsville, TX.
  --Maintained double the number of MAA classes and cadets taking this 
        training since 9/11.
  --Implemented first ever opportunity for culinary arts training for 
        cadets onboard the USS Kiluea T-AE-26 at Alameda, CA in support 
        of traditional seamanship training annually conducted onboard 
        that MSC ship.
  --Re-instituted at Naval Hospital Great Lakes NSCC's unique class for 
        advanced medical ``First Responder'' training.
  --Expanded opportunities for music training beyond traditional 
        training with the Navy's School of Music in Norfolk, VA to 
        include training with the Atlantic Fleet Band in Jacksonville, 
        FL.
  --Expanded and conducted NSCC's first advanced seamanship class for 
        outstanding cadets at the Massachusetts Maritime Academy at 
        Buzzards Bay, MA.
  --For all adults volunteering to be escorts for summer training, 
        implemented the first ever and only program for reducing 
        volunteer out of pocket expenses. An extremely modest program 
        designed to offset travel cost only (15 cents a mile with a 
        mileage cap) it has promoted improved program commitment among 
        NSCC's adult volunteers and alleviated critical shortages of 
        adult escorts for summer training.
  --Maintained expanded YP training on the Great Lakes, with 5 underway 
        cruises in 2004.
  --Continued to place cadets onboard USCG Barque Eagle for multiple 3-
        week underway orientation cruises.
  --Continued to place cadets aboard USCG stations, cutters, and 
        tenders for what each year proves to be among the best of the 
        training opportunities offered in the NSCC.
  --Again conducted the popular, merit based, International Exchange 
        Program for 2004, expanded to include the Asian opportunities 
        in Hong Kong and Korea that were suspended in 2003 due to the 
        SARS concern. Included Australia in the program for 2004.
  --Maintained attendance at NSCC Petty Officer Leadership Academies, 
        (POLA) at approximately 280 cadets.
  --Placed cadets onboard USN ships under local orders as operating 
        schedules and opportunity permitted, to include for 12 cadets a 
        60+ day transit and homeport relocation of the USS Ronald 
        Reagan from Norfolk to San Diego via the Straits of Magellan.
  --And as in all prior years, again enjoyed particularly outstanding 
        support from members of the United States Navy Reserve, whose 
        help and leadership remain essential for summer training.

                  INTERNATIONAL EXCHANGE PROGRAM (IEP)

    For 2004 the NSCC continued again for the third year its redesigned 
and highly competitive, merit based, and very low cost to the cadet, 
International Exchange Program. Cadets were placed in Australia, United 
Kingdom, Sweden, Netherlands, Hong Kong, Korea, and Bermuda to train 
with fellow cadets in these host nations. The NSCC and Canada 
maintained their traditional exchanges in Nova Scotia and British 
Columbia, and the NSCC hosted visiting cadets in Norfolk and at Fort 
Lewis, WA for 2 weeks of U.S. Navy style training.

                       NAVY LEAGUE CADET TRAINING

    In 2004, approximately 1,400 Navy League cadets and escorts 
attended Navy League Orientation Training at 17 sites nationwide. 
Participation in 2004 was very much like 2003. The diversity in 
location and ample quotas allowed for attendance by each and every 
League cadet who wished to attend. Approximately 270 League cadets and 
their escorts attended Advanced Navy League training where cadets learn 
about small boats and small boat safety using the U.S. Coast Guard's 
safe boating curriculum. Other advanced Navy League training sites 
emphasize leadership training. Both serve the program well in preparing 
League cadets for further training in the Naval Sea Cadet Corps, and 
particularly for their first ``boot camp.'' The continuing strong 
numbers of participants for both Orientation and Advanced training, 
support not just the popularity of the NSCC program but also the 
positive impact the Federal training grant has had in helping cadets 
afford the training and helping them take advantage of the increased 
opportunities available to them.

                           SERVICE ACCESSIONS

    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing presentations 
illustrate to Naval Sea Cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    While there is no service obligation associated with the Naval Sea 
Cadet Corps program, many Sea Cadets choose to enlist or enroll in 
Officer training programs in all the Services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of Cadets making this career decision. This survey is conducted 
during the annual inspections of the units. The reported Cadet 
accessions to the services are only those that are known to the unit at 
that time. There are many accessions that occur in the 2-3 year 
timeframe after Cadets leave their units, which go unreported. For 
example, for the year 2000, with about 83 percent of the units 
reporting, the survey indicates that 510 known Cadets entered the armed 
forces during the reporting year ending December 31, 2000. Of these, 30 
ex-Sea Cadets were reported to have received appointments to the U.S. 
Naval Academy. Further liaison with the USNA indicates that in fact, 
there are currently 472 Midshipmen with Sea Cadet backgrounds--almost 9 
percent of the entire Brigade. Navy accession recruiting costs have 
averaged over $14,000 per person, officer or enlisted, which applied to 
the number of Sea Cadet accessions represents a significant financial 
benefit to the Navy. Equally important is the expectation that once a 
more accurate measurement methodology can be found, is, that since Sea 
Cadets enter the Armed Forces as disciplined, well trained and 
motivated individuals, their retention, graduation and first term 
enlistment completion rates are perhaps the highest among any other 
entry group. USNA officials are currently studying graduation rates for 
past years for ex-Sea Cadets as a group as compared to the entire 
Brigade. Their preliminary opinion is that these percents will be among 
the highest. It is further expected that this factor will be an 
excellent indicator of the following, not only for the USNA, but for 
all officer and enlisted programs the Sea Cadets may enter:
  --Extremely high motivation of ex-Cadets to enter the Service.
  --Excellent background provided by the U.S. Naval Sea Cadet 
        experience in preparing and motivating Cadets to enter the 
        Service.
  --Prior U.S. Naval Sea Cadet Corps experience is an excellent pre-
        screening opportunity for young men and women to evaluate their 
        interest in pursuing a military career. This factor could 
        potentially save considerable tax-payer dollars expended on 
        individuals who apply for, then resign after entering the 
        Academy if they decide at some point they do not have the 
        interest or motivation.
  --U.S. Naval Sea Cadet experience prior to entering the Service is an 
        excellent indicator of a potentially high success rate.
    Data similar to the above has been requested from the United States 
Coast Guard Academy and the United States Merchant Marine Academy.
    Whether or not they choose a service career, all Sea Cadets carry 
forth learned values of good citizenship, leadership and moral courage 
that will benefit themselves and our country.

                            PROGRAM FINANCES

    Sea Cadets pay for all expenses, including travel to/from training, 
uniforms, insurance and training costs. Out-of-pocket costs can reach 
$500 each year. Assistance is made available so that no young person is 
denied access to the program, regardless of social or economic 
background.
    Federally funded at the $1,000,000 level in fiscal years 2001, 
2002, and 2003, $1,500,000 in fiscal year 2004 and $1,700,000 for 
fiscal year 2005 (of the $2,000,000 requested), all of these funds were 
used to offset individual Cadet's individual costs for summer training, 
conduct of background checks for adult volunteers and for reducing 
future enrollment costs for Cadets. In addition to the Federal fund 
received, NSCC receives under $700,000 per year from other sources, 
which includes around $226,000 in enrollment fees from Cadets and adult 
volunteers. For a variety of reasons, at a minimum, this current level 
of funding is necessary to sustain this program and the full $2,000,000 
would allow for program expansion:
  --All time high in number of enrolled Sea Cadets (and growing).
  --General inflation.
  --Some bases denying planned access to Sea Cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring Cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for Cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of ``Space Available'' transportation for group movements.
  --Lack of on-base transportation, as the navy no longer ``owns'' 
        busses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual Cadet's meal costs.
    Because of these factors, Cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be provided for fiscal year 2006.

    Senator Stevens. Thank you very much.
    It is a very successful program and we know that costs have 
gone up. But we will do our best to stretch that money, 
General, and see to it that you have the ability to produce 
young men like this for us every year.
    Thank you very much. We appreciate your statement of your 
past experience.
    Senator Inouye. How many naval sea cadets are there in the 
United States at this moment?
    Captain Hurd. It is about 10,000. The mix of males, females 
is the same as it is in the Navy for the most part, about a 
three to one mix. We have units in every State except Wyoming.
    Senator Stevens. They are seeking $300,000 more this year. 
It is a modest request, General. We will do our best to achieve 
it. Do you have anything else, Senator?
    Senator Inouye. I am impressed at the number, 472 cadets 
have received appointments to the Naval Academy.
    Captain Hurd. That are currently at the Naval Academy now, 
yes, sir. The admissions folks love them because these young 
men and women for the most part know what they are getting into 
and our graduation rates at the Academy and through boot camp 
far exceed the general Navy completion rates as well. We are 
quite proud of that.
    Mr. Silver. And the training, the background, what you 
learn through the program, the experiences--when we do the 
hands-on training, because you are training with the actual 
military that do the jobs that you want to do, you do the same 
courses that the Navy does or the Marines, and they go through 
it with you. The training that you learn through this program, 
there is no other program that you can get that will even come 
close to what you learn in this program.
    That is why the military allows us when we enlist to go in 
as advanced pay grades, through the knowledge that we learned 
and the reputation of what we learned in the program.
    Senator Inouye. Your testimony is most reassuring at a time 
when our services are all experiencing problems in recruiting 
and retaining. Thank you very much.
    Senator Stevens. Are you in all 50 States?
    Captain Hurd. All except Wyoming. We have units in Guam and 
Iceland as well.
    Senator Stevens. Thank you very much. We appreciate your 
testimony.
    Captain Hurd. We appreciate your support.
    Senator Stevens. Our next witness is the President of the 
National Association of Uniformed Services, Retired Major 
General William Matz, formerly Deputy Commander, U.S. Army in 
the Pacific. Nice to see you, sir.

STATEMENT OF MAJOR GENERAL WILLIAM MATZ, JR., U.S. ARMY 
            (RETIRED), PRESIDENT, NATIONAL ASSOCIATION 
            FOR UNIFORMED SERVICES
    General Matz. Yes, sir, nice to see you again.
    Mr. Chairman and Senator Inouye, on behalf of the over 
200,000 members and supporters of the National Association for 
Uniformed Services (NAUS), I want to thank you for this 
opportunity to present our views on defense funding. We also 
thank you, Mr. Chairman, and the other members of your 
subcommittee for your leadership and your continued efforts to 
support and care for the men and women of the armed forces and 
for our military retirees and their survivors.
    The primary purpose of our association is to support a 
strong national defense and this support includes being an 
advocate for the earned benefits of our Nation's warriors, both 
Active and retired. We understand clearly that during a time of 
severe budget deficits and with the country at war dollars for 
all Government programs are tight. But we believe that funds 
for the care and support of those who serve and have served 
must always be one of the Nation's highest priorities.
    As you are aware, some Government officials have stated 
recently that providing the earned benefits for those who have 
served is hurtful. In reality, from my perspective, taking care 
of military personnel, their families and retirees is helpful 
to the Nation's cause and it will also enhance the recruiting 
efforts of our armed forces. Retired military and veterans can 
be among the very, very best recruiters if they can report that 
the promises were kept after their service was over.
    We at NAUS join the other military and veterans services 
organizations in asking for the necessary funding for the 
proposed enhancements for those currently serving on active 
duty. These include, just very quickly: The Crosby-Puller 
Combat Wounds Compensation Act that requires that a member of 
the uniformed services who was wounded in a combat zone 
continue to be paid the monthly pay and allowances and receive 
the combat zone tax exclusion during his recovery period.
    We also ask for your support for the Supply Our Soldiers 
Act, which would provide postal benefits for those serving in 
combat zones. Should these initiatives be enacted individually 
or as part of the National Defense Authorization Act, we simply 
ask that the funds be made available for these needed 
enhancements.
    Now, while these issues, sir, are important, my main thrust 
today is to emphasize the need for full funding of the defense 
health program. Arriving at the point where we are now with the 
TRICARE program has been a long and very arduous battle and a 
fight that members of this subcommittee, joining with the 
National Military Veterans Alliance and the Military Coalition, 
made happen, and for this we thank you.
    As you know, the defense health program is a critical piece 
in ensuring the maintenance of a strong military. From my 
perspective, each dollar is an investment in military 
readiness. During my service in Vietnam as an infantryman, one 
of the greatest fears of soldiers arriving in that country was 
being wounded and not getting adequately timely medical care. 
Because of this, we would assure them that every wounded 
soldier would be recovered, every wounded soldier would be 
treated and evacuated as a first priority, and that they would 
get the very best medical care in the world.
    Our military medical system is the best in the world. To 
stay the best, it must be fully funded. So unless we have a 
strong, vital military medical program here in the continental 
United States (CONUS) we will not be able to continue to deploy 
the highly trained medical units and personnel supporting our 
combat forces in the overseas theaters. This includes funding 
the network of stateside military hospitals and clinics and of 
course the Uniformed Services University of the Health 
Sciences, which I know you are both familiar with.
    In my view this is at the core of medical professionalism 
for our Nation's uniformed services. It also includes the 
funding necessary to ensure adequate care for our military 
families and retirees.
    Mr. Chairman, your longstanding leadership and your support 
for military medicine has been clearly stated over the years. 
In fact, from my view it has been critical to its success, 
indeed to its very survival. I am reminded of a like sentiment 
expressed just recently by the chairman of the Senate Armed 
Services Committee, who was opposing a proposal to shift money 
from military health care to buy weapons rather than seeking 
the funds for both. We absolutely agree on this point and also 
that funding for both must be a national priority. Accordingly, 
sir, we ask that you continue to support full funding for our 
very vital defense health program.
    Again, thank you for your support and thank you for these 
few minutes to come before you today.
    Senator Stevens. Senator.
    Senator Inouye. Well, as you have indicated, the best 
recruiting weapon that we have is a veteran who has served and 
can tell the new American that the military is the best place 
to serve.
    General Matz. Absolutely, sir, yes.
    Senator Inouye. He is the evidence, the proof.
    General Matz. Yes, that is the evidence, absolutely.
    Senator Inouye. We will do our best, sir.
    Senator Stevens. I was amazed to find when we were in Iraq 
and Afghanistan the number of young people we talked to that 
talked to us about their fathers and their experience. There is 
no replacing that generation to generation conveyance of the 
duty to serve.
    General Matz. Absolutely, sir.
    Senator Stevens. Thank you very much, General.
    General Matz. Thank you very much.
    [The statement follows:]
               Prepared Statement of William M. Matz, Jr.
Introduction
    Mister Chairman and distinguished members of the committee, I 
became the President of the National Association for Uniformed Services 
(NAUS) on January 15 of this year. As the representative of our 190,000 
members/supporters, I extend our gratitude for the invitation to 
testify before you about our views and suggestions concerning the 
following defense funding issues:
    First, I would like to explain to you our association and why we 
feel so very qualified to discuss our members' legislative concerns. 
The National Association for Uniformed Services (NAUS) prides itself in 
that it is the ``The Servicemember's Voice in Government--Focusing on 
People.'' NAUS is unique. Founded in 1968, it's the only military 
affiliated association whose membership represents the entire military/
veteran family. No other association provides such a broad 
representation when dealing with Congress, the White House, and the 
Pentagon. NAUS represents all seven branches of the uniformed services: 
Army, Navy, Marine Corps, Air Force, Coast Guard, United States Public 
Health Service (USPHS), and National Oceanic and Atmospheric 
Administration (NOAA), including all components: Active Duty, Retired, 
Reserve, National Guard, and other veterans, their spouses, widows/
widowers, other family members and survivors; and all grades and 
ranks--enlisted/officer.
    The primary purpose of our association is to support a strong 
national defense and to promote and protect the interests and promised 
benefits earned by members of the uniformed services for themselves, 
their families and survivors and those of all American citizens with 
common interests.
    Accordingly, we support issues that directly affect those currently 
serving on Active duty--Regular, National Guard and Reserve. Our 
testimony will ask this committee's funding for the following pieces of 
legislation upon passage:

Crosby-Puller Combat Wounds Compensation Act
    We support this Act which would ensure that a member of the 
uniformed services who is wounded or otherwise injured while serving in 
a combat zone continues to be paid monthly military pay and allowances, 
while recovering from the wound or injury at the same level received 
while in the combat zone. This act will also ensure that the 
servicemember continues to receive the combat zone tax exclusion during 
recovery.
    Position.--We urge that S. 461, the Crosby-Puller Combat Wounds 
Compensation Act be funded in the Defense appropriation.

Montgomery GI Bill (MGIB) & Educational Benefits
    The strain on the Reserve Component (Reserve and National Guard 
units) caused by frequent and long call-ups to Active Duty has had a 
negative affect on recruiting and retention efforts. Added enticements 
are needed to help bolster these forces, which our National defense has 
come to rely so heavily on in contingency operations.
    We believe that extending the same MGIB and educational benefits to 
the Reserve and Guard forces would help in their recruiting/retention 
programs.
    Position.--We urge the Defense subcommittee to provide the funding 
of enhanced MGIB and Educational Benefits for the Reserve and National 
Guard units.

Guard and Reserve Enhanced Benefits Act
    Since the National Guard and Reserve make up a great portion of the 
troops in the areas of current operations, we believe other measures 
are needed to alleviate many of the hardships caused by these frequent 
and prolonged deployments. Many are contained in the Guard and Reserve 
Enhanced Benefits Act, such as Child Care, Non-reduction in pay for 
Federal Employees, Tax Credit for Employers, Reduced minimum age for 
eligibility for non-regular Service retired pay, and Expanded 
eligibility of Ready Reserve Members under the Tricare Program.
    Position.--We urge the Defense subcommittee to provide funding for 
S. 38, the Guard and Reserve Enhanced Benefits Act.

Supply Our Soldiers Act of 2005
    NAUS supports the ``Supply Our Soldiers Act of 2005,'' H.R. 887, a 
bill to provide for a program under which postal benefits shall be made 
available for purposes of certain personal correspondence and other 
mail matter sent from within the United States to members of the Armed 
Forces serving on active duty abroad who are engaged in military 
operations, and for other purposes.
    Position.--We urge the Senate to sponsor a companion bill and the 
Defense subcommittee to provide the funding to assist families of 
active duty and activated Reserve and National Guard servicemembers 
with postal costs for packages and mail to troops in current 
operations.
    We contend that honoring the promises made to those veterans who 
made a career of the military will help the military services in their 
recruiting and retention efforts. Accordingly, we strongly urge the 
Defense subcommittee's support of the following:

Combat Related Special Compensation (CRSC) for Chapter 61 Retirees
    Many combat injured military veterans were forced by the severity 
of their injuries to be medically retired under Chapter 61 regulations. 
Quite a few of them would have completed 20 years of service towards a 
full military retirement, but could not. These individuals are not 
qualified for Combat Related Special Compensation because they served 
less than 20 years. They deserve the same consideration for the award 
of CRSC as a 20-year retiree and their level of award should be based 
on their years of active service.
    Position.--The House has introduced legislation to resolve this 
issue (H.R. 1366). NAUS urges the Senate to introduce companion 
legislation, and urges the Defense subcommittee to provide the funding 
to resolve this issue.

Survivor Benefits Program/Dependency and Indemnity Compensation Offset
    Currently, if the retired military sponsor, who enrolled in the 
Survivor Benefits Program (SBP), dies of a service-connected 
disability, the surviving spouse is eligible for both the SBP annuity 
and Dependency and Indemnity Compensation (DIC) from the Department of 
Veterans Affairs. However, the SBP annuity is offset by the full amount 
of the DIC annuity. Each program's purpose is different, SBP's goal is 
to provide for the loss of the sponsor's earned retired pay, and DIC's 
goal is to provide the surviving spouse compensation for the loss of 
their spouse due to injuries caused by his/her service to the country.
    Position.--The National Association for Uniformed Services strongly 
urges funding for S. 185 which would end the SBP offset with DIC.
30 Year Paid-Up Status
    A secondary goal is the acceleration of the paid-up SBP provisions 
by changing the effective date from October 1, 2008, to October 1, 
2005, already 2 years beyond the 30th anniversary of the program. 
Enrollees who have reached the age of 70 and have paid their SBP 
premiums for more that 30 years (360 payments) are already being 
penalized.
    Position.--We ask that the Defense subcommittee provide funding to 
allow those early enrollees to be paid up as described in S. 185.

Permanent ID Card for Dependents Age 65 and Over
    One of the issues stressed by NAUS is the need for permanent ID 
cards for dependents age 65 and over. Last year's NDAA authorized the 
issuance of permanent ID card for dependents age 75 and over. We still 
believe the age should be 65 and over. With the start of TRICARE for 
Life, expiration of TFL-eligible spouses' and survivors' military 
identification cards, and the threatened denial of health care claims, 
causes some of our older members and their caregivers' significant 
administrative and financial distress.
    Position.--NAUS urges that the Defense subcommittee continue the 
progress made last year by directing the Secretary of Defense to 
authorize issuance of permanent military identification cards to 
uniformed services family members and survivors who are age 65 and 
older, with appropriate guidelines for notification and surrender of 
the ID card in those cases where eligibility is ended by divorce or 
remarriage.
    Finally, NAUS urges the Defense subcommittee's consideration of the 
following issues related to the benefit of military service:

Military Exchanges and Commissaries
    Issue One.--NAUS believes that DOD wants to reduce/eliminate the 
subsidy for the commissary system that provides food and other 
essentials to troops and families around the world, which will result 
in the military community losing the benefit.
    Position.--The National Association for Unformed Services strongly 
urges the committee to continue to provide the funding for the 
commissary subsidy to sustain the current services. Commissaries are a 
key component of the military pay and compensation package. Any action 
that would reduce/eliminate this benefit would result in a diminished 
quality of life and more out of pocket costs.
    Issue Two.--Recent DOD initiatives towards exchange consolidation 
and more recently shared services are an issue of interest for our 
members. The Unified Exchange Task Force has been developing several 
shared services models designed to reduce overhead costs in the areas 
of logistics, finance and accounting, information technology, human 
resources and non-resale procurement. This approach is based on 
reducing ``backroom'' costs for the exchanges so that they will have 
greater margins from which to offer their customers better pricing. 
However, NAUS continues to view the proposals with cautious interest 
until additional information becomes available. For example, 
implementation costs and transition costs are important components in 
the shared services decision and that information is not yet available.
    While the Unified Exchange Task Force (UETF) has been extremely 
open and informative throughout this process (associations have met 
quarterly with the UETF leadership since its inception), NAUS will 
reserve its support of shared services until a substantive, business-
based analysis is completed that clearly demonstrates the change will 
enhance the benefit to the patron and increase the MWR dividend.
    Position.--NAUS asks the Defense subcommittee to provide the 
funding necessary to ensure that the exchanges, whether or not they 
share services, continue to provide appropriate product choices, 
competitive prices, and increased funding for MWR programs.

Current and Future Issues Facing Uniformed Services Health Care
    The National Association for Uniformed Services would like to thank 
the subcommittee and the full Appropriations Committee for its 
leadership in the past for providing the landmark legislation extending 
the Pharmacy benefit and TRICARE system to Medicare eligible military 
retirees, their families and survivors, making the lifetime benefit 
permanent, establishing the DOD Medicare Eligible Retiree Health Care 
Fund, reducing the catastrophic cap and making other TRICARE 
improvements. However, we must again urge that the Senate provide full 
funding of the Defense Health Program.
    Position.--DOD has projected an $11 billion shortfall in funding 
between fiscal year 2006-2011. NAUS strongly urges the Defense 
subcommittee to ensure that full funding is provided for this most 
crucial of programs.

Federal Employees Health Benefits Program (FEHBP)
    The National Association for Uniformed Services has been a long 
time proponent of legislation that would provide military personnel the 
option of participating in the Federal Employees Health Benefit 
Program. Though confident that the TRICARE program and the TRICARE for 
Life program will be successful, because they are an outstanding value 
for most beneficiaries, in a few cases, the TRICARE/TRICARE for Life 
options may not be the best choice, or may not be available for the 
eligible beneficiary. For that reason, we believe the FEHBP option 
should be enacted. Providing the FEHBP, as an option would help 
stabilize the TRICARE program, provide a market based benchmark for 
cost comparison and be available to those for whom TRICARE/TRICARE for 
Life is not an adequate solution.
    Position.--NAUS strongly urges the Defense subcommittee to provide 
additional funding to support a full FEHBP program for military 
personnel as an option.

Include Physician and Nurse Specialty Pay in Retirement Computations
    Results of a recent Active Duty Survey show that pay and benefits 
are the most important factors impacting retention. Improving specialty 
pay/bonuses and including specialty pay/bonuses in retired pay 
calculations would aid retention. Therefore, prompt action to retain 
these and other highly skilled medical professionals is needed.
    Position.--The National Association for Uniformed Services requests 
funding to allow the military physicians and nurses to use their 
specialty pay in their retirement computations. The military services 
continue to lose top quality medical professionals (doctors and nurses) 
at mid-career. A major reason is the difference between compensation 
levels for military physicians and nurses and those in the private 
sector.
Conclusion
    Mr. Chairman and distinguished members of the Defense subcommittee, 
we want to thank you for your leadership and for holding these hearings 
this year. You have made it clear that the military continues to be a 
high priority and you have our continuing support.

    Senator Stevens. Our last witness is Retired Master Chief 
Joseph Barnes, the U.S. Naval Executive Secretary of the Fleet 
Reserve Association. Yes, sir.

STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, U.S. NAVY 
            (RETIRED), NATIONAL EXECUTIVE SECRETARY, 
            FLEET RESERVE ASSOCIATION
    Chief Barnes. Thank you, Mr. Chairman, Senator Inouye. The 
Fleet Reserve Association (FRA) appreciates the opportunity to 
present its views on the 2006 defense budget.
    Before I address several priority issues, I wanted to thank 
this distinguished subcommittee for its leadership, support, 
and strong commitment to important quality of life programs 
benefiting service members, reservists, military retirees, and 
their families.
    FRA's number one priority is supporting adequate funding 
for protected devices and equipment and military personnel 
serving in Operations Iraqi Freedom and Enduring Freedom. This 
includes body armor, outer protective vests, and armor for 
combat vehicles. The next priority is ensuring that wounded 
troops, their families and survivors of those killed in action 
are those cared for by a grateful nation. FRA fully endorses 
continuing combat pay and other special pays until the 
completion of hospital care or discharge from their respective 
service and permanent increases to the death gratuity and 
service members group life insurance.
    Another top concern of FRA is to work with Congress and DOD 
to ensure continued full funding of the defense health budget 
and ensure access to health care for all uniformed services 
beneficiaries. The new TRICARE Reserve Select health plan is 
important to our Guard and Reserve personnel and their families 
and a fully funded health care benefit is critical to readiness 
and the retention of qualified uniformed services personnel.
    FRA supports appropriations necessary to implement the 3.1 
percent across the board military pay increase on January 1, 
2006. The association also strongly supports continued progress 
toward closing the military pay gap. Unfortunately, targeted 
pay increases for senior enlisted personnel and certain officer 
grades were not included in the administration's budget. At a 
minimum, FRA supports funding pay increases at least comparable 
to the annual employment cost index.
    Adequate service end strengths are important to maintaining 
readiness. If force size is inadequate and operational tempo 
(OPTEMPO) too intense, the performance of individual service 
members is negatively affected. FRA believes there are 
inadequate numbers of uniformed personnel to sustain the war 
effort and other operational commitments. This situation also 
creates considerable stress on the families of service 
personnel.
    FRA appreciates the major reform of the military survivor 
benefit plan authorized in this year's defense authorization 
act and soon thousands of survivors will no longer have to 
endure a reduction in their survivor benefits plan (SBP) 
annuities upon reaching age 62.
    Another SBP reform issue is also important to FRA's 
membership, that being the acceleration of SBP paid-up date 
from 2008 to 2005 for participants having paid premiums for 30 
years and being at least 70 years of age. If authorized, the 
association asks for support from this distinguished 
subcommittee.
    FRA supports funding to maintain the commissary benefit at 
the current level, increased reserve Montgomery GI bill (MGIB) 
education benefits, which are currently funded well below the 
authorized level, funding for family awareness and spouse 
employment opportunities, which are integral to our well-being 
retention--their well-being and retention, excuse me--and 
supplemental impact aid funding for school districts with large 
numbers of military-sponsored students.
    If authorized, FRA also strongly supports full concurrent 
receipt of military retired pay and VA disability compensation, 
retention of the full final month's retired pay by retirees' 
surviving spouse, and the extension of the dislocation 
allowance to retiring service members.
    Thank you again, Mr. Chairman, for the opportunity to 
present the association's recommendations and I stand ready to 
answer any questions you may have.
    [The statement follows:]

                 Prepared Statement of Joseph L. Barnes

                              INTRODUCTION

    Mr. Chairman and other distinguished members of the subcommittee, 
the Fleet Reserve Association (FRA) is most grateful for your support 
of our military men and women and, particularly, those serving or 
having served in Afghanistan, Iraq and other troubled spots around the 
globe. At the top of the Association's gratitude list is the quality of 
life improvements funded in the 108th Congress. Thanks so much for the 
effort. FRA knows you have contributed in the previous year to making a 
tough life much easier for those that might make the ultimate sacrifice 
in the service of this Nation. BRAVO ZULU.
    This Statement lists the concerns of our members, keeping in mind 
that the Association's primary goal will be to endorse any positive 
safety programs, rewards, and quality of life improvements that support 
members of the uniformed services, particularly those serving in 
hostile areas, and their families.
    FRA is concerned that in spite of signs of bravado, many of our 
Sailors, Marines and Coast Guardsmen serving in Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) may not be fully armed with 
the protective devises available for their personal safety. Advocating 
the funding for and receipt of these protective devices; i.e.--
interceptor body armor, outer protective vests, and small arms 
protective inserts; to every uniformed member sent into harm's way is 
FRA's No. 1 priority.
    The Association's next priority is to see that our wounded troops, 
their families, and the surviving families of the men and women killed 
in action are cared for by a grateful Nation. In this respect, FRA 
fully endorses funding any proposal that authorizes our wounded 
veterans continuance of their combat pay and other special pays 
received while in combat until the completion of their hospital care or 
discharge from their respective military service. And any authorized 
increases to the death gratuity and life insurance proposed by the 
Congress.

                              OTHER GOALS

    Health Care.--FRA and its membership are most grateful for the 
improvements in accessing proper health care for the military community 
and the expansion of the program to provide greater care for military 
retirees and their families. Not everyone in the military community is 
pleased, but Congress has done much with the resources available to 
offer the best program for as many beneficiaries as possible. There are 
other proposals on the table that would increase benefits for those not 
satisfied with the current program. FRA endorses these proposals for 
many of its members would be affected by their adoption. However, the 
Association's primary concern is that existing programs be adequately 
funded for fiscal year 2006 and beyond.
    Active Duty/Reserve Programs.--Topping the list among the active 
duty and reserve members of the Sea Services (Navy and Marines) are 
adequate pay and allowances, child care and housing.
    Pay and Allowances.--For the fiscal year 2006, the administration 
has recommended a 3.1 percent across the board basic pay increase for 
members of the Armed Forces. This is commensurate with the 1999 formula 
to provide increases of 0.5 percentage points greater than that of the 
previous year for the private sector. With the addition of targeted 
raises, the formula has reduced the pay gap with the private sector 
from 13.5 percent to 5.2 percent following the January 1, 2005, pay 
increase.
    FRA, however, is disappointed that there is no targeted pay 
increase recommended, particularly for mid-grade and more senior 
enlisted personnel. FRA, The Military Coalition, the 9th Quadrennial 
Review of Military Compensation (9thQRMC), and the Department of 
Defense have advocated the necessity for targeted pays. In spite of the 
number of special pay increases in the last few years, the pay of our 
noncommissioned and petty officers remains compressed; a situation that 
has existed since the advent of the all-volunteer force.
    FRA urges the subcommittee to appropriate the necessary funds for 
the 3.1 percent pay increase for fiscal year 2006.
    Other Pays and Allowances.--FRA supports funding to continue and 
enhance enlistment and reenlistment bonuses and other compensatory 
items necessary for the military services to function accordingly and 
to provide the necessary incentives for the Nation's young men and 
women to serve in the Armed Forces. Recruiting and retention are vital 
to the success of the All-Volunteer Force and fulfilling the Nation's 
commitments and should be funded adequately to meet the services needs.
    Basic Allowance for Housing (BAH).--FRA is seeking revised housing 
standards. Many enlisted personnel, for example, are unaware of the 
standards for their respective pay grade and assume that the applicable 
BAH level is determined by a higher standard than they may be 
authorized. This causes confusion over the mismatch between the amount 
of BAH they receive and the actual cost of their type of housing. As an 
example, enlisted members are not authorized to receive BAH for a 3-
bedroom single-family detached house until achieving the rank of E-9--
which represents only 1 percent of the enlisted force--yet many 
personnel in more junior pay grades do in fact reside in detached 
homes. The Coalition believes that as a minimum, this BAH standard 
(single family detached house) should be extended gradually to 
qualifying service members beginning in grade E-8 and subsequently to 
grade E-7 and below over several years as resources allow.
    Through your leadership and support, the plan to reduce median out-
of-pocket expenses has been implemented. The aggressive action to 
better realign BAH rates with actual housing costs has had a real 
impact and provides immediate relief for many service members and 
families struggling to meet rising housing and utility costs. 
Unfortunately, housing and utility costs continue to rise and the pay 
comparability gap, while diminished over recent years, continues to 
exist. Members residing off base face higher housing expenses along 
with significant transportation costs, and relief is especially 
important to junior enlisted personnel living in the civilian 
environment who do not qualify for other supplemental assistance.
    FRA urges the subcommittee to appropriate the necessary funds to 
cover authorized increases in housing allowances for uniformed 
personnel.
    Permanent Change of Station (PCS) Reimbursements.--FRA is most 
appreciative of the significant increases in the Temporary Lodging 
Expense (TLE) allowance authorized for fiscal year 2002 and the 
authority to raise PCS per diem expenses to match those for Federal 
civilian employees in fiscal year 2003. FRA greatly appreciates the 
provision in the fiscal year 2004 defense bill to provide full 
replacement value for household goods lost or damaged by private 
carriers during government directed moves, and looks forward to the 
timely implementation of the Department of Defense comprehensive 
``Families First'' plan to improve claims procedures for service 
members and their families.
    These were significant steps to upgrade allowances that had been 
unchanged over many years. Even with these changes, however, service 
members continue to incur significant out-of-pocket costs in complying 
with government-directed relocation orders.
    For example, PCS mileage rates have not been adjusted since 1985. 
The current rates range from 15 to 20 cents per mile--less than half 
the 2005 temporary duty mileage rate of 40.5 cents per mile for 
military members and Federal civilians. PCS household goods weight 
allowances were increased for grades E-1 through E-4, effective January 
2003, but weight allowance increases are also needed for service 
members in grade E-5 and above to more accurately reflect the normal 
accumulation of household goods over the course of a career. The 
Association has recommended modifying weight allowance tables for 
personnel in pay grades E-7, E-8 and E-9 to coincide with allowances 
for officers in grades 0-4, 0-5, and 0-6, respectively. FRA also 
supports authorization of a 500-pound professional goods weight 
allowance for military spouses.
    In addition, the overwhelming majority of service families own two 
privately owned vehicles, driven by the financial need for the spouse 
to work, or the distance some families must live from an installation 
and its support services. Authority is needed to ship a second POV at 
government expense to overseas' accompanied assignments. In many 
overseas locations, families have difficulty managing without a second 
family vehicle because family housing is often not co-located with 
installation support services.
    FRA is sensitive to the subcommittee's efforts to reduce the 
frequency of PCS moves. But the Armed Services cannot avoid requiring 
members to make regular relocations, with all the attendant disruptions 
in their children's education and their spouse's career progression. 
The Association believes strongly that the Nation that requires them to 
incur these disruptions should not be requiring them to bear the 
resulting high expenses out of their own pockets.
    FRA urges additional funding to support further upgrades of 
permanent change-of-station reimbursement allowances to recognize that 
the government, not the service member, should be responsible for 
paying the cost of government-directed relocations.
    Combat and Incentive Pays during Hospitalization.--FRA strongly 
urges the subcommittee to take action to ensure combat-wounded service 
members do not have their pay reduced or their taxes increased during 
periods of hospitalization. The Association believes that such 
compensation treatment is essential for service members who continue to 
suffer from the hazardous conditions that combat-related incentive pays 
and tax relief were created to recognize.
    Basic Allowance for Subsistence (BAS).--FRA is grateful for the 
increases in BAS over the years. There is more to be done; however, to 
permit single career-enlisted members greater individual responsibility 
in their personal living arrangements. FRA believes it is inconsistent 
to demand significant supervisory, leadership and management 
responsibilities of noncommissioned and petty officers, but still 
dictate to them where and when they must eat their meals while at their 
home duty station.
    FRA has urged the authorizers to repeal the statutory provision 
limiting BAS eligibility to 12 percent of single members residing in 
government quarters. As a long-term goal, extend full BAS eligibility 
to all single career enlisted members, beginning with the grade of E-6 
and, eventually, to the lower grades as budgetary constraints are 
eased. FRA requests the subcommittee's support for the repeal by 
appropriating the necessary funding to implement any increases in BAS 
adopted by the authorization process.
    MGIB. The Montgomery GI Bill often is characterized as a form of 
compensation or as a ``recruiting tool.'' However, FRA would argue that 
it would be more appropriate to consider the benefit an investment in 
our nation's future. Military personnel can use the MGIB on active duty 
to aid in their professional development, giving them the tools to 
become better leaders, mentors and representatives of their respective 
service. Our Nation has a responsibility to ensure the MGIB investment 
remains a relevant supplement to completing one's education. We must 
give our veterans the tools to excel in an academic environment.
    There are 61,000 senior enlisted members in the Armed Forces who 
entered military service during the Veterans Education Assistance 
program (VEAP) era and did not have the opportunity to enroll in the 
MGIB. FRA has urged the adoption of an open enrollment period offering 
these enlisted leaders a chance to sign up for the education benefits 
available through the MGIB. In fact, the Association believes the MGIB 
should be expanded so that any uniformed member reenlisting in his or 
her military service will have the opportunity to enroll in the 
program.
    FRA recommends funding enhancements of benefits in the MGIB as 
authorized. The Association is grateful for the October 1, 2004 
increases in basic rates but they cover only about 60 percent of 
current tuition expenses. A creation of a benchmark for the MGIB will 
keep pace with the cost of an average 4-year college education. For the 
school year 2004-2005 ($20,082 for 4 yrs. at private institutions; 
$5,132 at public institutions) the cost is much greater than what is 
available through the MGIB. Enhancing the value of the MGIB would be an 
improved incentive to enlist or reenlist in the Armed Forces.

                      FAMILY READINESS AND SUPPORT

    It's most important that DOD and the military services concentrate 
on providing programs for the families of our service members. There 
are a number of existing spousal and family programs that have been 
fine tuned and are successfully contributing to the well-being of this 
community. The Navy's Fleet and Family Centers and the Marines' Marine 
Corps Community Services (MCCS) and Family Services programs are 
providing comprehensive, 24/7 information and referral services to the 
service member and family through its One Source links. One Source is 
particularly beneficial to mobilized reservists and families who are 
unfamiliar with varied benefits and services available to them.
    It's true that ``the service member enlists in the military 
service--but it's the family that reenlists.'' To ensure the family 
opts for a uniformed career, the family must be satisfied with life in 
the military. To assist in bringing that satisfaction, FRA recommends 
the following to the subcommittee.
    Child and Youth Programs.--Both programs rank high in priority for 
the families of Sailors and Marines. As an integral support system for 
mission readiness and deployments, its imperative these programs 
continue to be improved and expanded to cover the needs of both married 
and single parents. Currently, the Navy's program cares for over 31,000 
children 6 months to 12 years in 227 facilities and 3,180 on and off 
base licensed child development homes. With the high priority tagged to 
child care, FRA urges Congress to continue enhancing and increase 
funding for this important benefit.
    Pre-tax Treatment for Child Care Expenses.--FRA seeks the support 
of the subcommittee to direct the Department of Defense to implement 
flexible spending accounts for pre-tax payment of child-care expenses. 
The Association urges the subcommittee to coordinate with the Ways and 
Means Committee to enact such authority as may be needed as soon as 
possible.
    Spousal Employment.--Today's all-volunteer environment requires the 
services to consider the whole family. It is no longer adequate to 
focus only on the morale and financial well-being of the member. Now, 
his or her family must be considered. One of the major considerations 
for spousal employment is it could be a stepping-stone to retention of 
the service member--a key participant in the defense of this Nation. 
The Association urges Congress to continue its support of the 
military's effort to affect a viable spousal employment program and to 
authorize sufficient funds to assure the program's success.
    Impact Aid.--FRA is most appreciative for the Impact Aid authorized 
in previous Defense measures but must urge this subcommittee and its 
full committee to support a substantial increase in the funding for 
schools bearing the responsibility of educating the children of 
military personnel and Federal employees. Current funds are not 
adequate to ably support the education of federally sponsored children 
attending civilian community elementary schools. Beginning with the 
Nixon Administration, funding for Impact Aid has decreased 
dramatically. For example, in the current fiscal year the Military 
Impacted Schools Association (MISA) estimates Impact Aid is funded at 
only 60 percent of need according to law. Our children should not be 
denied the best in educational opportunities. Impact Aid provides the 
children of our Sailors, Marines, Coast Guardsmen, Soldiers, and 
Airmen, a quality education. FRA implores Congress to accept the 
responsibility of fully funding the military Impact Aid program. It is 
important to ensure our service members, many serving in harm's way, 
have little to concern with their children's future but more to do with 
the job at hand.
    DOD Schools.--FRA notes with concern the Department of Defense's 
(DOD's) repeated quest to close some or all DOD-sponsored schools 
operating on military installations in CONUS. FRA is adamantly opposed 
to reducing the quality of education now enjoyed by the children of 
military personnel and Federal employees' by forcing them to enroll in 
public schools. As long as the United States continues with an all-
volunteer force and as long as U.S. uniformed personnel and employees 
of the Armed Forces are deployed to foreign shores, CONUS schools 
provide a safe haven for their children. FRA recommends that Congress 
provide the necessary funds to continue the effective operation of the 
Department of Defense's school system and to cease and desist from 
using appropriated funds to find ways and means to close or transfer 
its school system to local school districts. There is no need for 
further threats of closures that damage the morale of our Nation's 
military personnel and families. In an all-voluntary force environment, 
it's certain Congress doesn't want to add to the retention challenges 
the military may face in the future.
    Morale, Welfare, and Recreation Programs (MWR).--FRA can't help but 
believe Congress and even the military services are less concerned with 
MWR programs that are really vital to supporting the service member and 
his or her family. The Navy's top enlisted chief, MCPON Terry Scott 
USN, again this year advised a House panel on February 16 last he is 
particularly troubled that current budget decisions will place a 
greater burden on the Service in providing the necessary programs so 
important in maintaining the well-being of its sailors and families. 
The MWR programs of the Navy; Child Care, Fleet/Family Support Program 
(FFSP), for example, include recreation, fitness, social and community 
support activities, spouse employment, personal financial management, 
counseling, family advocacy, safety, transition and relocation--all 
having a positive affect on Fleet Readiness.
    Currently, the shortage of funds is curtailing or closing some of 
the activities while the costs of participating in others have 
increased over the past year or two. One major problem is in Europe. 
The weakening dollar has caused an increase in child-care rates, movie 
tickets, etc., and placed a hiring freeze on MWR employees.
    The lack of fiscal support for MWR programs is damaging the need to 
provide mental and physical relief to both sailors and families from 
the stress of deployments that have increased dramatically since the 
military downsized in the 1990's. MWR programs build a community spirit 
among those living on or near a military installation, something not 
experienced by those who may seek comfort and well-being from a 
civilian environment.
    MWR facilities should be fully funded and include where and when 
available the guard, reserve, and retired military population residing 
in the area. One group aids the other. Who better to assist, comfort, 
counsel, and encourage military family members concerned with the 
conflict in Iraq, continuing deployments, and other military related 
activities.

                 FORCE SIZE/READINESS/OPTEMPO/PERSTEMPO

    FRA will again simultaneously address force size, readiness, 
OPTEMPO, and PERSTEMPO as one issue. Readiness is achieved at its 
highest if force size is adequate in numbers, OPTEMPO is not too 
excessive, and PERSTEMPO is not adversely affecting the performance of 
individual service members. FRA noted in its fiscal year 2005 statement 
that all four were suffering from a shortage of uniformed members. 
Since then Congress has added numbers to the uniformed manpower in both 
the Army and Marine Corps. FRA is grateful for the increase and is 
hopeful the added manpower will be the answer to the difficulty 
experienced by the military in Iraq over the past few years. The 
Association, however, is concerned that the Navy is going to the 
extreme in downsizing its uniformed manpower. This concern has been 
voiced to the authorizing committee in hope some action will be 
directed to steady the outgoing tide of experienced naval personnel.
    Meanwhile, FRA urges the subcommittee to continue funding our 
military personnel to ensure the numbers remain sufficient to relieve 
both OPTEMPO and PERSTEMPO, primarily the result of operations in 
Afghanistan and Iraq.

                           RESERVE COMPONENT

    Operational Tempo.--The increase in the use of reserve units to 
serve along side active duty components in Iraq, as an example, has 
caused considerable challenges for individual reservists. Not only has 
their mobilization placed a strain on employment and income, but the 
family as well. Employer support, once strong, decreases as more 
essential employees are whisked-off to spend longer periods in uniform 
leaving the employer frustrated with having to find a replacement and, 
at the same time, hold the position open for the reservist's return.
    FRA has always supported the Total Force Policy but is concerned 
that the sustained use of reserve forces will eventually harm the 
recruiting and retention of young men and women willing to serve as 
future citizen Sailors, Marines, and Coast Guardsmen. The United States 
must maintain a strong reserve force at all times in the event of a 
greater need than at the present.
    The fiscal year 2005 defense authorization bill established a 
Commission on the National Guard and Reserves. FRA is in hope that it 
will provide recommendations on what enhancements are necessary to 
recruit and retain the number of reservists required for the defense of 
the United States. There is a possibility the study may include 
recommendations addressing such issues as tax relief, healthcare, 
retirement upgrades, improvements in the MGIB-SR, and family support 
programs.
    Until the study is released, FRA urges this subcommittee to 
appropriate funds to support reserve and guard programs authorized in 
the fiscal year 2006 National Defense Authorization Act that:
  --Increase in both enlisted and reenlistment bonuses.
  --Enhance the MGIB-SR rates for those who choose to participate in 
        the program.
  --Provide academic and financial protection to members who are 
        attending an institution of higher learning when called to 
        active duty.
  --Support and fund programs for families, particularly those 
        geographically dispersed and not readily accessible to military 
        installations and inexperienced with the military.
  --Authorize cost-share access to Tricare for members of the Selected 
        Reserve and their families.

                           RETIRED COMPONENT

    Concurrent Receipt.--The fiscal year 2003 National Defense 
Authorization Act (NDAA) authorizes a special compensation that 
establishes a beachhead to authorizing full concurrent receipt, a term 
for the payment of both military non-disability retired pay and any VA 
compensation for service-connected disabilities without a reduction in 
one or the other payment. The fiscal year 2004 and 2005 NDAA expanded 
the benefit list through Combat Related Disability Pay (CRDP) and 
Combat Related Special Compensation (CRSC). Although FRA is 
appreciative of the effort of Congress to address the issue, it fails 
to meet the resolution adopted by the Association's membership to seek 
full compensation for both length-in-service military retirement and VA 
compensation. Currently, the receipt of VA compensation causes a like 
reduction to a retired service member's military retired pay. This 
leads to the belief, and well-deserved, that retired service members, 
earning retired pay as a result of 20 years or more of service, are 
forced to pay for their own disablement.
    Most disabilities are recognized after the service member retires. 
Some are discovered while the member is still performing active duty or 
as the result of a retirement physical. However, it is to the benefit 
of the Department of Defense to retire the member without compensation 
for any disability. Instead, the member is directed to the Department 
of Veterans' Affairs for compensatory relief for the damages incurred 
by the member while serving the Nation in uniform.
    FRA has encouraged Congress to take the helm and authorize and fund 
concurrent receipt for all qualified military non-disabled retirees who 
are eligible for and receiving veterans' compensation.

                               CONCLUSION

    FRA is grateful to the subcommittee for the opportunity to present 
its goals for fiscal year 2006. Further information may be obtained by 
contacting Mr. Matthew Schafer, FRA Acting Director for Legislative 
Programs.

    Senator Stevens. Thank you very much and thank you for your 
patience in staying with us, the last witness of the day.
    Chief Barnes. Not a problem, sir.
    Senator Stevens. Questions, Senator?
    Senator Inouye. I just wanted to say that the FRA has a 
very, very active organization in Hawaii.
    Chief Barnes. Thank you, Senator, and congratulations on 
your recognition last year as our Pinnacle Award recipient----
    Senator Inouye. Thank you, sir.
    Chief Barnes. Following the distinguished chairman's 
receipt a couple years ago.
    Senator Stevens. That is right.
    Thank you again for your testimony.

                    ADDITIONAL SUBMITTED STATEMENTS

    If there are any additional statements that individuals 
would like to submit for the record, it will be held open for 5 
days.
    [The statements follow:]

 Prepared Statement of Sue Schwartz, DBA, RN, Co-Chairman, Health Care 
 Committee, Military Officers Association of America, on Behalf of The 
                        Military Coalition (TMC)

                                OVERVIEW

    Mr. Chairman, The Military Coalition (TMC) thanks you and the 
entire subcommittee for your continued, unwavering support for funding 
the needs of active duty, Guard, Reserve and retired members of the 
uniformed services, and their families and survivors. The 
subcommittee's work to greatly improve military pay, eliminate out of 
pocket housing expenses, improve health care, and enhance other 
personnel programs has made a significant difference in the lives of 
active, Guard and Reserve personnel and their families. This is 
especially true for our deployed servicemembers and their families and 
survivors who are engaged throughout this world in the global war on 
terror.
    Despite these improvements in military compensation, we are deeply 
troubled by how much harder troops have to work--and how much more 
their families have to sacrifice--for that compensation.
    Today's reality is simple--servicemembers and their families are 
being asked to endure ever-greater workloads and ever-greater 
sacrifices. Repeated deployments, often near back-to-back, have 
stressed the force to the point where recruiting and retention are real 
concerns for some Services; and, if it weren't for the Services' stop-
loss policies and massive recalls of Guard and Reserve members, 
readiness would suffer. The hard fact is that we don't have large 
enough forces to carry out today's missions and still be prepared for 
any new contingencies that may arise elsewhere in the world. In 
addition, the Coalition is concerned that the Navy and Air Force are in 
the midst of ``transformation'' initiatives that include reducing their 
respective end strengths despite continuing demanding operational 
commitments.
    In testimony today, The Military Coalition offers its collective 
recommendations on what needs to be done to address these important 
issues and sustain long-term personnel readiness.

                            BUDGET OVERVIEW

    The Military Coalition is concerned that some in the Executive 
Branch are now bemoaning Congress' efforts in recent years to reverse 
military pay shortfalls and correct compensation and benefit inequities 
affecting retired military members, military survivors and Guard and 
Reserve members, contending that the cost of those initiatives impinges 
on current defense budget needs, including the ability to support 
compensation initiatives for the current force.
    The Coalition objects strongly to any such efforts to pit one 
segment of the military community against another. Our experience has 
been that this subcommittee has rarely turned down Defense Department 
requests for current force funding needs. If anything, Congress has had 
greater sensitivity than the Executive Branch--regardless of the 
political party of the administration--to the importance of career 
military benefits to long-term retention and readiness.
    Those who complain today about the cost of restoring military pay 
comparability, repealing REDUX retirement penalties, and enacting 
TRICARE For Life apparently do not recall that the Joint Chiefs of 
Staff at the time all told Congress that fixes were needed in these 
areas in order to address the significant retention problems 
experienced in the late 1990's.
    Congress has been wise enough to see what Executive Branch 
officials of both parties have not in recent years--that it is not 
enough to just meet the short term desires of the 19 year old new 
enlistee with more cash in hand. Those members get older and have 
families, and their families grow much more concerned at the second and 
third reenlistment points, often after multiple family separations, 
whether the long-term benefits of a military career offset the 
extraordinary and persistent demands and sacrifices inherent in serving 
20 to 30 years in uniform.
    The Military Coalition believes this subcommittee will see past 
penny-wise and pound-foolish efforts to rob one element of the military 
community to pay another, and will continue to recognize the hard-
learned lessons of the past--that successfully sustaining readiness and 
retention over the long term requires fair treatment for military 
members and families at every stage: active duty, Guard and Reserve, 
retired, and survivors.

                          ACTIVE FORCE ISSUES

    Since the end of the Cold War, the size of the force and real 
defense spending has been cut by more than a third. In fact, the 
defense budget today is 3.8 percent of this Nation's Gross Domestic 
Product--less than half of the share it comprised in 1986. But today 
America's armed forces are engaged in a global war on terror--a 
campaign that has made constant and repeated deployments a way of life 
for today's servicemembers. There is no question that the stress of 
today's sustained operations is taking a significant toll on our men 
and women in uniform, and their families and survivors, and this is 
being reflected in failure of the Army Guard and Reserve to meet its 
recent recruiting goals. In addition, there are indications of growing 
challenges in recruiting members of the other Services.
    Congress has taken action to help relieve the stress of repeated 
deployments by increasing Army and Marine Corps end strength and by 
making family separation and danger area pays permanent. These are 
notable and commendable improvements; however, sustaining a quality 
force for the long-term remains a significant challenge, especially in 
technical specialties. While some Services are meeting retention goals, 
these goals may be skewed by post-9/11 patriotism and by Services' 
intermittent stop-loss policies. This artificial retention bubble is 
not sustainable for the long-term under the current pace of operations, 
despite the reluctance of some to see anything other than rosy 
scenarios.
    From the servicemembers' standpoint, the increased personnel tempo 
necessary to meet continued and sustained training and operational 
requirements has meant having to work progressively longer and harder 
every year. ``Time away from home'' is now a real focal point in the 
retention equation. Servicemembers are enduring longer duty days; 
increased family separations; difficulties in accessing affordable, 
quality health care; deteriorating military housing; less opportunity 
to use education benefits; and significant out-of-pocket expenses with 
each permanent change of station move.
    Intensified and sustained operations in Iraq and Afghanistan are 
being met by servicemembers' patriotic dedication, but there is little 
question that once Service stop-loss policies are lifted, the retention 
of combat-experienced servicemembers is going to be problematic.
    Experienced (and predominantly married) officers, NCOs and petty 
officers are under pressure to make long-term career decisions against 
a backdrop of a demand for their skills and services in the private 
sector. Many servicemembers and their families debate among themselves 
whether the rewards of a service career are sufficient to offset the 
attendant demands and sacrifices inherent in uniformed service. Faced 
with repeated deployments to a combat zone, the appeal of a more stable 
career and family life, often including an enhanced compensation 
package and less demanding working conditions, is attractive. When 
allowed the option, many of our excellent soldiers, sailors, airmen and 
Marines will opt for civilian career choices, not because they don't 
love what they do, but because their families just can no longer take 
the stress.
    On the recruiting front, one only needs to watch prime-time 
television to see powerful marketing efforts on the part of the 
Services. But this strong marketing must be backed up by an ability to 
retain these experienced and talented men and women. This is especially 
true as the Services become more and more reliant on technically 
trained personnel. Congress reacted to retention problems by improving 
military compensation elements. But we also understand the pressures to 
reduce spending and the challenges associated with proposed defense 
budget increases. The truth remains that the finest weapon systems in 
the world are of little use if the Services don't have enough high 
quality, well-trained people to operate, maintain and support them.
    The subcommittee's key challenge will be to ease servicemembers' 
debilitating workload stress and continue to build on the foundation of 
trust that you have established over the past 4 years--a trust that is 
being strained by years of disproportional sacrifice. Meeting this 
challenge will require a reasonable commitment of resources on several 
fronts.
    Personnel Strengths and Operations Tempo.--The Coalition has noted 
with disappointment the Department of Defense's resistance to accept 
Congress's repeated offers to permanently increase Service end strength 
to relieve the stress on today's armed forces, which are clearly 
sustaining a wearing operations tempo fighting today's global war on 
terror. While we are encouraged by the subcommittee's support for 
increased Army and Marine Corps end strength, we are deeply concerned 
that administration-proposed plans for temporary manpower increases 
rely too heavily on continuation of stop-loss policies, unrealistic 
retention assumptions, overuse of the Guard and Reserves, optimistic 
scenarios in Southwest Asia, and the absence of new contingency needs.
    While the Department's transformation vision is an understandable 
and necessary plan, its implementation will take a long time--time that 
is taking its toll after years of extraordinary operational tempo that 
is exhausting our downsized forces.
    The Joint Chiefs testified that their forces were stressed before 
9/11, and end strength should have been increased then. Now, almost 4 
years later, heavily engaged in two major operations with no end in 
sight, massive Guard and Reserve mobilizations, and implementation of 
``stop-loss'' policies, action to provide substantial relief is late 
and short of the need. Especially noteworthy is a recent memorandum 
detailing serious Army Reserve readiness concerns referencing the 
Reserves as ``rapidly degenerating into a broken force.''
    Administration and military leaders warn of a long-term mission 
against terrorism that requires sustained, large deployments to Central 
Asia and elsewhere. The Services simply do not have sufficient numbers 
to sustain the global war on terrorism, deployments, training exercises 
and other commitments, even with the recall of large numbers of Guard 
and Reserve personnel. Service leaders have tried to alleviate the 
situation by reorganizing deployable units, authorizing ``family down 
time'' following redeployment, or other laudable initiatives, but such 
things do little to eliminate long-term workload or training backlogs, 
and pale in the face of ever-increasing mission requirements. For too 
many years, there has always been another major contingency coming, on 
top of all the existing ones. If the administration does not recognize 
when extra missions exceed the capacity to perform them, Congress must 
assume that obligation.
    Some argue that increasing end strengths wouldn't help the 
situation, questioning whether the Services will be able to meet higher 
recruiting goals. The Coalition believes strongly that this difficult 
problem can and must be addressed as an urgent national priority, with 
increases in recruiting budgets as necessary.
    Others point to high reenlistment rates in deployed units in 
certain Services as evidence that high operations tempo actually 
improves morale. But much of the reenlistment rate anomaly is 
attributable to tax incentives that encourage members to accelerate or 
defer reenlistment to ensure this occurs in a combat zone, so that any 
reenlistment bonus will be tax-free. Retention statistics are also 
skewed by stop-loss policies. Experience has shown time and again that 
family separation is the single greatest retention disincentive. The 
Military Coalition believes that those who ignore this and argue there 
is no retention problem are ``whistling past the graveyard.''
    The Military Coalition strongly recommends additional funding for 
permanent end strength increases to sustain the long-term global war on 
terrorism and fulfill national military strategy. The Coalition 
supports increases in recruiting resources as necessary to meet this 
requirement and ease operational stresses on active, Guard and Reserve 
personnel.
    Accession and Retention Bonuses.--In the interim, maintaining and 
increasing accession and retention bonuses is crucial to meet manning 
requirements. The Services have requested increased bonus authority and 
special pay authority, as well as more flexible authorities, to meet 
specific manning, retention and assignment needs. The Coalition 
strongly supports these efforts and hopes the Subcommittee will provide 
the full funding needed to sustain these critical programs.
    The Military Coalition strongly recommends additional funding to 
increase accession and retention bonuses.
    Combat and Incentive Pays During Hospitalization.--The Coalition is 
concerned that current eligibility rules for combat zone compensation 
programs are insensitive to the circumstances of wounded members during 
hospitalization and rehabilitation.
    Members assigned to combat zones, as well as those performing 
hazardous duty elsewhere, are eligible for additional compensation 
because the country recognizes the increased risk to life and limb 
entailed in such duty. Yet the members who are injured or wounded lose 
eligibility for hazardous duty/combat incentive programs during their 
hospitalization and recovery from their injuries. In many cases, this 
recovery can take months, and their families may be subject to 
additional expenses because of their incapacity.
    If we acknowledge that members deserve these extra pays for 
incurring the risk inherent in a combat zone, we should also 
acknowledge an obligation to continue such pays for those who actually 
incur combat injuries until they can be returned to duty, retired, or 
separated.
    The Military Coalition strongly urges the subcommittee to take 
action to ensure servicemembers injured or wounded as a result of 
hazardous duty/combat do not have their compensation reduced during 
periods of hospitalization. The Coalition believes funding support is 
essential to sustain compensation for servicemembers who continue to 
suffer from the wounds and injuries these incentive programs were 
created to recognize.
    Commissaries.--The Coalition is committed to preserving the value 
of the commissary benefit--which is widely recognized as the 
cornerstone of quality of life benefits and a valued part of 
servicemembers' total compensation package.
    In the fiscal year 2005 Defense Authorization Act, Congress enacted 
stronger statutory protections for the commissary and exchange systems.
    The Coalition supports cost savings through effective oversight and 
management. However, we are concerned about the unrelenting pressure on 
the Defense Commissary Agency to cut spending and squeeze additional 
efficiencies from its operations--despite years of effective reform 
initiatives and recognition of the agency for instituting improved 
business practices.
    The commissary is a highly valued quality of life benefit whose 
savings and retention value for military members far exceeds the 
appropriated amount.
    The Military Coalition opposes initiatives that would reduce 
Commissary benefits or savings for members, and strongly supports full 
funding of the benefit in fiscal year 2006 and beyond to sustain the 
current level of service for all patrons, including retirees, Guard and 
Reserve personnel, and their families.
    Family Readiness and Support.--Today, two-thirds of active duty 
families and virtually all Guard and Reserve families live off military 
installations, and approximately 60 percent of these servicemembers are 
married. A fully funded family readiness program to include financial 
education and benefit information has never been a more crucial 
component to the military mission and overall readiness than it is 
today.
    More needs to be done to ``connect'' servicemembers and their 
families with important resources. A more aggressive outreach effort is 
needed to educate servicemembers and their families on the benefits and 
programs to which they are entitled. A systematic and integrated family 
support system will help families cope with the stresses of deployment 
and the demands of military life. Addressing such issues as childcare, 
spousal employment/education, flexible spending accounts, increases in 
SGLI, and other quality of life concerns will go a long way in 
enhancing family well-being and improving retention and morale of the 
force.
    The Military Coalition urges additional funding for improved family 
readiness through further education and outreach programs and increased 
childcare availability for servicemembers and their families and 
associated support structure to assist families left behind during 
deployments of active duty, Guard and Reserve members.
    Death Benefits Enhancement.--Military insurance and death gratuity 
fall short of what is needed when measured by private sector standards 
for employees in hazardous occupations.
    The fiscal year 2005 Emergency Supplemental Appropriations Act will 
increase the death gratuity and upgrade military life insurance 
programs. Continued funding for these significant upgrades is essential 
for fiscal year 2006 and the out years.
    The Military Coalition urges the subcommittee to fully fund 
military death benefits improvements.

                   NATIONAL GUARD AND RESERVE ISSUES

    More than 473,000 members of the National Guard and Reserve have 
been mobilized since September 11, 2001, and many thousands more are in 
the activation pipeline. Today, they face the same challenges as their 
active counterparts, with a deployment pace greater than any time since 
World War II.
    Guard/Reserve operational tempo has placed enormous strains on 
reservists, their family members and their civilian employers alike. 
Homeland defense and war-on-terror operations continue to place demands 
on citizen soldiers that were never anticipated under the ``Total 
Force'' policy. The Coalition understands and fully supports that 
policy and the prominent role of the Guard and Reserve forces in the 
national security equation.
    However, many Guard and Reserve members are facing increased 
financial burdens under the current policy of multiple extended 
activations over the course of a reserve career. Some senior reserve 
leaders are rightly alarmed over likely manpower losses if action is 
not taken to relieve pressures on Guard and Reserve troops. The 
Coalition believes that addressing critical Guard and Reserve pay, 
bonuses, benefits and entitlements issues--along with active duty 
manpower increases--are needed to alleviate those pressures and help 
retain these qualified, trained professionals.
    Healthcare for Members of the National Guard and Reserve.--The 
Military Coalition is very grateful that Congress established the 
``TRICARE Reserve Select'' health benefit in the fiscal year 2005 
National Defense Authorization Act. This new authority--along with 
permanent pre- and post- activation TRICARE coverage--will help address 
the needs of Guard and Reserve families in the call-up pipeline. We 
anticipate that further improvements in this program are likely to be 
forthcoming in the fiscal year 2006 Defense Authorization Act.
    More specifically, with the increasing rate of utilization for all 
areas of our Reserve Components increasing, we feel that Congress must 
act to provide increased health care benefits for all our country's 
Guardsmen, Reservists, and their families, to guarantee the Nation can 
continue to call on them.
    It is our strong recommendation that we must provide and fund a 
permanent TRICARE program on a cost-share basis for our members of the 
Guard and Reserve components who are being mobilized and deployed at 
increasing rates.
    Seventy percent of Guard and Reserve members have employer-
sponsored health insurance. The Coalition believes this is not a ``one 
size fits all'' population. Usage of the TRICARE benefit when the 
servicemember is activated may not be the best way to ensure continuity 
of care for some families. As an option for these servicemembers, the 
Coalition urges Congress to take action to have the government pay part 
or all of private health insurance premiums when activation occurs, a 
program already in effect for reservists who work for the Department of 
Defense.
    The Military Coalition recommends funding to allow permanent 
authorization of cost-share access to TRICARE for all members of the 
Selected Reserve and IRR members subject to activation under 
Presidential call-up authority, to support readiness, family morale, 
and deployment health preparedness.
    Eliminate BAH II.--BAH II is paid to Guard and Reserve members in 
lieu of regular BAH (Basic Allowance for Housing) who are on orders of 
less than 140 days. BAH II is an antiquated standard that no longer 
bears any relation to real housing expenses and is, on average, far 
less than the BAH rate for any given locality. There is an exception to 
this rule that applies, by public law, for those called up for a 
contingency operation. The Coalition believes strongly that any member 
activated for 30 days or more should be eligible for locality-based 
BAH.
    The Military Coalition urges appropriation of funding to permit 
payment of locality-based BAH to all Guard and Reserve members 
mobilized for 30 days or more.
    Family Support Programs.--Providing a core set of family programs 
and benefits that meet the unique needs of these families would go a 
long way in improving morale and meeting family readiness challenges.
    These programs would promote better communication with 
servicemembers, specialized support for geographically separated Guard 
and Reserve families, and training (and back-up) for family readiness 
volunteers. Such access would include:
  --Expansion of web-based programs and employee and family assistance 
        programs like Military One Source and Guard Family.org;
  --Enforcement of command responsibility for ensuring that programs 
        are in place to meet the special information and support needs 
        of Guard/Reserve families;
  --Expanded programs between military and community religious leaders 
        to support service members and families during all phases of 
        deployments;
  --The availability of robust preventative counseling services for 
        service members and families and training so they know when to 
        seek professional help related to their circumstances;
  --Enhanced education for Reserve component family members about their 
        rights and benefits;
  --Innovative and effective ways to meet Reserve component community 
        needs for occasional child care, particularly for preventative 
        respite care, volunteering, family readiness group meetings and 
        drill time; and,
  --A joint family readiness program to facilitate understanding and 
        sharing of information between all family members, no matter 
        what the service.
    We applaud the support shown to families by DOD and military and 
civilian community organizations. But with the continued and sustained 
activation of the Reserve Component, a stronger support structure needs 
to be implemented, funded, and sustained.
    The Military Coalition urges Congress to increase funding for 
military family support programs to meet the unique needs of the 
families of mobilized Guard and Reserve component members.

                              HEALTH CARE

    The Military Coalition (TMC) is most appreciative of the 
subcommittee's efforts to honor the government's health care 
commitments to all uniformed services beneficiaries. While much has 
been accomplished, we are equally concerned about making sure that 
subcommittee-directed changes are implemented and the desired positive 
effects actually achieved.

               FULL FUNDING FOR THE DEFENSE HEALTH BUDGET

    Once again, a top Coalition priority is to work with Congress and 
DOD to ensure full funding of the Defense Health Budget to meet 
readiness needs--including graduate medical education and continuing 
education, full funding of both direct care and purchased care sectors, 
providing access to the military health care system for all uniformed 
services beneficiaries, regardless of age, status or location. An 
underfunded Defense Health Program inevitably compromises the 
capability to deliver desired levels of quality care and undermines the 
health care benefits military beneficiaries have earned. A fully funded 
health care benefit is critical to readiness and the retention of 
qualified uniformed service personnel.
    The subcommittee's continued oversight of the defense health budget 
is essential to avoid a return to the chronic under funding of recent 
years that led to execution shortfalls, shortchanging of the direct 
care system, inadequate equipment capitalization, failure to invest in 
infrastructure, curtailed drug formularies, and reliance on annual 
emergency supplemental funding requests as a substitute for candid and 
conscientious budget planning. We are grateful that once again late 
last year, Congress provided $683 million supplemental appropriations 
to meet the last quarter's obligations--but not all of the growing 
requirements in support of the deployment of forces to Southwest Asia 
and Afghanistan in the global war against terrorism.
    The Coalition is hopeful that fiscal year 2006 funding levels will 
not fall short of current obligations. We fear that additional 
supplemental funding will once again be required. Last year, citing 
budgetary restraints, the Air Force made a unilateral decision to 
remove certain drugs from military treatment facility (MTF) 
formularies. We appreciate that these are extremely challenging budget 
times for MTF commanders; however, we are greatly concerned that this 
budget-driven action undermined the deliberative process by which the 
Uniform Formulary must be developed.
    In addition, this policy forced increased use of mail-order and 
retail pharmacy programs, and thus increased costs to both DOD and 
beneficiaries; inappropriately made budget considerations the primary 
driver of formulary limits; and imposed regrettable inter-service 
disparities in pharmacy benefits.
    Health care requirements for members returning from the GWOT are 
also expected to continue to strain the military delivery system in 
ways that may not have been anticipated in the budgeting process. 
Similarly, implementation of the TRICARE Standard requirements in the 
fiscal year 2004 Authorization Act--particularly those requiring 
actions to attract more TRICARE providers--will almost certainly 
require additional resources that we do not believe are being budgeted 
for. Financial support for these increased readiness requirements; 
TRICARE provider shortfalls and other needs will most likely require 
additional funding.
    At the January 2005 TRICARE Conference, Assistant Secretary 
Winkenwerder said that funding for fiscal years 2006 and 2007 was 
adequate. However, he went on to state, ``looking to the longer term, 
I'm candidly concerned.'' At the same conference Air Force Chief of 
Staff Gen. John Jumper said that the health system faces an $11 billion 
shortfall over the next few years.
    The Military Coalition strongly recommends the subcommittee ensure 
full funding of the Defense Health Program, including military medical 
readiness, needed TRICARE Standard improvements, and the DOD peacetime 
health care mission. It is critical that the Defense Health Budget be 
sufficient to secure increased numbers of providers needed to ensure 
access for TRICARE beneficiaries in all parts of the country.

                             TRICARE ISSUES

    Provider Reimbursement.--The Coalition appreciates Congress's 
efforts to address provider reimbursement needs in the fiscal year 2004 
NDAA (Public Law 108-136). We recognize that part of the problem is 
endemic to the flawed Medicare reimbursement system, to which TRICARE 
rates are directly tied.
    The Coalition is troubled to note that a flaw in the provider 
reimbursement formula led the Centers for Medicare and Medicaid (CMS) 
to propose cutting Medicare fees in recent years, which were only 
forestalled by last-minute legislative relief. While the Coalition is 
grateful for Congress's temporary fixes, the reimbursement formula 
remains broken.
    Once again, the Coalition wishes to bring to the subcommittee's 
attention that the 2004 report of the Medicare Trustees predicts 5 
percent annual cuts in Medicare reimbursements to providers for 2006 
through 2012. However, MedPAC has recommended raising Medicare's 
physician payment rate by 2.7 percent in 2006, stating that a ``small 
but consistent share'' of beneficiaries have experienced some 
difficulty in accessing providers.
    Cuts in Medicare (and thus TRICARE) provider payments, on top of 
providers' increasing overhead costs and rapidly rising medical 
liability expenses, seriously jeopardizes providers' willingness to 
participate in both these programs. Provider resistance is much more 
pronounced for TRICARE than Medicare for a variety of social, workload, 
and administrative reasons. Provider groups tell us that TRICARE is 
seen as the lowest-paying program they deal with, and often causes them 
the most administrative problems. This is a terrible combination of 
perceptions if you are a TRICARE Standard patient trying to find a 
doctor.
    For patients in Prime the situation is growing increasingly 
problematic as deployments of large numbers of military health 
professionals continue to diminish the capacity of the military's 
direct health care system. In this situation, more and more TRICARE 
patients have to turn to the purchased care sector--thus putting more 
demands on civilian providers who are reluctant to take an even larger 
number of beneficiaries with relatively low-paying TRICARE coverage.
    The Coalition firmly believes this is a readiness issue. Our 
deployed service men and women need to focus on their mission, without 
having to worry whether their family members back home can find a 
provider. Uniformed services beneficiaries deserve the Nation's best 
health care, not the cheapest.
    Congress did the right thing by reversing the proposed provider 
payment cuts previously planned for March 1, 2003 and January 1, 2004, 
and instead providing 1.6 percent and 1.5 percent payment increases 
respectively. Unless Congress or the administration acts soon, 
effective next year, providers will have to absorb a 5 percent cut for 
TRICARE patients as well as Medicare patients. More importantly, the 
underlying formula needs to be fixed to eliminate the need for 
perennial ``band-aid'' corrections.
    The Military Coalition requests the subcommittee's support of any 
means to stabilize, maintain and fund Medicare and TRICARE provider 
payment rates to ensure beneficiary access.

                               CONCLUSION

    The Military Coalition reiterates its profound gratitude for the 
extraordinary progress this subcommittee has made in advancing a wide 
range of personnel and health care initiatives for all uniformed 
services personnel and their families and survivors. The Coalition is 
eager to work with the subcommittee in pursuit of the goals outlined in 
our testimony. Thank you very much for the opportunity to present the 
Coalition's views on these critically important topics.
                                 ______
                                 
          Prepared Statement of the Naval Reserve Association

    Chairman Stevens, Senator Inouye and distinguished members of the 
subcommittee, on behalf of our 22,000 members, and in advocacy for the 
80,000 active Naval Reservists and the mirrored interest of Guard and 
Reserve personnel, we are grateful for the opportunity to submit 
testimony, and for your efforts in this hearing.
    We very much appreciate the efforts of this subcommittee, the full 
committee on Appropriations and like committees in the House of 
Representatives to support our deployed personnel and their families. 
Your willingness to address and correct issues facing Guardsmen and 
Reservists affirms their value to the defense of our great Nation. Your 
recognition of these men and women as equal partners in time of war 
stands you well in the eyes of many. Our young Naval Reservists 
indicate to us that they are watching and waiting to see our actions to 
address their concerns. Your willingness to look at issues related to 
the use of the Guard and Reserve on the basis of fairness sets the 
Legislative Branch well above the Executive Branch which seemingly 
develops its positions on the basis of cost.
    That said, there are issues that need to be addressed by this 
committee and this Congress.
    Recruiting and retention issues are moving to center stage for all 
services and their reserve components. In all likelihood the Navy will 
not meet its target for 13,000 new Naval Reservists and the Naval 
Reserve will be challenged to appreciably slow the departure of 17,000 
experienced personnel this fiscal year. Other services and their 
Reserve Components likely face these same challenges.
    We believe that Congress and this committee should give the 
services the tools targeted to mid-career personnel in the Guard and 
Reserve: (1) appropriate critical skills bonuses for Guardsmen and 
Reservists (G&R) that would provide $100,000 over an entire career (no 
authorization exists for G&R personnel while one with a $200,000 limit 
exists for active duty personnel); (2) increase affiliation bonuses to 
$15,000 to attract veterans; (3) restore the Reserve MGIB to 50 percent 
of the active duty entitlement (presently at 28 percent) and make it 
available throughout a career; (4) Provide the resources to maintain 
Navy Reserve end strength at 66,000 Selected Reservists and 13,500 for 
FTS personnel; and (5) Provide supportive language that provides for an 
earlier than age 60 retirement.
    We've heard that Reserve Chiefs are in agreement, expressing 
concern that senior personnel will leave in droves. Hopefully this is 
more than conscript thinking. A compromise solution to this earlier 
than age 60 retirement issue is something modeled after Social 
Security--if you take reserve retirement as early as age 55 you do so 
with a greatly reduced annuity for life. This NRA-conceived proposal 
would significantly reduce the estimated costs to the government over 
other plans being proposed. The money has been accrued; the costs then 
would be those associated with administering monthly payments earlier 
than expected and any lost interest on the accrued amount. The greatly 
reduced annuity for life may very well serve as a disincentive to early 
retirement for the senior leaders who truly have upwardly mobile 
careers.
    We ask you to fund Navy Reserve equipment in the NGREA accounts, 
including an additional C-40 aircraft that is critical for supporting 
Reserve forces in today's Global War on Terrorism. The Navy Reserve is 
downsizing. Naval Reserve units are engaged in this Global War, and 
these units, the people, and their families are responding to Combatant 
Commanders calls. We must maintain the proper equipment for these Navy 
Reserve units and Navy Reserve Sailors. The AC will not do it, yet will 
call on them to respond. Only through the NGREA will your citizen-
Sailors be able to respond to the needs of the Nation and Combatant 
Commanders.
    These recommendations are relevant to the needs of the services 
today, and to the future readiness of the Nation. The last two issues 
(end-strength cap) and (early retirement) are on the minds of many 
Guardsmen and Reservists. We urge you to address these issues as our 
young Sailors are very concerned about these issues, and what it means 
to their long term service.
    In summary, we believe the committee needs to address the following 
issues for our Guardsman and Reservists in the best interest of our 
National Security:
  --Increase funding for Naval Reserve equipment in NGREA
  --Address and authorize recruitment and retention issues:
    --Authorize critical skills bonuses for Guardsmen and Reservists--
            $100,000 over an entire career
    --Increase affiliation bonuses to $15,000 to attract veterans
    --Restore Reserve MGIB to 50 percent of the active duty entitlement
  --Establish 79,500 SelRes (66,000) and FTS (13,500) as a floor for 
        end strength to Navy Reserve manpower--providing for surge-
        ability and operational support
  --Substantiate that Navy Reserve equipment remain a part of the Chief 
        of Naval Reserve inventory
  --Reduce annuity for reserve retirement before age 60 is a retention 
        issue, and must be addressed by this Congress.
    For Navy Reserve NGREA accounts we recommend the following: (1) C-
40 Procurement--procure 1 additional C-40 for fiscal year 2006; (2) 
Equipment for Naval Coastal Warfare/Small Arms--Emerging GWOT 
requirement EOD/NCW equipment for Naval Coastal Warfare units; (3) 
Reserve Requirements--for activation--Funds associated for Reservist 
mobilize for GWOT.
    The above are a part of the Navy's unfunded list; however, there 
are other items that must be addressed in the NGREA account. Guard and 
Reserve Components still need the funding Congress provides through 
this means.
    We thank the committee for consideration of these tools to assist 
the Guard and Reserve in an age of increased sacrifice and utilization 
of these forces.

                                 ______
                                 
       Prepared Statement of Neurofibromatosis, Inc.--New England

    Thank you, Mr. Chairman, for the opportunity to present testimony 
to the subcommittee on the importance of continued funding for 
Neurofibromatosis (NF), a terrible genetic disorder directly associated 
with military purposes and closely linked too many common diseases 
widespread among the American population.
    I am Naomi Stonberg, representing Neurofibromatosis, Inc., New 
England which is a participant in a national coalition of NF advocacy 
groups. I am actively involved in creating awareness of NF and 
promoting scientific research in this area. I am here on behalf of the 
100,000 Americans who suffer from NF, including my daughter and nephew, 
as well as approximately 175 million Americans who suffer from diseases 
linked to NF, including some of the most common forms of cancer, brain 
tumors, congenital heart disease, hypertension, memory loss and 
learning disabilities.
    Mr. Chairman, I am requesting increased support, in the amount of 
$25 million, to continue the Army's highly successful NF Research 
Program (NFRP), which is now at the critical point of establishing a 
nation-wide clinical trials consortia. The program's great success can 
be seen in the commencement of clinical trials only 10 years since the 
discovery of the NF1 gene. Now, with NF in the expensive but critical 
era of clinical and translational research, scientists closely involved 
with the Army program have stated that the number of high-quality 
scientific applications justify a much larger program.

                    WHAT IS NEUROFIBROMATOSIS (NF)?

    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and/or death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. NF is the most common neurological disorder caused by a 
single gene. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live with the uncertainty 
of not knowing whether they will be seriously affected one day because 
NF is a highly variable and progressive disease.
    Approximately 100,000 Americans have NF. It appears in 
approximately one in every 3,500 births and strikes worldwide, without 
regard to gender, race or ethnicity. It is estimated that 50 percent of 
new cases result from a spontaneous mutation in an individual's genes 
and 50 percent are inherited. There are two types of NF: NF1, which is 
more common, and NF2, which primarily involves acoustic neuromas and 
other tumors, causing deafness and balance problems. Advances in NF 
research will benefit over 175 million Americans in this generation 
alone because NF is directly linked to many of the most common diseases 
affecting the general population, as indicated above.

                    NF'S CONNECTION TO THE MILITARY

    NF research is directly linked to military purposes because NF is 
closely linked to cancer, brain tumors, memory loss, learning 
disabilities, heart disease, brain tissue degeneration, nervous system 
degeneration, healing after wounding, deafness, and balance. Because NF 
manifests itself in the nervous system, this subcommittee, in past 
Report language, has stated that Army-supported research on NF includes 
important investigations into genetic mechanisms governing peripheral 
nerve regeneration after injury from such things as missile wounds and 
chemical toxins. For the same reason, this subcommittee also stated 
that NF may be relevant to understanding Gulf War Syndrome and to 
gaining a better understanding of wound healing. Today, NF research now 
includes important investigations into genetic mechanisms which involve 
not just the nervous system but also other cancers.

                        LINK TO OTHER ILLNESSES

    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, memory loss, brain tumors, and 
other disorders including deafness, blindness and orthopedic disorders, 
primarily because NF regulates important pathways common to these other 
disorders such as the RAS, cAMP and PAK pathways. Research on NF 
therefore stands to benefit millions of Americans.
    Cancer.--Research has demonstrated that NF's tumor suppressor 
protein, neurofibromin, inhibits RAS, one of the major malignancy 
causing growth proteins involved in 30 percent of all cancer. 
Accordingly, advances in NF research may well lead to treatments and 
cures not only for NF patients but for all those who suffer from cancer 
and tumor-related disorders. Similar studies have also linked epidermal 
growth factor receptor (EGF-R) to malignant peripheral nerve sheath 
tumors (MPNSTs), a form of cancer which disproportionately strikes NF 
patients.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects approximately 50 million Americans. Researchers believe 
that further understanding of how an NF1 deficiency leads to heart 
disease may help to unravel molecular pathways affected in genetic and 
environmental causes of heart disease.
    Memory Loss and Learning Disabilities.--Because NF regulates and 
controls pathways vital to cognition, the RAS and the cyclic AMP 
pathways, researchers have determined that NF is directly linked to 
memory loss and learning disabilities affecting over 25 million and 35 
million Americans respectively. Indeed, 5 percent of the world's 
population suffers from learning disabilities alone. NF researchers 
have successfully rescued learning deficits, including memory loss and 
learning disabilities, in pre-clinical animal models, which will 
benefit all people suffering from these conditions, not just those with 
NF. In addition, by curing learning disabilities, Federal, State, and 
local governments and school districts will save billions of dollars in 
special education costs.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.

                 THE ARMY'S CONTRIBUTION TO NF RESEARCH

    Recognizing NF's importance to both the military and to the general 
population, Congress has given the Army's NF Research Program strong 
bipartisan support. After the initial 3-year grants were successfully 
completed, Congress appropriated continued funding for the Army NF 
Research Program on an annual basis. From fiscal year 1996 through 
fiscal year 2005, this funding has amounted to $155.3 million, in 
addition to the original $8 million appropriation in fiscal year 1992. 
Between fiscal year 1996 and fiscal year 2004, 138 awards have been 
granted to researchers across the country. The Army program funds 
innovative, groundbreaking research which would not otherwise have been 
pursued, and has produced major advances in NF research, such as the 
development of advanced animal models, preclinical therapeutic 
experimentation and clinical trials. The program has brought new 
researchers into the field of NF, as can be seen by the nearly 60 
percent increase in applications in the past year alone. Unfortunately, 
despite this increase, the number of awards has remained relatively 
constant over the past couple of years resulting in many highly 
qualified applications going unfunded. Army officials administering 
this program have indicated in the past that they could easily fund 30 
percent more applications if funding were available because of the high 
quality of the research applications received.
    In order to ensure maximum efficiency, the Army collaborates 
closely with other Federal agencies that are involved in NF research, 
such as NIH and the VA. Senior program staff from the National Cancer 
Institute (NCI) and the National Institute of Neurological Disorders 
and Stroke (NINDS), for example, has sat on the Army's NF Research 
Program's Integration Panel which sets the long-term vision and funding 
strategies for the program. This assures the highest scientific 
standard for research funding, efficiency and coordination while 
avoiding duplication or overlapping of research efforts.
    Because of the enormous advances that have been made as a result of 
the Army's NF Research Program, research in NF has truly become one of 
the great success stories in the current revolution in molecular 
genetics, leading one major researcher to conclude that more is known 
about NF genetically than any other disease. Accordingly, many medical 
researchers believe that NF should serve as a model to study all 
diseases. Indeed, in just over a dozen years since the discovery of the 
NF1 gene, researchers have successfully cured both NF's cognitive and 
tumor disorders in mice, have successfully removed NF tumors in at 
least one clinical trial involving human patients and are now on the 
threshold of developing a treatment and cure for this terrible disease.
    In just the past few years, scientists have made major 
breakthroughs bringing NF fully into the translational era, with 
treatments close at hand. These recent advances have included:
  --Phase II and Phase III clinical trials involving new drug 
        therapies;
  --Creation of a National Clinical Trials Consortia and NF Centers;
  --Successfully eliminating tumors in NF1 and NF2 mice with the same 
        drug;
  --Developing advanced mouse models showing human symptoms;
  --Rescuing learning deficits and eliminating tumors in mice with the 
        same drug;
  --Linking NF to vascular disorders such as congenital heart disease 
        and hypertension, affecting more than 50 million Americans; and
  --Conducting natural history studies to analyze the progression of 
        the disease.

                           FUTURE DIRECTIONS

    NF research has now advanced to the translational and clinical 
stages which hold incredible promise for NF patients, as well as for 
patients who suffer from many of the diseases linked to NF. This 
research is costly and will require an increased commitment on the 
Federal level. Specifically, future investment in the following areas 
would continue to advance research on NF:
  --Clinical trials;
  --Funding of a clinical trials network to connect patients with 
        experimental therapies;
  --Development of NF Centers, tissue banks, and patient registries;
  --Development of new drug and genetic therapies;
  --Further development of advanced animal models;
  --Expansion of biochemical research on the functions of the NF gene 
        and discovery of new targets for drug therapy; and
  --Natural history studies and identification of modifier genes--
        studies are already underway to provide a baseline for testing 
        potential therapies and differentiate among different 
        phenotypes of NF.

                        FISCAL YEAR 2006 REQUEST

    Mr. Chairman, the Army's highly successful NF Research Program has 
shown tangible results and direct military application with broad 
implications for the general population. The program has now advanced 
to the translational and clinical research stages, which are the most 
promising, yet the most expensive direction that NF research has taken. 
The program has succeeded in its mission to bring new researchers and 
new approaches to research into the field. Therefore, increased funding 
is now needed to take advantage of promising avenues of investigation, 
to continue to build on the successes of this program, and to fund this 
promising research thereby continuing the enormous return on the 
taxpayers' investment.
    I respectfully request an appropriation of $25 million in your 
fiscal year 2006 Department of Defense Appropriations bill for the Army 
Neurofibromatosis Research Program. This is level funding from the 
fiscal year 2005 level of $25 million.
    Mr. Chairman, in addition to providing a clear military benefit, 
the DOD's Neurofibromatosis Research Program also provides hope for the 
100,000 Americans who suffer from NF, as well as the tens of millions 
of Americans who suffer from NF's related diseases such as cancer, 
learning disabilities, memory loss, heart disease, and brain tumors. 
Leading researchers now believe that we are on the threshold of a 
treatment and a cure for this terrible disease. With this 
subcommittee's continued support, we will prevail.
    Thank you for your support of this program and I appreciate the 
opportunity to present this testimony to the subcommittee.

                         CONCLUSION OF HEARINGS

    Senator Stevens. This subcommittee will reconvene again 
tomorrow morning at 10 a.m. for a closed session to review the 
fiscal year 2006 defense intelligence budget. We will stand in 
recess until that time.
    [Whereupon, at 4:58 p.m., Tuesday, May 17, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
